<html>
<title> - LONG-TERM HEALTH IMPACTS FROM SEPTEMBER 11: A REVIEW OF TREATMENT, DIAGNOSIS, AND MONITORING EFFORTS</title>
<body><pre>[Senate Hearing 110-197]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-197
 
  LONG-TERM HEALTH IMPACTS FROM SEPTEMBER 11: A REVIEW OF TREATMENT, 
                   DIAGNOSIS, AND MONITORING EFFORTS
=======================================================================


                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING A REVIEW OF TREATMENT, DIAGNOSIS, AND MONITORING EFFORTS, 
       FOCUSING ON THE LONG-TERM HEALTH IMPACTS FROM SEPTEMBER 11

                               __________

                             MARCH 21, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                     U.S. GOVERNMENT PRINTING OFFICE

34-458 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma
           J. Michael Myers, Staff Director and Chief Counsel
           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       WEDNESDAY, MARCH 21, 2007

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
    Prepared statement...........................................     2
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York.......................................................     5
    Prepared statement...........................................     6
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     9
Bloomberg, Hon. Michael R., Mayor, New York, NY; accompanied by 
  Ed Skyler, Deputy Mayor, New York, NY..........................    11
Coburn, M.D., Hon. Tom, a U.S. Senator from the State of Oklahoma    20
Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio.......    22
Nadler, Hon. Jerry, a U.S. Representative from the State of New 
  York...........................................................    24
Herbert, Robin, M.D., Co-Director, The World Trade Center Worker 
  and Volunteer Medical Screening Program, New York, NY..........    26
    Prepared statement...........................................    30
Kelly, Kerry, M.D., Chief Medical Officer, New York Fire 
  Department, New York, NY.......................................    34
    Prepared statement...........................................    37
Reibman, Joan, M.D., Director, Bellevue Hospital World Trade 
  Center Environmental Health Center, New York, NY...............    64
    Prepared statement...........................................    67
Melius, James, M.D., Ph.D., Chair, Advisory Board of the World 
  Trade Center Medical Monitoring and Treatment Program, Albany, 
  NY.............................................................    70
    Prepared statement...........................................    72
Stellman, Jeanne Mager, Ph.D., Mailman School of Public Health, 
  Columbia University, New York, NY..............................    76
    Prepared statement...........................................    78
Endean, Jeffrey L., Ph.D., Ground Zero Volunteer and Former 
  Division Commander, Morris County New Jersey Sheriff 's Office, 
  Succasunna, NJ.................................................    81
    Prepared statement...........................................    83

                                 (iii)



                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Alison S. Geyh, Ph.D., Assistant Professor of Environmental 
      Health Engineering, John Hopkins Bloomberg School of Public 
      Health (JHSPH).............................................    94
    Eli J. Kleinman, M.D., Assistant Professor of Medicine and 
      Attending Hematologist, Albert Einstein College of Medicine 
      and Attending Physician of Mt. Sinai, New York City, NY....    97
    Unions, Organizations, and Workers Supplemental Materials....   101
    Resident Supplemental Materials..............................   134
    Mt. Sinai Supplement Material................................   161
    Response by Robin Herbert, M.D. to questions of:
        Senator Kennedy..........................................   162
        Senator Enzi.............................................   163
        Senator Clinton..........................................   166
    Response by James Melius, M.D., Ph.D. to questions of:
        Senator Kennedy..........................................   167
        Senator Enzi.............................................   168
        Senator Clinton..........................................   170
    Questions of Senators Kennedy, Enzi, and Clinton to Hon. 
      Michael R. Bloomberg.......................................   171
    Questions of Senators Enzi and Clinton to Kerry Kelly, M.D...   172
    Questions of Senator Enzi to Joan Reibman, M.D. and Jeanne 
      Stellman, Ph.D.............................................   173






                     LONG-TERM HEALTH IMPACTS FROM



                  SEPTEMBER 11: A REVIEW OF TREATMENT,



                   DIAGNOSIS, AND MONITORING EFFORTS

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Edward Kennedy, 
chairman of the committee, presiding.
    Present: Senators Kennedy, Clinton, Brown, Enzi, and 
Coburn.
    Also present: Senator Schumer

                  Opening Statement of Senator Kennedy

    The Chairman. We'll come to order, if we would, please. 
We'll come to order and thank all of our members here. I'm 
particularly appreciative of Senator Enzi, who is our Ranking 
Member here this morning and Senator Clinton, who has been 
the--as with Senator Schumer, tireless advocates for those that 
have been lost and those that have suffered under the egregious 
assaults and attack on New York and we're incredibly 
appreciative and grateful for the presence of the Mayor, who 
will be presented by our friend and colleague, Senator Schumer, 
in just a moment.
    I commend the Ranking Member, my colleague and friend, 
Senator Enzi, for his contributions to this hearing. I also 
commend my colleague, Senator Clinton, for her commitment to 
seeing that this hearing would happen and I welcome our 
colleague, Senator Schumer, who will introduce the Mayor of New 
York in just a moment.
    We're here today to consider the impacts of the events of 
9/11 on the lives and health of the brave men and women who 
responded to the call for help that day as the heroes of 9/11: 
the police officers, the emergency medical technicians, the 
construction workers, the firefighters, the sanitation workers 
and numerous other professions. They were our clean up and our 
recovery effort, working at Ground Zero, at the Fresh Kills 
Landfill on Staten Island, month after month after month in the 
wake of 9/11. They are the school children who returned to 
their classrooms and the residents who returned to their 
apartments in Lower Manhattan in the days and weeks after the 
collapse of the towers. They are the New Yorkers, struggling to 
reclaim their lives after that horrendous attack. These rescue, 
recovery and clean-up workers were exposed to multiple toxins 
and pollutants from PCBs and dioxins to pulverized concrete and 
highly metallic, microscopic shards of glass.
    They inhaled these substances into their lungs and ingested 
them into their gastrointestinal systems. Hundreds of thousands 
of them have developed illnesses as a result. Healthy young 
fathers and mothers found they could no longer play with their 
children. They developed the distinct dry World Trade Center 
cough, chronic nasal congestions and rashes. Some found lumps 
in their chests and were forced to retire permanently.
    Today, we'll hear from experts who led the efforts to build 
a realistic health infrastructure for this unprecedented 
emergency. So I welcome our panelists who join us from the 
State of New York. Mayor Bloomberg recently completed a 
detailed report on the steps the city and Federal Government 
should take to deal with the continuing health threats of 9/11 
and we want to welcome Mayor Bloomberg. First I'll ask Senator 
Enzi if he'd be good enough to say a word.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    I commend the Ranking Member and my colleague and friend, 
Senator Enzi, for his contributions to this hearing. I also 
commend my colleague, Senator Clinton, for her commitment to 
seeing that this hearing would happen. And I welcome our 
colleague, Senator Schumer, who will introduce the Mayor of New 
York City today.
    We're here today to consider the impact of the events of 9/
11 on the lives and health of the brave men and women who 
responded to the call for help that day as the heroes of 9/11--
the police officers, the emergency medical technicians, the 
construction workers, the firefighters, the sanitation workers, 
and numerous other professions. They were our cleanup and 
recovery effort, working at Ground Zero, at the Fresh Kills 
Landfill on Staten Island, month after month in the wake of 9/
11. They are the school children who returned to their 
classrooms and the residents who returned to their apartments 
in Lower Manhattan in the days and weeks after the collapse of 
the towers--New Yorkers, struggling to reclaim their lives 
after that horrendous attack.
    These rescue, recovery and cleanup workers were exposed to 
multiple toxins and pollutants, from PCBs and dioxins to 
pulverized concrete and highly metallic microscopic shards of 
glass. They inhaled these substances into their lungs and 
gastrointestinal systems.
    Hundreds of thousands of them have developed illnesses as a 
result. Healthy young fathers and mothers found they could no 
longer play with their children. They developed the distinct 
dry World Trade Center cough, chronic nasal congestion and 
rashes. Some found lumps in their chests and were forced to 
retire permanently.
    Today, we'll hear from experts who led the effort to build 
a realistic health infrastructure for this unprecedented 
emergency. I welcome our panelists, who join us from the State 
of New York. Mayor Bloomberg recently completed a detailed 
report on the steps that the city and the Federal Government 
should take to deal with the continuing health threats of 9/11. 
Welcome, Mayor Bloomberg.
    Also here today are the distinguished leaders at various 
centers of medical excellence in 9/11 health. Dr. Robin Herbert 
joins us from Mount Sinai Medical Center, which has been at the 
forefront of treating first responders and workers, over 60 
percent of whom can't even pay for their healthcare. Dr. 
Reibman comes to us from Bellevue Hospital, which continues to 
provide services for anyone who may have been exposed to dust 
and toxins from 9/11. The New York City Fire Department has 
also had a major role in demonstrating a clear link between 
recovery and clean-up work and illness, and Dr. Kerry Kelly 
joins us on its behalf.
    Dr. Melius, from the World Trade Center Medical Monitoring 
and Treatment Program, can speak to the lack of health care 
coverage available for responders.
    Finally, Mr. Jeff Endean, from New Jersey, will share with 
us his own personal experience both during and following the 
September 11 attack, with the New York Authority Police 
Department.
    The Nation is still healing from the wounds of that day. It 
has touched every State in the Union, often physically because 
of the tens of thousands of volunteers who spent weeks or 
months on the cleanup and recovery efforts at Ground Zero-
related areas. Hundreds of volunteers and responders from 
Massachusetts bravely contributed to that effort, and every one 
of my colleagues has constituents from their own State who have 
enrolled in the World Trade Center Health Registry.
    Congress has begun to fund these efforts, but more has to 
be done. We need to provide support for the necessary 
diagnosis, monitoring and treatment of the long-term health 
impacts of 9/11. Senator Clinton's and Senator Schumer's bill 
would authorize $1.9 billion in Federal funds to address these 
health issues, and I urge my colleagues to support it.
    As we will hear from our witnesses, the health impacts of 
9/11 continue to be tragic. But the data we obtain through 
monitoring, diagnosis and treatment will advance our knowledge 
in epidemiology and improve all aspects of our health care. I 
urge my colleagues to consider this testimony with open hearts 
and open minds.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today. I thank Senator Clinton for her 
tireless effort which has resulted in numerous people traveling 
to New York City to look at the situation, talk to people, and 
get a better understanding of what's happening and what should 
happen.
    On September 11, 2001, we all watched in horror at the 
destruction of the World Trade Center. We saw the worst of 
humanity that horrible day and in the hours and days and months 
that followed the attack. We also saw the depth of compassion, 
particularly of the people of New York but also of those from 
across America, showing compassion to each other. I was deeply 
moved by the courage and character of the emergency responders, 
recovery workers and volunteers from New York and around the 
country.
    When Americans cried out for help, those heroes did not 
pause to ask if it would be safe. They rushed to their 
neighbors and many paid a terrible price, some forfeiting their 
own health. We will consider the long-term health problems of 
these brave citizens from all over the country and particularly 
New York who answered the call.
    As many will remember, the destruction of the World Trade 
Center created a huge toxic dust cloud. That cloud consisted of 
pulverized sheetrock, metals, plastics as well as many other 
toxic materials. Emergency responders and recovery workers 
breathed in the dust as they searched for survivors and cleaned 
up the destruction.
    In addition, many people living or working in Lower 
Manhattan also were exposed to that dust and on the day that 
the Senate went up to New York to take a look immediately after 
what happened, several of us were in this room holding a 
hearing to try and keep the stock market afloat. Fortunately 
those people were doing a tremendous job and it did save the 
stock market. But the next week I went up to New York and while 
my wife and I were looking at Ground Zero, it looked like the 
people on top of the heap of rubble were about an inch tall. 
But while we were watching, they hit one of those pockets of 
yellow gas. I have no idea what kind of gas it was. I'm sure 
they had no idea what kind of gas it was--a scary situation.
    Now, some people exposed to the dust have developed 
pulmonary illnesses with asthma-like symptoms, sinus problems 
and painful heartburn. For example, the Fire Department of New 
York currently provides treatment to a thousand firefighters 
for 9/11-related pulmonary conditions.
    I'm committed to working with Senator Clinton, Chairman 
Kennedy, Mayor Bloomberg and others to craft the best long-term 
solution for the health care of these 9/11 heroes. Our work is 
already underway.
    When I was chairman, I instructed my staff along with the 
staff from the offices of Senators Clinton, Kennedy, Coburn, 
Murray, Voinovich, and Schumer to visit New York City last 
October to begin gathering facts from the Fire Department, many 
other city departments, the Red Cross, Bellevue Hospital, Mount 
Sinai Hospital, New York citizens and others. We subsequently 
sought guidance from labor groups and technical experts. I 
expect this collaboration to continue across the aisle and 
among all key stakeholders. A good solution must rest solidly 
on the facts.
    I salute Mayor Bloomberg's World Trade Center Health Panel, 
which has made significant progress in compiling the facts 
related to the health effects of 9/11. It's a good starting 
point but more work still needs to be done. First we need to 
learn even more about the affected population and about the 
health effects of long-term exposure to the toxic 9/11 dust, 
including illnesses that may materialize later. I'm interested 
in hearing from our scientific expert witnesses regarding which 
illnesses are likely to affect which people, now and in the 
future.
    Second, we also need to make sure our efforts dovetail with 
Federal, State, city, employer, union and other benefit 
programs already in place. Several of our witnesses today will 
discuss how workers' compensation, health insurance, disability 
and related benefit programs have served or failed to serve 9/
11 victims. We should leverage any well-crafted benefit 
delivery system already in place. It would be foolish not to 
harness all available resources.
    Finally, Mr. Chairman, we must review the facts of the 
funding requested here. Our witnesses will describe a complex 
healthcare challenge with a lot of moving parts. Let's not put 
the cart before the horse. I understand there are immediate 
short-term needs and we'll certainly discuss that. But to find 
a responsible long-term solution, we'll need to work together 
to assess long-term needs. We owe our heroes of 9/11 a long-
term, fiscally responsible solution.
    Again, I thank you, Senator Kennedy and Senator Clinton, 
for your cooperation and willingness to delve into the facts of 
this situation.
    The Chairman. Thank you very much. If Senator Clinton would 
say a word.

                      Statement of Senator Clinton

    Senator Clinton. Thank you very much, Chairman Kennedy and 
Senator Enzi. I appreciate greatly both of you convening this 
hearing. Senator Enzi started this work when he was chairman of 
this committee back in the fall and I'm very grateful to him. 
He and his staff have approached this with seriousness, a 
purpose, an open mind and a commitment and thank you very much 
and to your staff as well, Senator Enzi.
    And of course, Chairman Kennedy, there isn't anybody in the 
Congress, probably in the country that has done more to help 
people who are in need than he has and I'm confident with his 
leadership, we will make progress on these problems we will 
explore today at this hearing.
    I also want to recognize and thank my colleague and friend, 
Congressman Jerry Nadler who represents Lower Manhattan. 
Congressman Nadler has been a very vigorous and sometimes 
lonely voice, talking about the long-term implications of what 
people experienced because of the horrific attacks of 9/11.
    I'd like to thank Mayor Bloomberg, who has taken on this 
issue with a great deal of concern and put his staff on it and 
convened experts. This report that the Mayor has issued 
addressing the health impacts of 9/11 is a great roadmap, both 
leading us from what the problems are to some potential 
solutions.
    We're going to hear from a range of witnesses. I'll have 
more to say about them as they testify today but each of them 
comes with experience and expertise that will be very 
beneficial to us as we try to craft a solution.
    And finally, Mr. Chairman, I'd like to recognize the people 
who are suffering health problems and those who represent them. 
We have a tremendous team here from New York. Obviously the 
people who are on the front lines suffering are the ones who 
are the most compelling because of what they've gone through, 
people such as Stephen Hess, an emergency medical technician 
who used to easily be able to bench press 250 pounds but now 
has trouble lifting his grandson; Marvin Bethea, a paramedic 
who managed not only to escape being buried in a pile of debris 
but continued to work, day after day, until 2004 when he could 
no longer, who has suffered both respiratory and mental health 
effects and a stroke that is attributed to the stresses he 
experienced; Craig Hall, who lives in Downtown Manhattan with 
his family. When he and his family returned to their apartment 
after 9/11, they began experiencing eye irritation, nosebleeds, 
persistent coughs, sinus problems, allergies and reduced lung 
capacities. The concerns he has for the future health of his 
children and the ailments that he and his neighbors are 
suffering brings him here today.
    We also have some of the Union officials who have been 
fighting for more assistance and without them and their 
leadership and also as Senator Enzi pointed out, without a lot 
of the union pension funds and health benefit funding 
available, a lot of the people we're worried about would have 
had no care whatsoever. I want to recognize Dennis Hughes, the 
President of the New York State AFL/CIO; Steven Cassidy, 
President of the New York City Uniformed Firefighters 
Association; Ed Malloy, President of the Building and 
Construction Trades, Dick Iannuzzi, President of the New York 
State United Teachers and representatives from the Uniformed 
Fire Officers Association, Ask Me, the Police Unions and 
others.
    Now we will have in this audience, people--every one of 
whom could testify. Obviously that is not possible but they are 
here to bear witness and when they have a chance to speak to 
the press or in other forums that we've held in New York, their 
testimony is riveting, compelling and heartbreaking. People, 
like retired Detective Mike Valentine, who was caught in the 
dust and debris and when he came out from the collapse of the 
towers, began experiencing severe health effects. In July 2005, 
doctors discovered not only the 9/11-related asthma but a tumor 
in his chest, a second tumor in his gall bladder, changes to 
his lungs that are often a precursor of mesothelioma, all of 
which his doctors believe are linked to his exposures and we 
cannot forget those who have already died. Individuals like 
Detective James Zadroga, whose death at age 34 was directly 
caused by his exposure to toxic fumes and dust at Ground Zero.
    So Mr. Chairman and Ranking Member Enzi, there are 
thousands of stories because there are tens of thousands of 
people who have been affected--the first responders, the other 
workers, the volunteers, the residents and we are determined to 
do whatever we can, both in the short term, to make sure that 
the Fire Department and Mount Sinai have the funding they need 
to continue the treatment they have started and then the longer 
term, to give us a program that we can say fully meets the 
needs of those who are suffering.
    So Mr. Chairman, I'll ask unanimous consent to put my whole 
statement in the record, but I appreciate very much your 
holding this hearing.
    [The prepared statement of Senator Clinton follows:]

                 Prepared Statement of Senator Clinton

    Thank you, Senator Kennedy and Senator Enzi, for convening 
this hearing and your commitment to working with me to address 
these issues.
    I'd like to thank all of the witnesses who have agreed to 
testify before us today--Mayor Michael Bloomberg, whose 
recently released report--titled ``Addressing the Health 
Impacts of 9/11''--provides us with important recommendations 
for future action;
    Doctors Robin Herbert, Kerry Kelly, and Joan Reibman 
representing the Centers of Excellence which are helping so 
many to access critically important specialized healthcare;
    Dr. Jim Melius has helped create the mechanisms at the Mt. 
Sinai Consortium that provide care across the country;
    Dr. Jeanne Mager Stellman served on the EPA's World Trade 
Center Expert Technical Review Panel and is here to provide a 
broad overview of the environmental health impacts of the 9/11;
    And Jeffrey Endean, a volunteer at Ground Zero who bravely 
responded in our Nation's hour of need, and is now gravely ill 
from the toxic substances released on that day.
    I'd like to recognize all of the people suffering health 
problems who have traveled here to attend this hearing to 
represent all those still affected by 9/11.
    People such as Steven Hess, an emergency medical technician 
who used to easily be able to bench press 250 pounds, but now 
has trouble lifting his grandson.
    Marvin Bethea, a paramedic who managed not only to escape 
being buried in a pile of debris, but who continued to work 
after that day until 2004 when he could no longer, and who has 
suffered not only respiratory and mental health effects, but a 
stroke attributed to the stress of 9/11,
    And Craig Hall, who lives in Downtown Manhattan with his 
family. When he and his family returned to their apartment 
after 9/11, they began experiencing health problems that 
include eye irritation, nose bleeds, persistent cough, sinus 
problems, allergies, and reduced lung capacity. The concern he 
has for the future health of his children and the ailments he 
sees in his neighbors is what brought him here today.
    We also have with us here today union officials who have 
been fighting for more assistance on behalf of their members. 
Including Steve Cassidy, President of the NYC Uniformed 
Firefighters Association, Denis Hughes, President of the NYS 
AFL-CIO, Ed Malloy, President of the Building and Construction 
Trades Council, Dick Ianuzzi, President of the NYS United 
Teachers, and representatives from the NYC Uniformed Fire 
Officers Association, AFSCME, and several other unions.
    We also have residents, office workers and students in our 
audience who have been continually speaking up to make sure 
they are not forgotten--these populations of people who live, 
work and go to school near the Ground Zero area currently have 
no Federal monitoring program available to them. We must fix 
this.
    And I'd like to note that there are many, many more 
individuals who are too sick to join us today.
    Individuals like retired Detective Mike Valentin, who was 
caught in the dust and debris released when the towers 
collapse. Like many others, Detective Valentin experienced 
severe health effects. In July 2005, in addition to his 9/11-
related asthma, doctors discovered a tumor in his chest, a 
second tumor in his gall bladder, and changes to his lungs that 
are often a precursor of mesothelioma, all of which they 
believe are linked to his exposures on 9/11.
    And individuals like Detective James Zadroga, whose death 
at age 34 was directly caused by his exposure to toxic fumes 
and dust at Ground Zero.
    His death was the first that was linked to these exposures, 
and it will not be the last, particularly if we do not 
establish a mechanism to provide long-term screening, 
monitoring and treatment for the residents, workers, 
volunteers, first responders and others who have faced health 
consequences in the aftermath of the September 11 terrorist 
attacks.
    All New Yorkers--indeed, people all over the world--have 
seen the images replayed countless times: the residents, 
workers, and first-responders emerging from the destruction and 
the wall of debris that blanketed Manhattan and beyond. I 
visited the site in the days that followed the attacks. I saw 
for myself the acrid smoke that filled the air as the fires 
continued to burn in Lower Manhattan and men and women toiled 
day in and day out in the ongoing rescue and recovery. You 
could smell the toxins that filled the air.
    We have a duty to serve those who served us, to serve the 
victims, the heroes that participated in the greatest rescue 
mission in history, workers, volunteers, residents, students, 
and others.
    It has been 5\1/2\ years since those attacks--5\1/2\ years 
since the World Trade Center collapsed, stealing nearly 3,000 
lives and darkening the skies with a toxic cloud of dust, 
debris, and chemicals--the full composition of which is still 
unknown.
    Within days after 9/11, after visiting the site, we knew 
the air was not fit to breathe despite the assurances of the 
EPA that the air was safe.
    Within 2 months of the attacks, 300 firefighters were on 
medical leave, suffering with lung ailments.
    As the research of some of our witnesses has shown, this 
was just the first sign of the persistent lung problems 
experienced by many firefighters and others. We learned that 
exposed firefighters on average experienced a decline in lung 
function equivalent to that which would be produced by 12 years 
of aging.
    Within 2 years of the attacks, we had secured funding, with 
the support of many on this committee, to engage in health 
tracking of the police, firefighters, trade and construction 
workers, volunteers, and others who worked on the rescue and 
recovery efforts at Ground Zero and Fresh Kills, the site on 
Staten Island where debris was sorted and examined for 
evidence.
    And, as Dr. Herbert will discuss today, the results of that 
tracking effort are astonishing--with thousands of responders 
reporting persistent respiratory, gastrointestinal, and mental 
health effects.
    Based upon the evidence produced by researchers, including 
those before us today, we managed to secure more than $50 
million for treatment efforts, starting in October 2006--and 
yet, because of the extreme need, this funding is expected to 
run out before the end of this year.
    Federal funds secured thus far must only be a down payment 
in repaying our debt to those who came to us in our hour of 
need. This must be a priority in our budget--and the rhetoric 
of the Bush administration must be matched with results.
    The $25 million requested by the Administration in fiscal 
year 2008 is no match for the need, and today, we will hear 
from those who are facing that need every day, and who have 
documented the clear impact that 9/11 continues to have on the 
health of far too many individuals.
    9/11 is not over. The loss of life, the pain, and the 
suffering are not over. The tragic legacy continues for the 
families who lost loved ones and for residents, workers, 
volunteers, first responders and others who have faced hardship 
and health consequences in the aftermath of the September 11 
terrorist attacks.
    There can be no excuses for not funding these efforts. The 
families who have been affected are not helped by excuses and 
the first responders who rushed to Ground Zero did not offer 
excuses. We have a duty, and I look forward to working with my 
colleagues on this committee to help fulfill that duty.
    Thank you.
    The Chairman. Thank you, thank you very much. Now we'll 
hear from Senator Schumer, who will present the Mayor. Mr. 
Mayor, if he doesn't give you a good introduction, I will. We 
thank Senator Schumer. He and Senator Clinton have been 
tireless as we know, in terms of pursuing these health 
challenges and we're grateful for his presence.

                      Statement of Senator Schumer

    Senator Schumer. Well, thank you, Mr. Chairman and thank 
you for your leadership on this and so many other issues. I 
think it is very heartening to know that the HELP Committee is 
in such good hands. This issue is so important and we know that 
you will pursue this issue with your usual diligence and 
effectiveness.
    I'd also like to thank Ranking Member Enzi for being here 
and for him working so well, both when he was chairman and now 
as Ranking Member in a bipartisan way to solve these issues. 
The fact that we have such a good leadership team on this 
committee, which has jurisdiction over much of this issue, I 
think, gives heart to all of us in New York but particularly 
those who are going to need the help.
    Last but certainly not least, of course, is my friend and 
partner, Senator Clinton, who has taken such a huge leadership 
role on this issue from the very beginning, recognizing the 
real problems that would be faced, even long before they were 
apparent. Now they are apparent but back then, in the early 
days, after 9/11, they weren't and she was indomitable in 
bringing this issue forward.
    Also to my colleagues from New York, Congressman Nadler--
all the leaders from the civic world, from the unions, from 
everywhere else who worked so hard to bring this issue to where 
we are today. Thank you because it has been a long and hard 
struggle.
    Mr. Chairman, at long last and now with a brand new Senate, 
we are here today to shine light on the dark health effects 
that have occurred as a result of the collapse of the World 
Trade Center. We all know how many we lost that day, our 
friends, our relatives, our colleagues. Not a day goes by where 
we don't feel their loss. The dirty little secret, however, is 
that the destruction didn't end on September 11.
    The destruction continues in the bodies of many of those 
heroes who rushed to help and now we have to do something about 
it. They are becoming, every day a new person or maybe more, 
sick or debilitated because of the toxins and poisons that were 
in the air around Ground Zero. The number includes many New 
Yorkers who lived and worked downtown shortly after 9/11 when 
they were told it was safe. I guess at the top of the list, we 
would all say, are the thousands of heroes, volunteers without 
being asked, who rushed to the aid of their fellow citizens, 
who traveled across this country in the hours and days 
following the attack for the sole purpose of aiding the rescue, 
the recovery efforts, and later, the clean up efforts. They 
didn't ask questions. They didn't say, I'm only coming if you 
give me this kind of help or that kind of immunity or this or 
that. They just rushed there and they were like our soldiers in 
our wars and just as those soldiers are entitled, if they 
become injured in the battle, to healthcare and help, so are 
these heroes.
    They risked their lives every day after 9/11 on that pile 
of ruin. They were first looking for life and then they were 
helping clean up a city and a country. They did so without 
being asked because our city and our country needed them and 
now they fear that this country will turn its back on them.
    No one knew at the time that they would be putting their 
lives and health at risk in a different way, simply by 
breathing the air. Many of these heroes now face symptoms of an 
unknown sickness and it is well past time we get to the bottom 
of this. It's also well past time we address putting together a 
desperately needed Federal infrastructure to help these people.
    One of the good things that happened after 9/11 is the 
country rushed to help the families of those who were lost. We 
have to do the same thing for those who have been injured. 
That's the bottom line here. It's plain and simple. We didn't 
know the extent of their injuries. No one is pointing fingers 
of blame because a week later, we didn't know how many died but 
we knew that many died. We didn't know how many would be sick. 
Now we know. So there is no excuse to turn away from it.
    It's been reported that respiratory issues such as 
shortness of breath and asthma-like symptoms are common but 
those are not the main health issues. Many of these people 
can't engage in the simplest of tasks--climbing a set of 
stairs, picking up and holding their children without the 
reminders of their time spent on the pile. Shortness of breath, 
coughing, inability to go forward.
    Many of our police officers and firefighters have missed 
work or can't even be at work at all anymore due to their 
illnesses. Our country's bravest and finest have been prevented 
from doing the life's work that they love due to these 
illnesses. The illnesses are life altering and in some tragic 
cases, as Senator Clinton mentioned, deadly. We don't know 
enough about them.
    So it's time to address this issue on a Federal level and 
come up with a coordinated Federal response for these heroes 
who so generously gave of their time and are now suffering and 
I would add, Mr. Chairman, that this is not just a problem that 
affects New Yorkers. It afflicts many Americans across the 
country. No part of the country is immune from this horrible 
illness. In fact, there have been 9/11-related illnesses 
reported by residents of every single State. This tragic 
situation deserves our immediate attention and a clear 
perspective.
    That's my hope for this hearing today, this breakthrough 
hearing that we're so grateful for. I want to thank the 
committee for holding the hearing and know that we're going to 
fully examine the scope of the health problems facing those who 
were exposed to the air surrounding Ground Zero. I look forward 
to working with my colleagues on ensuring that the injured 
receive the healthcare they deserve. It will cost money. It is 
the Federal Government's responsibility. We have a start. When 
Senator Clinton and I fought for the $20 billion, we made sure 
that included in there was a billion dollars to help with the 
workers and now we have agreement with the city and most others 
that that money should be used to help pay for the workers' 
illness so we're not starting from zero. We have a good head 
start but we have to do more.
    Now, Mr. Chairman, I want to introduce somebody who I think 
is just one of the great public servants of our country and one 
of the greatest that our city has had. He's done a great job on 
issue after issue. Our city is prospering. Our city has 
recovered. Our city is growing under his thoughtful, careful 
and courageous leadership and I want to thank him and his staff 
for doing so much, addressing the impacts of the document and 
the impacts of this issue and the report addressing the health 
impacts of 9/11. Coming together so that we have a real 
solution that intertwines Federal, State and city needs and 
programs and working hard to remember that those who helped us 
are not forgotten.
    I know from personal experience, of course, what an 
outstanding Mayor he is. He is my wife's boss at least for the 
next few weeks and he is a very kind and compassionate boss as 
well as being a very good Mayor. So I thank him for being here 
and I hope that met your high standard, Mr. Chairman, in terms 
of an introduction but it is my honor to--he has a very high 
standard. All right, we should make this guy king. In any case, 
it is my honor to introduce the Mayor of our great city, the 
city I've lived my whole life in, New York, Mayor Michael 
Bloomberg.
    The Chairman. Thank you. Congressman Nadler, if you'd want 
to join us on the table here, we'd be honored to have you join 
us. Mayor, thank you for taking the time and the effort to be 
here and we're very, very grateful and we look forward to 
hearing from you.

 STATEMENT OF HON. MICHAEL BLOOMBERG, MAYOR OF THE CITY OF NEW 
YORK, NY; ACCOMPANIED BY ED SKYLER, DEPUTY MAYOR OF THE CITY OF 
                          NEW YORK, NY

    Mr. Bloomberg. Well, Chairman Kennedy, thank you, Ranking 
Member Enzi and Senator Clinton and Senator Coburn. Thank you, 
Congressman Nadler, I appreciate you coming. Chuck, I think all 
of what you said my mother would believe but probably nobody 
else. Anyway, thank you for the kind words.
    Senator Enzi, I just wanted to thank you for bringing the 
committee staff to New York last year for a briefing on this 
topic. I think that was time well spent, at least I hope it 
was.
    You know, it's been just over 2,000 days since the 
terrorist brazenly attacked New York. Two thousand days and yet 
even now, we still don't know and we can't know the full extent 
of the damage that we suffered that terrible morning. Tens of 
thousands of people took part in the rescue and recovery 
effort, including 45,000 workers and volunteers who came from 
Oklahoma, Wyoming, Massachusetts, and New York and all of the 
other States. As a matter of fact, there is no place in the 
world that didn't offer to send help and many of them showed up 
over the months that followed that terrible event.
    Many of these workers and other people who lived near the 
World Trade Center now suffer from a range of physical and 
mental health problems and there is no telling what other 
illnesses may potentially develop in the future. But there is 
one thing that we do know.
    The Nation must never walk away from these courageous men 
and women who answered the call without hesitation or who lived 
through this terrible ordeal.
    Last September, I convened a panel of city experts who 
conducted a comprehensive assessment of what we know about who 
is sick and what the treatment options are and what we are 
doing to stay on top of the science so that those who might 
become sick get the first rate care that they deserve.
    By now, each of you certainly has read the copy of the 
panel's report, which details the latest medical findings and a 
few points I would argue, are especially significant. More than 
11,000 firefighters who responded on 9/11 experienced at least 
one new respiratory symptom within a week of the attacks and 
more than 3,000 report that they continue to suffer from 
conditions, including what is known as the World Trade Center 
cough and reactive airways disease.
    More than 6,500 rescue and recovery workers who were 
examined in a program at Mount Sinai Medical Center, about 7 
out of every 10 reported at least one new or worsening 
respiratory symptom while engaged in response efforts. These 
symptoms have persisted in fully 59 percent of the workers and 
there are thousands of residents, commercial workers and others 
who have reported experiencing acute breathing problems, 
worsening asthma, post-
traumatic stress disorder and other mental illnesses that 
require sustained treatment.
    The panel report contains 15 recommendations to address the 
substantial health impacts of 9/11 but two major challenges 
have become clear. Securing the sufficient long-term funding 
for our 
9/11 monitoring, treatment and research programs and two, 
compensating all the victims of this tragedy fairly and 
quickly. The Federal Government support must play a crucial 
role in addressing both of these issues.
    Let me first talk about funding for our city's 9/11 health 
problems. The panel I convened estimated that the gross costs 
to treat those who are sick or could become sick as a result of 
9/11 is $393 million per year. That estimate covers the entire 
potentially exposed population, including the thousands of 
rescue workers and others who came to New York City from all 50 
States.
    Some people will get care from their private healthcare 
providers. Some will get care from city programs or government 
programs but the total cost will be roughly, we calculate, $393 
million a year.
    Over the past 5 years, the sick and injured have been able 
to get help at three Centers of Excellence in the diagnosis and 
treatment of World Trade Center-related conditions. They are 
first a free monitoring and treatment program run by the FDNY 
for firefighters and EMS workers who responded on 9/11 and who 
took part in the rescue and recovery and one of the most 
interesting things about this particular program is, we have 
good data on the firefighters going back in time, so looking to 
see what has changed, the science is science that really will 
give us information useful for the general population.
    A free monitoring and treatment program for other first 
responders, workers and volunteers at Mount Sinai Medical 
Center, in partnership with approximately 15 affiliates across 
the country so it's not just in New York City, it is across the 
country.
    And third, a free evaluation and treatment program at 
Bellevue Hospital, which the city opened last year for anyone 
with 9/11-
related symptoms. It's the only program available to residents 
and other non-responders and is virtually entirely funded by 
the city.
    Our registry of people who were down there and our ability 
to track what happens to them is really quite unique and we 
have to make sure that we continue it. In addition, despite 
having never received any Federal funding for this purpose, the 
NYPD has screened all 34,000 of its members who worked at the 
World Trade Center site.
    Now all of these programs, along with the World Trade 
Center Health Registry, are producing valuable research, which 
has resulted in the publication of clinical guidelines for 
doctors so that we can best treat the illnesses we see now and 
what we may see in the future.
    Yet all of these programs, also, could be discontinued 
unless they get sustained Federal support. We estimate that 
sustaining and expanding these three indispensable programs, 
providing sufficient mental health services, supporting the 
NYPD and supporting the research that is critical to 
understanding what illnesses may emerge in the future, will 
cost about $150 million a year. So $393 million is our estimate 
of the total impact but is by a variety of different sources. 
This $150 million is monies that we have to put into these 
three particular programs. At the very least, we think the 
Federal Government needs to cover more of these costs so that 
the essential needs can be met.
    The 9/11 Heroes Health Improvement Act, which was 
introduced in January by Senators Kennedy and Clinton, would 
provide nearly $2 billion in monitoring and treatment grants 
between 2008 and 2012. We believe this bill needs to be passed 
and passed quickly. Congress can't turn its back on those who 
responded with courage and suffering through this terrible 
catastrophe. After all, 9/11 was not just a strike against New 
York or Washington, it was an attack against all of America. It 
was an act of war and our government, we think, has a clear 
responsibility to the casualties of that terrible morning.
    Finally, let me turn to the subject of compensation. 
Persistent efforts were made after the attacks to obtain 
insurance to cover the rescue and recovery operations, however 
no one was willing to provide it. In 2003, the Federal 
Government set up a $1 billion World Trade Center Captive 
Insurance Company for the city and some 150 contracts was to 
defend against damage claims. The city and the contractors who 
heroically rushed to help are currently defending claims for 
more than 8,000 city employees and other workers arising out of 
the rescue, recovery and clean-up operations at the World Trade 
Center site. Plaintiffs allege damages that we estimate may be 
in the billions of dollars and it is really impossible to 
predict how many more lawsuits will be filed against us in the 
future.
    New Yorkers have always been proud of the way that the city 
came together after 9/11 but this drawn-out and divisive 
litigation is undermining that unity. What's clear is that the 
process of determining compensation should be removed from the 
courts and the best way, we think, to do that is by re-opening 
the September 11th Victims Compensation Fund. The original fund 
was administered expertly and compassionately by Ken Feinberg 
and provided a measure of relief to victims' families while 
avoiding protracted litigation where there are no winners.
    Now we think it is imperative that Congress reopens the 
fund to take care of those who were not eligible to benefit 
from it before it closed in December 2003. The mere fact that 
their injuries and illnesses have been slower to emerge should 
not disqualify them from getting the help that they need.
    It's also crucial that the Federal Government eliminates 
the potential liability that the city and its contractors 
continue to face in court. Depending on the mechanism Congress 
chooses, the $1 billion available to the Captive Insurance 
Company could then be made available for compensation. And 
although we are open to other solutions, if the liability of 
the city and the contractors is eliminated, we could 
immediately transfer that $1 billion into the re-opened Victims 
Compensation Fund, making it the fund's first major 
installment.
    Using Federal resources to compensate claims instead of 
litigating them would mark an important step in healing the 
rifts that have surfaced since 9/11. What's more, I think it 
would send a clear message that if, God forbid, America suffers 
another terrorist attack, the private sector and our first 
responders could respond with the same sense of urgency and 
selflessness that we saw on 
9/11, knowing that their government will always stand by them.
    We saw an incredible demonstration of the American spirit 
in the wake of 9/11 and I think it is time we recapture that 
unity and determine for the sake of those who've already 
sacrificed so much and the place to see that demonstrated is 
right now and right here in Congress. Thank you for your time 
and I would like to invite my Deputy Mayor, Ed Skyler, who has 
co-chaired the 9/11 Health Panel with Deputy Mayor Linda Gibbs 
to join me for any questions that you may have.
    The Chairman. Thank you very much, Mayor Bloomberg and just 
to coordinate with the Mayor's schedule, we have time for one 
round of questions. So we'll follow that procedure.
    Thank you very much for a very compelling testimony and 
also for the excellent report that you've made available to the 
committee. What I think is enormously impressive is what the 
city has already done and you've outlined the different kinds 
of activities and so when you're talking about sort of the 
shared responsibility, you're coming at this, as I understand 
it--maybe you want to elaborate on it, that the city has 
attempted to respond immediately and meet these kinds of needs 
but what you're talking about--what is a national tragedy. We 
had 188 families in my own State of Massachusetts but I think 
that loss level--it's indelibly emblazoned into all of our 
minds and our State, as you mentioned and referenced other 
States, other countries, what they have lost.
    But this was Ground Zero--the assault on our country and 
therefore what you're doing, as I understand it, is reminding 
us that it has been an attack, an assault on our country and 
our country has a responsibility to respond, particularly for 
individuals who went so far and beyond in terms of their 
personal heroism. We are in a world which is so frequently 
defined as sort of a me-world and an I-world and this 
incredible group of men and women that demonstrated such 
extraordinary personal courage, demonstrated really what was 
the sense that I think most of us feel and that is the common 
sense of brotherhood that we all have for each other.
    Could you just elaborate for a moment, on your own kind of 
sense about what this responsibility is, this shared 
responsibility, speaking as the leader of New York, how the 
people in that city feel about this shared responsibility?
    Mr. Bloomberg. Well, we've always felt that first and 
foremost, the city has to respond and take care of itself and 
then try to find ways to pay for it later. So we spared no 
expense, for example, in making sure that we do everything we 
can to prevent another terrorist attack. We have 1,000 police 
officers devoted to intelligence and counterterrorism. We have 
the equipment that we think we need, whether it's radios or a 
fire apparatus. We first do that and then we worry about how to 
pay for it in terms of taking care of our citizens. We have 
public hospitals that are ranked among the best in the country. 
They are paid for by the city and everybody gets treatment, 
whether they can afford to or not. We have these three 
programs, which I outlined, which are terribly important, not 
just to take care of those who are sick today but to give us 
the information we need so that we can treat people down the 
road.
    But the fact of the matter is, somebody also has to pay for 
it and while you can never equate lives with cost, you have to 
view things in a practical point of view when it comes to who 
is going to write the checks and this is a cost that we think 
that the country should help us with. We've done our part. We 
are proud of everything that New Yorkers have done but, the 
truth of the matter is, there are very significant costs that 
will continue for the foreseeable future and if what happens is 
we go to court on every single issue, the lawyers will make a 
lot of money. People, however, aren't going to get the kind of 
compassionate and adequate compensation that somebody like Ken 
Feinberg administering a program with his knowledge or somebody 
like him could provide.
    And I think that what we don't want to do is to leave the 
city with an open-ended liability, nor do we want to leave the 
contractors with an open liability. There's 150 different firms 
that worked on the World Trade Center's clean up and you could 
put a lot of them out of business if the liabilities continue 
on forever. We don't want, in this country, anybody ever to 
say, ``Well, maybe we shouldn't go in because we have an 
obligation to our shareholders to protect their assets.'' We 
want everybody to rush in and do what I think New York City 
does--try to do what is right first and then figure out how to 
pay for it.
    The Chairman. Well, I thank you. I welcome your comments 
about that Victims Compensation Fund. It's really one of the 
extraordinary success stories of our times and I share the 
admiration that you have for Ken Feinberg. I think he just did 
a masterful job and an extraordinarily difficult one.
    Mr. Bloomberg. And he comes from the Commonwealth of 
Massachusetts, I would assume.
    The Chairman. That's right. Good college boy. Senator Enzi, 
thank you.
    Senator Enzi. Thank you, Mr. Chairman and Mayor Bloomberg. 
After reviewing the report, which you briefly outlined here 
today, I can see that it adds up to quite a bit of money, as 
the only accountant in the Senate, I will be giving you a 
request to more carefully delineate or more precisely delineate 
the dollars that you're talking about.
    But can you kind of describe the overall outer limit of the 
funding request that you're making?
    Mr. Bloomberg. Ed, do you want to address this? Ed really 
was the one that supervised all the pulling together of data 
and writing the report and has been with me since I entered 
into public service.
    Mr. Skyler. Thank you, Mayor and thank you for allowing me 
to work on this important issue.
    Senator, the report is on two financial questions. One 
which the Mayor discussed briefly was the gross economic impact 
of the attacks on the healthcare system and that goes beyond 
geographic borders. For example, that could be a volunteer that 
came in from Ohio that is now living in Ohio or somewhere else 
that is seeking care. We estimate that gross impact to be about 
$400 million annually.
    Of that impact, there are three programs in New York City 
that we think are vital--that is vitally important to be 
continued. They are the Centers of Excellence at the Fire 
Department, which treated about 16,000 firefighters. We 
estimate that that is about a $35 million annual expense.
    Senator Enzi. You're getting into the exact delineation of 
the details, which I would like in writing.
    Mr. Skyler. Right.
    Senator Enzi. But can you give me kind of the overall 
number of the dollars that you're requesting?
    Mr. Skyler. We are requesting $150 million approximately, 
annually to support the three existing programs. It would also 
include an expansion of the Bellevue Program, which is the only 
program for non-first responders, for non-construction workers. 
It's for residents and also covers people without health 
insurance. It also would extend the city's ability to do World 
Trade Center health monitoring out of the Health Department, 
which is an enormously valuable tool. It's so far tracking 
70,000 people that began after the attacks and also would fund 
about $8 million a year in mental health services. Post 
traumatic stress disorder is one of the ailments that the panel 
identified quickly as the thing that was very widely spread 
throughout the city and it is a treatment--it is a problem that 
needs a long-term solution as well.
    Senator Enzi. On the mental health services question, since 
you just brought that up, is there a way that you're going to 
prioritize the funding for those that need it most, under 
mental health? And what evidence-based practices are you going 
to utilize to provide the follow up care?
    Mr. Skyler. The Department of Health and Mental Hygiene 
would basically be picking up a program that the Red Cross had 
run for several years and successfully, in which case there 
would be a screening to make sure that the ailment that the 
person is describing is actually linked to the World Trade 
Center attack. Now, of course, that depends on the honesty of 
those being interviewed but it is not meant to be a program 
that just anybody who is complaining of depression or sleep 
disorders could apply for. It would need to be linked to 9/11.
    Mr. Bloomberg. Senator, another way to answer it is, we are 
very mindful that the numbers are large. Given we spend 
trillions of dollars on healthcare a year in this country and 
don't seem to be able, at any level within the private sector 
or the public sector, of finding ways to stop the growth, which 
just continues.
    I think what we have here is the $150 million, we clearly 
can give you every single penny, where it would be spent. It 
has been well thought out. These are programs that have been 
going on for a while so we have experience in terms of the 
value of the service, of how many people will take advantage of 
them.
    The one thing we really can't know is down the road, 
whether somebody is going to come down with an illness that was 
the result of their work at the World Trade Center but so far 
has not evidenced itself. And that's why we have this 
liability, this insurance company. We are worried about down 
the road, what happens if 10 and 20 years from now, there 
continued to be people showing up that all of a sudden get sick 
and the doctors say this is clearly because of 9/11.
    Mr. Skyler. And Senator, one final point I'd like to add. 
We are not suggesting creating $150 million of new programs. 
There is a certain urgency to the Mayor's testimony today. We 
have a program at Mount Sinai that treats 19,000 that went down 
to the World Trade Center site. That program is in jeopardy. We 
have a program that treats 16,000 firefighters, many of whom 
lost friends on 9/11. That program is in jeopardy. We have a 
program that treats those that can't go anywhere else that live 
in Lower Manhattan. That program, the city has put up the money 
but we need Federal help to expand.
    We are not going to create--we are not coming down here to 
ask for new programs. What we're saying is we have programs 
that are working. We have programs that are treating people 
that are hurt and desperately need your help and assistance to 
continue those affected programs.
    Mr. Bloomberg. I would just add one other point, Senator. 
There is, as has been mentioned, there is a billion dollars 
that was part of the $20 billion that New York was promised by 
the President that the Congress actually voted on that is now 
in this fund. That purpose, because I negotiated these things 
with President Bush, had two-fold. One was to help compensate 
those who were hurt and the other was to prevent liability from 
inuring to the city or to the contractors who came. And that 
money has largely been untouched. There have been a few lawyer 
fees but it's been made up for by the interest of the money 
sitting there and it's a very important starting point. We'll 
have to figure out how to deal with these liability issues and 
everything else but it's an important starting point and it 
makes the sum seem a little less or significantly less than it 
might be and I know that will be entering into the 
deliberations of what we do.
    Senator Enzi. I have several other questions but since my 
time has expired, I'll submit those in writing and I'll 
appreciate answers. Thank you.
    The Chairman. Thank you very much.
    Senator Clinton.
    Senator Clinton. Thank you very much and thank you so much, 
Mr. Mayor. Thank you very much, Senator Schumer and I also want 
to commend Ed Skyler and Deputy Mayor Gibbs for the job that 
they did on this. We really appreciate it.
    I think it is important to get into the record the extent 
of this problem and how many people are affected. I think it is 
important to note that the city government is trying to track 
the health of the volunteers and when we talk about volunteers, 
we're mostly talking about search and rescue teams that were 
part of the FEMA response as well as those who came 
independently and then a third category of people who came on 
their own, to New York to help in the days following 9/11.
    Mayor Bloomberg or perhaps Mr. Skyler, could you describe 
the city government's involvement with the World Trade Center 
registry and how this helps individuals from around the country 
and how many people have we registered, because I think that's 
important to note.
    Mr. Skyler. Right. The World Trade Center registry was set 
up by the New York City Health Department with Federal support 
in 2002 and what the World Trade Center Health Registry did was 
outlined geographic borders in New York City of people that we 
believe are outside New York City, people we believe could have 
been exposed on 9/11. It identified 410,000 people that we 
believe were exposed on that day, including about 45,000 people 
that live outside New York City and New Jersey. Everybody--out 
of the 410,000 people, 71,000 signed up and became part of the 
registry. Those 70,000 people did detailed interviews with 
Health Department staff and we have a sense now and hard data 
on their medical history. And now, with funding going into the 
out years, what we will be able to do is track those people 
over time and track them and find out whether they become ill 
or not become ill. If they have become ill, what sort of 
treatments they have received and to see what the long-term 
trends are.
    One of the issues we keep coming up against is the issue of 
causation. It is very difficult and I'm not a doctor but I'm 
assuming this panel--it's very difficult to say any one illness 
was caused by any one event but when you look at gross 
populations and you see treatment rates and certain illnesses 
at a higher rate than the rest of the general population, then 
you can make conclusions. And that was the attempt of what the 
panels were and tools like the registry are enormously valuable 
to complete that goal.
    Senator Clinton. Thank you. And it is a valuable tool not 
only for what we're trying to do with respect to the victims of 
9/11 but this provides us a scientific base to draw a lot of 
conclusions about environmental exposures and what happens when 
people are--either through daily exposure or even limited, if 
their systems respond a certain way--how they then can be 
affected.
    I think it's also important to take a look at what we know 
about the long-term health effects. In the aftermath of 9/11, I 
was fortunate to have a pulmonologist from Bellevue serve as a 
health aide on my staff and he, in the immediate aftermath of 
9/11, was assisting with the medical care for first responders 
and others and was conducting x rays on a lot of the lungs of 
many of those who came to Bellevue for immediate relief, 
emergency intervention, and he reported to me that you could 
actually see the asbestos fibers in the lungs. So in addition 
to the pulverized glass and concrete and everything else, we 
know that there are going to be chronic, long-term health 
effects and it's something that is not factored into a lot of 
the numbers that you're giving us but multiple carcinogens 
including benzene, asbestos, and dioxin, were contained in the 
dust cloud. I don't think people really perhaps have an 
understanding of what was in those giant towers and the 
surrounding buildings. I mean, the huge oil storage tank that 
was there, for example. There is just so much and it all was 
evaporated or pulverized.
    The diseases that cause permanent lung damage often take 
years to develop. So Mayor or Mr. Skyler, does either the $150 
million estimate or the $3 million estimate take into account 
these long-term health effects?
    Mr. Bloomberg. What we think, Senator, is that it will cost 
roughly $150 million for these three programs in New York going 
forward for the foreseeable future. This is not you breaking an 
arm, we can see the injury, we know how to treat it, we know 
exactly what it is. It is possible for you to smoke a carton of 
Camel cigarettes every day and drink a fifth of Jack Daniels 
and live to 125 but I just wouldn't suggest doing it because 
chances are, you will not have a healthy, long life. But there 
is never any one disease you can tie in a case like this to one 
event. You have to look at the statistics and the correlations 
and we don't have the scientific knowledge to know how long 
it's going to be when people stop showing up saying, ``I had no 
problems before but all of a sudden, I've been coughing'' and 
the doctor is saying, this is clearly because of the work you 
did down in the recovery effort at 9/11.
    Senator Clinton. And in addition to the $150 million, I 
believe based on your report that the $393 million also does 
not take into account these long-term health effects such as 
the diagnosis of cancer or mesothelioma in the future.
    Mr. Bloomberg. It does, but the difference between the two 
numbers is the $150 million is what we spend on these three 
Centers of Excellence in New York and in other States. 
Remember, Mount Sinai has affiliates that are part of the 
program. The $393 million sort of addresses Senator Enzi's 
question of what is the total cost, because if the Senator had 
worked down there, he might very well decide to get treatment 
in Wyoming and he has his own health care plan that takes care 
of it. So that is sort of an economic effect but for us to 
maintain these three centers, which not only treat people--I 
must reiterate, but give us the science for knowing what to do 
later on for others. That's the difference between the two 
numbers.
    Mr. Skyler. Right and it's an annual cost.
    Senator Clinton. Yes, right. Thank you very much.
    The Chairman. Senator Coburn.

                      Statement of Senator Coburn

    Senator Coburn. Thank you, Senator Kennedy, for having this 
hearing and Senator Bloomberg, it's good to see you. Thanks for 
your good work. A couple of questions--I did call you Senator 
instead of Mayor, didn't I? I don't know, maybe it pertains to 
something.
    Of the 150 firms that were down there, were they all 
insured?
    Mr. Bloomberg. They basically have no insurance for this. 
There is this Captive Insurance Fund of $1 billion set up with 
Federal monies, which is supposed to provide insurance for both 
the city and for the contractors.
    Senator Coburn. But the contractors had no insurance?
    Mr. Bloomberg. Not for this kind of thing. They may have 
their own insurance.
    Senator Coburn. That's what I mean.
    Mr. Bloomberg. We expect that there will be billions of 
dollars of claims if you go through all of the litigation 
process. The city's liability has been capped in theory, 
although there are questions as to whether or not it really is, 
to the tune of $350 million but no cap on the private 
contractors. The billion dollar insurance fund was set up to 
provide protection for both the city and the contractors and in 
order to get monies from the insurance company under the law 
that set it up, you would have to show damage and negligence on 
the part of the city or the contractors part and we do not 
believe, incidentally, that there was any negligence but 
regardless, the people still need to get compensated and that's 
why we would urge putting a Victims Compensation Fund in place, 
we would close the insurance company, move the billion dollars 
over into it. It would be a start at paying off the claims and 
with Ken Feinberg, maybe the claims wouldn't be much more than 
a billion dollars. Nobody really knows but I think Feinberg 
showed what can be done with somebody that is intelligent and 
caring and understands and comes up with reasonable solutions 
and he certainly brought down the potential claims back in 2003 
to a much lower level than they might otherwise have been.
    Senator Coburn. But the true testimony is that the 150 
firms are without liability coverage of their own and without 
health insurance coverage of their own for their own employees.
    Mr. Bloomberg. I think that they have the coverage for 
their own workers generally. This is others suing them and 
suing the city, arguing that their practices caused damage to 
other people and it may be some of their employees as well. You 
could really put out a business, a whole bunch of very large 
construction companies and if there was another tragedy, how 
they would respond--I don't think anybody knows and nor do we 
want to find out.
    Senator Coburn. Okay. I want to correct the record a little 
bit, having worked a lot on the asbestos bill in the Judiciary 
Committee. Asbestosis is a function of exposure--both the 
amount and time. So if you get a heavy load of asbestos, that's 
a problem or if you get a light load for a long period of time, 
that's a problem. But the assumption--nobody knows the answer 
to those questions and that's why I would support a long-term 
look at that and following it will actually help us in a lot of 
ways.
    Mr. Bloomberg. You know, I might point out that people 
worked down on the pile of rubble for months and so both of 
your criteria, high concentration and a long period of time 
come into play.
    Senator Coburn. Long-term exposure and we're not going to 
know that for a period of time. And I don't doubt that there's 
going to be a lot of pulmonary problems associated with the 
large particulate intake that they took.
    Is there a point at which this stops in terms of a Federal 
obligation? What do you see in terms of long-term? How do we--
actually, my question really goes to the idea that rather than 
set up something, why don't we endow it? Why don't we endow it 
rather than have a yearly appropriation for this, why don't we 
set up an endowed trust to take care of all these problems over 
the future, where we put the money in and it's earning--much 
like your billion dollar fund that has not been used yet, so 
that we endow it so that we don't keep coming back?
    Mr. Bloomberg. Senator, one of the most difficult things 
that the city has to deal with is going back every year, 
whether it is to the State or to the Federal Government for 
funds to support a program where we have to make big 
investments and make long-term commitments and if we're never 
sure of the funding sources, that leaves us with a liability 
and you see government funding starting and stopping programs 
rather than having a much more efficient and useful 
consistency.
    Senator Coburn. So you would agree that an endowment is a 
good idea?
    Mr. Bloomberg. Sure.
    Senator Coburn. As far as the other people that are at your 
other hospitals in the State, do they have access to other 
insurance that would cover the problems that they are being 
treated for?
    Mr. Skyler. Some of them do, some of them don't. One of the 
panels worked to see what we could do to level the playing 
field because depending on what city agency you're in, 
depending what union you're in, you have different health 
benefits available to you. And one of the things we noticed 
early on was that members of the uniformed services had certain 
institutional infrastructure in both the health plans and 
treatment that their agencies had that other unions would not 
have, that civilian unions would not have and then if you take 
outside the city workforce, residents without health insurance 
had absolutely no where to go, which is why we started the 
Bellevue program, which is really the only expansion on the 
treatment side other than mental health, that the report 
advocates.
    Senator Coburn. Well, I understand those without insurance 
but I'm having trouble. If we have insured populations out 
there whose health is covered with insurance, why would we want 
to also come and pay for that as well through this?
    Mr. Skyler. We would obviously not want to see any double 
dipping but what we've been seeing is that there are gaps and 
also when you do treatment in one facility, such as the Centers 
of Excellence that we support extending and continuing, you 
have the benefit--and Drs. Kelly, Clineman and the doctors from 
Mount Sinai who will be here after us can talk about this in 
greater detail--but you have the benefit of all the medical 
knowledge based on all the monitoring and treatment that is 
going on at those facilities and you lose that benefit if 
people are going to see their own providers. That's not to say 
that the Centers of Excellence solution precludes a fee for 
service solution for people living outside that are not on the 
geographically convenient range or don't feel like going to a 
Center of Excellence. We need a solution for everybody and a 
long-term solution. But there are gaps in insurance. There are 
welfare funds that different unions have to pay for 
prescription drugs and it is--everybody has their own situation 
and we need a long-term solution that can address all of their 
needs.
    Senator Coburn. Thank you.
    The Chairman. Thank you very much.
    Senator Brown.

                       Statement of Senator Brown

    Senator Brown. Thank you, Mr. Chairman. Mayor, welcome. 
Thank you for joining us. Mr. Skyler, thank you. I want to 
follow up on Senator Clinton's questions and comments about 
long-term effects, especially of asbestos and benzene and 
dioxin. It is my understanding that there are 71,000 enrollees 
in the health registry.
    My State, 195 from Ohio, certainly way more than that 
number of people who volunteered or otherwise worked around the 
Trade Center after the tragedy. Are you satisfied and I don't 
know if either of you answered this, that the registry is--that 
enough people knew about the registry, and are signed up, 
particularly those that came from around the country? Whether 
they were residents in the Trade Center site area, the 60,000 
or so, I guess, south of Canal Street and then people from 
around the country, did we do enough? I know the CDC is a 
partner in this and probably does pretty decent outreach in 
conducting the 3-year interviews but, are you satisfied that 
we're doing that well enough?
    Mr. Bloomberg. Well, Senator, there are people who just 
say, ``I'm tougher than any bug'' and go ahead and live their 
lives and don't seek preventive treatment, don't want to find 
out what's happening, or if they are coughing as to why. I 
think what we would always urge everybody to do is if you think 
there is a chance that because of your time near or at the 
World Trade Center site, that you might have a problem, see a 
doctor. You can see a doctor and as Senator Coburn said, have 
your own insurance company pay for it.
    You can come to our Centers of Excellence, like at 
Bellevue. In the case of New York City, as Mr. Skyler said, the 
uniformed services have a lot of their own insurance plans and 
the agencies themselves do studies, for example, our Fire 
Department does really exhaustive studies and that's one of the 
good baselines that we have to note. But the Police Department 
has looked at all 34,000 people who were down there.
    Mr. Skyler. I would just note that for reasons of analysis 
and to protect the integrity of the information, this Center--
the registry was advertised heavily throughout 2002 and then 
the registry was closed so that people, although they can seek 
obviously treatment, the treatment that the city offers, they 
can no longer join the registry because they wanted to look at 
one pool of people that were affected and then track that pool 
over time. So as I said, there are about 400,000 people that 
qualified. We did exhaustive outreach and captured about 71,000 
people that we'll be staying in touch with as long as we can 
support the program.
    Senator Brown. My understanding from the Mayor's comments 
is that the uniformed firefighters, particularly a lot of 
firefighters from Ohio and around the country volunteered, but 
a lot of volunteer firefighters or volunteer departments, 
aren't typically insured through their townships. Particularly 
rural, suburban, ex-urban, or small town fire departments that 
are volunteer certainly did come. Certainly, many of these 
volunteers were without health insurance. What happens with 
them? How were they notified of the registry? How will they be 
educated, if you will, the ones who were selected for the 
registry, about coming in every 3 years? Is there any access 
for them to come in and have that----
    Mr. Bloomberg. The registry is really--think of it as a 
scientific study as opposed to something that provides 
treatment and that's the reason why we don't want to take any 
more people into the registry. Seventy-one thousand, the 
scientists believe, is a big enough number to really have 
useful data and we'll track that group over a long period of 
time. Those 71,000 and others who have a health problem can get 
treatment so it's a separate thing.
    Mr. Skyler. Right and it's an excellent point because we 
had 26,000 volunteers from 50 States that helped and 
theoretically, a volunteer firefighter from Ohio--presumably 
what is happening is he or she is trying to get treatment where 
they live in Ohio and hopefully they have insurance and they're 
covered and that person may be experiencing gaps in coverage 
and that is something that the $393 million estimate--and it's 
an estimate and people come with different assumptions--would, 
we believe, encapsulate but it wouldn't be something that this 
New York City would be directly supporting through the programs 
we're recommending outside of Mount Sinai for whom does have 
branches around the country.
    Senator Brown. Maybe you're not the right person to direct 
this question to Mr. Skyler, but has CDC done the kind of 
outreach that they generally are very good at, in regard first 
to the registry and second, to healthcare generally?
    Mr. Skyler. We partnered with a division of CDC, I believe 
the acronym is ATSDR and I apologize, I can't remember what it 
stands for but we did partner with them.
    Senator Brown. Agency for Toxic Substances and Disease 
Registry.
    Mr. Skyler. Thank you, Senator. And we did partner with 
them. We have had an effective partnership with them. What 
we're anxiously awaiting now is the results of Secretary 
Levitt's study from which I believe he asked NIOSH to 
commission. The Mayor put out his panel's report in the middle 
of February and we'd like to see what the Federal 
recommendations from the executive branch are. We've met with 
the Secretary's staff. The Mayor is going to meet with 
Secretary Levitt later this afternoon. We shared all the data 
we have with them and we'd like to see what solution they are 
recommending.
    Senator Brown. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Congressman Nadler, if 
you want to make a brief comment, we've got a good panel coming 
up shortly and I know the Mayor is on his way but we know that 
this is your particular district and we're very much aware of 
your deep concern.

            STATEMENT OF REPRESENTATIVE JERRY NADLER

    Representative Nadler. Thank you very much, Senator. As the 
Mayor or Mr. Skyler--he said that the $393 million estimate 
includes future diagnosis of diseases or I think he said that.
    Mr. Bloomberg. It's an annual estimate of what the total 
medical costs would be. It would include the $150 million that 
we're spending. It would include what private insurers may very 
well be paying elsewhere.
    That's to try to get a way to answer Senator Enzi's 
question of what's the cost of this?
    Representative Nadler. Yeah, but what I'm getting at is my 
impression has been and correct me if I'm wrong, that it does 
not take into account things that we do not know now but that 
may emerge in the future. For example, we know from the 
Inspector General's report of EPA that there is a lot of 
buildings that have never been properly inspected and cleaned 
and one can expect that 10 to 15 years from now, we'll see a 
lot of cancers coming out of this and it would not include 
that. Am I correct in that?
    Mr. Skyler. This is an annual estimate based on the 
treatment rates we're seeing now.
    Representative Nadler. Okay.
    Mr. Skyler. It is a non-economic forecast. The number could 
go up. It could go down if situations resolve themselves or if 
they go get treatment and they recover. But it is not a 
predictive model. It is what we are seeing based on the 
information that we have right now.
    Representative Nadler. So it could increase, based on 
future contingencies.
    Mr. Skyler. It could and if the cancers, which we can't see 
now but develop over time, do materialize and I don't know if 
they will, obviously the cost would increase because those are 
more expensive to treat.
    Representative Nadler. Thank you. I have just one other 
question. In terms of re-opening the Victims Compensation Fund, 
which we certainly ought to do. When the Victims Compensation 
Fund was operated under Mr. Feinberg, and everybody seems 
agreed that he did an excellent job and that it worked very 
well, people were given a choice.
    They could go to the Victims Compensation Fund and give up 
their right to sue in court or they could sue in court but 99-
something percent chose to go to the Victims Compensation Fund 
and I don't know if there were any lawsuits or if there were, 
there were very few. If we were to reopen that, the position 
that you have stated is that we should bar suits all together. 
Why wouldn't it be a good idea to do exactly what we did 
before, tell people if they want to go for compensation to the 
Victims Compensation Fund, they give up their right to sue but 
they retain the right to sue if they don't go there, in the 
expectation that 99 percent--we have the same experience.
    Mr. Bloomberg. Well, I think depending on how sure we were 
that the expectation would be repeated, what happened the last 
time. What we're concerned about is leaving an open-ended 
liability for the 150 contractors and for the city and I think 
that if Congress were to allow us to reopen the fund, move this 
billion dollars over, we really only can do it if we are sure 
that we and the contractors don't have any further liability. 
Otherwise, the only thing keeping us from bankruptcy is that 
fund. That's why the insurance company was set up by the 
Federal Government and we have a responsibility to make sure it 
stands there as the protector of those two groups, the private 
contractors and the city, as long as they have a liability. So 
doing hand-in-hand dealing with the liability, and making the 
Compensation Fund available and you could have a separate 
process, I suppose, for a handful of people that chose not to.
    I think what Ken showed was that if it is run 
intelligently, most people come to the conclusion that rather 
than spending a lot of fees for lawyers, no offense to the 
lawyers in the room, there is a better way to do it and I've 
always believed that doing something efficiently, rationally, 
expeditiously leads to better results for everybody.
    Representative Nadler. Thank you, Mr. Mayor, thank you, 
Senator.
    The Chairman. Thank you. Just, Mr. Mayor, to remind all of 
us, we have what we call the Down Winders. Now, those were the 
approximately 14,000 Americans that experienced the radiation 
as the result of nuclear testing before we ever knew the 
dangers of radiation and I had worked with them and Senator 
Hatch. They received over $900 million and they receive about 
$50 million a year, those in that definition was also some of 
the uranium miners that were mining uranium for our national 
security. And we've also had the Energy Employee's Occupational 
Illness Compensation Program, on which I worked with Senator 
Bunning. These are the factory workers that worked on nuclear 
and atomic weapons and all experienced--on behalf of the 
national interest--health challenges. There has been over $2.5 
billion that have been expended and we still continue to pay 
hundreds of millions of dollars in claims each year. Because it 
was made as a judgment that this was in our national interest. 
These individuals were experienced in these kinds of health 
challenges because of our national interest and it seems to me 
that we're talking about more individuals who have experienced 
health needs as a result of our national interest, with this 
kind of disaster as well.
    I think the comparison, I find enormously compelling.
    Mr. Bloomberg. Senator, you can just take it one step 
further. We ask our young and women repeatedly to go overseas 
and fight and die and get injured to protect us and to advance 
our causes and then when they come home, sometimes we are found 
wanting in terms of providing the care for the illnesses and 
taking care of the families of those who made the ultimate 
sacrifice and shame on us. We do have a liability. Some of 
these things are very expensive, Senator and some of them go on 
for a long time.
    The Chairman. I want to thank you very much, very helpful 
and we'll look forward to, I think, probably if we have 
additional questions, getting to them. We thank you, Mr. 
Skyler, excellent. Mayor, it's always good to see you.
    Mr. Bloomberg. Thank you, Senator.
    The Chairman. We have a really extraordinary panel, which 
we are welcoming here to our committee. Dr. Robin Herbert joins 
us from Mount Sinai Medical Center. She has been at the 
forefront of treating first responders and workers, over 60 
percent of whom can't even pay for their healthcare.
    Dr. Reibman comes to us from Bellevue Hospital, which 
continues to treat anyone who may have been exposed to dust and 
toxins from 9/11. The New York City Fire Department has also 
had a major role in demonstrating a clear link between recovery 
and clean-up work and illness and Dr. Kerry Kelly joins us on 
its behalf.
    Dr. Melius, from the World Trade Center, medical monitoring 
and treatment program, speaks to the lack of healthcare 
coverage available for responders and finally, Jeff Endean, 
from New Jersey who will share with us some of the personal 
experience following the September 11 attack with the New York 
Authority Police Department.
    So if you would be good enough to come forward and join us, 
please. I don't know whether you--your names are on the back 
ends of those cards. It's always a mystery but they are. Look 
how wonderful our staff is to have done that. Thank you very, 
very much.
    Dr. Herbert, we'll start with you and I thank all of our 
guests here this morning and appreciate your willingness to 
speak to us about this issue. Thank you.

  STATEMENT OF ROBIN HERBERT, M.D., CO-DIRECTOR OF THE WORLD 
 TRADE CENTER WORKER AND VOLUNTEER MEDICAL SCREENING PROGRAM, 
                       NEW YORK CITY, NY

    Dr. Herbert. Thank you. Chairman Kennedy, Ranking Member 
Enzi, Senator Clinton and other esteemed members of the HELP 
Committee, Mr. Nadler, I thank you so much for inviting me to 
present testimony today. My name is Dr. Robin Herbert. I am an 
Associate Professor in the Department of Community and 
Preventive Medicine at the Mount Sinai School of Medicine and I 
serve as Director of the World Trade Center Medical Monitoring 
Program Data and Coordination Center at Mount Sinai.
    In the days, weeks and months following September 11, 2001, 
tens of thousands of hardworking Americans from all over this 
Nation responded selflessly, without concern for their well-
being when the Nation and the Federal Government called upon 
them to serve. Many of these workers and volunteers have become 
seriously ill as a result and it is therefore imperative to 
continue to take stock of how we, as a nation, care for World 
Trade Center responders and others who have fallen ill or may 
become ill in the future.
    It is essential that we continue to provide aid to all 
those who were there for us, now and in the future and with 
your strong support, as a nation, I have no doubt that we will.
    Well over 50,000 people worked or volunteered in the 
aftermath of the attacks. I think it is important to note that 
these included both traditional first responders such as 
firefighters, paramedics and law enforcement officers as well 
as a large and very diverse group of heavy machinery operators, 
laborers, iron workers, workers from utilities, 
telecommunication workers, sanitation workers and a large 
number of other public and private sector workers as well as 
volunteers and again, these responders came from around the 
Nation.
    This group performed extraordinarily grisly work, including 
sifting through thousands of tons of rubble, searching for 
survivors and then human remains while others were to restore 
critical services like electricity and communication systems 
for America's largest city when it was in shock and on the 
brink of economic disaster.
    For many months, World Trade Center responders were witness 
to horrors no one should ever have to face and for which there 
is no training that could have prepared them. Additionally, 
although it's not the focus of my remarks, a large number of 
residents, office re-occupants and students were also affected 
by the disaster.
    I think that the medical and mental health effects of the 
World Trade Center disaster has been very well documented at 
this point and there certainly can be no longer any doubt that 
many people are sick and many more may become sick in the 
future.
    In September 2006, we released a paper detailing the 
findings from federally funded examinations of 9,442 
responders, whom we and our consortium partners examined 
between July 2002 and April 2004. I have appended this study to 
my written testimony and I won't go through it in great detail. 
But I would note as the Mayor had noted, that among the 
responders we examined, 69 percent reported experiencing new or 
worsened respiratory symptoms while engaged in their efforts at 
or near Ground Zero.

    [Editor's Note: Due to the high cost of printing previously 
published materials will not be reprinted in the hearing record. The 
paper indicated above can be found at http://dx.doi.org.]

    At the time of their examinations, fully 2\1/2\ years after 
September 11, 2001, 59 percent were still experiencing new or 
worsening respiratory symptoms. Of particular concern, one 
third had abnormal breathing tests and one particular breathing 
test abnormality decreased forced vital capacity was found five 
times more frequently in World Trade Center responders than in 
the general non-smoking population of the United States. This 
was a particularly worrisome finding to us because it can be 
caused by a variety of conditions including asthma with air 
trapping or interstitial lung disease, scarring disease of the 
lungs, of the type that has resulted in known fatalities among 
some World Trade Center responders.
    Earlier findings released in 2004 have revealed the mental 
health consequences among responders. We have at this point, 
through the Mount Sinai World Trade Center Treatment Program, 
served over 3,700 patients and in our treatment program 
patients, we found that fully 86 percent have upper respiratory 
conditions such as chronic sinusitis, 51 percent have lower 
respiratory conditions, including asthma, about a third have 
persistent gastrointestinal conditions such as GERD, about 30 
percent have musculoskeletal conditions from injuries sustained 
when they were responding and about 30 percent of our physical 
health treatment program patients are also receiving mental 
health treatment for conditions such as post-traumatic stress 
disorder. Many of the treatment program patients actually have 
multiple World Trade Center-related illnesses and this really 
complicates their case management.
    Forty percent of our patients in the treatment program have 
no health insurance whatsoever. An additional 23 percent are 
under-insured and I know my colleague, Dr. Melius, will be 
talking about the insurance issues in greater detail. But 
access to care has been a major problem for our patients.
    One of the things that I worry about is that sometimes the 
human sides of our patient's stories and lives gets lost in all 
the numbers and statistics. Our typical patient, the typical 
person we see in our treatment program and in our monitoring 
programs is a man who was in excellent health, had a family 
with kids in school, was actively involved in his community, 
coaching Little League, going to church, typically paying off a 
mortgage and often working overtime to support his family. This 
American would have rushed to the site of the World Trade 
Center disaster and toiled in the weeks and months that 
followed, for long hours and during unimaginable conditions. 
All of our patients, all of the responders, despite huge 
difficulties, took special care to treat the site as the sacred 
ground it was.
    When our patients--when that American came home from long 
shifts, he tried to shield his family from the horrific sights, 
sounds and smells that were among his constant companions at 
the site. Many of our patients ignored the new, hacking cough, 
the chest pain, the panic attacks and insomnia and tried to 
forget what they had experienced.
    For this American, for our patients, it often had seemed 
that there was nowhere to go where people understood what they 
had experienced. For many, their own doctors were too busy and 
many of our patients felt they shouldn't seek help, anyway. 
They had survived the attacks. They were the lucky ones.
    As time goes by, our patients have found that they have 
become often too ill to work, to provide the health insurance 
their families need, to put food on the table or to play or to 
even lift their children. Our patients become terrified about 
losing their homes and their marriages and unfortunately, many 
have done so. Many of our patients have lost not only the 
ability to work, or health insurance, but a great deal of self 
respect and they've ended up alienated from their family 
members and those closest to them.
    We are thus very, very lucky that we have federally funded 
Centers of Excellence where people such as the man I just 
described, who again, are very typical of our patients, can go 
for help--the World Trade Center Medical Monitoring and 
Treatment Programs.
    The World Trade Center Centers of Excellence model was 
developed as an unprecedented response to a disastrous attack 
on our Nation. This attack has left our Nation faced with 
unprecedented physical and mental health consequences and we've 
had to therefore develop service models that could meet needs 
that we've never experienced before in this Nation. We needed 
to be able to identify all who might become ill, we needed to 
set up screening programs to screen for possible illnesses, 
develop appropriate treatment responses and link those efforts 
to scientific programs that could understand the emerging 
diseases in a setting where we really do not know the long-term 
health effects of the exposures.
    And we are, therefore, very grateful that Congress has 
provided Federal funding to establish and operate the World 
Trade Centers of Excellence. Our Centers provide standardized 
monitoring examinations, comprehensive treatment and they 
collect and evaluate standardized data so we can detect 
emerging disease trends, which is especially important because 
again, we do not know what the long-term health effects of the 
exposures will be.
    Congress provided resources for medical screening in April 
2002 and Mount Sinai was able to establish the World Trade 
Center Worker and Volunteer Medical Screening Program in 2 
months, in July 2002. We have operated our program as a 
regional and national consortium of Centers of Excellence that 
provided standardized, free, comprehensive physical and mental 
health examinations and we really view ourselves as a sister 
partner to the program at the FDNY and more recently, to the 
program that Dr. Reibman runs.
    Since we began the screening program, Congress has helped 
us establish an ongoing medical monitoring program for 
responders and this provides regular follow up exams. We're 
also continuing to take in new responders. We continue to have 
more than 400 responders per month register and we found them 
eligible to continue joining our programs.
    To date, our program coordinator at Mount Sinai has 
examined over 20,000 World Trade Center responders and provided 
almost 7,500 follow up examinations. Again, this work has been 
done parallel to the work of the New York Fire Department. We 
examined responders from almost--from throughout the Nation and 
at the present time, we have about 2,300 responders from every 
State in the Nation who are registered at one of the World 
Trade Center monitoring programs.
    More recently, your efforts have provided funding for 
critically needed medical and mental health treatment services 
and the World Trade Center treatment program--sorry. The World 
Trade Center Treatment Program coordinated by Mount Sinai has, 
to date, provided over 19,000 medical and mental health 
treatment services to 4,700 responders. We've also provided 
9,900 social work services, primarily to assist the uninsured 
and the unemployed.
    These World Trade Centers of Excellence bring together 
specialists from many fields of medicine who work together to 
provide state-of-the-art care for the complex diseases we're 
seeing.
    Of equal importance, our staff understand the issues facing 
responders. We offer a safe and compassionate haven for 
responders to get the medical care they need. Our doctors and 
others have experience in a wide array of medical specialties 
and work together closely to diagnose and treat responders.
    Just as importantly, our patients can get mental health 
care from mental health specialists who also understand the 
unique stresses our patients experience.
    The Centers also have the capacity to track patterns of 
disease and to provide information on new and emerging 
illnesses. For example, we know, as was mentioned earlier, that 
responders were exposed to a wide range of toxins, including 
cancer-causing agents such as asbestos, benzenes, dioxins, PCBs 
and PAHs. Thus, it is critical that the model of health service 
delivery for these heroes is capable also of scientifically 
identifying newly emerging disease patterns.
    Thus, in summary, needed clinical service provision linked 
to scientific programs has already been developed and 
established with successfully operating federally funded 
initiatives. The participants have been selected through a 
competitive peer review process. Unfortunately, as you are 
likely aware, Federal funding for the treatment services is 
likely to run out by the end of this Federal fiscal year and we 
also have concerns about the duration of funding for the 
monitoring program.
    We therefore implore you to keep these programs alive, 
ideally for the lifetime of the responders because they do 
serve as a lifeline for the 20,000- to 30,000-, or 50,000-plus 
responders who rushed in to help our Nation in a time of 
crisis. Thank you very much.
    [The prepared statement of Dr. Herbert follow:]
               Prepared Statement of Robin Herbert, M.D.
    Good morning. Chairman Kennedy, Ranking Member Enzi, Senator 
Clinton and other esteemed members of the HELP Committee, I thank you 
for having invited me to present testimony before you today on the 
health consequences of 9/11 and on the urgent need to continue to 
provide proper medical services for the brave men and women who rose on 
that day to America's defense, many of whom are now ill as a 
consequence of their heroism.
    My name is Robin Herbert, M.D. I am an Associate Professor in the 
Department of Community and Preventive Medicine of the Mount Sinai 
School of Medicine, and I serve as Director of the World Trade Center 
(WTC) Medical Monitoring Program Data and Coordination Center at Mount 
Sinai.
    In the days, weeks, and months that followed September 11, 2001, 
thousands of hard-working Americans from all across this Nation 
responded selflessly--without concern for their well-being--when the 
Nation and the Federal Government called upon them to serve. 
Unfortunately, many of these workers and volunteers have become 
seriously ill as a result of their response work, and we have 
documented in many that their illness appears to be persistent. It is 
therefore critical that we take stock of how we, as a nation, are 
caring for World Trade Center responders, and for others who have 
fallen ill, or may become ill in the future as a result of 9/11.
    It is essential that we continue to provide aid and care for all 
those who were there for us--now and in the future. With your strong 
support--as a nation--I have no doubt we will.
               diversity of the wtc responder population
    Well over 50,000 people worked or volunteered in the aftermath of 
the attacks in and around the World Trade Center, and at the Staten 
Island landfill. An extraordinarily broad range of skill sets and 
occupational groups was required to mount an effective response to the 
terrorist attacks. Those who rushed in to perform rescue, recovery, 
restoration of services, and essential clean up included both 
traditional first responders such as firefighters, paramedics, and law 
enforcement officers, as well as a large and very diverse population of 
heavy machinery operators, laborers, ironworkers and others from the 
building and construction trades, telecommunication workers, other 
utility workers, transportation workers, sanitation workers and other 
public and private sector workers and volunteers. This extraordinarily 
diverse group toiled in search and rescue efforts that extended for 
days, weeks, and months, and engaged in critical service restoration 
for one of America's largest cities when it was in shock and on the 
brink of economic disaster. They sorted through the remains of the 
dead, and were witness, through many months, to horrors no one should 
ever have to face, or likely had ever faced, even if previously trained 
as responders. Even those not working directly on the pile--for 
example, responders who worked in manholes to restore communications, 
or to shut down gas lines to prevent explosions--sustained exposures 
both to airborne toxins and to the unexpected sight of human remains. 
Thus, when I use the term responders in my testimony, I will be 
referring to the large and diverse group of responders that performed 
rescue, recovery, restoration of services, and clean up in the service 
of our Nation.
    In addition to tens of thousands of men and women from New York, 
New Jersey, and Connecticut, approximately 2,300 responders from every 
other State in the Nation are currently registered in one of the WTC 
Medical Monitoring Programs. Particularly large numbers came from the 
States of Massachusetts, Ohio, California, Illinois, North Carolina, 
Georgia, and Florida.
                    the health consequences of 9/11
    The medical and mental health effects of the World Trade Center 
disaster have been well documented. I believe that there can no longer 
be any doubt that many people are sick, and that more will likely 
become ill in the future as a result of their work at Ground Zero.
    In September 2006, we released a peer-reviewed paper in the medical 
journal Environmental Health Perspectives, detailing the findings from 
federally funded examinations of 9,442 WTC responders whom we and our 
partner institutions had examined between July 2002 and April 2004. I 
have appended this study for your review, and I would like to direct 
your attention to a few key findings:

    <bullet> Among these 9,442 responders, 69 percent reported 
experiencing new or worsened respiratory symptoms while engaged in 
their efforts in or near Ground Zero.
    <bullet> At the time of examination, up to 2\1/2\ years after the 
start of the rescue and recovery effort, 59 percent were still 
experiencing a new or worsened respiratory symptom, a finding which 
suggests that these conditions may be chronic and require ongoing 
treatment.
    <bullet> One third of responders had abnormal breathing test 
results. One particular breathing test abnormality--decreased forced 
vital capacity--was found 5 times more frequently in WTC responders 
than in the general, non-smoking population of the United States. This 
is a most worrisome finding, that can be caused by a variety of 
conditions, including asthma with ``air trapping,'' and interstitial 
lung disease (or scarring disease of the lungs), the condition that has 
resulted in known fatalities among a few WTC responders.
    <bullet> Findings from our program released in 2004 have attested 
to the fact that there also exist significant mental health 
consequences among WTC responders.

    All of these findings are consistent with other independent study 
findings. They are replicated also in the spectrum of disease that we 
have seen among patients treated in the Mount Sinai WTC Medical 
Treatment Program:

    <bullet> 86 percent of treatment patients suffer from upper 
respiratory conditions, such as chronic sinusitis;
    <bullet> 51 percent suffer from lower respiratory conditions, 
including asthma and WTC cough;
    <bullet> 32 percent have gastrointestinal conditions;
    <bullet> 29 percent have musculoskeletal conditions; and
    <bullet> 38 percent have been diagnosed with mental health 
conditions, including post-traumatic stress disorder, anxiety or 
depression, in addition to their physical ailments.

    It is important to note that most patients in the treatment program 
actually suffer from multiple WTC-related illnesses, complicating their 
case management and their access to benefits.
             lack of medical insurance among wtc responders
    More than 40 percent of the WTC responders in our treatment program 
are uninsured, and an additional 23 percent are underinsured, a 
situation that creates major barriers to access to medical services.
    When I speak of the uninsured (those with no medical insurance) and 
the underinsured (those with insurance that may cover only in-patient 
care, or that may require payments of copays or have deductibles so 
high that our patients are functionally uninsured), I am talking about 
a wide range of responders. I am talking about poor workers: folks who 
cleaned buildings in the World Trade Center disaster area without, in 
many cases, adequate protection or training or insurance, often for 
fly-by-night operations that no longer exist. I am also speaking of 
construction workers, some of whom received insurance coverage for 
themselves and their families based on a certain number of days worked. 
But when these patients become too ill to work, or could no longer work 
as many days as they used to, their coverage often ended along with 
their paycheck. These difficulties are compounded for those responders 
who file for Workers' Compensation for their needed medical care, 
because filing for Workers' Compensation typically results in prolonged 
delays in accessing needed care due to case litigation and a complex 
bureaucratic maze. And there are others, countless tireless heroes, 
including thousands of volunteers as well, too numerous to detail here 
today. They put their lives on the line when they were needed, but now 
many of them find themselves in need. I invite all of you to speak with 
affected responders in our program, if indeed there is any doubt of 
their need.
    the medical response to 9/11--the critical need for centers of 
                               excellence
    To provide medical services to the men and women who gave of 
themselves at Ground Zero, this Nation has provided funding to 
establish and operate Centers of Excellence. These Centers bring 
together specialists from many fields of medicine who work together to 
provide state-of-the-art care for the complex diseases that we are 
seeing in the responders. The Centers also have the capacity to track 
patterns of disease and to provide information on new and emerging 
illnesses.
    The WTC Centers of Excellence were launched in late 2001 after 
initial reports were received of health problems in responders and 
volunteers. At that time the Congress provided resources for medical 
screening, and those funds became available in 2002. The WTC Worker and 
Volunteer Medical Screening Program was established as a regional and 
national consortium of Centers of Excellence that provided 
standardized, free, comprehensive screening examinations for WTC 
responders.
    In July 2004, based on early findings from the screening programs, 
Congress authorized additional funding to establish an ongoing medical 
monitoring program for responders. This program too was organized as a 
network of Centers of Excellence. These Centers were selected by the 
National Institute for Occupational Health (NIOSH) through a fully 
competitive, peer-reviewed award process. This process established the 
World Trade Center Medical Monitoring Program which is funded through 
2009. It provides baseline exams and well as follow up exams to WTC 
responders at 18 month intervals. NIOSH awarded funding to 2 sister 
programs of Centers of Excellence: one based at the Fire Department of 
New York (FDNY), and the other, a consortium of 5 Clinical Centers 
coordinated by a Data and Coordination Center at Mount Sinai Medical 
Center that serves all other responders.
    Most recently, new Federal funding for Treatment services which 
became available for the first time in 2006 has made possible a newly 
combined Medical Monitoring and Treatment Program. This program is 
again based in Centers of Excellence. It integrates all Monitoring and 
Treatment services and also supports a long needed expansion of 
services to provide care to a greater number of responders than ever 
before. This new Federal funding builds on generous but limited private 
support that had previously enabled some provision of treatment 
services to responders.
    The Centers of Excellence currently provide the following complex 
array of services to the WTC responders:

    1. Regular, standardized, comprehensive physical and mental health 
examinations to identify possible WTC-related illness in all 
responders.
    2. Treatment for concurrent WTC-related physical and mental health 
illnesses. This care requires the close coordination of specialists 
from many disciplines, including: occupational medicine, pulmonary 
medicine, psychiatry, thoracic surgery and rehabilitation medicine. 
This array and coordination of services is to be found only in Centers 
of Excellence such as those that Congress and NIOSH have established.
    3. Social work assistance to responders who have lost their ability 
to work or sustained other disastrous economic effects because of their 
WTC response work. Social workers teach responders how to navigate the 
Workers' Compensation system, access much-needed medical and mental 
health treatment, and to plan for the long-term security and needs of 
their families. Our social workers provide essential services to the 
sickest of responders--those who, unfortunately, are too ill to return 
to work despite state-of-the-art medical care. For these responders, 
who typically have lost their jobs, their self-esteem, their income, 
and their ability to meet their basic expenses (rent, mortgage, food), 
social workers work directly with them and their families to advocate 
for vital resources.
    4. Outreach to responders to ensure that they are not lost to 
follow up by regular phone updates, mailings, and educational programs. 
This sustained outreach will grow in importance as responders retire 
and relocate throughout the Nation.
    5. Linkage of clinical monitoring and treatment findings to public 
health data analysis for identification of disease trends. This is 
essential because we remain very concerned about the potential for 
diseases of longer latency to emerge among WTC responders. We know that 
responders were at risk of exposures to a wide range of toxic 
chemicals, including cancer-causing agents--such as asbestos, benzene, 
dioxins, PCBs, and PAHs--and to substances that can cause ongoing 
respiratory problems, such as highly alkaline, fine particulate dust 
that can cause permanent scarring of the lungs. Thus, it is important 
that the model of health service delivery for these heroes is capable 
of identifying newly emerging disease patterns that may include 
interstitial lung diseases such as sarcoidosis and cancers. We have 
been faced, as a nation, with an unprecedented attack with 
unprecedented consequences. We therefore need health service models 
that are capable of meeting the needs created by this unprecedented 
event: models that can identify and treat the ill, AND that also can 
identify emerging diseases in a group that unwittingly sustained 
exposures with unknown effects.
    6. Dissemination of information learned from disease surveillance 
to responders, the public, and health care providers.

    Major accomplishments of the Centers are these:

    1. The Centers coordinated by Mount Sinai have provided baseline 
examinations for over 20,000 WTC responders including law enforcement 
officers, construction workers, communications workers, transit 
workers, building cleaners, and other public and private sector workers 
and volunteers. Follow up examinations have been provided to over 7,440 
WTC responders through the Mount Sinai Consortium.
    2. The Mount Sinai Treatment Program alone has provided more than 
14,000 medical and mental health treatment services to 3,700 
responders.
    3. The Mount Sinai Treatment Program alone has provided more than 
7,700 non-mental health Social Work services primarily to assist the 
uninsured and the unemployed. They have successfully treated thousands 
of responders and returned many to active duty and productive lives.
    4. The Centers have documented a very high incidence of both upper 
and lower respiratory disease in responders, much of which is 
persistent. They have documented a five-fold increase of certain 
abnormalities in pulmonary function testing.
    5. They have documented high rates of mental health problems in 
responders, a proportion of which are persistent.
    6. They are tracking the occurrence of rare diseases in responders 
such as pulmonary fibrosis and sarcoidosis. They have put into place an 
active surveillance system to monitor the appearance of cancer.

    The two absolutely unique features of the Centers of Excellence 
are:

    1. They have assembled a critical mass of medical expertise from 
many specialties--internal medicine, occupational medicine, pulmonary 
medicine, gastroenter-
ology, and psychiatry, coupled with highly skilled social work units. 
This concentration of expertise enables the Centers to effectively 
treat the complex and multifactorial disorders of World Trade Center 
responders. Such sophisticated treatment is not possible in a private 
practice setting. Indeed, responders who have been seen outside the 
Centers have in some cases not been well managed medically and their 
medical care has not addressed the complexity of their problems.
    2. The Centers of Excellence are linked to two Data and 
Coordination Centers (one at Mount Sinai and one at FDNY), which are 
staffed by public health specialists who are constantly monitoring 
patterns of disease and seeking new trends in illness. This highly 
sensitive system enables us to mount rapid responses to newly emerging 
problems, rapid responses that would not otherwise be possible. 
Additionally, the Data and Coordination Centers have developed unique 
expertise in conducting outreach and retention activities to ensure 
that no responder's needs go untended, that contact with the most ill 
responders is not lost, and that public health and medical information 
learned from the activities of the Data and Coordination Centers are 
rapidly disseminated to the responders, the public, and other health 
care providers.
                           concluding comment
    Our program of Centers of Excellence--the one that we, the 
legislative leaders, occupational medicine and other specialized 
medical experts, affected workers and their representatives, and health 
and safety experts have built together--has been designed and 
implemented to provide the greatest benefits and meet the demonstrated 
needs of our patient population. And our existing program of Centers of 
Excellence, and the lessons we have learned in the wake of September 
11, not only help to guide our ongoing response, but should be 
instrumental in helping guide future disaster response as well. By 
utilizing a Center-based approach, the program ensures quality, 
experienced and standardized care across the country. We ensure that 
responders receive the best medical services on an ongoing basis, 
regardless of where they live now or may live in the future. We ensure 
the ongoing critical update of clinical monitoring and treatment 
services, because of the program's ability to identify disease trends 
by pooling information gleaned from almost 27,000 examinations and 
continually analyze that information. We ensure an ongoing public 
health response and education benefit, beyond the benefits to 
responders, health care providers, government agencies and policymakers 
by informing future disaster preparedness and response.
    As you are likely aware, Federal funding for WTC-related treatment 
services is due to run out, likely before the end of this fiscal year. 
Federal support for the medical monitoring arm of our efforts, provided 
for the first 5 years of a 20- to 30-year needed initiative, may run 
out sooner than expected, because we are able to help more people now 
than we had initially anticipated.
    Today, you can choose to continue to help thousands of those 
affected by 9/11 as we are best able: through a coordinated, 
experienced, expanded model of Centers of Excellence. We can help 
prevent death and disability, and improve life for many of those who 
gave so much. By providing responders with expert medical and mental 
health services, we can help them to stay in their jobs or begin to 
work again. We can help give them back their lives. We can provide them 
with some hope for the future.
    Five years following the attacks on the World Trade Center, 
thousands of the brave men and women who worked on the rescue, 
recovery, and clean up efforts are still suffering. Respiratory 
illness, psychological distress, and financial devastation have become 
a new way of life for many. Also suffering, of course, are many WTC 
area residents, office re-occupant employees and students, for whom no 
appropriate systematic response is yet in place. I hope that my 
comments today will serve as a reminder of the long-term and widespread 
impact of this disaster, and of the need to continue to build on the 
successful model which gives these men and women the care they deserve.
    Thank you.

    Senator Clinton [presiding]. Thank you very much, Dr. 
Herbert.
    Dr. Kelly.

STATEMENT OF KERRY KELLY, M.D., CHIEF MEDICAL OFFICER, NEW YORK 
               CITY FIRE DEPARTMENT, NEW YORK, NY

    Dr. Kelly. Good morning, Senator Clinton and the other 
members of the committee. I'd like to thank you for the 
opportunity to speak today. I am Dr. Kerry Kelly, the Chief 
Medical Officer for the New York City Fire Department. I serve 
with my colleague, Dr. David Presont, as the Co-Director of the 
Fire Department's World Trade Center Medical Monitoring and 
Treatment Program. I'm also joined today by my colleague, Dr. 
Klineman, who is here from the NYPD, who represents that group 
of our uniformed forces.
    I'd like to speak to you today about the health of our FDNY 
first responders, particularly following their exposures at the 
World Trade Center site. On September 11, our FDNY first 
responders answered the call for help. Within a matter of 
minutes with the collapse of the two towers, 343 of our members 
perished, hundreds suffered acute traumatic injuries and since 
then, thousands have required long-term care for both 
respiratory and mental health problems that have developed from 
that event.
    In the hours, days and months that followed, our members 
continued in rescue, recovery and fire suppression efforts with 
a virtual job-wide exposure at that site, working among the 
debris and dust from the collapse. More than 11,000 of our 
firefighters and fire officers, as well as the over 3,000 EMTs 
and paramedics, worked at that site in the months after that 
event.
    During that time, our first responders experienced more 
exposure to the physical and emotional hazards at the World 
Trade Center site than any other group working there. Attached 
to the written copy of my testimony is a document that provides 
more details about our findings and the health of our first 
responders.
    Our World Trade Center Medical Monitoring and Treatment 
Program is one of the three Centers of Excellence for World 
Trade Center health that has been identified in Mayor 
Bloomberg's just published report on the health impacts of 9/
11. The FDNY Center of Excellence was the first to provide 
monitoring and treatment for first responders. Since we have 
pre-9/11 data for all our members, it is the only Center of 
Excellence that can perform large-scale pre- and post-9/11 
comparisons for any exposed group. It is the only Center of 
Excellence with more than 90 percent participation rate. Our 
Center was the first to recognize and treat members with World 
Trade Center health effects and provide published, scientific 
data so that others could recognize the role of World Trade 
Center exposure.
    For those working at the site, respiratory issues surfaced 
quickly and in recognition of those symptoms, FDNY initiated 
our screening program in October 2001, just 4 weeks after 9/11. 
From October 2001 through February 2002, we evaluated more than 
10,000 of our FDNY first responders and since that time, we 
have continued to screen and monitor both active and retired 
members, now totaling over 14,000 personnel who have been 
screened to date. This program has been federally funded 
through the CDC and NIOSH, who have partnered with us as well 
as with a Joint Labor Management Initiative in managing this 
program. Our program is dedicated to monitoring the health of 
our members while the other programs work to address the health 
issues of our non-FDNY responders.
    Working collaboratively with NIOSH, our members have been 
followed at our Center so that now over 9,000 of our members 
have participated in a second round of follow up medicals and 
more than 1,300 have recently started a third round. We've 
noted that over 3,000 of our members have sought respiratory 
treatment since 
9/11. Although many have been able to return to work because of 
treatment, over 700 have developed permanent, disabling 
respiratory illnesses that have led to earlier than anticipated 
retirements among members of an otherwise generally healthy 
workforce. In the first 5 years after 9/11, we have experienced 
a three- to five-fold increase in the number of members 
retiring with lung problems annually.
    Our pre-9/11 data has provided us with objective 
information so that we can observe patterns and changes among 
our members. A significantly higher number of firefighters were 
found to be suffering from pulmonary disorders when we looked 
at the numbers pre-9/11 for a 5-year period before that. We 
noticed a marked drop in lung function in our members, 
particularly in those people who were working at the very day 
at the time of the collapse. On average, for both our 
symptomatic and our asymptomatic responders, we found a 375 
milliliter decline in pulmonary function for all of our 
responders, with an additional 75 milliliter decline if the 
member were present when the towers collapsed. This is a 12-
times greater decline in pulmonary function that would be 
expected and were seen in the 5 years pre-9/11.
    We continue to monitor our members to see whether these 
numbers continue or whether we see improvement. Unfortunately, 
many still have symptoms. Twenty-five percent still show 
positive evidence of persistent airway hyperactivity as well as 
25 percent are still continuing to complain of respiratory 
symptoms. Although we have seen no clear increase in the number 
of cancers since 
9/11, we continue to see occasional, unusual cancers that 
require continued careful monitoring. Monitoring for future 
illnesses that may develop and treatment for existing 
conditions is imperative and I will discuss with you how 
funding is essential from the Federal programs.
    Mental health issues were, of course, a concern for us in 
the very beginning. Our need for mental health treatment needed 
to be met quickly, to help our members. Past disasters have 
shown us that many times, first responders are the last to seek 
help and often put the needs of others before their own, which 
is why we are continuing to see a need for treatment 5 years 
after this event, as we note that members continue to seek our 
help for mental health problems. The numbers of people 
suffering from PTSD, grief disorder, and anxiety continue. We 
again have a pre-existing counseling service unit. Pre-9/11, we 
saw approximately 50 clients a month. We are now seeing over 
250 a month at six sites for a total of about 3,000 patients 
per year who continue in active treatment seeking assistance. 
And the good news is that that assistance allows people to 
continue to work as they cope with a marked change in their 
medical care and as far as dealing with the situations of 
alienation that we've noted before.
    Through the efforts of our Mayor and the New York City 
Congressional Delegation and the continued support of our labor 
partners, we have secured funding to start monitoring and 
treatment of our members. This funding has been critical to our 
mission and we appreciate the committee's efforts to bring the 
needed attention to these issues and our funding needs. 
Additional funding is required, though, to continue our long-
term monitoring because we know that in the environmental and 
occupational medicine field, there is often a significant lag 
time between exposures and emerging diseases.
    For example, the latency periods for most cancers are often 
greater than 10 years. The actual effects of the dust and 
debris that rained down on our workforce on 9/11 may not be 
evident for years to come. Additional funding is required to 
continue or enhance diagnostic testing and focused treatment of 
our FDNY first responders, addressing both the physical and 
mental health problems, which are related to the World Trade 
Center site exposures. Both our active members and our retirees 
face significant gaps in their medical coverage. Mention has 
been made of medical insurance being in place but many of our 
members have significant problems finding mental health 
treatment without our program and there are often significant 
gaps. Treatments such as prescription drugs are required for 
long term. Many are on multiple medications and these 
medication costs are very significant. Treatment dollars are 
really essential to cover these.
    The 343 who perished at the World Trade Center are tragic 
reminders of the known risks that our first responders take on 
each and every call for help. For those who responded and 
survived, very real concerns for the unknown, long-term health 
consequences remain. For members of this athletic and healthy 
workforce who face the loss of lung function, chronic sinus 
problems, gastric distress and mental health consequences, the 
exposures at the World Trade Center site have changed lives, 
shortened careers and forever changed the future of those who 
survived that tragedy. The commitment to long-term funding for 
both monitoring and treatment must be made to allow the FDNY 
World Trade Center Health of Excellence plan for the future in 
order to protect and improve the health of our workforce, both 
active and retired and to inform lesser exposed groups and 
their providers of the illnesses seen and the treatments that 
are most effective.
    Continued funding for the operation of this Center of 
Excellence, the FDNY World Trade Center Medical Monitoring and 
Treatment Program is the most effective way to do this. 
Alternative fee-for-service plans will fail to provide 
effective treatment to large numbers of affected FDNY members, 
will not be cost-effective and cannot provide the standardized 
and comprehensive data analysis we need to inform the public, 
doctors, scientists and government officials, all of whom need 
this information.
    FDNY rescue workers, firefighters and EMS personnel 
answered the call for help on 9/11 and continue to do so every 
day. Now we need your continued help to maintain this Center of 
Excellence so that our members can be best served. Thank you 
for your past efforts and your continued support of the FDNY 
and our members.
    [The prepared statement of Dr. Kelly follows:]
                Prepared Statement of Kerry Kelly, M.D.
    Good morning Senators Kennedy, Enzi and Clinton, and other 
committee members. I am Dr. Kerry Kelly, the Chief Medical Officer for 
the New York City Fire Department (FDNY) Bureau of Health Services. Dr. 
David Prezant and I serve as Co-Directors of the FDNY's World Trade 
Center Medical Monitoring and Treatment Program. Thank you for the 
opportunity to speak with you today about the health of our FDNY first 
responders following their exposures at the World Trade Center (WTC) 
site.
    On September 11, 2001, FDNY first responders answered the call for 
help. Within a matter of minutes, with the collapse of the towers, 343 
of our members perished, hundreds suffered acute traumatic injuries and 
thousands have required long-term treatment for respiratory and mental 
health conditions.
    In the hours, days and months that followed, our members continued 
in rescue, recovery and fire suppression efforts, with a virtual job-
wide exposure to the site, working amid the debris and dust from the 
collapse of the towers. More than 11,500 Firefighters and Fire Officers 
as well as 3,000 Emergency Medical Technicians (EMTs) and Paramedics 
participated in this work.
    During that time, FDNY first responders experienced more exposure 
to the physical and emotional hazards at the WTC disaster site than any 
other group of workers. Attached to the written copies of my testimony, 
is a document that provides more detail about our findings and the 
health of our FDNY members and their exposures.
             fdny medical monitoring and treatment program
    The FDNY's WTC Medical Monitoring and Treatment Program is one of 
three Centers of Excellence for WTC Health that is identified in Mayor 
Bloomberg's just-published report on the health impacts of 9/11. The 
FDNY Center of Excellence was the first to provide monitoring and 
treatment for first responders. Since we have pre-9/11 data for all our 
members, it is the only Center of Excellence that can perform large-
scale pre- and post-9/11 comparisons for any exposed group. It is the 
only Center of Excellence with a more than 90 percent participation 
rate. Our Center was the first to recognize and treat members with WTC 
health effects and provide published scientific data so that others 
could recognize the role of WTC exposure.
                         physical health issues
    For those working at the site, respiratory issues surfaced quickly. 
In recognition of these symptoms, FDNY initiated the WTC Medical 
Screening and Treatment Program in October 2001, just 4 weeks after 9/
11. From October 2001 through February 2002, we evaluated more than 
10,000 of our FDNY first responders. Since that time, we have continued 
to screen both our active and retired members for a total of 14,250 
FDNY personnel screened to date. This WTC Medical Monitoring Program 
has been federally funded through the CDC and NIOSH, and has been a 
joint, labor-management initiative. This FDNY program is dedicated to 
monitoring the health of our members, while the Mount Sinai Consortium 
and the Bellevue Center address the health issues of non-FDNY 
responders.
    Our monitoring program works collaboratively, partnering with 
NIOSH. At this point, nearly 9,000 of our FDNY members have 
participated in a second round of FDNY-administered medical and mental 
health monitoring evaluations, and more than 1,300 have recently 
started a third round.
    More than 3,000 of our members have sought respiratory treatment 
since 9/11. Most have been able to return to work, but more than 700 
have developed permanent, disabling respiratory illnesses that have led 
to earlier-than-anticipated retirements among members of an otherwise 
generally healthy workforce. In the first 5 years after 9/11, we 
experienced a three- to five-fold increase in the number of members 
retiring with lung problems annually.
    Since our Bureau of Health Services performs both pre-employment 
and annual medical examinations of all of our members, the WTC Medical 
Monitoring program has used the results of these exams to compare pre- 
and post-9/11 medical data. This objective information enables us to 
observe patterns and changes among members. A significantly higher 
number of Firefighters were found to be suffering from pulmonary 
disorders during the year after 9/11 than those suffering pulmonary 
disorders during the 5-year period prior to 9/11. Furthermore, we have 
found that the drop in lung function is directly correlated to the 
person's initial arrival time at the WTC site. On average, for 
symptomatic and asymptomatic FDNY responders, we found a 375 ml decline 
in pulmonary function for all of the 13,700 FDNY WTC first responders, 
and an additional 75 ml decline if the member was present when the 
towers collapsed. This pulmonary function decline was 12 times greater 
than the average annual decline experienced in the 5 years pre-9/11. 
However, over the past 4 years, pulmonary functions of many of our 
members have either leveled off or improved. For some, unfortunately, 
pulmonary functions have declined. More than 25 percent of those we 
tested with the highest exposure to WTC irritants showed persistent 
airway hyperactivity consistent with asthma or Reactive Airway 
Dysfunction (RADS). In addition, more than 25 percent of our full-duty 
members participating in their follow up medical monitoring evaluation 
continue to report respiratory symptoms.
    The FDNY's preliminary analysis has shown no clear increase in 
cancers since 
9/11. Pre- and post-9/11, the Fire Department continues to see 
occasional, unusual cancers that require continued careful monitoring. 
Monitoring for future illnesses that may develop, and treatment for 
existing conditions, is imperative and, as I will discuss shortly, 
should be funded through Federal assistance.
                          mental health issues
    As our doctors and mental health professionals can attest, the need 
for mental health treatment was also apparent in the initial days after 
9/11, as virtually our entire workforce faced the loss of colleagues, 
friends and family. Past disasters have taught us that first responders 
are often reluctant to seek out counseling services, frequently putting 
the needs of others first. Many times, recognition that they themselves 
need help may not happen for years after an event. Our goal was to 
reduce or eliminate any barrier to treatment so that members could 
easily be evaluated and treated in the communities where they live and 
firehouses and EMS stations where they work. We also developed enhanced 
educational programs for our members to address coping strategies and 
help identify early symptoms of stress, depression and substance abuse.
    Nearly 14,000 FDNY members have sought mental health services 
through the FDNY Counseling Services Unit (CSU) since 9/11 for WTC-
related conditions such as Post Traumatic Stress Disorder (PTSD), 
depression, grief, anxiety and substance abuse. Prior to 9/11, the CSU 
treated approximately 50 new cases a month. Since 9/11 and continuing 
to this date, CSU sees more than 260 cases at its six sites each 
month--more than 3,500 clients annually. The continued stream of 
clients into CSU indicates that the need for mental health services 
remains strong.
                                funding
    Through the efforts of our Mayor and New York City's Congressional 
delegation, and the continued support of our labor partners, we have 
secured funding to continue monitoring and treatment of our members. 
This funding is crucial to our monitoring and treatment programs, and 
we appreciate this committee's efforts to bring the needed attention to 
these issues and our funding needs. Additional funding is needed to 
provide for long-term monitoring because, in environmental-occupational 
medicine, there is often a significant time lag between exposures and 
emerging diseases. For example, the latency periods for most cancers 
are often at least 10 years or more. The actual effect of the dust and 
debris that rained down on our workforce on 9/11 may not be evident for 
years to come.
    Additional funding is also required to continue enhanced diagnostic 
testing and focused treatment of FDNY first responders, addressing both 
physical and mental health problems related to World Trade Center 
exposures. Both our active FDNY members and our retirees face gaps in 
their medical coverage. Early diagnosis and aggressive treatment 
improves outcomes. This is only possible if burdensome out-of-pocket 
costs (co-payments, deductibles, caps, etc.) for treatment and 
medications are eliminated. For example, long-term medication needs for 
aerodigestive (upper and lower respiratory disease with or without 
gastroesophageal reflux dysfunction) and mental health illnesses 
require significant co-payments, taxing the resources of our members. 
In addition, most insurance plans do not adequately cover mental health 
treatment.
                               conclusion
    The 343 who perished at the World Trade Center are tragic reminders 
of the known risks that our first responders take on each and every 
call for help. For those who responded and survive, very real concerns 
for the unknown long-term health consequences remain. For members of 
this athletic and healthy workforce--who face the loss of lung 
function, chronic sinus problems, gastric distress and mental health 
consequences--the exposures at the WTC site have changed lives, 
shortened careers and forever changed the future of those who survived 
that tragedy. The commitment to long-term funding, for both monitoring 
and treatment, must be made now to allow the FDNY WTC Health Center of 
Excellence to plan for the future in order to protect and improve the 
health of our workforce (both active and retired) and to inform lesser 
exposed groups (and their healthcare providers) of the illnesses seen 
and the treatments that are most effective.
    Continued funding for and operation of this Center of Excellence--
the FDNY WTC Medical Monitoring and Treatment Program--is the most 
effective way to do this. Alternative fee-for-service plans will fail 
to provide effective treatment to large numbers of affected FDNY 
members, will not be cost-effective and cannot provide the standardized 
and comprehensive data analysis we need to inform the public, doctors, 
scientists and government officials, all of whom need this information.
    FDNY rescue workers (Firefighters and EMS personnel) answered the 
call for help on 9/11 and continue to do so every day. Now we need your 
continued help to maintain this Center of Excellence so that our 
members can best be served. Thank you for your past efforts, and your 
continued support of the FDNY and our members.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Clinton. Thank you very much, Dr. Kelly.
    Dr. Reibman.

   STATEMENT OF JOAN REIBMAN, M.D., DIRECTOR OF THE BELLEVUE 
 HOSPITAL WORLD TRADE CENTER ENVIRONMENTAL HEALTH CENTER, NEW 
                            YORK, NY

    Dr. Reibman. Thank you, Chairman Clinton, members of the 
committee. My name is Joan Reibman and I am an Associate 
Professor of Medicine and Environmental Medicine at New York 
University School of Medicine and I'm an attending physician at 
Bellevue Hospital, a public hospital on 27th Street in New York 
City.
    I'm a specialist in pulmonary medicine and for the past 15 
years, I directed the Bellevue Hospital Asthma Program. Since 
most of our patients came from Lower Manhattan, which was 
replete with office towers, was also and is a major residential 
community with almost 60,000 residents of diverse race and 
ethnicity backgrounds, living south of Canal Street.
    We were very concerned when the towers collapsed, about the 
health of this population. These residents are economically 
diverse, some living in large, public housing complexes and 
others in newly minted co-ops. The destruction of the World 
Trade Center towers resulted in the dissemination of dust 
throughout Lower Manhattan. These dusts settled on streets, 
playgrounds, cars, and buildings and entered office buildings 
through windows, building cracks and ventilation systems.
    The World Trade Center buildings continued to burn through 
December. Some residents hired professional cleaners to remove 
the dusts; others cleaned their own apartments. Individuals 
living in the communities of Lower Manhattan had potential for 
prolonged exposure to the initial dusts, to re-suspended dusts 
and to the fumes from the fires.
    As pulmonologists in a public hospital, we naturally asked 
whether the collapse of the buildings posed a health hazard to 
these residents and although levels of dust particles and 
particle components were being measured, it seemed to us that 
the only way to measure the true impact was to monitor the 
residents.
    Initially with funds from the Centers for Disease Control, 
we collaborated with the New York State Department of Health to 
examine whether there was an increase in the rate of new 
respiratory symptoms in the residential population. We designed 
and implemented the study and completed the study 16 months 
after 9/11 and these results have been reported in two 
publications and a third to come out.
    Because we did not have the information that the FDNY had 
about pre-existing information, we surveyed residents in 
buildings within 1 mile of Ground Zero and therefore, needed 
control and surveyed individuals who lived a distance away, 
approximately 5 miles from Ground Zero. We surveyed almost 
3,000 individuals and were able to document that 60 percent of 
the individuals in the exposed area compared to 20 percent in 
the control area, reported new onset respiratory symptoms such 
as cough, wheezing or shortness of breath at any time following 
9/11.
    The more important question to us, however, was whether 
these symptoms were going to persist and we were able to ask 
whether they persisted approximately a year after the event. We 
documented new onset and persistent symptoms such as eye 
irritation, nasal irritation, sinus congestion, nosebleed or 
headache in 43 percent of exposed residents, more than three 
times the number of exposed compared to control residents.
    Exposed residents also had a three-fold increase in 
respiratory symptoms of any kind compared to control. This 
included an increase in new onset versus the cough, day time 
shortness of breath and a six-and-a-half-fold increase in 
wheezing. These reported symptoms were also associated with 
objective measures of illness--that is, unexplained medical 
visits and medications used for asthma.
    This study was one of the first studies and particularly 
one of the few with a control population, to describe the 
incidence--that is, the development of new and of persistent 
symptoms among residents of Lower Manhattan after 9/11.
    Do these symptoms persist today? Over 5 years, almost 6 
years after the attack and some almost 4 years after our study. 
When it comes to residents and local office workers, to date, 
we still have little information. The New York City Department 
of Health and Mental Hygiene World Trade Center Registry, which 
was implemented after our study was completed and closed in 
2004, has reported a similar pattern of symptoms in office 
workers but has not addressed the issue of persistence. This 
question is now being addressed with a second study implemented 
by the New York City Department of Health and Mental Hygiene 
Registry and we look forward to the results, which will help 
shed light on this question.
    While we await more survey information, we are looking, 
however, at what we are seeing in our clinics. After 9/11, we 
began to treat residents who felt they had World Trade Center-
related illness in our Bellevue Hospital Asthma Clinic. We were 
then approached by community groups such as the Beyond Ground 
Zero Network, a coalition of community organizations and 
together with these groups, began an unfunded program to treat 
residents.
    We were awarded an American Red Cross Liberty Disaster 
Relief Grant to set up a medical treatment program for World 
Trade Center-related illness in residents and responders, which 
began functioning in September 2005. In September 2006, Mayor 
Bloomberg announced the new initiative to provide for 
evaluation and treatment of individuals with suspected World 
Trade Center-related illness and this city funding of $16 
million over 5 years has allowed us to expand the program.
    With this funding, we have evaluated and are currently 
treating over 1,000 individuals. In the past month alone, with 
minimal outreach, we received over 400 calls to enter the 
program. We have a wait list of hundreds. These requests are 
from local residents of diverse socio-economic status, some of 
whom were evacuated but others who were left in their 
apartments with no place to go. We also receive calls from 
office workers, many of whom were caught in the initial dust 
cloud as the towers disintegrated and many of whom, responding 
to the need to keep the city going, returned to work 1 week 
later. And we have a large contingency of cleanup workers, the 
individuals who removed the layers of dust that had infiltrated 
the surrounding commercial and office spaces in order to allow 
the city to function. Sixty percent of our population is 
uninsured and many are non-English speaking.
    An individual has to have a physical symptom to enter our 
program. We are not a screening program for asymptomatic 
individuals. Most of our patients have symptoms that began 
after 9/11 and as you have heard over and over today, consist 
of upper respiratory symptoms such as sinus congestion, lower 
respiratory symptoms such as cough, shortness of breath or 
wheezing. They are seeking care for these symptoms over 5 years 
after 9/11.
    We have individuals--a gentleman we just recently saw, a 
former broker in government securities, who was working at 80 
Pine Street, just east of the towers and was caught in the dust 
cloud on 9/11. He returned to work 1 week later and soon 
developed a persistent, unremitting cough. Over the next few 
years, he sought care by a variety of physicians and was told 
it was recurrent bronchitis, pneumonia and finally 1 year ago 
was told that he had reactive airways dysfunction. Last year 
alone, he required five courses of Prednisone, a steroid 
medication. Now, no longer working and on chronic inhaled 
medications, on a good day, he can walk five blocks.
    Although he has medical insurance and was able to receive 
medical care, you could ask why does he need our program? He 
needs a Center with expertise and a familiarity with World 
Trade Center health effects that can understand what his 
symptoms are and attribute his symptoms to a cause.
    Or we have another gentleman, a 37-year-old resident of 
Beekman Street, again just east of the towers, who before 9/11 
had not had a sick day in 10 years. He was training to run the 
marathon. He stayed in Lower Manhattan, having no place to go, 
cleaned his dust-covered apartment and 1 year later, noted the 
onset of shortness of breath and wheezing. He now requires 
daily high-dose inhale steroids and bronchodilators to control 
his symptoms. Why does he need a program like ours? He has no 
insurance.
    Whereas many of these individuals have symptoms that can be 
treated like asthma, others have a process in their lungs that 
we do not fully understand and may consist of a granulomatous 
disease of the lung, like sarcoid or fibrosis, which is a 
scarring in the lungs.
    And although we call ourselves a treatment program, many 
questions remain. We do not know how best to evaluate and 
monitor the symptoms. We do not know who may need lung 
biopsies. We do not know which medications work best. We do not 
know how long we will need to treat these individuals and if 
the symptoms will completely resolve. We do not understand the 
underlying mechanism or pathology of the symptoms.
    Finally, we do not know whether other diseases will emerge. 
The threat of cancers, particularly those of the blood or lymph 
nodes, remains a concern. We know that many residents and 
workers of Downtown Manhattan were subjected to environmental 
insults on a large scale and many will require continued 
screening and treatment for years to come. We can only answer 
these questions when we have Centers that see clusters of 
patients and identify patterns and perform epidemiological, 
clinical and translational research studies.
    These illnesses are contained to those exposed to the dusts 
and fumes. They are not contagious and will not spread. So why 
is funding of these programs a national need? Clearly, this was 
a national disaster and we have a population to care for. But I 
would also argue that there has been much talk of preparedness. 
We hope that there will never be an environmental disaster of 
this magnitude but these programs developed as community, 
labor, medical and government collaborations serve as models 
for environmental disaster responses. The need to fund these 
models is ongoing.
    Finally, I would argue that these Centers, which allow for 
the study and understanding of this environmental disaster, 
will generate information on the detection and treatment of 
environmental diseases that will benefit the Nation as a whole.
    I thank Mayor Bloomberg for funding our program and Members 
of Congress for their efforts to provide funding for monitoring 
treatment and members for having this important hearing. We 
need continued support for treatment programs for residents, 
local workers and individuals involved in rescue, recovery and 
debris removal.
    [The prepared statement of Dr. Reibman follows:]
                Prepared Statement of Joan Reibman, M.D.
    Thank you Chairman Kennedy, Ranking Member Enzi, and members of the 
Health, Education, Labor, and Pensions Committee.
    My name is Joan Reibman, and I am an Associate Professor of 
Medicine and Environmental Medicine at New York University School of 
Medicine, and an Attending Physician at Bellevue Hospital, a public 
hospital on 27th Street in NYC. I am a specialist in pulmonary 
medicine, and for the past 15 years, I have directed the Bellevue 
Hospital Asthma Program. Most of my patients come from Lower Manhattan, 
which, though replete with office towers, is also a major residential 
community; almost 60,000 residents of diverse race and ethnicity 
backgrounds live south of Canal St. alone (U.S. census data). The 
residents are economically diverse, some living in large public housing 
complexes, others in newly minted coops.
    The destruction of the WTC towers resulted in the dissemination of 
dusts throughout Lower Manhattan. These dusts settled on streets, 
playgrounds, cars, and buildings. Dusts entered apartments through 
windows, building cracks, and ventilation systems.
    The WTC buildings continued to burn through December. Some 
residents hired professional cleaners to remove the dusts; many cleaned 
their own apartments. Thus individuals living in the communities of 
Lower Manhattan had potential for prolonged exposure to the initial 
dusts, to re-suspended dusts and to the fumes from the fires. As 
pulmonologists in a public hospital, we naturally asked whether the 
collapse of the buildings posed a health hazard for these residents. 
Although levels of dust particles and particle components were being 
measured, it seemed to us that the only way to measure the true impact 
was to monitor the residents.
    With funds from the Centers from Disease Control, we collaborated 
with the New York State Department of Health to examine whether there 
was an increase in the rate of new respiratory symptoms. The study was 
designed, implemented and completed 16 months after 9/11/01 and the 
results have been reported in two publications (Reibman et al. The 
World Trade Center residents' respiratory health study; new-onset 
respiratory symptoms and pulmonary function, Environ. Health Perspect. 
2005; 113:40-411. Lin et al. Upper respiratory symptoms and other 
health effects among residents living near the world trade center site 
after September 11, 2001, Am. J. Epidemiol. 2005; 162:499-507). We 
surveyed residents in buildings within 1 mile of Ground Zero, and, for 
purposes of control, other lower-risk buildings approximately 5 miles 
from Ground Zero. Lung function testing, consisting of screening 
spirometry, was performed in a subgroup of individuals in the field. 
Analysis of the 2,812 residents in the exposed area revealed that 
approximately 60 percent of individuals in the exposed area compared to 
20 percent in the control area reported new onset respiratory symptoms 
such as cough, wheezing, or shortness of breath, at any time following 
9/11. The more important question, however, was whether these symptoms 
resolved over time, or persisted. To address this question, we examined 
whether symptoms persisted in the month preceding completion of the 
survey (8-16 months after 9/11) with a frequency of at least twice/
week. Such new-onset and persistent symptoms as eye irritation, nasal 
irritation, sinus congestion, nose bleed, or headaches were present in 
43 percent of the exposed residents, more than three times the number 
of exposed compared to control residents. New-onset persistent lower 
respiratory symptoms of any kind were present in 26.4 percent versus 
7.5 percent of exposed and control residents respectively; a more than 
three-fold increase in symptoms. This included an increase in new 
onset, persistent cough, daytime shortness of breath, and a 6.5-fold 
increase in wheeze (10.5 percent of exposed residents versus 1.6 
percent of control residents respectively). These respiratory symptoms 
resulted in an almost two-fold increase in unplanned medical visits and 
use of medications prescribed for asthma (controller and fast relief 
medications) in the exposed population compared to the control 
population.
    There were some potential limitations to our studies. Because of 
the unexpected nature of the disaster, we had to rely on self-reported 
health information. One must keep in mind that during the time of the 
study, the postal service was not functioning in Lower Manhattan and 
often mail did not reach residents--we resorted to hand delivery. 
Residents were moving in and out of the buildings, were emotionally 
distraught, and were being bombarded with a variety of forms for 
housing services, clean-up services, etc. Our response rate, though 
low, is comparable to that of the U.S. Census and we confirmed our 
data, by targeting a few buildings in the exposed and control areas 
with more intense outreach that resulted in a better response rate (44 
percent). The data from this group was similar to that from the overall 
study.
    This study was one of the few studies, and particularly one of the 
few with a control population, to describe the incidence of respiratory 
symptoms among residents of Lower Manhattan after 9/11/01. It suggested 
that many residents had new onset symptoms in the immediate aftermath, 
with persistence of symptoms in the year after the event. Our findings 
are similar to those now described through the NYCDOHMH WTC Registry.
    Do these symptoms persist today, over 5 years after the attack and 
some 3\1/2\ years after our study? When it comes to residents and local 
office workers, we have little information. The NYCDOHMH WTC Registry, 
which was implemented after our study was completed, and closed in 
2004, found a similar pattern of symptoms in residents and office 
workers, but did not address the issue of persistence. This question is 
now being addressed with a second study implemented by the NYCDOHMH WTC 
Registry and we look forward to the results, which will help shed light 
on this question.
    While we await more survey information, we are cognizant of what we 
are seeing in our clinics. After 9/11, we began to treat residents who 
felt they had WTC-related illness in our Bellevue Hospital Asthma 
Clinic. We were then approached by the Beyond Ground Zero Network, a 
coalition of community organizations, and together began an unfunded 
program to treat residents. We were awarded an American Red Cross 
Liberty Disaster Relief Grant to set up a medical treatment program for 
WTC-related illness in residents and responders, which began 
functioning in September 2005. In September 2006, Mayor Bloomberg 
announced new initiatives to provide for evaluation and treatment of 
individuals with suspected World Trade Center-related illnesses and 
this city funding of $16 million over 5 years has allowed us to expand 
the program.
    To date, we have evaluated and are treating over 1,000 individuals. 
In the past month alone, with minimal outreach, we received over 400 
calls to enter the program. We have a wait list of hundreds. These 
requests are from local residents of diverse socioeconomic status, some 
of whom were evacuated, but others who were left in their apartments, 
with no place to go. We also receive calls from office workers, many of 
whom were caught in the initial dust cloud as the towers disintegrated 
and then later returned to work. And we have a large contingency of 
clean-up workers, the individuals who removed the layers of dusts that 
had infiltrated the surrounding commercial and office spaces in order 
to allow the city to function.
    An individual has to have a physical symptom to enter our program; 
we are not a screening program for asymptomatic individuals. Most of 
our patients have symptoms that began after 9/11 and consist of upper 
respiratory symptoms such as sinus congestion (45 percent), or lower 
respiratory symptoms, such as cough (52 percent), shortness of breath 
(65 percent) or wheezing (36 percent), for which they are still seeking 
care, 5 years after 9/11. We have individuals like J.K., a former 
broker in government securities, who was working at 80 Pine Street, 
just east of the towers, and was caught in the dust cloud on 9/11. He 
returned to work 1 week later and soon after developed a persistent 
unremitting cough. He sought care by a variety of physicians and was 
told of recurrent bronchitis, pneumonia, and finally 1 year ago, was 
told that he had reactive airways dysfunction. Last year alone, he 
required 5 courses of prednisone--a steroid medication. Now, no longer 
working, and on chronic inhaled medications, on a good day, he can walk 
5 blocks.
    Or M.R. a 37-year-old resident of Beekman Street, just east of the 
towers, who went 10 years without a sick day and trained for the 
marathon. He stayed in Lower Manhattan, having no place else to go, 
cleaned his dust-covered apartment and 1 year later, noted the onset of 
shortness of breath and wheezing. He now requires daily high dose 
inhaled steroids to control his symptoms.
    Or J.F. a healthy man, a carpenter at the NY Stock exchange, caught 
in the dust cloud, who helped clean up the exchange, now with lung 
function that is 60 percent of normal.
    Whereas many of these individuals have symptoms that can be treated 
like asthma, others have a process in their lungs that we do not fully 
understand and may consist of a granulomatous disease of the lung like 
sarcoid, or fibrosis, which is a scarring in the lungs. And although we 
call ourselves a ``treatment'' program, many questions remain. We do 
not know how best to evaluate and monitor the symptoms. We do not know 
which medications work best. We do not know how long we will need to 
treat these individuals and if the symptoms will completely resolve. We 
do not understand the underlying mechanism or pathology of the 
symptoms. Only rare individuals, those with atypical presentations or a 
failure to respond to treatment, have had invasive tests, which may 
help reveal the underlying pathology. Finally, we do not know whether 
other diseases will emerge, the threat of cancers, particularly those 
of the blood or lymph nodes, remains a concern. We know that many 
residents and workers of Downtown Manhattan were subjected to 
environmental insults on a large scale and many will require continued 
screening and treatment for years to come. Our unanswered questions 
suggest the continued need for epidemiologic, clinical and 
translational research studies to help answer these questions.
    I thank Mayor Bloomberg and Members of Congress for their efforts 
to provide funding for monitoring and treatment and members present for 
having this important hearing. We need continued support for treatment 
programs for residents, local workers, and individuals involved in 
rescue, recovery, and debris removal.
    Pertinent funding to Joan Reibman, MD.:

2001-2002: CDC, World Trade Center Residents Respiratory Survey 
    (Institutional P.I, Lin P.I.).
2001-2003: NIH, NIEHS, World Trade Center Residents Respiratory Impact 
    Study: Physiologic/Pathologic characterization of residents with 
    respiratory complaints (P.I.).
2004-2005: CDC, NIOSH WTC Worker and Volunteer Medical Monitoring 
    Program (P.I.).
2005-2007: American Red Cross Liberty Disaster Relief Fund (P.I.).
2006-2011: New York City funding for Bellevue WTC Environmental Health 
    Center.

    Senator Clinton. Thank you very much, Doctor.
    Dr. Melius.

 STATEMENT OF JAMES MELIUS, M.D., Ph.D., CHAIR, ADVISORY BOARD 
  OF THE WORLD TRADE CENTER MEDICAL MONITORING AND TREATMENT 
                      PROGRAM, ALBANY, NY

    Dr. Melius. Thank you, Senator Clinton, Congressman Nadler. 
I'm Dr. James Melius. I'm an occupational physician and 
epidemiologist. I currently work as the Administrator for the 
New York State Laborers' Health and Safety Trust Fund, which is 
a labor management organization.
    I've been involved in health issues for World Trade Center 
responders since shortly after September 11. Over 3,000 of our 
union members were involved in response and cleanup activities 
at the site and in fact, I have with me here today in the 
audience, two of our union members, Daniel Arriga and Vladmir 
Lomek, both of whom worked at the site, both of whom have 
developed significant respiratory and other health problems due 
to their work down at the World Trade Center. They are among 
the many different people that--the type of groups that have 
been--developed significant illness.
    Dr. Herbert, I believe, has already sort of described the 
diversity of the groups that worked at the World Trade Center 
and I was asked in my testimony to focus on some of the issues 
related to health insurance and workers' compensation and 
regarding potential sources that could help to pay for the 
costs of the monitoring and treatment for these workers.
    Now, in my written testimony, I've outlined a number of the 
issues that have come up with the use of health insurance for 
this type of coverage. It includes the fact that many of the 
people were uninsured, many have lost coverage because of their 
health problems and disabilities, many also faced very high 
deductibles or copays and significant out-of-pocket expenses 
for them that can limit their abilities to pay for medications 
and other necessary medical care.
    Also, one basic problem with health insurance is that it's 
not supposed to pay for--it's excluded from paying for work-
related illnesses. So even the Medicare system has a program in 
place to try to recognize that something being asked for 
reimbursement may be work-related and to question that or to 
stop payment for that is common with other health insurance. So 
there may be sort of a period of time where there is 
uncertainty about the work-relatedness of the illness that 
health insurance will cover but at some point, it stops paying 
for work-related health conditions. So this is going to be a 
significant problem and one can't expect health insurance to 
provide the overall coverage for this program.
    It also is a problem because it shifts the burden of paying 
for all these illnesses or much of the burden, over to our 
health insurance funds. As many of the other union leaders who 
are here in the audience can tell you, our union health 
insurance funds have seen the financial burdens of this. We are 
paying--our costs have gone up in all our funds due to the 
large numbers of people with World Trade Center-related 
illnesses that we are providing some reimbursement and 
healthcare for.
    So it's very hard to see health insurance as paying for a 
significant portion of the medical monitoring and treatment 
needs for this population.
    Now one would also expect that the workers' compensation 
system would provide coverage in some way for this. However 
again, as I outlined in my testimony, there are many problems 
with the health--the workers' compensation coverage that is 
available for these responders. Basically two systems, one is 
sort of the line-of-duty disability and pension, retirement 
system for the uniformed services in New York and finally, the 
other is the regular workers' compensation insurance system run 
through the State of New York but usually paid for either 
through self-insurance or through private insurance companies.
    Unfortunately, these systems have long bureaucratic delays 
built into them, particularly the State Workers' Compensation 
System. It can take months or years for a claim to be processed 
and even while that is being processed, the insurance company 
or person handling the claim will often contest almost every 
step of that process, including diagnostic testing, including 
even routine medications for the chronic condition, even after 
a claim has been accepted. So although many of the people 
involved in seeking treatment for their World Trade Center-
related condition have applied for workers' compensation, it 
may be months or years before their claims may be recognized 
and even then, there is a great amount of uncertainty to this.
    The city of New York outlined in their report that even the 
city of New York routinely contests every claim that is related 
to World Trade Center-related conditions. So I think it is 
unfair to expect the workers' compensation system, certainly in 
the short term, to be able to provide for the health coverage, 
the medical monitoring and treatment program costs.
    New York State has taken some steps to try to improve that 
situation, to improve the processing claims for World Trade 
Center-
related illnesses. Most of those changes have just gone into 
place or are going into place but even with these changes, I 
don't think we can expect the workers' compensation system to 
provide a full cost for this treatment program. And it also is 
a problem because it shifts the burden over again to either the 
city, in the case of someone that is self-insured or to the 
private companies and their insurers, to pay for these costs.
    We believe that a comprehensive solution is needed to 
address these healthcare needs for the 9/11 responders. We 
cannot rely on a fragmented, patchwork system utilizing private 
philanthropy, limited health insurance, line-of-duty disability 
retirement and workers' compensation to support the necessary 
medical monitoring and treatment for the thousands of people 
that need it. This approach will inevitably leave many of the 
ill and disabled rescue and recovery workers without needed 
medical treatment, which can only worsen their conditions and 
certainly over the shorter term, this is a critical period. As 
we are recognizing, Dr. Kelly, Dr. Herbert, and Dr. Reibman 
have pointed out through the programs that they are leading, we 
have in place a good monitoring, good diagnostic centers. They 
need to be in place to also provide treatment and we don't want 
to delay that treatment or unnecessarily disrupt that treatment 
due to issues over who is going to pay for this cost or to 
drive people away from that treatment because they cannot 
afford it.
    So we would recommend in the shorter term that you take 
immediate steps. We need funding for the treatment program. 
That's the one that is most immediately in jeopardy that I 
think the city has pointed out in their testimony, some of the 
estimated costs. There are other cost estimates out there that 
are on that order, $400 million or more for the overall 
program.
    I would also urge you to--we need to expand the current 
programs to fund Dr. Riebman's program and other programs for 
the residents and other affected workers in the downtown area.
    And finally, I think we also need a program, a long-term 
program in place to cover not only the medical costs but also 
the wage loss and other disability costs to the many people who 
become very seriously ill related to the World Trade Center-
related work. Something like Victims Compensation Fund, which 
has already been discussed here, would be one solution. There 
may be other approaches that can be looked at but we need to 
provide that type of care and certainly it's something where 
the Federal Government needs to play a lead role in providing 
the funding and the structure for that program.
    Thank you. I'd be glad to answer questions at the 
appropriate time.
    [The prepared statement of Dr. Melius follows:]
             Prepared Statement of James Melius M.D., Ph.D.
    Honorable Chairman Kennedy, Ranking Member Enzi, Senator Clinton 
and other members of the Health, Education, Labor, and Pensions 
Committee. I greatly appreciate the opportunity to appear before you at 
this hearing.
    I am James Melius, an occupational health physician and 
epidemiologist, who currently works as Administrator for the New York 
State Laborers' Health and Safety Trust Fund, a labor-management 
organization focusing on health and safety issues for union 
construction laborers in New York State. During my career, I spent over 
7 years working for the National Institute for Occupational Safety and 
Health (NIOSH) where I directed groups conducting epidemiological and 
medical studies. After that, I worked for 7 years for the New York 
State Department of Health where, among other duties, I directed the 
development of a network of occupational health clinics around the 
State. I currently serve on the Federal Advisory Board on Radiation and 
Worker Health which oversees part of the Federal compensation program 
for former Department of Energy nuclear weapons production workers.
    I have been involved in health issues for World Trade Center 
responders since shortly after September 11. Over 3,000 of our union 
members were involved in response and clean-up activities at the site. 
One of my staff spent nearly every day at the site for the first few 
months helping to coordinate health and safety issues for our members 
who were working there. When the initial concerns were raised about 
potential health problems among responders at the site, I became 
involved in ensuring that our members participated in the various 
medical and mental health services that were being offered. For the 
past 3 years, I have served as the chair of the Steering Committee for 
the World Trade Center Medical Monitoring and Treatment Program. This 
committee includes representatives of responder groups and the involved 
medical centers (including the NYC Fire Department) who meet monthly to 
oversee the program and to ensure that the program is providing the 
necessary services to the many people in need of medical follow up and 
treatment. I also serve as co-chair of the Labor Advisory Committee for 
the WTC Registry operated by the New York City Department of Health. 
These activities provide me with a good overview of the benefits of the 
current programs and the difficulties encountered by responders seeking 
to address their medical problems and other needs.
    I believe that Dr. Kelly and Dr. Herbert have already presented the 
medical findings from their respective medical program for these 
responders. The pulmonary disease and other health problems among both 
firefighters and other responders are quite striking and quite 
worrisome. Both programs have done an outstanding job in establishing 
their respective monitoring programs and in providing high quality 
medical examinations for many thousands of rescue workers and 
responders. These programs also recognized the problems that many of 
their participants were having paying for medical care for the 
conditions diagnosed in the medical monitoring programs and have made 
efforts to help the participants in obtaining necessary assistance. 
Given that one of the purposes of this hearing is to examine the need 
for more funding for treatment for people in this program, I believe 
that it may be helpful to examine the reasons why so many of the 
participants need assistance for paying for their medical treatment.
                       health insurance coverage
    The people who worked in the initial response to the September 11 
disaster and the later recovery activities represented many different 
types of workers. On the public safety side, there were firefighters, 
police, and emergency medical services workers. The response and 
recovery activities also included construction trades workers, utility 
workers, sanitation workers, transit workers, cleaning workers, and NYC 
municipal workers from many agencies. Many other people just 
volunteered to work at the site especially in the first few days after 
September 11. Despite the diversity of backgrounds and job duties, 
these different groups are showing very similar patterns of illness. 
The pulmonary changes found in firefighters have also been demonstrated 
in the rescue and recovery workers being monitored in the Mount Sinai 
medical program. Most recently, an independent study conducted by 
medical researchers at Penn State University of NYC police officers 
responding to the WTC disaster reported similar respiratory findings 
among the group that they examined. The other types of medical and 
mental health problems documented among WTC responders also appear to 
be similar across all groups of responders.
    However, given the diversity of this workforce, it is not 
surprising that their health insurance coverage might be quite 
variable. We are currently surveying the major union groups in New York 
whose members worked in the WTC response to evaluate their health 
insurance and disability coverage. We would be glad to provide that 
information to the committee when it is complete. However, I can 
provide a general overview.
    All city workers are covered through the city's general health 
insurance plan which provides basic coverage including retirement 
coverage for long time workers. However, pharmaceutical coverage is 
provided through a different plan administered through each separate 
union. Construction trade workers are usually covered through their 
labor-management health insurance fund which provides basic health 
insurance coverage and some pharmaceutical coverage. The pharmaceutical 
coverage is often quite limited with high deductibles and copays. These 
health plans require that the participant work a substantial number of 
days each quarter or year in order to maintain eligibility. An ill 
construction worker can easily lose their coverage by missing too many 
work days. Utility workers have general medical coverage including some 
pharmaceutical benefits. Cleaning workers (people who cleaned the 
residential and commercial buildings around the WTC) often worked for 
contractors who offered no health benefits at all. The majority of the 
people in the Mt. Sinai treatment program up to now have had no health 
insurance coverage or very limited coverage.
    All health insurance plans exclude coverage for work-related 
injuries and illnesses. Even Medicare has an active program to identify 
and recover payments for work-related services. While it is recognized 
that there may be uncertainty about whether a condition being diagnosed 
is work-related or not, this consideration could easily lead to the 
denial of health insurance coverage for many people with WTC-related 
health conditions. New York State does have in place mechanisms for 
health insurance providers to be reimbursed for medical expense 
payments incurred for conditions that are ultimately determined to be 
eligible for workers' compensation coverage. However, these mechanisms 
are administratively complicated and do not necessarily prevent the 
health insurer from denying reimbursement for WTC-related health 
expense.
    Another problem with health insurance is the limitations on 
coverage of many of the health insurance plans that cover the 
participants. This is especially critical for pharmaceutical coverage. 
Treatment for many of the WTC-related conditions (asthma, mental health 
problems, etc.) requires substantial medication costs. These costs 
commonly range from $5,000 to nearly $15,000 per year for participants. 
Many of the plans covering WTC participants have high deductibles or 
copays. Copays and deductibles can easily cost the participants with 
high medication costs several thousand dollars per year. These costs 
can severely strain the finances of a person with a moderate income 
especially if they have other health care costs and are missing 
significant time from their work due to illness. For those without any 
health insurance, the financial impact is even greater. Another 
potential problem is that many of these insurance programs have 
lifetime caps for each participant. Although these caps seem high 
($500,000 to $1 million or more), they can easily be exceeded with a 
long-term serious illness.
    The medical and pharmaceutical costs for WTC-responders have also 
severely strained the health insurance plans for many of the responder 
groups, especially those providing pharmaceutical coverage. These funds 
are already stressed by the rapidly rising costs of health care. Those 
plans with a significant number of members who worked at the WTC 
response and clean-up have found that the overall medical and 
pharmaceutical costs for their plans have significantly increased due 
to the large number of participants with WTC-related medical costs. 
This has even led some to consider cutting back on their benefits for 
all members in order to absorb the costs for the WTC group.
                     workers' compensation coverage
    One alternative to health insurance coverage for WTC-related 
conditions is workers' compensation insurance. Workers' compensation is 
supposed to be a no fault insurance system to provide workers who are 
injured or become ill due to job-related factors with compensation for 
their wage loss as well as full coverage for the medical costs 
associated with the monitoring and treatment of their condition.
    Similar to health insurance, the WTC program participants are 
covered by a variety of State, Federal, and local programs with 
different eligibility requirements, benefits, and other provisions. 
Most private and city workers are covered under the New York State 
Workers' Compensation system. New York City is self insured while most 
of the private employers obtain coverage through an outside insurance 
company. Uniformed services workers are, for the most part, not covered 
by the New York State Workers' Compensation system but rather have a 
line of duty disability retirement system managed by New York City. A 
firefighter, police officer, or other uniformed worker who can no 
longer perform their duties because of an injury or illness incurred 
while on duty can apply for a disability retirement which allows them 
to leave with significant retirement benefits. However, should a work-
related illness first become apparent after retirement, no additional 
benefits (including medical care) are provided, and the medical 
benefits for even a recognized line of duty medical problem end when 
the person retires. Federal workers are covered under the compensation 
program for Federal workers. Coverage for workers who came from out-of-
state will depend on their employment arrangements with their private 
employer or agency. However, volunteers from New York or from out-of-
State are all covered under a special program established by the New 
York Workers Compensation Board after 9/11.
    The major difficulty with these compensation systems is the long 
delays in obtaining coverage. For example, the NYS Workers' 
Compensation system is very bureaucratic. The insurer may challenge 
every step of the compensation process including even diagnostic 
medical testing. This challenge usually requires a hearing before a 
Workers' Compensation Board (WCB) administrative judge to evaluate the 
case, and this hearing may often be delayed for months. Even once the 
case is established, the insurer can still challenge treatments 
recommended for that individual even for a medication that the 
individual may have been taking for many months for a chronic work-
related condition. Thus, it may be many years before the case of a 
person with a WTC-related condition is fully recognized and adjudicated 
by the compensation system. Meanwhile, the claimant may not be 
receiving any medical or compensation benefits or may have had their 
benefits disrupted many times.
    In order to alleviate some of the problems for WTC claimants, last 
year New York State implemented some new programs that were designed to 
improve coverage for WTC responders by providing medical coverage and 
salary compensation for responders while their WCB cases were being 
evaluated. However, these provisions must be initiated by the insurer 
carrier, and there is uncertainty as to who would be responsible for 
reimbursing these costs if the claims are ultimately denied. To date, 
these provisions do not appear to be widely used. There was also 
legislation passed last year that allows more New York City workers to 
obtain disability retirement benefits for WTC-related conditions. 
Currently, there is an advisory task force in place that is examining 
how best to implement this legislation. Finally, there was a bill 
passed allowing people who worked at the WTC site to register for 
Workers' Compensation benefits. Potential claimants were given a year 
to submit a registration form to the Board that makes them eligible to 
apply for benefits should they later develop a WTC-related health 
condition. Prior to that, claimants who later developed a WTC-related 
medical condition were not eligible to file claims because they were 
judged to have missed the filing deadline required by law. In addition, 
New York State has just passed broad workers' compensation reform 
legislation that makes many changes in the current system. Once 
implemented, this legislation could help to alleviate some of the 
delays in the current system. However, it will be some time before all 
of these changes assist WTC claimants. Meanwhile, claimants continue to 
face long delays and many hurdles in obtaining workers' compensation 
coverage for any conditions resulting from their WTC exposures. It is 
not clear that the recent changes in the system will adequately address 
these problems.
    I would also add that depending on workers' compensation and 
disability retirement systems to cover the medical costs for the 
monitoring and treatment program places the financial burden on the 
employers and insurance companies. New York City is self insured and 
thus would pay directly for all claims. The private employers involved 
will also have greater costs either by directly paying for claims if 
they are self insured or through higher premiums due to an increase in 
their experience rating.
                         comprehensive solution
    A comprehensive solution is needed to address the health needs of 
the 9/11 rescue and recovery workers. We cannot rely on a fragmented 
system utilizing private philanthropy, health insurance, line of duty 
disability retirement, and workers' compensation to support the 
necessary medical monitoring and treatment for the thousands of people 
whose health may have been impacted by their WTC exposures. This 
fragmented approach will inevitably leave many of the ill and disabled 
rescue and recovery workers without needed medical treatment and will 
only worsen their health conditions. The delays and uncertainty about 
payments would discourage many of the ill rescue and recovery workers 
from seeking necessary care and discourage medical institutions from 
providing that care.
    This is a critical time for the federally funded treatment 
programs. Their funding will soon run out, and Federal officials are 
already proposing sending letters informing the participants that they 
must seek alternative arrangements for their care. Attempting to 
provide this care through some sort of voucher system as is currently 
being considered by the Department of Health and Human Services would 
also be disruptive. Discontinuing or disrupting this high quality, 
coordinated medical treatment would only exacerbate the health 
consequences of the 9/11 disaster. Most of the participants in the 
monitoring and treatment program have medical conditions (asthma, 
mental health problems, etc.) that should be responsive to medication 
and other treatments. Hopefully, many of these people will gradually 
recover and not become disabled due to their WTC-related medical 
conditions. To the extent, that we can prevent worsening of the medical 
conditions and prevent many of these people from becoming too disabled 
to work, we can not only help these individuals, but we can also lower 
the long-term costs of providing care and assistance to this 
population.
    Continued funding is also needed for the medical monitoring portion 
of this program. You have already heard about the benefits of the 
Centers of Excellence approach for providing and coordinating the 
medical monitoring and treatment of the 9/11 rescue and recover 
workers. We must be able to follow the health status of these 
participants, not only to provide better medical care but also to 
evaluate the possible occurrence of new WTC-related conditions. Neither 
workers' compensation nor health insurance will support this type of 
comprehensive service. This program should also be extended to the 
residents and workers in the area around the WTC who were also exposed 
to the dust and smoke from the site. Too often in the past, we have 
neglected to properly monitor the health of groups exposed in 
extraordinary situations only to later spend millions of dollars trying 
to determine the extent to which their health has been impacted. Agent 
Orange exposure in Vietnam and the current compensation program for 
nuclear weapons workers are only two examples of this problem. We 
should learn the lessons from these past mistakes and make sure that we 
provide comprehensive medical monitoring for those potentially impacted 
by the WTC disaster.
    Finally, we need to address the longer term compensation issues for 
the 9/11 rescue and recovery workers. This is a difficult issue due to 
the fragmented and adversarial nature of the current compensation 
systems and the potential costs for such a program. One proposal has 
been to restart the September 11th Victim Compensation Fund. This fund 
worked well for those immediately affected by the 9/11 disasters and 
would have the flexibility to take into account the differing benefits 
programs already available for anyone applying for compensation. 
However, other approaches to long-term compensation should also be 
considered.
    In summary, the current health insurance and workers' compensation 
programs do not provide an adequate basis to ensure access to 
sufficient medical monitoring and treatment for 9/11 rescue and 
recovery workers. I would strongly urge you to take immediate steps to 
ensure that there is adequate Federal funding for the current medical 
monitoring and treatment programs and to open up these programs or 
similar programs to the affected residents and to other affected 
workers. I would also urge you to develop legislation to provide 
individuals access to long-term medical treatment for their WTC-related 
medical conditions and compensation for their losses.
    I would be glad to answer any questions.

    Senator Clinton. Thank you very much.
    Dr. Stellman.

 STATEMENT OF JEANNE MAGER STELLMAN, PH.D., MAILMAN SCHOOL OF 
        PUBLIC HEALTH, COLUMBIA UNIVERSITY, NEW YORK, NY

    Dr. Stellman. Thank you very much for inviting me to 
present. I'm a Professor of Public Health at the Mailman's 
School at Columbia University and I'm going to try to give you 
a very brief, more general perspective on the exposure and on 
the need to continue the monitoring of the responders. Just 
today, Esquire Magazine published an expose on the monitoring 
that came out of--one of the editors of Esquire had a messenger 
bag that he carried with him on 9/11 and they took it out to 
Cahill out at UC-Davis and he did his analysis on one of the 
few pristine samples available and the New York Post apparently 
screamed a headline that the World Trade Center residue was 
less toxic than we thought. All of that is pretty meaningless 
and if you read the article, Cahill says that himself because 
there are no representative samples. We don't know what the 
overall exposure was. The exposure changed from moment to 
moment, from day to day, from site to site. Even if anybody had 
bothered trying to take representative samples, chances are 
that their filters would have been completely clogged because 
this was the largest environmental conflagration of a site that 
we have ever experienced in this country. Technologically, 
there may be some natural ones and it is unnecessary to 
actually know the complete characterization. It's undoable and 
unneeded because that is not the measure that we have ever used 
for any other experimental exposure.
    We do know that we had a six-story high rubble of cement 
dust, highly alkaloid, man-made mineral fibers, asbestos, the 
remains, the pulverized and volatilized remains of thousands of 
video display terminals, electric lights, plastics. We had 
smoldering and open fires, which daily would be generating 
polycyclic, polychlorinated biphenyls, dioxins, furans, other 
chloridates, benzenes, and metals. This was then followed, once 
the rubble was cleared enough, by a battalion of construction 
equipment that was admitting diesel emissions, which themselves 
are probable carcinogens and was re-aerosolizing everything so 
that we had what I think can only be characterized as a toxic 
chemical soup and maybe a chemical stew because we had large 
particles there but we had enough small particles and it 
doesn't matter whether it was .1 percent or 2 percent, we had 
enough small particles that were of a small enough size that 
they could be inhaled, causing damage in and of themselves and 
also serving as an absorbent, a carrier for bringing these 
chemicals deep inside the lungs. We also have extensive 
possibility for skin absorption.
    I think the important point is that that chemical soup was 
comprised of the very chemicals that we as environment 
scientists have been studying intensively for years, that you 
as legislators and the policymakers have considered conducting 
research on and dealing with for years, one at a time. And here 
we have them all together.
    Why is it so important that this monitoring program not be 
abandoned? It can't be abandoned because as you heard over and 
over again, we know pretty much what the acute effects were. We 
have no idea what the long-term, chronic effects are. To some 
people who've developed some exotic diseases now, we would like 
to say and we do say they are related to the World Trade Center 
but there is always a big question mark and we won't be able to 
answer that question mark and establish the relative risk, the 
likelihood that it was related and the whole panorama of 
diseases unless we study the group as a whole.
    And Senator Clinton, if this cohort is abandoned, you're 
going to put the responders exactly into the same position that 
the Vietnam veterans are in. I've spent most of my adult life 
now, it seems, studying Agent Orange. Once you take apart a 
cohort, you cannot put it together. You can't identify them. We 
don't know who those responders actually were. We've heard 
about the registry. The registry has many helpful, useful 
qualities to it but the registry doesn't contain most of the 
workers and the qualifications for being a worker in the 
registry is very different from the ones in the monitoring 
program. The monitoring program has already obtained 
permission. The legislation--the Congress of the United States 
has now, in its wisdom, placed such onerous burdens on getting 
informed consent that you spend most of your time in 
epidemiology just trying to find people and getting them to 
sign a piece of paper so that you can begin to study. If that 
group is taken apart, we will never know what the true health 
effects are and it would be a gross, gross, gross disservice.
    The other reality is, I'm at the Columbia University 
Medical Center. We have one of the finest medical schools in 
the world. We train our doctors not--we get them a half an hour 
training on occupational health and occupational history. If 
you send these guys out to the world of medicine, there are no 
people out there, outside of these specialized clinics who 
actually treat them and we only give people 30 seconds of 
interview time with the physician, so even if they knew how to 
take an occupational history, they wouldn't be able to. So if 
you take apart this cohort, not only will you have abandoned 
the possibility of knowing the true effects, you will also have 
abandoned the possibility of people getting appropriate care 
and of us recognizing early what interventions might be 
necessary to prevent and help them.
    Finally, as a Professor of Public Health, I can say that if 
we abandon this program, we will have yet again have lost our 
ability to understand how to respond to these disasters. Just 
take a look at Katrina, at yet another group of first 
responders who are not identified, not being treated properly 
and because of the kind of lack of political momentum that we 
had in New York are just out there on their own. Thank you.
    [The prepared statement of Dr. Stellman follows:]
           Prepared Statement of Jeanne Mager Stellman, Ph.D.
    My name is Jeanne Mager Stellman and I am a professor at the 
Mailman School of Public Health, Columbia University in New York City 
and director of the General Public Health program. My formal training 
is in physical chemistry, in which I hold a doctorate. I have spent the 
majority of my career in occupational and environmental health studies. 
I have recently been the principal investigator of a multimillion 
dollar contract with National Academy of Sciences to develop 
methodologies for evaluating exposure of veterans to herbicides in 
Vietnam. That work has resulted in a number of scientific publications, 
including an article and the cover in Nature, as well as an exhibit in 
the London Science Museum. Our methodology was strongly endorsed by the 
Institute of Medicine. The Institute of Medicine has recently convened 
a committee for recommending ways in which to implement our 
methodology. Our long-term work on the health of American Legionnaires 
has been widely recognized and in 2005 Dr. Steven Stellman and I were 
awarded the Legion's Distinguished Service Medal, its highest honor.
    I have been a Guggenheim Fellow and a recipient of one of the first 
Preventive Oncology Academic Awards given by the National Cancer 
Institute. I have been the principal investigator of many federally 
funded grants and have served on numerous peer review committees in 
both the United States and Canada. I am Editor-in-Chief of the 4th 
edition of the 4-volume Encyclopaedia of Occupational Health and Safety 
(ILO, Geneva 1998), an internationally recognized reference. I was 
Editor of the journal Women and Health from 1986-2004. I have written 
three books which have been translated into many languages, dozens of 
monographs, chapters and peer-
reviewed articles.
    With regard to the World Trade Center, I served on the EPA World 
Trade Center Expert Technical Review Panel, 2004-2006, that studied the 
environmental issues surrounding the destruction of the towers and the 
subsequent cleanup activities. Our task was to make recommendations 
with regard to community cleanup programs. During the past year, I have 
been working on analysis of various aspects of the health data gathered 
by the clinical examinations in the WTC Medical Monitoring and 
Treatment Program and am the first author of a forthcoming paper on the 
mental health of the responders. I am thus intimately familiar with the 
scientific background and with the current health status of the 
responders.
    I believe that my background and, in particular, my work with 
Vietnam veterans' exposures and health, and the related science policy 
issues, provides both expertise and perspective for understanding the 
complex psychological and chemical exposures of the World Trade Center 
responders.
    The environmental effects of the 9/11 terrorist attack on the World 
Trade Center were cataclysmic. When the towers collapsed and were 
pulverized, thousands of tons of highly toxic and corrosive dust 
(particulate matter) were released into the atmosphere in a toxic plume 
that spread contaminants over Lower Manhattan and neighboring areas. 
The fiery crashes of two fully fueled jetliners added some 90,000 
liters of jet fuel at extremely high temperatures to the conflagration, 
creating a toxic plume containing a mixture of volatile organic 
compounds, acids, soot and metals. Pulverized dust was all that 
remained of the Twin Towers and it created a toxic mound six stories 
high. The rubble continued to smolder and burn for several months. A 
third building in the complex, WTC 7, also collapsed, thereby adding to 
the toxic mess and to the intense psychological trauma of the event.
    The actual chemical nature of Ground Zero and the surrounding 
environs is very poorly characterized. An insufficient number of 
representative samples were drawn so that we only have an incomplete 
picture of the exposures. Yet some facts are clear. The rubble was 
highly alkaline and contained tons of corrosive cement dust. The rubble 
also contained tons of man-made mineral fibers, asbestos, and other 
building materials. Toxic chemicals, like polycyclic aromatic 
hydrocarbons (PAHs), polychlorinated biphenyls (PCBs) and 
polychlorinated furans and dioxins, were present and their composition 
varied from time to time and from place to place. Several excellent 
overviews of the devastation and conflagration exist and a few are 
listed in the rear of this testimony. (1-5)
    The compounds and minerals that made up the WTC toxic plume were 
not benign. They have been the subject of much scientific inquiry and 
regulatory activity over the years. The toxic plume and the fumes 
emanating from the rubble contained a host of known and suspected 
carcinogens like dioxin, asbestos, the polycyclic aromatics and 
benzene. As the cleanup continued, diesel fuel emissions from the many 
construction vehicles added another toxic component and potential human 
carcinogen to the mix. The nature of the exposures changed with time, 
depending on whether or not there was rain, and the extent to which the 
fires were smoldering. Concentrations, of course, diminished as the 
cleanup progressed. Exposures were not limited to Ground Zero. Workers 
were involved in transporting the rubble and in adding it to the Staten 
Island landfill. Others were employed at the Office of the Chief 
Medical Examiner, and, of course, the Fire Department of New York, 
FDNY, contributed enormously and selflessly to the rescue and recovery 
effort.
    From an environmental perspective, it is important to emphasize 
that many of the components of the WTC rescue, recovery and cleanup 
operations would individually have been considered serious occupational 
health hazards. The combination of so many toxic substances in such 
large quantities, and in the presence of so much particulate matter, 
will very likely exacerbate any individual chemical effects, making the 
sum of the components far more toxic. Although most of the dust was too 
coarse to be inhaled deep into the lungs, given the enormous mass of 
rubble, even the very small percentage of dust particles that were 
present and small enough to enter the small airways (respirable dust) 
represents a serious toxic load. Such small particles not only have the 
potential to damage the lungs themselves, but they also serve as 
excellent vehicles for transporting adsorbed chemicals into the lung 
and bloodstream. The larger particles that were breathed into the upper 
airways were highly alkaline. Exposure to the alkaline dust appears to 
have caused serious upper airways and throat problems, as well as 
gastrointestinal reflux, in a significant number of rescue workers.
    In addition to the dust and chemical exposures, workers were 
exposed to extraordinarily stressful working conditions. Among the 
group of workers who have been monitored by the WTC Medical Monitoring 
and Treatment Program (non-FDNY), more than 65 percent arrived at 
Ground Zero within the first 48 hours following the attack. By the end 
of the first week, about 70 percent of the overall workforce had 
arrived and by September 24, 2001, 90 percent of the rescue, recovery 
and cleanup crew was on the job. The great majority of them worked at 
Ground Zero operations for 3 months or more. Thus these workers were 
present for the extraordinarily traumatic--and frightening--early post-
attack days and then they remained for the arduous and stressful 
working conditions that followed, with hours that were longer and work 
that was more intense than almost any other job in the United States.
    The initial days at the site were fraught with danger and emotion. 
Workers handled nearly 20,000 human body parts. They discovered and 
transported bodies. They served in long bucket brigades to clear enough 
debris for construction vehicles to enter. Many worked around-the-
clock, and then on workdays with extremely long shifts. They 
accomplished their tasks in a breathtakingly short period of time. Many 
of the rescue, recovery and cleanup workers also suffered the personal 
loss of friends, family or co-workers in the attack. Conditions such 
are these are an excellent breeding ground for a variety of stress-
related psychological problems, like post-traumatic stress disorder, 
depression, panic disorder, generalized anxiety and other 
manifestations of a substantial stress response. These disorders can 
affect not only the workers themselves but also their spouses, children 
and other loved ones.
    The average age of the non-FDNY responders was about 43 years. In 
the group currently being monitored, about one-third were in law 
enforcement and about the same percentage were construction workers. 
Utility workers and New York City employees drawn from a variety of 
agencies make up the remaining rescue, recovery and cleanup team now 
under surveillance in the monitoring and treatment. Many of these men 
and women had no training in rescue/recovery operations and we know 
that there were serious problems in providing workers with adequate 
protective gear or training for using it. Many of the workers had 
occupations that had already subjected them to almost two decades of 
exposures to toxic and dangerous conditions, thereby possibly putting 
them at even greater risk by exacerbating existing disease potential.
    The demographic makeup of the workforce is relevant to any 
consideration of both long- and short-term health effects. The rescue, 
recovery and cleanup workers were not an army of young recruits fresh 
from basic training, but were more mature, with some not in optimal 
physical condition. It is possible that a workforce with these 
characteristics may be placed at even greater risk for both short- and 
long-term health effects.
    Studies of the WTC rescue, recovery and cleanup workers and of the 
FDNY firefighters are already showing widespread pulmonary 
symptomatology. New studies on the mental health of the rescue, 
recovery and cleanup workers that are currently under scientific 
review, likewise, indicate an excess of psychological distress and an 
extraordinary amount of social and physical disability.
    The current studies, however, cannot possibly provide us with 
insight into the overall burden of disease and disability because the 
diseases associated with WTC-like exposures are chronic and take many 
years to manifest themselves. Thus it is too early to know the full 
extent to which exposure to carcinogens and other toxic and stressful 
working conditions will lead to elevated rates of cancer or whether the 
rescue, recovery and cleanup workers will suffer from more 
cardiovascular disease or other chronic diseases.
                  why continue monitoring and treating
    It is now more than 5 years after the terrorist attack and the 
question has been raised of whether or not to continue funding a 
monitoring and treatment program for the rescue, recovery and cleanup 
workers, FDNY and other governmental employees. Let us set aside moral 
and ethical considerations about whether our Nation has an obligation 
to care for those who selflessly come forward to serve us during our 
time of need, and instead consider some scientific and health policy 
issues.

    <bullet> If monitoring the rescue, recovery and cleanup worker and 
FDNY cohorts were to be abandoned, we might NEVER know the full extent 
of health effects caused by responding to the emergency and working at 
the site. Systematic appraisal and follow up of the health of a 
sufficiently large number of responders is needed for meaningful 
epidemiological research. The cohort currently enrolled in the 
monitoring and treatment program provides us with the opportunity to 
understand both the short- and the long-term health consequences of 
exposure to the conditions caused by the attack. Environmental 
epidemiology studies generally require a long period of follow up both 
in order to have sufficient ``statistical power'' to be able to observe 
an elevated risk and also to allow time for the chronic diseases to 
develop. Unfortunately, despite its many strengths, the WTC Health 
Registry is far from complete with respect to the worker population and 
no governmental or private agency has identified all the workers who 
participated in the operations. Thus the responders in the program 
provide the best study population and possibly the only feasible 
opportunity for identifying both long- and short-term health effects.
    <bullet> If the monitoring and treatment program were to be 
abandoned, the rescue, recovery and cleanup workers and firefighters 
will probably not be adequately treated for any WTC-related maladies. 
Most physicians have little or no formal training in environmental and 
occupational medicine. They are, by and large, not equipped to take an 
adequate exposure history and, given the constraints on medical care 
today, would not have sufficient time to take such a history in any 
case. The exposures were complex and it is likely that the combination 
of psychological, physical and chemical stresses may lead to unexpected 
health outcomes. The symptoms that a responder presents with may be 
related to underlying causes not easily recognized by an untrained 
physician seeing isolated patients. Treatment by trained physicians and 
surveillance by scientists, and in groups larger enough for patterns to 
be observed, is essential to our understanding the full range of health 
effects.
    <bullet> If the monitoring and treatment program were to be 
abandoned, the rescue, recovery and cleanup workers and firefighters 
may be deprived of early treatment interventions that are much more 
likely to be developed in a specialized program dedicated specifically 
to this group.
    <bullet> If the monitoring and treatment program were to be 
abandoned, the rescue, recovery and cleanup workers, and firefighters 
may not have the financial means to seek and pay for needed tests, 
examinations and treatments. Social stigma, particularly for 
psychological distress and disorders, may also make them reluctant to 
seek help. The established relationships and vigorous outreach 
activities of the monitoring and treatment program can help overcome 
those barriers.
    <bullet> If the monitoring and treatment program were to be 
abandoned, we will have lost a great opportunity to learn from this 
unique and tragic event and to put into place public health policies 
and practices that will lessen the impact of future natural or 
technological disasters. Experience and knowledge will be dispersed as 
the scientists and physicians involved will, of necessity, turn to 
other activities.

    In conclusion, I think it is illustrative to look at another 
example in which men and women were called upon to serve their Nation: 
the Vietnam War. For more than 25 years I have been engaged in studying 
the use and effects of military herbicides in Vietnam. To date, some 30 
years after the end of the Vietnam War and more than 35 years after the 
last Agent Orange was sprayed, we still cannot tell our veterans and 
their loved ones what the effects of exposures to the herbicides are. 
We base our veteran compensation and treatment policies on occupational 
studies of others--forestry and farm workers--not Vietnam veterans. 
Just this month an Institute of Medicine Committee met for the first 
time to begin formulating recommendations for implementing the exposure 
model I and my collaborators developed in order to carry out definitive 
studies on the effects of herbicides on Vietnam veterans. If and when 
those studies are undertaken, a major roadblock will be identifying 
large enough groups of veterans and reconstructing their Vietnam 
activities. For many veterans it will be too little, too late. 
Abandoning the monitoring and treatment program will put the WTC 
responders into precisely the same position.
    Or consider the difficulties that Vietnam veterans so often 
encounter in receiving appropriate diagnoses and treatment. For 
example, in one study we carried out on American Legionnaires we 
learned that Vietnam veterans seeking treatment at VA facilities were 
only occasionally queried about their combat exposures, a pivotal 
consideration for recognizing and treating PTSD. Abandoning the medical 
monitoring and treatment program will inevitably lead to similar 
results: the particular symptoms and diseases they may develop will 
simply be lost in the general population and few practitioners will 
know the right questions to ask.
    And just as with Vietnam, if the Nation were to try to finally make 
it a priority to put together studies of the health effects of working 
on the World Trade Center rescue, recovery and cleanup, it is doubtful 
that identifying and re-assembling the group now under surveillance 
could be easily done at a later date.
    Finally, we can wonder whether the next cohort of volunteers and 
responders may be less willing to put their own lives on the line if 
those men and women who rose to the challenge of recovering from the 
WTC attacks were ultimately ill-treated by their country.
                           Selected Reference
    1. Landrigan PJ, Lioy PJ, Thurston G, Berkowitz G, Chen LC, 
Chillrud SN, Gavett SH, Georgopoulos PG, Geyh AS, Levin S, Perera F, 
Rappaport SM, Small C, Group NWTCW. Health and environmental 
consequences of the world trade center disaster. [see comment]. 
Environmental Health Perspectives 112:731-9 (2004).
    2. Offenberg JH, Eisenreich SJ, Gigliotti CL, Chen LC, Xiong JQ, 
Quan C, Lou X, Zhong M, Gorczynski J, Yiin LM, Illacqua V, Lioy PJ. 
Persistent organic pollutants in dusts that settled indoors in Lower 
Manhattan after September 11, 2001. Journal of Exposure Analysis and 
Environmental Epidemiology 14:164-72 (2004).
    3. Offenberg JH, Eisenreich SJ, Chen LC, Cohen MD, Chee G, Prophete 
C, Weisel C, Lioy PJ. Persistent organic pollutants in the dusts that 
settled across Lower Manhattan after September 11, 2001. [see comment]. 
Environmental Science & Technology 37:502-8 (2003).
    4. Lioy PJ, Weisel CP, Millette JR, Eisenreich S, Vallero D, 
Offenberg J, Buckley B, Turpin B, Zhong M, Cohen MD, Prophete C, Yang 
I, Stiles R, Chee G, Johnson W, Porcja R, Alimokhtari S, Hale RC, 
Weschler C, Chen LC. Characterization of the dust/smoke aerosol that 
settled east of the World Trade Center (WTC) in Lower Manhattan after 
the collapse of the WTC 11 September 2001. Environmental Health 
Perspectives 110:703-14 (2002).
    5. Lioy PJ, Georgopoulos P. The anatomy of the exposures that 
occurred around the World Trade Center site: 9/11 and beyond. Ann NY 
Acad Sci 1076:54-79 (2006).

    Senator Clinton. Thank you very much, Doctor.
    Mr. Endean.

   STATEMENT OF JEFFREY L. ENDEAN, GROUND ZERO VOLUNTEER AND 
 FORMER DIVISION COMMANDER, MORRIS COUNTY NEW JERSEY SHERIFF'S 
                     OFFICE, SUCCASUNNA, NJ

    Mr. Endean. Thank you. I would like to thank Senator 
Clinton and the members of the HELP Committee for the 
opportunity to testify today regarding the health and care of 
9/11 responders. There are many responders who would have liked 
to have had this opportunity and I wish to recognize them and 
do my best to represent them honorably.
    I am Jeffrey L. Endean. I am a former Division Commander in 
the Morris County Sheriff's Office Emergency Services Division. 
On the morning of September 11, 2001, I responded with 
personnel under my command to carry out mutual aid to the New 
Jersey/New York Port Authority Police Department at the site of 
the attacks against America at the World Trade Center site.
    The scene was very sad, to see my country ripped open and 
just imagining the body count. The smoke was acrid and 
irritating and it was hard to see your hand in front of your 
face. The sound of the firefighters mayday alarms sounded like 
a million crickets. After the 11th, I was assigned to the Port 
Authority as I am certified in Critical Instance Stress 
Management. My assignment was at the pile.
    The pile looked like a war zone or a peak into hell. The 
fire, smoke and smell of burning flesh, devastation and the 
parts of a skeleton of what was the World Trade Center was 
surreal at best and terrifying at worst. Only someone who has 
seen such devastation can understand how this affects one. The 
faces of the responders told many sad stories.
    I could not be left there by my agency so what I did was, 
very creative scheduling that allowed me to respond daily and 
volunteer my time because it was much more important. I kept up 
as a volunteer responding after my shifts in Morris County 
until November 22, 2001. I retired August 1, 2002 after using 
sick time from November 2001.
    During October 2001, I developed a chronic cough and was 
wheezing and just not feeling well. The coughing would be 
violent with my eyes bulging and not getting a breath. I was 
having difficulties breathing, wheezing, trouble sleeping. I 
was developing upper and lower respiratory infections on a 
regular basis.
    I received a letter from the PBA to contact Mount Sinai 
Hospital for screening. I did so post haste and on January 
2003, had my first screening. The initial screening revealed 
scarring on my lungs, pleural thickening of my lungs, wheezing, 
asthma and a chronic cough and rhinitis. But there was no 
treatment program available so I went to what doctors I could.
    I would later find that I had been misdiagnosed and that's 
a key point. The average doctor in the average town are not 
these doctors. I was treated for colds and I was treated for 
allergies. I was called for a second screening in 2005, which 
revealed the same issues. I was placed into the new treatment 
program at Mount Sinai. I was then, in addition, diagnosed with 
RADS, GERD, asthma, chronic headaches, joint aches. I was 
having trouble sleeping and PTSD.
    I was assigned to Dr. Laura Bienenfeld, who became my 
primary doctor there, who made diagnoses and started initial 
treatment. But she did not stop there. Each and everything that 
I was diagnosed with, I was sent to a specialist within Mount 
Sinai Hospital to corroborate it. So there was no guessing. 
Everything was what it truly was.
    In fact, I was examined by a Dr. Genden, an ENT, who told 
me I was the seven-thousandth person that he had seen. To me, 
that was amazing in the fact that the knowledge that this man 
must have is unbelievable. What doctor in the world has seen 
7,000 of something that nobody else has ever seen? This just--
it made me feel good. It didn't make me feel good what he had 
to say but it made me feel very good with that. I had a camera 
placed up into my sinuses and then down my throat and what have 
you and he explained to me that my sinuses--there was 
particulate encapsulated throughout my sinuses, within the 
cells of my sinuses and that they were basically like bloody 
sponges and that I had vocal-cord larynx damage. That's as far 
as he could go. After that, I saw Dr. Christie, who did an 
endoscopy. I had been taking a drug called Nexium for the GERD, 
the acid reflux for the 12 months prior. After Dr. Christie's 
examination, with the endoscopy, she found that the esophageal 
erosion was still there and it went down my esophagus into my 
small intestine. So the Nexium had not stopped it or touched 
it. So the dose was doubled and time will tell.
    I had PET scans for possible tumors. I awake now, to take 
three inhalers, one breathing pill and a host of other meds. I 
use a nebulizer treatment three times a day. I still wheeze and 
cough and get severe headaches. I'm 57-years old and hope to 
live to be 87 but I do have my definite doubts.
    I'm now getting the proper treatment from those who know 
the illnesses best and let me say that I'm not saying that the 
people from the Fire Department and the other doctors here 
don't know as well as Mount Sinai but Mount Sinai is where I 
have been taken care of so I can only speak for them. Their 
care has made the quality of life better. The World Trade 
Center Treatment Program at Mount Sinai is the most 
knowledgeable group of doctors in the world regarding the 
toxins and illnesses from a disaster like 9/11. No other 
doctors have ever seen and documented the symptoms and designed 
treatments and continue to innovate and adapt to the worsening 
illnesses. To move this treatment away from Mount Sinai would 
be a disaster equal to 9/11 itself and continue the casualties 
of September 11.
    We could not stop the attacks and death on September 11 but 
you, as the Senate and the Congress, you have the ability to 
stop the next human disaster. Creating a department or a 
program run by the government will be costly and cumbersome and 
is not necessary. The Mount Sinai program exists today and runs 
just fine. To change it would result in the aforementioned 
human disaster. I ask the committee to take a long, hard look 
at the success of the existing program and to continue to 
subsidize it. This would save dollars and lives. This legacy of 
illnesses and suffering will continue for my lifetime and way 
beyond. The responders need to be taken care of. They were 
running down West Street towards the towers, not away from 
them.
    This was an attack on America. President Bush termed it an 
act of war. Those who responded deserve nothing less than the 
best care. FDR said, ``Any man who sheds his blood for his 
country deserves a fair deal.'' This applies now in 2007 as it 
did then. I cannot believe that every Senator and 
Congressperson does not champion this cause. America's sons and 
daughters came to her aid as it was their duty. Now it is the 
duty of the Federal Government to care for those who served.
    Thank you. God Bless America.
    [The prepared statement of Mr. Endean follows:]
          Prepared Statement of D/Cdr. Jeffrey L. Endean, Ret.
    Chairman Kennedy, Ranking Member Enzi, Senator Clinton, and other 
members of the HELP Committee, I am Jeffrey L. Endean of Sucasunna, New 
Jersey. Former Division Commander with the Morris County Sheriff's 
Office with 20 years assigned to the Special (Emergency) Services 
Division.
    I would like to thank Senator Clinton and the members of the HELP 
Committee for the opportunity to testify today regarding the health 
care of 911 responders. There are many responders who would like to 
have had this opportunity and I wish to recognize them, and do my best 
to represent them honorably.
    On the morning of September 11, 2001 I responded with personnel 
under my command to carry out mutual aid to the New Jersey, New York 
Port Authority Police Deptartment at the site of the attacks against 
America at the World Trade Center site.
    The scene was very sad, to see my country ripped open, and just 
imagining the body count. The smoke was acrid and irritating, it was 
hard to see your hand in front of your face. The sound of the 
firefighters' ``mayday'' alarms sounded like a million crickets. After 
the 11th I was assigned to the Port Authority as I am certified in 
Critical Incident Stress Management. My assignment was at the pile. The 
pile as it was called looked like a war zone or a peek into hell. The 
fire, smoke, smell of burning flesh. The devastation and parts of the 
skeleton of what was the WTC was surreal at best and terrifying at 
worst. Only someone who has seen such devastation and death can 
understand how this affects one. The faces of the responders told many 
sad stories. I worked along and watched out for personnel experiencing 
emotional issues. I would speak to them about their fears and feelings 
and guide them to a mental health professional if necessary. I kept 
this up as a volunteer responding after my shifts in Morris County 
until November 22, 2001. I retired August 1, 2002 after using sick time 
from November 22, 2001. During October 2001, I developed a chronic 
cough and was wheezing and just not feeling well. The coughing would be 
violent with my eyes bulging and not getting a breath. I was having 
difficulties breathing, wheezing and trouble sleeping. I was developing 
upper and lower respiratory infections on a regular basis. I received a 
letter from the PBA to contact Mt. Sinai Hospital for a screening. I 
did so post haste and in January 2003 had my first screening. The 
initial screening revealed scarring on my lungs, plural thickening of 
my lungs, wheezing, asthma and the chronic cough, and rhinitis. There 
was no treatment program available and I would later find that I had 
been misdiagnosed and treated for colds and allergies. My health 
continued to deteriorate, and the medical bills were mounting even 
though I had 80-20 medical insurance. They paid a set amount for 
services and I was stuck with ill health and mounting medical and 
prescription bills. I was called for a second screening in 2005 which 
revealed the same issues. I was placed into the new treatment program 
at Mt. Sinai. I was then in addition diagnosed with rad's, gerd, 
asthma, chronic headaches, joint aches, and trouble sleeping and PTSD. 
I was assigned to Dr. Laura Bienenfeld who made diagnoses and initial 
treatment. She then referred me to specialists.
    I was seen by the specialists at Mt. Sinai who corroborated the 
initial diagnosis with MRI, x ray, camera up sinuses, down the throat, 
Endoscopy and visual. Dr. Genden ETN told me I was the seven-thousandth 
person he had seen and that particulate was encapsulated in the cells 
of my sinuses and my sinuses were like bloody sponges.
    Specialist Dr. Christie learned from endoscopy that after a year of 
Nexium my esophageal erosion was not healing so the dose was doubled. I 
also had a PET scan as it was believed a mass in my lung may have been 
cancerous. I awake to take three inhalers, one breathing pill, and 
other meds. I now need a nebulizer treatment three times per day and I 
still wheeze and cough and get severe headaches. My worker responders 
claim was accepted and all mentioned illnesses accepted in court. I am 
receiving good care, but will it remain? I am not getting well, just 
holding ground and will I lose ground? I am 57 and hope to live to 87 
but I don't know how long I will live.
    I am now getting the proper treatment from those who know the 
illnesses best. Their care has made the quality of life better. The WTC 
treatment program at Mt. Sinai is the most knowledgeable group of 
doctors in the world regarding the toxins and illnesses from a disaster 
like 911. No other doctors have ever seen and documented the symptoms 
and designed treatments and continue to innovate and adapt to the 
worsening illneses. To move this treatment away from Mt. Sinai would be 
a human disaster equal to 911 itself. The misdiagnoses and poor 
treatment would start all over again. We could not stop the attacks, 
death and continued casualties of September 11. You have the ability to 
stop the human disaster. Creating a department or program by the 
government would be costly and cumbersome and it is not necessary. The 
Mt. Sinai program exists and to change it would result in the 
aforementioned human disaster. I ask the committee to take a long hard 
look at the success of the existing program and to subsidize it. This 
will save dollars and lives. This legacy of illness and suffering will 
continue for my lifetime and way beyond.
    The responders need to be taken care of. They ran down West Street 
not away from the attack. This was an attack on America. President Bush 
termed it an act of War. Those who responded deserve nothing less than 
the best of care. FDR said ``Any man who sheds his blood for his 
country deserves a fair deal.'' This applies now in 2007 as it did 
then. I cannot believe that every Senator and Congress person does not 
champion this cause. America's sons and daughters came to her aid as it 
is our duty. Now it's the duty of our Federal Government to care for 
those who served.
    Thank You. God Bless America.

    Senator Clinton. Thank you very much, Mr. Endean and you've 
spoken so eloquently for many others who are here in this 
audience and many thousands more who could not be here. Thank 
you very much.
    I want to thank each of the witnesses for your testimony. 
It is extremely important to build this record and to make this 
case. As Chairman Kennedy said before he had to go to another 
important engagement in his responsibilities, there are 
precedents in our country for taking care of people who have 
been exposed to environmental toxins and have been made ill 
over a long period of time. Certainly the Down Winders, the 
uranium workers, miners who acquired Black Lung and Dr. 
Stellman, I wanted to ask you about Agent Orange. Do you see 
any analogies with what we eventually did on behalf of the many 
thousands of our veterans who were affected by Agent Orange.
    Dr. Stellman. Well, yes and no. I hope one analogy is one 
we can avoid and that is, to this date, we still do not have a 
major epidemiological study of Vietnam veterans. Every disease 
that is compensated is the result of looking at other groups, 
like farmers or forestry workers and not at Vietnam veterans. 
My husband and I are currently doing a study on ALS, Lou 
Gehrig's Disease. We think it is going to show positive. That's 
not something they are compensated for now.
    Senator Clinton. In other words, people who were exposed to 
Agent Orange are at a higher risk of developing ALS?
    Dr. Stellman. We have never in our country done this study 
and I just see looming in my brain that the same thing is going 
to happen to 9/11 responders. We just set up a committee at the 
Institute of Medicine now, 35 years later, to try to implement 
a model that I developed for the Academy on doing the first 
major epidemiological study and stopped spraying 30 years ago 
in Vietnam. And what we're facing is the huge problem of 
finding the vets and getting permissions. It's a very onerous 
job and here you have a cohort that's been assembled and it 
would be the greatest public health tragedy to let it go.
    Senator Clinton. I wanted to underscore that point because 
obviously, I am most acutely concerned about making sure we 
keep the treatment going, that Mount Sinai and the Fire 
Department have engaged in and provided support for Bellevue 
and then create the mechanism and program to continue to 
provide funding for treatment, going into the future. But I 
think it is important to underscore this public health 
perspective because there may be some who would argue that we 
don't have a continuing obligation, which I heartily disagree 
with, to care for our first responders, our other workers and 
volunteers and residents but perhaps we can persuade them that 
on public health grounds, this kind of information that can 
only be obtained by tracking and treating the people who were 
affected will help us with so many other of the issues that we 
confront. So thank you for making that point.
    I wanted to go and ask our expert witnesses, starting with 
Dr. Herbert, if you would provide for the record, where you are 
in the money that you have to continue the treatment at Mount 
Sinai? When will you run out of money, the Federal money that 
we finally have received and what would that mean for the 
patients who you are currently treating, one of whom is Mr. 
Endean?
    Dr. Herbert. The financial experts with whom we work at 
Mount Sinai have told me that we expect the Mount Sinai 
Treatment Program funding to end or to run out right around the 
end of this current Federal fiscal year, so this fall. It's 
been somewhat difficult to project because we only receive the 
Federal funding in November and there is always a ramp-up 
period. We thankfully have been able to add staff and rapidly 
increase the number of patients that we can serve. But we're 
finding our expenses are going up monthly so if anything, 
that's a conservative estimate. I don't know if it is 
conservative but we worry that it could be even sooner. The 
demand for the specialized care we provide is growing. The 
demand for the medications, which are very costly, is growing.
    I don't have a good answer for what we will do when that 
funding runs out. It's the kind of thing I lose sleep over at 
night. You know, I was one of the team at Sinai who worked very 
hard to get private funding, initially, to set up our treatment 
programs. It was very difficult in 2002 and 2003 to get private 
funding. It's going to be much harder now. So I literally--I 
wish I had an answer as to what will happen. We will beg, 
borrow and pray. I really don't know what we'll do if we run 
out of money but we will run out of money.
    Senator Clinton. How many patients are you currently 
treating?
    Dr. Herbert. The group--at Mount Sinai, we have 3,700 
patients that are in our treatment program.
    Senator Clinton. Do you have a waiting list?
    Dr. Herbert. We do have a waiting--we don't have a waiting 
list. What we do is we schedule people in so the waiting period 
can vary from 2 weeks up to about 2 months. I don't know what 
it currently is but it has ranged, with the Federal funding, 
we've been able to cut down the waiting period and anybody who 
is potentially seriously ill is always seen right away. We 
rearrange our schedule. But we know that if we are continuing 
to enroll new responders into the monitoring program at a rate 
of 400 per month, the treatment program populations will grow 
simultaneously as we continue to see new responders and 
screening.
    Senator Clinton. Dr. Herbert, would you describe how the 
Mount Sinai Consortium works? Because I know that you're 
working with clinics across the country and it would be useful 
to have that also in the record.
    Dr. Herbert. I'd be delighted to. The consortium consists 
of five different programs in the New York/New Jersey area. 
Each is called a Clinical Center. Each Clinical Center provides 
diagnostic screening and monitoring exams and treatment and the 
consortium partners are located at Bellevue and YU, at Suny 
Stoneybrook, which has two sites on Long Island, at the 
University of Medicine and Dentistry in New Jersey in 
Piscataway, at Queens College and at Mount Sinai.
    We also have a national network--when we begin the 
screening program, we had partnered with the Association of 
Occupational and Environmental Clinics, which is an 
organization of experts in occupational medicine from 
throughout the Nation. We've conducted through our program, 
over 800 examinations of responders. We're presently struggling 
with the issue of how to expand geographic accessibility. 
That's been a real challenge. There are very few occupational 
medicine physicians in the country and so we're right now 
looking at a model where ideally you'd have access to 
occupational and environmental medicine specialists and if that 
was not geographically convenient, we would also have a network 
to broaden the geographic coverage.
    But we know that we have responders who live at least--in 
over 1,000 zip codes. So meeting their health needs has been 
quite difficult. The other piece that we're just putting in 
place now is--or that we're building on--to have more 
centralized coordination of the national program so that we'll 
always have physicians at Mount Sinai and other healthcare 
providers who can answer questions for any physician or other 
healthcare provider in the Nation who wants to use our 
expertise in diagnosing and treating World Trade Center health 
problems.
    Senator Clinton. Well, of course, that's important as we 
heard from Mr. Endean. Many of the victims have been 
misdiagnosed. We have a lot of evidence of that and in your 
written testimony, you described a breathing test abnormality 
known as decreased forced vital capacity, which can be caused 
by a variety of conditions, including interstitial lung 
disease, which we know has been the cause of death for several 
people who were involved at Ground Zero and if we don't have 
the expertise to know what tests to be given, diagnosis can 
both be wrong or delayed, which then in turn causes 
unfortunately, the chances of recovery or complete treatment to 
diminish. So I want to underscore and connect what Mr. Endean 
said with what you're doing at Mount Sinai.
    Dr. Herbert. Thank you.
    Senator Clinton. I want to next turn to Dr. Kelly and I 
appreciate everything you've done, Dr. Kelly. You were here in 
the Congress shortly after 9/11 and gave incredibly emotional 
and gripping testimony about your own experience on 9/11 and 
you have been a champion of the healthcare needs of the 
firefighters ever since.
    I'd like you to describe the impact of Federal funding on 
the care and treatment services you're able to provide because 
I think there may be some misunderstanding as to what the 
Federal funding has made possible for you to do with respect to 
taking care of people within the jurisdiction of the Fire 
Department.
    Dr. Kelly. I'd like to thank you for your continued support 
since 9/11. You've been an early champion also and consistent 
in your message, letting people know how important these issues 
are.
    Federal funding has been critical to our mission, allowing 
us to continue and expand programs that were so essential to 
the well being of our Fire Department. In the area of mental 
health, our single site CSU was expanded to six sites. That 
allowed us to reduce the barriers to treatment. We've talked 
about how first responders are often reluctant to seek help. 
This allowed people to be seen in their communities by 
professionals so that they could seek assistance and get help 
that was essential to their well being.
    These sites continue through Federal funding. Initially, we 
had FEMA money, which has now again, through the treatment 
money that was recently released in the fall of 2006, allowed 
us to continue at these sites and maintain that professional 
group of people for mental health care. Currently, over 3,000 
of our members, both active and retired, continue to be seen at 
these sites.
    For our respiratory care patients, we are seeing, at one 
point, as high as 2,000. We're now at about a little over 1,000 
patients, who are being seen by our respiratory experts, our 
physicians, including Dr. David Presont, have been critical in 
identifying problems, identifying treatments that were 
successful and taking care of our members.
    Again, if you think of our members, they were athletic 
individuals who were so active in their communities and prided 
themselves on their physical well-being. So it is extremely 
hard for a group of people who do see themselves in that light, 
suddenly to face a loss of lung function. Even for people who 
have changes that on many other levels, would appear not to be 
significant, the fact that they can't do what they did before 
is of critical importance.
    The monies that we're now getting for treatment have been 
used for prescription drugs. Although our members do have 
insurance, they do not have--they have areas of gaps, areas of 
caps that lead to problems when we start running out of money 
for the individuals. A lot of that money has been borne by our 
unions who are supporting these programs for prescriptions.
    So with the treatment dollars we've put into place 
prescription plans to allow for treatment to continue. Many of 
our members, again active and retired, are on multiple 
medications. These are chronic medicines that go on for months 
and years. It allows them to remain functional and not have as 
many symptoms but we're not getting rid of the underlying 
problem. For many of our people, this is permanent. As we've 
said, over 700 members have had to retire prematurely before 
their careers would normally have ended because of their 
ongoing respiratory problems.
    Mental health problems, too--some have been of a permanent 
basis. Many are on four, five, six medications that they 
require on a chronic basis. So the treatment dollars have been 
critical in helping us provide the care that we need for our 
members and it's an ongoing need.
    Senator Clinton. I know, Dr. Kelly, that you can't at this 
point, based on the evidence you have, predict whether the 
future will perhaps mean that some of the first responders will 
be coming down with cancers and other acute illnesses. But do 
you have a professional opinion as to what you fear for the 
future with respect to the ongoing health challenges that 
firefighters and others will be facing?
    Dr. Kelly. It's a very real fear that I think I have and 
many of the members of the Department have. When I came on this 
job and I've been with the Fire Department for 26 years, there 
was talk of a telephone fire that took place prior to my coming 
on, in which many of our members responded and we've had, over 
the years, this concern that people who responded to that fire 
had a greater incidence of long-term problems, including cancer 
but just like you mentioned with Agent Orange, we had no way to 
follow people and no mechanism of knowing what happens. Because 
once a member of our service retires, they are essentially lost 
to follow up. So the critical need that we saw after the World 
Trade Center was to continue to capture this cohort and not 
lose people because they retired.
    We had unprecedented numbers of retirements and we need to 
continue to see how people are doing in the long haul. So the 
Centers of Excellence are important for monitoring as well as 
treatment so that we know outcomes. You want to gather correct, 
scientific and accurate information so that you can reassure 
people when there isn't a problem but also point out problems 
as they develop and approach them in an aggressive manner so 
that you can treat them and get good outcomes. Those are 
important parts of our mission to do that.
    Senator Clinton. Thank you.
    Congressman Nadler.
    Representative Nadler. Thank you, Senator and thank you, 
Senator, for your leadership in this ever since shortly after 
9/11 and most of the members of the panel, the same.
    I have a number of questions. For Dr. Melius, the Mayor 
stated his estimate of the cost of continuing the Mount Sinai 
and Fire Department programs at $150 million a year. Do you 
concur in that estimate?
    Dr. Melius. No, I do not. I believe that what he was 
referring to was sort of the administrative overhead costs of 
running those programs. It did not include the costs of medical 
treatment, pharmaceuticals and other medical care costs that 
would be included, lab tests and so forth. So it's simply sort 
of the administrative overhead for those three programs.
    Representative Nadler. That would be the city's 
administrative role?
    Dr. Melius. The city's Administration and I'm not sure to 
what extent that includes the Mount Sinai and I don't believe 
it did either.
    Representative Nadler. The real cost is closer to----
    Dr. Melius. Well, $400 million at least, I think and could 
very well be more. I mean, some of the estimates that have been 
done for the medical treatment costs alone--not necessarily 
including the medical monitoring, have gone up to over $400 
million.
    Representative Nadler. Well, in December of last year, the 
Fire Department and Mount Sinai prepared an estimate of the 
cost of providing monitoring and treatments for the 32,000 
workers who have thus far registered in the two programs is 
about 257 million a year. You're saying it would exceed that?
    Dr. Melius. It would exceed that. I believe that was a 
range of estimates--costs that they estimated at the time and 
one of--part of that estimate was up to over $400 million.
    Representative Nadler. And your $400 million figure is not 
the same as the Mayor's $393 million figure, which included 
things you're not talking about.
    Dr. Melius. Correct. He includes the registry, some of the 
other sort of administrative costs that are involved there.
    Representative Nadler. So if we want to keep these programs 
going and provide the services that we're now providing for the 
populations that we expect, we would need about $400 million a 
year, is your testimony?
    Dr. Melius. Yes.
    Representative Nadler. Thank you very much. Dr. Kelly, we 
talked about the exposure of Fire Department personnel and 
obviously, we have a lot of health problems with Fire 
Department personnel. Were all the firehouses properly and 
professionally cleaned after 9/11 so we are confident that Fire 
Department personnel are not continuing to be exposed to 
contaminants?
    Dr. Kelly. As the physician in charge of the Bureau of 
Health Services, I'm involved with the medical monitoring and 
treatment. The question you're asking relates to another area 
of our Department. I would be happy to have you speak to the 
person in the Department who is involved in that. I'm not part 
of that work.
    Representative Nadler. Well, I'd appreciate that. The 
reason I ask the question is that my information is the answer 
is no and that a number of the firehouses downtown are still 
highly contaminated and that the Department has been totally 
insensitive to this problem up until this point and that this, 
of course, would lead to continued exposure and probably more 
health problems in the future.
    Dr. Reibman, I think you testified that--I'm sorry. We have 
a large contingency of cleanup workers--is this Dr. Reibman 
that testified this? The individuals who removed the layers of 
dust that had infiltrated the surrounding commercial and office 
spaces in order to allow the city to function. And we were 
expecting that many of these people will come down with--or 
have you already seen a lot of these people come down with 
health problems?
    Dr. Reibman. Yes, we have a large contingency of 
individuals who helped clean up Lower Manhattan, many of whom 
have very similar complaints to what you're hearing in everyone 
else, shortness of breath----
    Representative Nadler. Who knows, with these people, when 
they cleaned up surrounding buildings, were they wearing proper 
respiratory protective gear?
    Dr. Reibman. Most of them were not. Many were given paper 
masks. Some of them were not given anything. Many were told 
that there was no asbestos therefore it was safe to not wear 
anything. There was an assortment of gear.
    Representative Nadler. They were told that it was safe? And 
they were told this by?
    Dr. Reibman. This is what they tell us and I don't know 
exactly who told them but that there was no asbestos therefore 
it was safe is one of the stories that we have been told.
    Representative Nadler. Let me ask either--I'm not sure who 
could answer this question. It's my last question and the vote 
is on the floor anyway. Dr. Reibman, Dr. Kelly, Dr. Herbert, 
one of you, maybe Dr. Stellman, we have this huge problem now, 
obviously with all these people getting sick and we expect more 
people to come down with it. Was much of this preventable, had 
people been wearing proper respiratory equipment? In the 
several months after 9/11?
    Dr. Kelly. The day of the event, our group went in with 
excellent protective gear of SCB mask but they don't last. That 
air will run out within 15 to 20 minutes. After that, people 
who worked at that site certainly for days on end, as a mission 
to recover and rescue people, certainly it would be very 
difficult within that first few hours or days to provide that 
kind of protection and if you look at our results, it clearly 
shows that that group is the group who are showing the most 
physical difficulties.
    Dr. Stellman. You know, the Pentagon handled it very 
differently. They exercised--they are very good at occupational 
safety and health in these situations and they exercised 
rotation, they trained people. They had the proper equipment. 
You can't work 12 hours a day in one of these heavy-duty masks. 
You have to get people time off the job and you have to apply 
basic industrial hygiene.
    Representative Nadler. But they did it properly at the 
Pentagon?
    Dr. Stellman. They did it very differently and I think they 
did it properly.
    Representative Nadler. Would they have done it if they 
had--been of a mind to, could they have done it similarly in 
New York?
    Dr. Stellman. I suppose. I think in retrospect, there are 
many things that could have been done differently. It's very 
hard to finger point. It was----
    Representative Nadler. I'm not interested in finger 
pointing. I'm interested in learning the lessons for God 
forbid, the next time.
    Dr. Stellman. Well, I'm worried about our emergency rooms 
in New York. We have medical students in that class and we 
talked about--these surgeons were talking about how people were 
on the table and they were sewn up without being completed 
because people didn't know whether or not the emergency rooms 
were going to be needed. And then they had to be reopened. 
There's been no change in that, in how do you inform the 
medical--the hospitals in New York don't have safety equipment 
for people to go out and go to a site, should this happen 
again. Students went out in flip flops. Why don't we have 
steel-toed shoes? Why don't we have a set of helmets? The 
hospitals can't possibly bear this cost by themselves. Why 
don't we have such a program in place? I don't see that we have 
learned all that much in terms of doing something about it the 
next time.
    Representative Nadler. Well, thank you very much and let me 
in particular, thank Senator Clinton and in his absence, 
Senator Kennedy, for the extraordinary courtesy of allowing a 
member of the other body to ask questions here.
    Senator Clinton. Well, I want to follow up on what 
Congressman Nadler was just asking you. I visited the Pentagon 
site and it wasn't, obviously, anywhere near as overwhelming as 
what we faced in New York. There was, however, as you pointed 
out, Dr. Stellman, a system set up for everyone I saw who was 
going into the Pentagon, which was a part of the building that 
had been hit by the plane. It was burning. People had obviously 
died there, on a smaller scale but very lethal. They were in 
full gear. This was mostly, as I recall, responders from 
Virginia. They had set up a decontamination center so that 
people were required, when they came out of the building on 
this rotation that was determined, they were required to go 
through the decontamination and I think of the immediate 
aftermath. You know, Dr. Kelly is absolutely right. It would 
have been very difficult to do that quickly. We could have, 
perhaps, done more over time. But I think the important 
question is what do we do to prepare for the future? What are 
the lessons that we have learned and how, if at all, can we 
better implement them? And who is responsible for doing that?
    Dr. Melius, I would love your thoughts on this because 
you're an expert in this area and given everything we now know, 
what could we have done differently and what should we be 
trying to plan to do differently in the future?
    Dr. Melius. I think actually you expressed it very well. We 
could have done better. However, under the immediate aftermath, 
given those circumstances, it would have been difficult to 
provide absolute or perfect protection.
    I have two comments. One is, we sort of assume that what 
protective equipment you have is what is available. Well, one 
of the problems is, most firefighters and other people have to 
wear respirators. Well, what they'll tell you is that equipment 
is heavy, uncomfortable, and difficult to wear for long periods 
of time. And we really need to invest in the kind of research 
and technology that would try to improve that equipment and 
make better, lighter, more comfortable equipment available to 
firefighters, construction workers, other people who would be 
in these circumstances.
    Secondly, I think we also need to go through the efforts of 
doing the planning and getting prepared for these kinds of 
circumstances. A number of years ago, I participated in an 
exercise in Seattle that Homeland Security funded to try to do 
planning for a similar event, should it occur in the Seattle 
area. And that effort is ongoing. They've actually developed 
plans on how to get the right mix of personnel that would be 
needed to deal with a World Trade Center type of disaster, 
construction equipment and emergency rescue and so forth. In 
the initial planning of these, one of the biggest issues we had 
was how do we get people prepared to wear respirators? You 
can't put everybody in a respirator. You need to have some sort 
of screening process in place and the emergency planners were 
very reluctant to try to address that issue.
    We've even had discussions in New York City with our 
contractors, how do we set up sort of an emergency response 
force that would have better training as well as have the 
proper equipment to be able to respond to these kinds of 
disasters, should they occur in the future. So it's going to 
take investment and the research to develop the better 
equipment and also the investment in training as well as 
getting prepared and making sure that a plan is in place and 
that is all appropriately coordinated. I think some of that is 
going on, how well it is being done, I just don't think we know 
right now.
    Senator Clinton. I think it would also be useful to 
identify where such equipment is. I know the operating 
engineers came forward and said they had a supply of 
respirators. Other unions came and said they did. The military 
has them but we need to have a better inventory control, if you 
will, to figure out what we have now.
    Finally, I want to ask Dr. Reibman about the forgotten 
populations that you are serving at Bellevue. What do you 
foresee as the financial need and the requirement for Federal 
funding to keep these programs going for the people you're 
caring for, Doctor?
    Dr. Reibman. This is, I think to date, we don't know the 
size of this population. All of us remember the images of the 
office worker shuffling out, covered with dust and we don't 
know what happened to those people but they're coming back now 
and many of them are coming back sick. We don't know how many 
of them there are. We don't know the extent of the problem, 
really, within the residents in the community. We think there 
is clearly a spectrum of disease with many people being well 
but a number of people being quite sick.
    So we really do need the funds to understand the extent of 
the problem and also to be able to provide treatment for this 
assortment of people with a variety of exposure scenarios and 
with a spectrum of illness. To date, we have not received 
Federal funding for residents or office workers and we have 
really relied on philanthropy and on the Mayor's office.
    Senator Clinton. I want to thank all of our witnesses. I 
just can't express strongly enough how much I appreciate each 
and every one of you being here. One of our concerns is that 
HHS has discussed a voucher program that would in effect, 
dismantle the Centers of Excellence, which I think today, we 
have demonstrated would be a very serious mistake. It would 
dismantle the expertise, the experience, the repository of this 
information, the public health benefits and we will certainly 
take what each of these witnesses has said and make it very 
clear in our conversations with our counterparts in the 
Administration, how important it is that we not undo the good 
work that has been done by all of you to this date.
    What we need to do is supplement it, keep it going, provide 
additional assistance. There are unmet needs for treatment and 
monitoring. There is need for long-term Federal funding for 
continuing treatment and monitoring and I will work with my 
colleagues here on the HELP Committee to address these needs 
and we will, I'm sure, be coming back to you as we try to craft 
both the short-term, emergency needs to keep the programs going 
and then the longer term need for Federal funding to back up 
what is being done. You have provided extraordinary service to 
thousands of people and I am very grateful to you.
    Again, I want to thank all of the people who have come 
today to be part of this important hearing and the work that we 
have done so far could not have been possible without the 
strong support of everybody represented here. So thank you so 
much for being part of this and we'll continue to work together 
and we will get a program in place that will serve the needs of 
the people who took care of us. Thank you very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

   Prepared Statement of Alison S. Geyh, Ph.D., Assistant Professor, 
      Division of Environmental Health Engineering, Department of 
Environmental Health Sciences, John Hopkins Bloomberg School of Public 
                             Health (JHSPH)
    Thank you for the opportunity to present a summary of our findings 
to date regarding exposure and health effects of workers who 
participated in the clean up effort at the World Trade Center (WTC) 
disaster site. My name is Alison S. Geyh, Ph.D. and I am from 
Baltimore, MD. I am presently an assistant professor in the Division of 
Environmental Health Engineering in the Department of Environmental 
Health Sciences at the Johns Hopkins Bloomberg School of Public Health 
(JHSPH). I am trained as a physical organic chemist. I began working in 
the area of environmental health at the Harvard School of Public 
Health. Since joining the faculty at the JHSPH in 2000, the health 
effects of exposure to ambient air pollutants and the chemical 
composition of the air pollution mixture has been the major focus of my 
research. My current research also includes examining issues related to 
occupational exposure to hazardous air pollutants. This testimony 
represents my own views and is not intended to represent the views of 
the Johns Hopkins University.
what we did in response to the destruction of the wtc on september 11, 
                                  2001
    The Division of Environmental Health Engineering has a long history 
examining hazardous exposures in the workplace. Members of the Division 
have long standing relationships with labor organizations including the 
International Brotherhood of Teamster and the Laborers International 
Union of North America. For this reason, the work we conducted in 
response to the events of September 11, 2001 have focused solely on 
exposure and health effects of workers involved in the clean up and 
recovery effort at the WTC. The week following the disaster we 
contacted the International Brotherhood of Teamsters (IBT), Washington, 
DC. to learn what we could do to assist in assessing exposure and 
health effect of IBT members who would be participating in the clean up 
operation at the WTC disaster site. In addition, the chair of the 
Department of Environmental Health Sciences contacted the National 
Institute of Environmental Health Science (NIEHS) to discuss potential 
funding for any disaster response that might be conducted by members of 
the JHSPH. Between 2001-2004, the NIEHS provide approximately $1.2 
million in support of work conducted by the JHSPH in response to the 
events of September 11, 2001. Approval for all work described below was 
obtained from the JHSPH Institutional Review Board.
assessment of exposure to airborne contaminants of workers involved in 
 the clean up and recover effort: october 1-31, 2001 and april 12-24, 
                                  2002
    The purpose of the study was to quantify exposure of some workers 
at the site to airborne contaminants of concern. The exposure 
assessment was organized in cooperation with the IBT and a project plan 
was developed for contacting and monitoring truck drivers at the 
disaster site. On September 30, 2001, investigators from Johns Hopkins 
met with local IBT union representatives in New York City (NYC). Local 
unions included Local 282, which represents the majority of drivers in 
the NYC area and Local 831, which represents some NYC Department of 
Sanitation (NYC DOS) workers who are NYC employees. In October, 54 
truck drivers hauling debris away from the disaster site were monitored 
for exposure to airborne contaminants. Monitoring was conducted across 
a work shift so that drivers were either sampled from 6 a.m.-6 p.m. or 
6 p.m.-6 a.m. In addition, we conducted area monitoring at four 
locations around the disaster site including the cross streets of 
Church and Dey, Park Place and Greenwich, Liberty and Greenwich, and 
Albany and West. We also monitored directly in the debris pile on 
several days.
    Follow up personal exposure monitoring and area sampling was 
conducted April 12-24, 2002. Personal monitoring was conducted for the 
last 15 truck drivers at the site. Area sampling was conducted on site 
within the restricted zone at approximately the cross streets of Church 
and Dey, Barclay and Greenwich, and Liberty and West. We also monitored 
directly in the Pit. We monitored both during the day and at night with 
the sampling period carried out across a work shift. Contaminants 
monitored for during both studies included area measurements for 
asbestos, size fractionated particulate matter (Total Dust (TD), 
PM<INF>10</INF>, PM<INF>2.5</INF>), and volatile organic compounds. 
Personal exposure was measured for TD, asbestos, and volatile organic 
compounds. TD refers to all particles in the air. PM<INF>10</INF> 
refers to all particles 10 micrometers (mm) or less in aerodynamic 
diameter. PM<INF>2.5</INF> refers to all particles 2.5 mm or less in 
aerodynamic diameter.
Results
    We report concentrations of particles in the air in units of 
microgram per cubic meter (mg/m<SUP>3</SUP>). During October perimeter 
concentrations for TD, PM<INF>10</INF>, and PM<INF>2.5</INF> 
concentrations ranged from 43 to 331 mg/m<SUP>3</SUP>, 41 to 392 mg/
m<SUP>3</SUP>, and 21 to 321 mg/m, respectively. The median personal 
exposure to Total Dust was 346 mg/m<SUP>3</SUP>. The maximum TD area 
concentration, 1742 mg/m<SUP>3</SUP> was found in the middle of the 
debris (the Pile) implying a strong concentration gradient from the 
middle of debris outward. PM<INF>2.5</INF>/PM<INF>10</INF> ratios 
ranged from 23 percent to 100 percent suggesting significant fire 
activity during some of the sampled shifts. During April, area TD 
concentrations ranged from 14 to 195 mg/m<SUP>3</SUP>, PM<INF>10</INF> 
from 13 to 144 mg/m<SUP>3</SUP>, and PM<INF>2.5</INF> from 4 to 102 mg/
m<SUP>3</SUP>. The median personal exposure to TD was 144 mg/
m<SUP>3</SUP>. During both months, volatile organic compounds 
concentrations were low. For both months personal airborne asbestos 
concentrations ranged from {0.004-0.1 structures per cubic centimeter 
(s/cm<SUP>3</SUP>). Area concentration ranged from 0.005-0.12 s/
cm<SUP>3</SUP>. In general, area asbestos measurements were less than 
the personal results (except for the sample collected on top of the 
rubble pile) and decreased over the course of the cleanup. All personal 
exposure results were sent to the IBT. We provided particle 
concentration data to the New York City Department of Health.
Interpretation of Findings
    Particle concentrations were significantly elevated at the disaster 
site above background concentrations even several weeks after the 
attacks. Concentrations were still elevated near the end of the clean 
up operation, but were significantly lower. Given the elevation in 
particles of all sizes over the course of the clean up operation it was 
likely that impacts on the respiratory impacts would be reported. In 
fact during this study workers at the site reported to us that they 
were experiencing irritation of both upper and lower airways. Airborne 
asbestos concentrations were low and dominated by short fibers. Given 
these low concentrations, evidence of short fibers, and the short 
duration of the exposure (less than 10 months to complete the cleanup), 
it is likely that truck drivers working at the site would not be at an 
increased risk for asbestos-related disease.
respiratory health survey of clean up workers at the wtc disaster site: 
                          december 11-19, 2001
    While we were conducting the study, described above to assess 
exposure of WTC workers to airborne contaminants, a number of the 
workers expressed concern about problems they were having with 
breathing. To address this concern, we conducted a study which was 
designed to assess respiratory health effects of workers actively 
involved in the clean up operation at the disaster site. The objectives 
of this study were to collect respiratory health information by 
personal interview and lung function measurements by spirometry of WTC 
workers. This effort was coordinated through the IBT and the 
International Union of Operating Engineers (IUOE). Chesapeake 
Occupational Health Services, Baltimore MD was hired to conduct the 
lung function testing. Questionnaire development was conducted at JHSPH 
under the guidance of Dr. Jonathan Samet. The questionnaire included 
demographic information, questions about first day at the disaster 
site, the number of work days at the site, respiratory symptoms 
experienced before and since working at the site, previous illnesses 
related to the lungs, tobacco use, and respirator use. The study was 
conducted on site from December 11-19, 2001. Respiratory health 
information was obtained for 183 individuals and pulmonary function 
testing was conducted for 175 individuals. Trades monitored included: 
Teamsters (drivers hauling debris from site), Operating Engineers 
(operators of heavy lifting equipment such as crane operators, 
grapplers, front loaders, and back hoes), Dock Builders (in charge of 
barge operation), Carpenters (responsible for on-site construction of 
any necessary structures), Laborers (involved in tasks such as 
directing truck traffic in and out of the pit, and fixing roads).
Results
    Sixty-five percent of the workers surveyed arrived at the site 
without lower respiratory symptoms. Of this group, 34 percent developed 
cough, 24 percent developed phlegm, and 19 percent developed wheeze. 
Prevalence rates of these symptoms were related to the number of days 
spent working at the WTC, but not job category. The mean percentage 
predicted FEV<INF>1</INF> and FVC were 6 percent and 5 percent lower, 
respectively, for workers who developed new lower respiratory symptoms 
compared to those who remained symptom-free. While the development of 
new wheeze suggested the presence of airway obstruction, the near-
normal distribution of age-adjusted FEV<INF>1</INF>/FVC ratios 
suggested that the degree of obstruction was mild. The prevalence rates 
of upper airway symptoms (nasal congestion, sore throat, hoarse throat) 
exceeded those of lower respiratory symptoms, however, it was not 
determined whether symptoms pre-dated arrival at the WTC site.
Interpretation of Findings
    Over the course of approximately 3 months a significant number of 
workers who came to the site free of respiratory symptoms developed 
signature symptoms of lower respiratory distress. This early indication 
of health effects strongly suggested the need for further follow up.
The World Trade Center Clean up and Recovery Worker Cohort Study: 2002 
        to Present
    This study, which began summer 2002, was designed to address 
concerns that workers involved in the clean up operation could be at 
risk for respiratory and mental health effects that persisted after 
completing work at the WTC. The goal of this study was to test the 
hypothesis that workers involved with the clean up operation at the WTC 
are at elevated risk for persistent respiratory and mental health 
effects, and that the risk is related to the duration of work at the 
site, and the location of work. Three local New York unions affiliated 
with the IBT, the IUOE, and the Laborers International Union of North 
America (LIUNA), as well as the NYC DOS, agreed to participate is this 
study. Each organization was asked to identify members who had 
participated in the clean up and recovery effort at the WTC disaster 
site, as well as a group of workers who were never at the WTC. The 
local IBT and IUOE unions agreed to both requests; the local LIUNA 
union and the NYC DOS agreed to identify only workers who had been 
involved at the WTC. Workers contacted to participate in this study 
included truck drivers, heavy equipment operators, laborers, and 
sanitation employees. Data used for analysis of respiratory health 
effects was collected by survey specifically designed for this study. 
The World Trade Center Clean Up and Recovery Worker Health Assessment 
Survey included questions covering demographic information, work 
history, work experience at the disaster site, exposure at the WTC, 
general health history, and respiratory and mental health status. Two 
versions of the survey were created. One version was designed to be 
administered to workers who were involved at the WTC. A second version, 
which did not include questions specific to the disaster site, was 
designed to be administered to workers who were never at the WTC. In 
this version of the survey, a set of questions was included to allow a 
respondent to indicate if they had been at the WTC. The surveys were 
mailed between March and June 2003. Data collection continued for 
approximately 12 months. The survey was sent to 4,546 workers 
identified by their union or employer as having worked at the site (25 
percent responded), and 2103 workers who were never at the WTC (11 
percent responded).
Preliminary Results (manuscripts in preparation)
    Respiratory health among workers involved in the clean up evaluated 
approximately 20 months after the initial exposure to assess the risk 
of persistent lower respiratory symptoms (LRS). As compared to workers 
who were never at the site, WTC workers were more than three times as 
likely to report any LRS (Odds Ratio (OR) = 3.40, 95 percent Confidence 
Interval (CI): 2.33, 4.94). Workers who spent greater than 240 days at 
the site were more than five times as likely to report any LRS as 
compared to those never exposed (OR = 5.79, 95 percent CI: 3.59, 9.35). 
WTC work location was also an important predictor of LRS. The OR for 
workers who spent time directly in the debris was 1.58 (95 percent 
CI:1.12, 2.32) as compared to other locations. The risk for 
experiencing mental health symptoms was also elevated. As compared to 
workers who were never at the WTC, WTC workers were at elevated risk 
for anxiety disorder, panic disorder, post traumatic stress disorder 
and depression were all elevated: Anxiety disorder OR = 3.98 (95 
percent CI: 2.23;7.10); Panic disorder OR = 3.14 (95 percent CI: 
1.71.17.44); PTSD OR = 3.14 (95 percent CI: 1.51;6.53); Severe 
depression OR = 3.62 (95 percent CI: 2.01; 6.52).
Interpretation of Results
    These results suggest a persistent impact on respiratory and mental 
health related to work experience at the WTC. They strongly indicate 
the need for further monitoring to identify and address potential long-
term effects.
                               conclusion
    Overall, our work shows that working at the disaster site had 
negative impacts on health. The particle mixture was complex and 
resulted in impacts on respiratory health early in the clean up process 
that have persisted. The psychological consequences of being involved 
at the site were also significant and need to be monitored. Following 
this population is necessary to form a complete understanding of how 
health was impacted by participation in the clean up operation at the 
WTC and to ensure appropriate care for those who were affected.
                               References
Geyh AS*, Chillrud S, Williams D, Herbstman JB, Symons JM, Rees K, 
    Trupin BJ, Lim HJ, Kim SR, Breysse PN ``Assessing Truck Driver 
    Exposure at the World Trade Center Disaster Site: Personal and Area 
    Monitoring for Particulate Matter and Volatile Organic Compounds 
    during October 2001 and April 2002'' 2005. J. Occ. Environ. Hygiene 
    2 179-193.
Breysse PN*, Williams DL, Herbstman JB, Symons JM, Chillrud SN, Ross J, 
    Henshaw S, Rees K, Watson M, Geyh AS ``Asbestos Exposures to Truck 
    Drivers During World Trade Center Clean Up Operations.'' J. Occ. 
    Environ. Hyg. 2005 Aug; 2(8):400-5
Herbstman JB, Frank R, Schwab M, Williams, DL, Samet JM, Breysse PN, 
    Geyh AS*. ``Respiratory Effects of Inhalation Exposure Among 
    Workers During the Clean Up Effort at the World Trade Center 
    Disaster Site.'' Environ. Res. 99 2005, 85-92.
Tao, X, Massa J, Ashwell L, Davis K, Schwab M, Geyh A*. The World Trade 
    Center Clean up and Recovery Worker Cohort Study: Respiratory 
    health among clean up workers approximately 20 months after initial 
    exposure at the disaster site. (in preparation)
Omer, S, Barnet D, Chatterjee, P, Parker CI, Gross R., Massa J, Ashwell 
    L, Davis K, Schwab M, Geyh A*. The World Trade Center Clean up and 
    Recovery Worker Cohort Study: Mental health among clean up workers 
    approximately 20 months after initial exposure at the disaster 
    site. (in preparation)
Gross R, Neria Y, Tao XG, Massa J, Ashwell L, Davis K, Geyh A. 
    ``Posttraumatic stress disorder and other psychological sequelae 
    among World Trade Center Clean Up and Recovery Workers''. 2006 Ann. 
    N.Y. Acad. Sci. 1071 495-499.
Johnson SB, Langlieb A, Teret S, Gross R, Schwab M, Massa J, Geyh A 
    ``Rethinking First Response: Effects of the clean up and recovery 
    effort on low-profile workers at the World Trade Center disaster 
    site.'' J. Occ. Environ. Med. 2005 Apr; 47(4):386-391.
  Prepared Statement of Eli J. Kleinman, M.D., Assistant Professor of 
    Medicine and Attending Hematologist, Albert Einstein College of 
    Medicine and Attending Physician of Mt. Sinai, New York City, NY
    Good morning Chairman Kennedy, Senator Enzi and distinguished 
members of this committee.
    My name is Eli Kleinman. I am an Assistant Professor of Medicine 
and Attending Hematologist at the Albert Einstein College of Medicine, 
and Attending Physician at the Mt. Sinai Hospital, in New York.
    As Supervising Chief Surgeon of the largest municipal Police 
Department in the Nation, I am charged with ensuring the health and 
welfare of over 55,000 employees. In this endeavor, I am assisted by a 
dedicated corps of physicians, nurses, psychologists and other health 
care professionals, who work tirelessly to maintain the department at 
full strength, in protecting the public.
    Following the September 11, 2001 attacks, over 34,000 NYPD officers 
and employees--the largest single group of responders in NYC--
participated in rescue, recovery and cleanup operations at Ground Zero, 
or one of the other designated exposure sites. Since that time the 
NYPD's Medical Division has documented, evaluated, monitored, tracked 
and referred for treatment, all of its members who have come forward 
with WTC-related symptoms. In an effort to expand the network of 
options available to its affected employees, the NYPD established 
liaison programs early on, with Columbia University (Project Cope), for 
the evaluation and treatment of psychological symptoms, and with the 
Mt. Sinai Medical Center, for the evaluation and treatment of 
respiratory conditions, as well as encouraging enrollment in the World 
Trade Center Health Registry, Project Liberty and the NYPD's peer 
support groups--its Early Intervention Center and POPPA.
    In the Summer of 2002, the Medical Division embarked on a study of 
over 600 exposed individuals, providing participants with full medical 
and psychological examinations, assessment of pulmonary functions, and 
audiometric and laboratory testing. Thirty-eight percent of those 
tested showed abnormalities at that time mostly due to respiratory, 
orthopedic or hearing problems as well as PTSD. A follow up to this 
effort is slated for later this year.
    As of today--even at this early stage--the NYPD has processed over 
3,000 medical claims pertaining to WTC-related illness or injury by 
NYPD personnel, encompassing the myriad medical problems described in 
the medical literature, including respiratory, orthopedic, 
psychological, gastrointestinal, hearing and other maladies. Over 100 
NYPD members have already retired with disabilities due to these 
illnesses, and over 300 disability applications possibly stemming from 
WTC-related causes, currently await finalization.
    Additionally, the NYPD Medical Division is now completing and 
analyzing the data from two 5-year studies of WTC-related conditions--
one involving its Emergency Services Units, comparing their baseline 
pre- and post-9/11 pulmonary function, and a second study, following 
members of the department with new-onset, or persistent symptoms. All 
the aforementioned initiatives undertaken by the NYPD, have been 
entirely self-sustained, without the benefit of any Federal funding, 
taxing both the NYPD's Medical Division personnel and resources. 
Projected costs for continued monitoring and treatment of the more than 
34,000 exposed members have been estimated to be approximately $15M 
annually and will require upgrading and replacement of aging equipment.
    The importance of obtaining funding for continuation of these 
efforts cannot be over-emphasized. The 34,000 exposed members of the 
NYPD represent a most important, and unequalled source of medical 
information and data, waiting to be examined. The unique ability of the 
NYPD Medical Division to monitor and track the health status of its 
members, observe potential emerging symptoms and disease trends, and 
relate them to time and place of exposure, make the need for funding 
these follow ups an imperative. The NYPD cohort, which represents a 
broad cross-section of those who were exposed, were engaged in every 
aspect of duties--from desk jobs near ground zero, to working directly 
on the pile or the landfill sites--and serve as the largest database of 
individuals both active and retired, who can reliably be contacted and 
monitored, and for many, in a medical environment to which they have 
become accustomed, and which is integrated into their daily work 
schedules. The information that will emerge from this cohort will be 
critical to medical experts and will provide the kind of data which may 
be extrapolated to the wider community--data which scientists must have 
in order to be able to accurately assess future monitoring and 
treatment directions of exposed NYC and area residents. The unique 
capability of the NYPD to monitor possible disease trends and its 
syndromic surveillance system ensure that data emanating from this 
large group will be available for epidemiologically assessing emerging 
medical issues, for years to come. It will also help those in 
government responsible for preparedeness, to better plan and execute 
large-scale medical and psychological programs, in the event of another 
urban catastrophe.
    The NYPD, along with its sister agencies, was present in full force 
from the first moments of this great national tragedy, lost its finest 
on that dark day, and continues to deal with the medical and 
psychological consequences since. We have an obligation to the brave 
responders, to the medical and scientific community, and to the Nation 
at large, to gather and analyze the vital information that they 
uniquely possess. In order to do so adequately, the NYPD cannot hope to 
do it alone. The NYPD deserves--and must obtain--Federal assistance.
             Appendix: Background on NYPD Medical Division
                                mission
    The NYPD is the largest municipal police force in the world, with 
over 30,000 uniformed and 20,000 civilian employees. The NYPD Medical 
Division is charged with maintaining the health and welfare of the 
55,000 members of the NYPD, helping to maintain the Department at its 
optimum force. As one of the only Medical Divisions of its kind 
worldwide, it engages in myriad activities, with many programs and 
initiatives overseen by a dedicated corps of over 500 expert 
physicians, nurses, psychologists, technicians and civilians, who bring 
their unique talents to one of the most sophisticated and multifaceted 
enterprises to be found in any organization.
                               activities
    The Medical Division ensures the viability of the Department by 
evaluating Police Department candidates for suitability for employment, 
training, fitness for duty, and disability retirement, and its Police 
Surgeons preside over 100,000 medical clinic visits annually.
    The Medical Division monitors and tracks all uniformed members who 
become ill or injured, both in the line of duty or off-duty, with daily 
hospital visits and medical updates, makes available state-of-the-art 
medical consultations from among its corps of 31 Police Surgeons and 
over 300 Honorary Police Surgeons throughout the metropolitan area, and 
has access to the expertise of physicians from the finest medical 
centers nationwide.
    NYPD Police Surgeons and Psychologists are present at every 
incident--involving trauma, both at the scene and in hospital--its 
Police Surgeon Corps is comprised of the entire spectrum of medical and 
surgical sub-specialties, and representing all the major area medical 
centers. It provides consultations to members' families and retirees 
who are ill and in need of expert medical or psychological advice.
                         healthcare monitoring
    The health status of every uniformed member of the department who 
is injured or ill is monitored on a daily basis with daily medical 
updates entered on its comprehensive Database. The status of members 
who suffer chronic medical conditions is followed by the member's 
individual Police Surgeon at least every 2 weeks, in close consultation 
with their private physicians.
    The Medical Division maintains a Pregnancy Medical District, with 
an Obstetrician-Gynecologist on duty and available at all times for the 
special problems that may be experienced by members who are pregnant, 
or those with special women's issues.
    Due to its unique ability to track the whereabouts and duty 
assignments of all uniformed members, the Medical Division monitors 
illness clusters through its Syndromic Surveillance system, and alerts 
the Department of Health to any unusual or suspicious trends.
    In addition, the Medical Division closely tracks medical conditions 
resulting from exposure at the World Trade Center, with emphasis on 
known conditions such as Respiratory illnesses and GERD, and monitors 
for possible newly emerging problems and trends, such as Sarcoidosis or 
malignancies. This information is forwarded to the Department of Health 
through its World Trade Center Health Registry medical coordinators. 
The NYPD Chief Surgeon sits on the Registry's Community Health Advisory 
Board.
                          treatment referrals
    All members injured or ill in the line of duty receive referrals to 
the physician or medical facility of their choice for diagnostic 
testing and/or treatment. The medical division is currently arranging 
to provide prescription drugs--at no out-of-pocket cost to them. The 
Medical Division's Billing Department processes over 70,000 medical 
bills annually.
    The Medical Division maintains a cadre of over 300 medical 
specialists as part of their Honorary Police Surgeon corps, all of whom 
are hand-picked by the Chief Surgeon for their particular expertise and 
reputation. These dedicated individuals work in close association with 
the Department's Surgeons to make the finest care available to members 
and their families at no out-of-pocket costs to them. This network has 
proven itself over and over, in situations of medical extremis for both 
active and retired members and their families.
                         psychological support
    The Medical Division's Psychological Evaluation and Services 
sections utilize over 25 psychologists to evaluate candidates for 
suitability for employment, fitness for duty and disability retirement. 
These dedicated professionals also provide counseling, trauma response 
and grief management services, and work closely with private 
practitioners, Project Cope counselors and the NYPD's peer support 
groups, in treating members with mental health issues. NYPD 
psychologists greet and debrief members returning from overseas active 
military duty, to ensure their well-being and re-adjustment.
                    medical information and guidance
    The Medical Division provides up-to-date information and medical 
advice geared towards prevention health care maintenance, via the 
publication of flyers, brochures and in multi-media presentations. It 
also publishes a medical column in the NYPD's publication Spring 3100, 
and posts a Chief Surgeon's Corner, highlighting a topic of medical 
interest and importance on the Department's Finest Health Web site. 
Additionally, The Medical Division Health Van makes rounds to all 
commands and police facilities, disseminating information and providing 
various health maintenance check-ups, described below.
    The Medical Records section, maintains extensive detailed medical 
records dating from pre-employment to years after retirement for its 
members, and as such, possesses an unequalled database for research and 
follow up.
               healthy lifestyle and nutritional support
    The Medical Division has a full-time certified Nutritionist 
available to counsel members on nutritional advice, and promoting a 
healthy lifestyle. Police Surgeons also review and medically clear 
members prior to their embarking on exercise programs in the NYPD's 
Fitness Center.
                  vaccination and prophylaxis programs
    The Medical Division makes Influenza Vaccination available and 
publicizes its importance, to all its members of the Department 
annually, and in its most recent successful campaign, administered over 
7,000 vaccinations to members. Its program is also designed to 
accomplish vaccinations and distribution of medications in the event of 
a biologic emergency such as a Pandemic Flu emergency or bio-terror 
release, its Points of Distribution system (POD) serving as a model for 
others.
    In addition, the Medical Division administers thousands of 
Hepatitis Vaccines to its members and prepares and prophylaxes 
specialized units such as the Hurricane Katrina Volunteer Units, 
against pathogenic illness, before deploying in endemic areas, greeting 
and re-examining them upon their return.
                     special programs and liaisons
    The Medical Division has special relationships with a variety of 
medical and mental health partners, such as Project Cope (Columbia 
University) and the Mt. Sinai Medical Center, affording its members the 
availability of confidential services for special problems. In 
addition, the Medical Division provides counseling services via its 
Early Intervention Unit, designed to prevent suicides or other 
psychological crises, and hosts the NYPD Self-Support group for members 
who have survived serious trauma or other illnesses, and supports 
POPPA, a peer-based confidential psychological support service.
    The Medical Division administers a highly successful Smoking 
Cessation program, Alcohol Counseling Unit, utilizes the Health Van for 
Blood Pressure, Cholesterol and Flu campaigns, and periodically has 
hosted Womens' Health and other topical medical conferences.
                        miscellaneous activities
    The Medical Division is responsible for ensuring that all NYPD 
facilities are compliant with Federal safety requirements and 
administers the department's OSHA unit. It also performs random and 
pre-employment Drug Testing, maintaining a zero-tolerance policy for 
illicit drug use across the Department.
                       wtc studies and follow-up
    Following the September 11, 2001 attacks, over 34,000 NYPD officers 
and employees--the largest single group of responders in NYC--
participated in rescue, recovery and cleanup operations at Ground Zero, 
or one of the other designated exposure sites. Since that time the 
NYPD's Medical Division has documented, evaluated, monitored, tracked 
and referred for treatment, all of its members who have come forward 
with WTC-related symptoms. In addition, the Medical Division initiated 
a follow up study of exposed individuals in 2002 providing full 
medical, psychological, pulmonary, audiometric and laboratory testing, 
and has scheduled a follow up of that study for later this year.
    The NYPD Medical Division is now completing and analyzing data from 
two 5-year studies of WTC-related conditions--one involving its 
Emergency Services Units, comparing baseline and post 9/11 data, and a 
second study, following other members of the department with new-onset, 
or persistent symptoms or illness.
    This NYPD cohort is a critically important one, as it represents 
the largest cross-section of responders, most closely resembling the 
baseline medical conditions of New York area residents, from which the 
medical and scientific communities can draw upon. Evaluating and 
tracking this large group will allow for more accurately determining 
the future direction of monitoring and treatment needs for emerging 
conditions. Data emerging from this group may be more appropriate for 
extrapolation to the general public than those from other responder 
groups, who may have particular underlying characteristics. The NYPD's 
unique ability to relate exposures to time and place may also provide 
critical information of epidemiologic importance.
                        preparedness and drills
    Since the events of 9/11, the Medical Division has been charged 
with preparing the department against future urban disasters, and has--
in conjunction with its colleagues in the Counter-terrorism Bureau--
drilled against both natural and terrorist calamities. The Medical 
Division has devised operational plans for various contingencies, in 
keeping with NIMS and CIMS guidelines, including natural disasters such 
as Pandemic Flu, Hurricanes, and terrorist events such as weaponized 
biological, radiological or chemical attacks.
    The Medical Division's operational PODS plan, which is flexible to 
a variety of situations, is a meticulously worked out distribution plan 
recognized by the DOHMH as a model for other agencies, and has been 
tested in the field.
    The Chief Surgeon is present at all of the Police Commissioner's 
numerous tabletop disaster drills, and, along with the Medical Director 
of Counter-terrorism, advises on all issues of medical concern in these 
simulations.
    NYPD Police Surgeons are involved in all the pre-training 
examinations and monitor all specialized Cobra Teams of the NYPD, 
assuring the Department's readiness for all emergency contingencies.
                                funding
    The Medical Division of the NYPD has never received, and currently 
receives no Federal funding for medical monitoring, tracking, 
preparedness, or any of its many other activities.
                                 ______
                                 
        Unions, Organizations and Workers Supplemental Materials
To:  The Honorable Senator Edward Kennedy, Chairperson, with Senator 
Hillary Clinton, Senator Michael Enzi, and the Members of the U.S. 
Senate's Committee on Health, Education, Labor, and Pensions (``HELP 
Committee'')

From:  Suzanne Mattei, New York City Executive, Sierra Club

Date:  March 19, 2007

Re:  Submissions for the official hearing record of the HELP Committee 
hearing to be held on Wednesday, March 21, 2007.

    The Sierra Club applauds Senator Kennedy, Senator Clinton, Senator 
Enzi and the Members of the Committee on Health, Education, Labor, and 
Pensions for holding this important hearing to address the health-
related needs of those exposed to pollution from the September 11, 2001 
attack on the World Trade Center. We request that you include these two 
reports in the official hearing record of your hearing to be held on 
Wednesday, March 21, 2007.
        pollution and deception at ground zero revisited (2005)
    <bullet> The first section of this report provides information on 
health impacts and potential future health hazards related to 9/11 
pollution exposure.
    <bullet> The second section provides data on people from other 
States who came to help and now need health monitoring or care.
    harmful legacy of pollution and deception at ground zero (2006)
    <bullet> The third section of this report describes how and why 
Ground Zero workers with years of work experience are now bearing the 
burden of serious financial distress.
    <bullet> The third section also describes the failure to address 
the 9/11 pollution's health impacts on residents and the continuing 
risks of exposure.

    The reports provide important background on the impact of the 
disaster and the inadequacies of the Federal response. Both reports, in 
addition, raise the important question of what would happen in a future 
disaster, based on the extent to which our country's national response 
plans not only fail to correct the mis-steps of Ground Zero, but in 
some important respects actually incorporate those missteps as policy 
for future disasters.
    Thank you for including these reports in the record of your 
important hearing.

    [Editor's Note: Due to the high cost of printing, previously 
published materials are not reprinted in the hearing record. The 
reports indicated above may be viewed online at http://
www.sierraclub.org/library/onlinecollections/reports.]
                                 ______
                                 
                                            March 22, 2007.
Hon. Hillary Rodham Clinton,
U.S. Senate,
Washington, DC. 20510.

    Dear Senator Clinton: I am writing this letter on behalf of the 
members of Teamsters Local Union 282, International Brotherhood of 
Teamsters. Our members at Teamsters Local Union 282 responded to the 
attack on the World Trade Center, and the collapse of the towers by 
going down as volunteers to the site to help out in any way they could. 
Additionally, over the course of 12 months, Teamsters Local Union 282 
had approximately 900 construction workers at the site, employed by 
several different contractors.
    The provision of adequate funding for medical care for our members 
is of utmost importance. The New York City medical community has 
acknowledged that there has been an increase in respiratory disease and 
mental health issues related to the World Trade Center disaster clean 
up. Our members continue to experience health problems including 
respiratory illness, headaches, depression, and anxiety. Teamsters 
Local Union 282 supports and applauds your efforts to bring attention 
to the issues faced by our members who responded so bravely in the 
aftermath of the attack on America.
            Sincerely,
                                           Gary La Barbera,
                                                         President.
                                 ______
                                 
                                            March 19, 2007.

    To Whom It May Concern: My name is Stanley Trojanowski. I am a 
retired New York City Firefighter from Engine 238 who is disabled due 
to the events of September 11, 2001. I was hoping to work as a 
firefighter for at least 40 years but as a result of that day, my own 
and my immediate family's lives have changed permanently. Due to my 
involvement and exposure that tragic day I have respiratory problems 
and have gone unconscious numerous times due to severe cough attacks. I 
have further physical disabilities such as torn ligaments in my left 
arm due to the physical rescue and recovery efforts and from being 
involved in both collapses. I was also diagnosed with Post Traumatic 
Stress Disorder (PTSD) following September eleventh.
    Due to my severe cough and breathing problems I am afraid to 
perform everyday activities such as driving or jogging. I have blacked 
out due to coughing while driving with my wife, over another 
firefighter's house, in the hospital emergency room, and even on the 
toilet. After blacking out while driving on January 26, 2002, my wife 
Boguslawa has been afraid to drive and has not driven on a highway 
since. My son Michal has quit the Hicksville Junior Volunteer Fire 
Department after seeing the effects that day has had on me. I have 
trouble communicating with my family due to many extreme outbursts 
which have decreased due to medication and therapy.
    Since 9/11, I have been on numerous medications such as Pulmicort, 
Advair, Combivent, Nexium, Lotrell, Rhinocort, Dyphenhydramine, and 
Zoloft. I have been attending weekly sessions for retired New York City 
firefighters as well as seeing a personal counselor for a while post-9/
11, at the counseling unit. I am currently under professional 
psychiatric care which is funded by the Red Cross. I am also being 
monitored by Dr. Prezant, a lung specialist at the FDNY bureau of 
Health Services. Thanks to the efforts of our union, UFA, and our 
legislators, most of my current medications treating the 9/11 symptoms 
are paid for by the government for the year 2007. This saves me 
thousands of dollars in co-payments annually.
    The medication, together with treatment and therapy, have helped me 
cope a little better with the mental and physical effects of 9/11. I 
feel these treatments, monitoring, and studies will help professionals 
understand the effects this day has had and therefore better treat any 
future tragedies and major catastrophes the younger firefighters and 
other civil servants may face.
            Sincerely,
                                       Stanley Trojanowski.
                                 ______
                                 
    Prepared Statement of MaryEllen McKillion Salamone, P.T., J.D., 
   Founder, Children of September 11, Widow of John Salamone, Cantor 
                             Fitzgerald 104
    Thank you Senators Enzi, Kennedy and Clinton for this opportunity 
to present testimony on the long-term health effects of September 11, 
2001.
                    the children continue to suffer
    A study released this week by the New York-Presbyterian Hospital/
Weill Cornell Medical Center found that the rate of psychiatric illness 
among children who lost a parent in the attacks of September 11 reached 
nearly 73 percent. The research indicated that children bereaved as a 
result of 9/11 demonstrated double the rate of anxiety disorders and 10 
times the rate of post traumatic stress disorders. The study also found 
that levels of cortisol, the stress hormone, were elevated in children 
grieving from 9/11 for several years after the attacks compared to 
their nonbereaved peers.
    The results indicated that bereaved children continue to suffer 
after 9/11, and highlighted the need for more long-term research ``to 
determine when, if ever, children recover from these physiological and 
psychological consequences.'' \1\
    Science affirms what families have experienced for 5 years since 
September 11 and the problems we anticipate for our future.
    I am a 9/11 widow and now single mother to three children who lost 
their father in the attacks on the World Trade Center. Ages 6, 4 and 2 
at the time, they are only now coming to realize and comprehend the 
horrific circumstances of their father's death. They are only three 
among thousands of children who are growing to face the grim realities 
of the fate of their parent, or loved one, on 9/11. They are just 
beginning to learn how to face the images of the fire, the planes, the 
crumbling buildings, the bloodied survivors, and the desperate jumpers.
    The children continue to suffer.
    The study cited above offers evidence to substantiate the claim 
that children grieving from 9/11 continue to struggle. Without a study, 
those understanding childhood development could have easily predicted 
the results. A bereaved child does not process trauma and loss as 
adults do. To fully accept a loss and the impact it has in his life, a 
child must revisit the death or trauma at each developmental milestone 
as he grows. The tragic death of a parent has a different meaning to a 
child when he is 4 than it does when he is 7, or when his team wins the 
basketball championship, or when he enters his teen years or goes to 
his first dance. As his cognitive and emotional skills mature, so must 
his understanding of a significant loss and how it affects his life. 
Grieving lasts throughout childhood.
    This is considered the ``normal'' grieving process for all children 
suffering from the loss of a parent or significant loved one, and it is 
not easy. However, 9/11 was not normal, nor was its' aftermath. How 
many Americans struggling to accept a loss in their lives have access 
to graphic video imagery of their loved one's murder or demise, any 
second of the day? How many children in America, learning to cope with 
the loss of a parent, can easily access video footage in moments of 
their deepest despair, and wonder if the body plummeting to the ground 
103 floors below is that of their father, or perhaps if the screams 
heard in the background on the 9/11 audio tapes as the building 
collapsed are those of their mother? Technology offers our children 
this opportunity; the media coverage of 9/11 has made normal 
bereavement abnormal on its face.
    The children continue to suffer.
    Society also puts children at a disadvantage as they work to 
recover from 9/11. ``Kids are resilient.'' This often repeated phrase, 
exclaimed in praise and celebration of a child's ability to return to a 
productive life after a crisis, trauma or loss, frequently abolishes a 
child's chances for help if he encounters difficulties coping years 
after the loss. Teachers, coaches, peers, strangers: everyone seems to 
grant a 1-year recovery period to a child recovering from loss. At the 
first sign of resiliency, the child is regarded as ``healed'' and the 
expectation is held that he will not return to a place where a past 
crisis or trauma will affect his emotional health. Then when problems 
do arise, they are often ignored. This expectation is contrary to 
normal child development and grief recovery, and leaves a child to 
suffer in silence.
    In today's world, children of 9/11 will continue to suffer.
                                my story
    I am a pediatric physical therapist and worked as an attorney in 
the area of special education. In the last 5 years, I served as 
President of the Families of September 11 organization, founded and 
continue to work with the Children of September 11 program, served as 
faculty on Mount Sinai Medical School's Reaching Children Initiative, 
and currently serve on the board of the National Center for School 
Crisis and Bereavement. I am most qualified to speak on this topic as a 
parent of two who often struggle to cope after 9/11, and of one who 
struggles all the time. My son suffers from traumatic anxiety disorder 
and has difficult to horrible times. Life for us as a family is not 
easy with a son so afflicted; life for him is often impossible.
    He is a great athlete, but he has panic attacks. He is a wonderful 
friend, but as he grows and reaches his adolescence, he faces cruel 
jokes and ridicule due to his fears. He needs to know ``what happens 
next'' on a regular basis; he cannot cope with the unexpected and 
unknown. If he does not know what will happen next, he fears someone 
will die. Treating this symptomology often includes demonstrating to a 
child that his fears are unfounded and often unrealistic. Yet, what 
about my son? His father left for work one day and a plane filled with 
terrorists crashed into his building causing his death in a most 
horrific way. To affirm this reality, my son is reminded of it 
continually via newscasts, flags, bumper stickers, t-shirts, and 
magazine covers. He is reminded through nearly every visual venue one 
might imagine, each and every day. It is his unfortunate truth that at 
any moment a grisly death can steal another loved one from his life. He 
is terrified of the unexpected. What could have been more unexpected 
than the very real 9/11 he lived through?
    He is a good student, but his persistent worries often invade the 
school day and limit his ability to focus. He works hard to cope with 
his difficulties without help in school, and as a result, his teachers 
regularly ignore his special education Section 504 Plan. Working to get 
my son the assistance he needs in school is my uphill battle. There is 
little education or in-service training available to teachers about how 
to work with children suffering the effects of trauma and/or loss. 
Also, on how to recognize symptoms and fears, or how to deal with a 
grieving that spans a childhood. As for the few training programs that 
do exist, it is not mandatory that teachers attend. There are no 
services in our school or in our community for my son. He was supposed 
to be over the death of his father years ago.
    My son's anxiety began on 9/11/2001. It is not due to anything 
else. It is a casualty of 9/11. Along with my husband John, he is a 
victim.
                             mental illness
    Mental illness is different from physical illness, but it can be 
debilitating, disabling, and for a teenager where suicide is the third 
leading cause of death, it can be life threatening. Diagnoses of mental 
health illnesses should be recognized and treated on the same level as 
physical illnesses. Yet, they are not. New York should be commended for 
recently passing Timothy's Law, which requires all health insurance 
companies to provide coverage for mental health care. Sadly, this is 
not the case in many States, and many policies that do cover counseling 
services have restrictions so prohibitive that it prevents people from 
accessing the care they need. My own insurance policy covers basic 
counseling services, but not the specialized services my son requires. 
As a victim of pediatric traumatic loss, he needs services from one 
trained in that area. Sending my son to a psychologist who specializes 
in marriage or drug counseling, as my insurance allows, is akin to 
seeing a dermatologist for a chronic heart condition. It costs me 
several thousands of dollars a year for his care.
    I have health insurance. Thousands of lower- and middle-income 
families have no health insurance and therefore no chance at all to 
receive care for mental health illnesses. If choosing between care for 
a physical or emotional ailment that fits in one's budget, 
realistically the choice would be to treat the physical illness. Hence, 
depression, anxiety, complicated grief, all go untreated in children 
and that can lead to drug abuse, eating disorders, and suicide. 
Charities most thankfully offered financial assistance to 9/11 families 
for a time after the attacks to guarantee access to mental health, but 
the benefits are sun-setting. Children of the victims of September 11 
will soon be among those left alone to suffer in silence.
                            recommendations
    I am thankful that this hearing has been called to investigate 
whether Federal funding should continue for those who suffer long-term 
ailments, even fatal illnesses, caused by the devastation of September 
11, 2001. Yet I am concerned, as I believe caring for those who still 
suffer from 9/11 should be an automatic response, an obligation of our 
government, without a hearing. The findings of the 9/11 Commission 
clearly illustrated that steps should have been taken prior to the 
attacks which could have prevented them. Surely this gives rise to the 
responsibility to assist the victims who continue to suffer. Without 
doubt, long-term resources should be made available to those who are 
afflicted with chronic physical and emotional illnesses sustained as a 
result of the attacks on America. If financial constraints prevent any 
individual, adult or child, suffering with 9/11 ailments from attaining 
the attention he requires, resources must be available to him.
    That is not enough to help the children. They need more than 
reimbursement.
    The attacks of September 11 caused the largest loss of life on 
American soil due to terrorism. Thousands of parents died, and due to 
illnesses resulting from the toxic debris of the destruction, parents 
continue to die. As a country we must resolve that these deaths are not 
in vain. In honor of those lost, as a Nation, we should step up and fix 
what is broken for their children. I implore that you, as a working 
committee, strive to effect necessary change.
    We need families to have health care insurance. We need the Mental 
Health Parity Act to pass providing for compulsory coverage of mental 
health services. We need quality mental health care programs in our 
schools and communities for children. We need improved crisis 
intervention and counseling in schools, and mandatory services for the 
long-term needs of children suffering from trauma and loss, not just 
services in the immediate days that follow. We need funding to inform 
teachers about childhood mental health, in order to better prepare them 
to assist the child that is suffering from death, trauma, loss and 
terrorism. We need to insure the emotional safety of children as well 
as their physical safety, as we prepare schools for future acts of 
terrorism as required by the Homeland Security legislation.\2\ If we, 
as a Nation, gave adequate attention to the mental health needs of our 
children in this country, we could instead be discussing best practices 
rather than simply basic funding for a select few. If the mental health 
needs of 9/11 children were adequately addressed in our schools and 
communities, there would be no need for my testimony.
    Children continue to suffer after 9/11 and we need to care.
    Thank you for this opportunity to submit this testimony.
                                 ______
                                 
  Prepared Statement of William Gleason, Former New York City Fireman
    My name is William Gleason. Two years ago, at age 44, I was 
medically retired from the New York City Fire Department (FDNY) for my 
line of duty injury of September 11, 2001. Until April 2005, I was a 
Lieutenant in the Emergency Medical Services Command and had served in 
the Department for 21 years.
    Over the course of 8 months, I worked more than 100 hours at Ground 
Zero. I worked at Ground Zero from the night of September 11 and for 
the next two days. After that, I was assigned to work at Ground Zero 
for several more shifts until May 2002. Emergency Medical Technicians 
and Paramedics remained on site until that time, directly involved in 
the recovery of the lost, and in order to treat those who were injured 
while working on the cleanup of the World Trade Center site.
    I began to experience health problems on September 12, 2001 when I 
could not breathe out of my nose. Shortly thereafter, I developed 
recurring sinus and upper respiratory infections. One infection would 
clear up and then another infection would develop several days later. I 
underwent several sinus procedures including two in-hospital surgeries.
    I started noticing I was having shortness of breath in October 
2003. On March 8, 2004, I began to experience severe breathing 
problems. My EMS crew transported me to the emergency room and I was 
diagnosed with asthma. That was the beginning of a series of asthma 
attacks, several of which have required treatment at hospital emergency 
rooms.
    On March 15, 2004 the Fire Department Bureau of Health Services 
examined me for the asthma attack. That day the Fire Department 
convened a three-physician medical board which reviewed my medical 
records and determined that I was unfit for duty due to toxic exposure. 
The board stated that, ``His respiratory disability is permanent and 
related to his 9/11-WTC exposures.'' I applied for retirement and in 
November, the New York City Employees Retirement (NYCERS) approved my 
request for line of duty retirement.
    My health care is covered by workers' compensation and I receive 
workers' compensation payments. However, my disability pension is 
reduced by the amount of workers' compensation I receive. I participate 
in the FDNY monitoring program and also receive my health care 
treatment through this program. It is vitally important that I receive 
my care through the FDNY program because the physicians are 
knowledgeable about occupational illnesses and specifically, World 
Trade Center illnesses. Dr. Weiden of FDNY was the first physician who 
was able to connect my medical problems to my WTC exposure. Because my 
asthma is occupational and related to the toxins I was exposed to at 
Ground Zero, it requires specialized care that the vast majority of 
physicians do not have the training or knowledge to provide. I am 
fortunate to have several different physicians who work together to 
maintain my health.
    No doubt, the financial cost of my care is quite high. I have three 
to six appointments with doctors each month. While I do not know the 
actual cost paid for my drugs by the workers' compensation program, I 
am told that at market rates, they cost about $7,000 per month.
    Prior to September 11, 2001 I was in great shape. I did not smoke 
or drink and I was an active swimmer and rock climber. Now, I sit on 
the sidelines and watch my three teenagers do those things. I get short 
of breath when I walk up stairs or even take walks down a long hall. I 
live with Hyper-Reactive Airway Disease Syndrome (a form of 
occupational asthma). The attacks have multiple triggers that include 
the cold as well as hot and humid weather, and even a stranger's 
perfume. I have developed sleep apnea and require a machine at night 
that blows air into my lungs. I now see a cardiologist regularly to 
monitor my heart as it is possible that my respiratory problems could 
lead to heart problems. I have several lung nodules that require CT 
scans every 6 months, and I have developed gastroesophageal reflux 
disease (GERD) and other medical problems that are related to my 9/11 
toxic exposure.
    I worry about my family's future as well as my own. I am watching 
friends who have become very ill from WTC-related illnesses and have 
even watched a few die. Ultimately, I believe that the number who will 
die from the WTC-related toxic exposure will far surpass the number 
killed on September 11. This is one of the tragic legacies of that 
awful day. The Nation must make sure that every one affected by the 
attack receives the care they need and that they and their families are 
not left destitute.
    On September 11, we answered the call. We stood in harm's way and 
did our duty for God and country. Now, we need you to be our heroes. 
Thank you.
                                 ______
                                 
          Prepared Statement of Bonnie Jean Giebfried, NYC EMS
                               diagnosis
    Extrinsic asthma w/acute exacerbation; Reactive airway disease; WTC 
cough; Compromised lung function; Chronic sinusitis; Compromised immune 
system; Post traumatic stress syndrome; GI toxicity; Gastroesophageal 
reflux; Hiatal hernia; Hypothyroidism; Ulna nerve compression; 
DeQuervain's syndrome of left wrist; L.S. radicular neuralgia syndrome; 
Left hand--shoulder syndrome (surgery of left thumb, wrist and elbow--
October 8, 2004); Left shoulder impingement; Left elbow epicondylitis; 
Left TM arthritis; Cervical radiculitis; Cervical spine vertebral 
subluxation complex; Lumbopelvic vertebral subluxation complex; 
Cervicobrachial syndrome; Sciatica; Vertigo.
                 dates out of work since september 2001
2001
    September 11, 2001: dispatched to World Trade Center--8:54 a.m.; 
Evacuated by NYPD boat--South Marina to Liberty Park, NJ--approx. 1 
p.m.; Taken to Bayonne Hospital, NJ by ambulance (discharged 5:30 
p.m.)--transferred to Jamaica Hospital, NY (approx. 10 p.m.).
    Jamaica Hospital, NY: September 11, 2001-September 13, 2001--
injuries sustained on September 11, 2001 at ``Ground Zero''; September 
11, 2001-November 12, 2001: out due to injuries sustained on September 
11, 2001; December 16, 2001-
December 26, 2001: out of work, respiratory.
2002
    February 4, 2002-February 10, 2002: out of work--asthma attack; 
March 15, 2002-March 19, 2002: out of work--respiratory; May 7, 2002-
May 12, 2002: out of work--asthma attack taken to FHMC; June 7, 2002-
June 10, 2002: sent home from work--respiratory; September 13, 2002-
September 17, 2002: out of work--respiratory; November 19, 2002-
November 22, 2002: out of work--asthma; December 24, 2002-December 27, 
2002: out of work--respiratory.
2003
    January 16, 2003-January 18, 2003: asthma attack at Mt. Sinai 
clinic--taken to Lenox Hospital, NYC; April 23, 2003-June 6, 2003: 911 
called taken to South Nassau Communities Hospital--Oceanside 
(discharged 5/5/03)--asthma; August 14, 2003-August 19, 2003: Blackout 
caused panic attacks; August 29, 2003-September 3, 2003: sent home from 
work--respiratory; September 10, 2003-October 10, 2003--out of work--
asthma attack November 2, 2003-November 4, 2003: out of work--panic 
attack.
2004
    February 22, 2004-February 27, 2004: out of work--virus; April 16, 
2004-present: out of work until present day--asthma (October 8, 2004--
surgery of injuries sustained 9/11/01.
                           medication history
Prior to September 11, 2001
    Synthroid--Thyroid
Post September 11, 2001
    Pulmicort 200mcg--asthma; Zithromax 250 mg Z-pak Tab PFI--
respiratory; Albuterol 90mcg Inhaler War--asthma; Azmacort Inhaler 
RHO--asthma; Levaquin 500 mg Tablet MCN--respiratory; 
Methylprednisolone 4 mg DSPKGRE--asthma; Atrovent Inhaler B-I--asthma; 
Bupropion 100 mg Tablet--asthma; Avelox 400 mg Tablet BAY; Prednisone 
10 mg--asthma; Lithium Carb 300 mg Cap 60 CA ROXA--psychiatric; 
Guaifenex DM Tablet SA 20 TA ETHE--respiratory; Advair Diskus 100/50 
mcg--asthma; Belladonna/Phenobar Tabs--psychiatric; Trazadone 100 mg 
Tab--psychiatric; Ketoconazole Cream 2 percent--rash; Synthroid 150 mg 
Tab--thyroid; Trileptal 150 mg Tablets--psychiatric; Trazadone 150 mg 
Tablets--psychiatric; Clindamycin 300 mg Capsules--respiratory; 
Tussionex Pennkinetic Susp MPI (ground zero cough)--respiratory; 
Carafate 1 gram Tablets--GERD; Atrovent Inhaler--asthma; Flonase Nasal 
Spray 0.05 percent--nasal; Lotemax Eye Drops 0.5 percent--eye 
infection; Alocril Eye Drops 2 percent--eye infection; Advair Disc 500/
50--asthma; Clarinex 5 mg--respiratory; Guaifenesin 600/60--antibiotic; 
Ciprodex 1.5ml--antibiotic; Nasaral 25 mcg--respiratory; Lexapro--
psychiatric; Zelnorm--GERD; Factive--pneumonia; Meclizine 12.5 mg--
vertigo (PRN); Compazine 10 mg--(PRN); and Xopenex 1.25 mg--asthma.
                          present medications
    Singular 10 mg Tab--respiratory; Protonix 40 mg--GERD; Klonapin 
wafer--psychiatric; Allegra--respiratory; Wilson Solution--respiratory 
(PRN); QVAR--asthma; Armour 2GR--thyroid; Epi-pen--asthma & Allergies 
(PRN); Rozerem 8 mg--insomnia; Xopenex--asthma; Meclizine 12.5 mg--
vertigo (PRN); Compazine 10 mg--(PRN); and Albuterol--(PRN).
                        certificate of presence
    I, Bonnie Jean Giebfried attest to the fact that on September 11, 
2001 my partner (Jennifer Beckham) and I were assigned to the World 
Trade Center Incident due to the fact we were Emergency Medical 
Technicians employed by Flushing Hospital Medical Center working within 
the guidelines of the New York City 9/11 system under the direction of 
the Fire Department of New York City.
    Shortly before 9 a.m. when the dispatcher was dispatching the units 
into the city, all we knew was the designated staging area we were to 
report to, WEST & VESEY (now known as ``GROUND ZERO'').
    We switched our radio over to city-wide. As we headed into the 
city, we were traveling on the Long Island Expressway and we're seeing 
assorted BLS and ALS units from our sector in front of us as we travel 
toward the city. The Long Island Expressway is one of our main routes 
into the city and the traffic on it was stopped dead in its tracks. 
When we got to a point on the expressway where we could see across to 
Manhattan, my partner and I could see one tower burning.
    As EMTs we learn to overcome that initial fear. We know it's there, 
but we put it in the back of our heads and keep going so we can do our 
jobs. That defense mechanism everyone else has (fright/flight), we 
don't experience, because somehow it gets overridden.
    During our travels on the Long Island Expressway we had to cross 
over into oncoming traffic, going the wrong way. We did this to make 
headway as we traveled toward the mid-town Tunnel. Just before we got 
to the tunnel we got back into the correct lane of traffic so we could 
get into Manhattan. As we came out of the tunnel, the second plane hit.
    Up to this point, we had been following an FDNY unit. We got to the 
Fulton Fish Market, and the FDNY unit turned to go to its assigned 
staging area, at that point we decided to go toward the large black 
plume of smoke. We met up with a crew from another hospital that we 
knew well, when we were a few blocks from THE TWIN TOWERS. The debris 
was flying all over, along with papers, and the tower was engulfed in 
flames. An officer came over and stated that we weren't supposed to be 
staged there. Our staging assignment was WEST & VESEY and we were on 
our way again, down BROADWAY to some other street and onto THE WEST 
SIDE HIGHWAY. When we were driving on THE WEST SIDE HIGHWAY, that's 
when we saw the body parts.
    We did not make it to our designated staging area because a 
firefighter stopped us at WEST & LIBERTY. Everything on the East side 
of us was on fire--buildings, cars and the burning debris was falling 
from THE TOWERS. There was a pedestrian bridge where the firefighter 
had stopped us. It went from the corner of the SOUTH TOWER to the 
FINANCIAL BUILDING, crossing over the roadway. I wanted to be under the 
bridge for safety but the firefighter moved us 12 feet North.
    We unloaded everything we could out of the ambulance: our tech bag, 
oxygen, backboard, collars, and our helmets, which were our only 
protective equipment issued to us. We got everything. The EMS Commander 
for FDNY, Captain Karin DeShore was coordinating our staging area (WEST 
& LIBERTY). She yelled to us that we had to report to Chief Wells with 
FDNY, on the other side of the roadway: they had some people there we 
needed to get out of the SOUTH TOWER. We grabbed our equipment and ran 
across past the cars on fire to the lobby of the SOUTH TOWER. We got 
inside the lobby of the SOUTH TOWER and there were three women who 
needed our help. One woman was handicapped and the other two were just 
frightened. None of them were injured, but we needed to get them out of 
there and to safety! I gave the older woman my helmet and said: 
``you're going to do exactly what we say?,'' as the younger woman 
nodded her head, my partner and I picked up the handicapped woman and 
put her on the stretcher; we were ready to go. We waited until Chief 
Wells said ``GO'' then we ran across the street, and we got all three 
women to safety.
    After we got the women across to safety, we instructed them to go 
away from the towers to a safe location. At this point, my partner and 
I met up with a couple of our paramedics and their students, and this 
is when we started to see and hear the jumpers. When they hit the 
ground it sounded like gunshots.
    Captain Karin DeShore told us the falling debris was getting too 
close, and we had to move back. We continued to witness the TWIN TOWERS 
burning and the people jumping to their deaths. We continued to back 
away from the falling debris when a loud noise rang out, the ground 
shook and a ball of fire came at us. We ran up the grass and saw a 
little alcove on the side of the Financial Building that we thought was 
an entrance, but it wasn't; it was just part of the design of the 
building and that became our tomb where we got buried alive under tons 
of debris.
    There were EMT, FDNY and POLICE buried under all the debris. The 
air, what little there was, was superheated! I took what I was sure 
would be my last breath thinking, ``Take care of my family; take care 
of everyone I love.'' Police Officer Tim McGinn managed to get to his 
firearm, and shot out the window where we were buried; we all started 
to break the thick panes of glass with whatever we had and suddenly 
there was air. We were in the lobby of the building.
    At that point everyone seemed to scatter, trying to find a way out, 
it was dark beyond belief; you could hardly see.
    After being buried we all threw up because whatever came at us, 
that's what we swallowed. God knows what we swallowed; a tree, a piece 
of a car, part of the building, it was hard to tell and we will never 
know!
    We finally got out of the building and went into a nearby deli (Au 
Bon Pain). We had no idea the whole tower collapsed and was gone; we 
just figured the top blew off from the explosion. My eyes were burning 
and Jen flushed them out. Everyone's eyes were burning from the smoke, 
dust and debris. People started to come into the deli and we went into 
EMT mode again and started to triage injuries; like broken arms, 
abrasions, contusions, difficulty breathing, etc. At some point Jen and 
I made the decision to leave the deli, because the building could be 
unstable. There was a MERV (medical van) nearby and we went over to it 
to get more supplies.
    We gathered necessities to triage people, as we departed from the 
MERV and started walking down the street the ground started shaking 
again--I remember that feeling from when the tower exploded. We dropped 
everything and ran into an underground parking garage.
    The debris started coming at us and covering the entrance way. The 
debris settled a bit, Jen pulled her flashlight out; we really couldn't 
see 3 feet in front of us. Then we heard people calling, ``Is anyone in 
here?'' We called to the people to move toward our voices and look for 
the light. We met up with a police officer and four other people. We 
kicked the debris out from the front of the parking garage. The police 
officer said we had to go toward the water. Jen and I saw some of our 
supplies so we started to gather them and we headed toward the water.
    Jen and I set up a makeshift triage area and started treating 
anyone who came toward us for assistance. More resources were arriving; 
a fireboat pulled against the sea wall where we were; whoever was an 
emergency we directed to the boat; all kinds of boats were coming to 
assist in getting people off the island. In the midst of all that was 
going on I began to feel ill, my breathing got really bad; I sat down 
because I was getting very weak and Jen ran to find albuterol because I 
was beginning to have my first of three asthma attacks.
    Chief Browne came over after some time and stated we were being re-
deployed to North Cove Marina. We found one of those golf carts they 
use to pick up trash cans and loaded all our equipment. Chief Browne 
and I introduced ourselves and started to talk about our families and 
where we were from. We arrived at the Marina and we were told there was 
a threat of a gas explosion, at this point we made a decision to get on 
the boat and we were evacuated to New Jersey.
    The albuterol treatment did not break my asthma attack and I was 
starting to have another attack as the boat sped away from the Marina. 
I said to Jen, I did not feel well and I was having another attack; Jen 
said, ``There's no oxygen on the boat, just keep breathing.'' All I 
could see was the city burning under a thick black cloud of smoke to 
the left of me and the Statue of Liberty to the right of me.
    I could hardly stand up when we reached New Jersey. Two men grabbed 
under my arms and brought me up the walkway where an ambulance crew 
grabbed me and brought me to their unit to be treated. I was given 
another treatment of albuterol which was not breaking the attack, the 
paramedics had to start an IV and give me a steroid (Salmeterol) to 
help stop the chest pain and asthma attack I was having.
    We were taken to Bayonne Hospital, the ER team started to triage me 
and Jen, then we were sent to a room in the general population and 
further tests would be ordered and evaluated.
    Jen was going to be released from the hospital and the staff wanted 
to keep me for observation; I said, ``if she goes I am going too,'' I 
would be released if I followed up with an exam at Jamaica Hospital. I 
was given goodwill clothes to wear and Jen was in paper scrubs. As we 
waited for an ambulance from Jamaica Hospital Medical Center (our 
mother hospital) Jen asked me if I wanted to view the city. She had 
found a parking garage which had a direct view of Manhattan; I said, 
``yes.'' We walked a bit and up five flights of stairs to the top of 
the parking garage, where we looked across to view the city; it was 
beyond belief! All I really understood at that point was that we had 
been buried alive. We triaged people, I had asthma attacks, we left the 
city on a boat, we were in a Bayonne Hospital and now we were waiting 
to go home.
    The Jamaica ambulance came and got us. We came home by the 
Verrazano Narrows Bridge the driver pointed out the city still burning. 
While we were on the bridge we got word that a man was picked up on the 
George Washington Bridge in a fuel truck, possibly trying to blow it 
up. All I wanted to do was get over the bridge.
    We finally arrived at Jamaica Hospital Medical Center where we were 
instructed to meet in a designated place to be de-briefed. No one met 
us and Jen's and my anxiety levels increased. All we wanted to do was 
go home. I started to feel ill again and I was going to have another 
asthma attack. Jen called for help and staff arrived and wheeled me to 
the ER. Jen and I received medical attention once again. I was taken to 
the 4th floor to a private room; I didn't want to be anywhere high, I 
was ALONE! I had no TV, no phone and all I could see outside the window 
was the moon and a billboard of the TITANIC sinking over and over 
again.
    I went home 3 days later; I was told not to watch TV, read 
newspapers or magazines but to do normal things. I sustained a 
dislocated thumb, lacerations to my right leg, many contusions, many 
sore muscles and the memories that I would have to face of that day, 
just as my partner and co-workers would have to, one by one, to begin 
to heal. I did something normal; I got back to my home base at Flushing 
Hospital Medical Center, saw a couple of people, got in my truck and 
headed for home.
                                 ______
                                 
    My name is Bonnie Jean Giebfried, one of the EMTs which responded 
to the World Trade Center Tragedy on September 11, 2001. Many of the 
survivors from ``Ground Zero'' are very ill due to their exposure to 
toxins on September 11, 2001. Due to pressures from the hierarchical 
systems survivors have been silenced, denigrated or their careers have 
been threatened when the truth of their experience on September 11, 
2001 was brought to light.
    It seems with the passing of time many individuals have forgotten 
the survivors of ``Ground Zero.'' Due to the exposure at ``Ground 
Zero'' many people have been diagnosed with blood diseases, respiratory 
diseases, lung cancer, throat cancer, etc. On June 24, 2005, due to 
complications physically & mentally we buried one of our co-workers; 
Tim Keller, age 41, dead. The aftermath of 9/11/01 shows the true 
toxicity of the unaddressed issues; the survivors are not getting 
proper medical care due to the levels of lethal toxins inhaled and the 
chemicals we were exposed to at ``Ground Zero.'' The true impact of 
being a ``survivor'' of Ground Zero has not been accurately reported; 
no one wants to face the reality of the suicides that have occurred, 
the broken homes, the personal struggles, the physical limitations or 
the struggle in dealing with the bureaucratic/hierarchical structures 
due to the aftermath of 9/11/01.
    Being a survivor has brought about many obstacles; many of us have 
lost our insurance coverage, have put a great deal of money out-of-
pocket, most of us have used our savings up, bills from 9/11/01 are not 
being paid/disputed; there is no continuity with the systems we must 
file paperwork in regard to 9/11/01 illnesses/surgery/mental health, 
etc. I find it very disconcerting that the ``survivors'' have received 
little assistance in trying to resolve issues that date back to 
September 11, 2001. The lack of resolution of these issues for the past 
4 years continues to impede our ability to recover, heal or move 
forward in life.
    I am overwhelmed by the inequality and treatment of individuals 
that were not considered ``UNIFORMED WORKERS,'' even though we all 
receive the same training and implement the same service to the general 
public. In a country that claims, ``. . . and justice for all'' things 
have fallen quite short of this right as individuals. We are tired of 
the red tape, pass the buck, filing more papers to achieve appropriate 
and fair treatment--we did our jobs on 9/11/01.
    Once classified as ``HEROES'' with praise and promises; the 5th 
year anniversary approaches. Will we be left to whither away with the 
diseases caused by the toxic exposure on 9/11/01 or will we find 
justice by having our voices heard, our medical needs addressed and a 
governing agency that will implement the services & care needed for the 
survivors which can help maintain a quality of life before the toxins 
extinguish our existence.
                                 ______
                                 
    Dear Senator Clinton or whomever it may concern: I would first like 
to thank you for reaching out to the First Responders by giving them an 
opportunity to speak out and provide input regarding decisions and 
legislations that will affect their quality of life. Those who have 
been affected must succumb to decisions made regarding their health by 
individuals who will never personally know what the First Responders 
and their families must endure on a day-to-day basis.
    As a result of 9/11 my father, Raymond Simons, has extreme 
difficulty carrying out even the simplest daily tasks. His drastically 
reduced lung capacity prevents him from living the way he used to. He 
will never have the full capacity of his life back. He was deemed 
``disabled'' and granted three-quarters retirement from EMS/FDNY due to 
his disability, however he continues to struggle to have his operations 
approved and paid for by Workmen's Compensation. Most recently he was 
scheduled for lung surgery and had to undergo all of the necessary pre-
operation exams and testing, only to be called the night before his 
surgery and told that the required pre-authorization was not approved. 
This is only one example of the hardships that my family must deal 
with. My father has not received ANY form of compensation for physical 
pain he is in, and has been in for the past 5\1/2\ years. He does not 
receive ANY compensation for the emotional stress of being told that he 
is disabled yet he is repeatedly denied Social Security Disability and 
has been neglected by Workmen's Comp. He does not receive ANY 
compensation for the drastic financial strain on our family as he is 
unable to work a full-time job or receive additional benefits that 
would facilitate his once again leading a ``normal'' life.
    Now there is a question of whether or not the government will 
continue the funding for his long-term physical and mental health? I'm 
assuming that those who make these decisions sit behind a desk and 
decide that the money put aside for 
9/11 funds would be much better appropriated somewhere else. They are 
outside of the situation. The events of 9/11 are a page in history to 
them. They do not wake up every morning just to witness a loved one 
suffer; yet another reminder of physical and emotional pain that will 
never subside and will only increase.
    My father sacrificed everything to help others on that day and was 
a vigilant city worker for the weeks afterward. Now he is the one who 
needs help. The First Responders are the ones who need to be saved.
    There are heroes of 9/11 that are NOT gone, but unfortunately they 
already have been forgotten.
    We appreciate all of your efforts.
            Sincerely,
                                            Dana M. Simons.
                                 ______
                                 
                                            March 21, 2007.

    To Whom It May Concern: I am the wife of a NYPD detective who 
became ill after 9/11. My husband had spent 8 months at the World Trade 
Center site and Fresh Kills. During the time period he was working 
there, he started coughing and having trouble breathing. He had 
headaches on a daily basis. However, he felt it was something that 
would discontinue when the work was done. Little did we know, his work 
there would change the lives of our family forever.
    My husband often woke up at night with breathing problems that 
seemed to me to be asthmatic. I knew this because I had a sister with 
asthma, but had no idea that a person could develop hyper-reactive 
airways from exposure to chemicals. He started having problems with 
physical exertion where he would have to stop after small intervals of 
outside yard work in order to catch his breath. Some days were worse 
than others, and it wasn't until he was sent in for a methacholine 
challenge test that we were informed he has RADS (reactive airways 
dysfunction syndrome).
    However, despite finding out the problem with his breathing, we 
were still perplexed about another problem. He was having severe dizzy 
spells where he couldn't see straight, and his spacial relations were 
off. He often compared this to having a brain fog, being in a video 
game, and taking a bad ride on a roller coaster where he couldn't stop 
the ride. He would lay down hoping it would go away. He started walking 
into things, and seemed to have trouble with small motor skills. He 
couldn't remember things that he had been told or said. He couldn't 
focus or concentrate. After failing a neurological test in family 
doctor's office, he went to a neurologist who ran tests and discovered 
he had vestibular dysfunction, gait ataxia, vertigo, and memory loss. 
Depression set in when he was told he'll never get better.
    Through all of this, strange things have happened where my husband 
had a tumor appear under his left rib (noncancerous) and one within a 
sebaceous cyst (also, noncancerous). An atypical mole was removed. He's 
had a biopsy done on his esophagus and was diagnosed with Acid Reflux. 
Some of his teeth have crumbled and fallen out in his mouth. He 
developed rashes on the front of his shins that would break open and 
bleed during the night. He has frequent chest pain. His body 
temperature often drops for no reason to 95 and 96 degrees. Liver 
function tests have shown fluctuating levels of bilirubin without 
explanation. He has become Vitamin D deficient and has always been one 
to drink a lot of milk.
    The unfortunate part about all of this is that it took us years to 
figure out what was wrong with my husband and some things are still 
left unanswered. We were uninformed about what the men and women at the 
sites were breathing in, and this lack of information caused my husband 
and others to suffer for years. We don't know what could happen, and 
we're not prepared for the types of illnesses that could take place.
    We have physicians in the State of New York who discount people's 
participation as a cause of their illnesses and a lack of education as 
to what types of illnesses may occur. For the past 5 years, my husband 
has seen several physicians, and the list continues to grow. We've 
forked out thousands of dollars of our own money despite having health 
insurance because some tests and some physicians aren't covered. The 
federally funded hospitals seem to be lacking as well. The focus at Mt. 
Sinai seems to be on breathing and lung problems, but so many other 
illnesses that could occur, such as my husband's problem which is 
considered to be a brain injury from chemical inhalation, are 
completely discounted.
    My youngest daughter was conceived during the time period my 
husband was working in Rescue and Recovery. She's growing at an 
abnormal rate (approximately 5 inches a year) and was found to have an 
extra lower rib on her right side. She has outgrown her sister who is 2 
years older than her. She wakes up at night screaming in pain from the 
growth, and I believe her problems are no coincidence since I have 
three other children who were born healthy prior to 9/11, and no 
inherited problems have been found with my daughter. I also had 
miscarriages which never happened to me prior to 9/11. I miscarried 
last April and was devastated. No one can convince me that my husband's 
exposure had nothing to do with this, and I DO believe the children are 
affected.
    None of us were informed as to what people were breathing in. None 
of us knew how it could affect anyone or how it could affect our 
children. None of us planned to have these things happen to our 
families. None of us wanted to be the center of attention for having 
sick family members, and none of the sick wanted to be ill.
    I lost my best friend after 9/11 and am now watching a man who is a 
shell of a person he once was. He's frustrated with the memory loss and 
the inability to do the types of things he used to do. He wakes up at 
night and has broken sleep due to RADS and hypopneas. He gets angry and 
frustrated that these illnesses will never get better, and I'm 
frustrated for not being able to help him. There's nothing I can do to 
help him get better. I can only hope that the right things are done by 
him and everyone else who has suffered the way our family has suffered. 
He lost the quality of his life after 9/11 and will never have the type 
of life he once had.
    My husband waits for his retirement to occur after serving over 19 
years of working for the city of New York. His dream since childhood 
was to be a police officer for the NYPD. Now, he waits for the day 
where he might find a place to breathe easier. His doctors say he can 
no longer do his job. He asked me, ``What job could I ever do again?'' 
I have no answer for him.
    I cannot put words into this letter to tell people how devastating 
the physical changes in my husband have been. It's difficult to watch 
someone suffer and wish so badly that his life was back to normal. It's 
difficult to hear him be told that his injuries are permanent. It's 
difficult to see him frustrated from his memory loss, gasping for 
breath, or having vertigo so badly that he can't function. There are so 
many out there who are like him, and I pray to God that we will one day 
find a way to help him get better.
    I pray for the children of those who worked in Rescue and Recovery 
and for the future families of all residents and people exposed. Most 
of all, I pray that our country will come together and help the people 
who were injured in this attack that wasn't just an attack on New York 
City, but an attack on our country.
            Sincerely,
                                         Donna L. Michaels.
                                 ______
                                 
    To whom it may concern: On September 11, 2001, I was alerted at my 
home by a co-worker about a plane that had just hit the first tower of 
the World Trade Center that morning. As my wife and I watched in horror 
at the events of that act, a second plane hit tower 2. My good friend 
and co-worker and I jumped in my car and headed down to the firehouse. 
All the way down we received updates from a friend in the dispatcher's 
office of just how bad the situation was. The one thing we concluded 
before we arrived, was that we were not going to walk away from this 
one without a scratch (meaning the Fire Department as a whole) and that 
life, as we knew it, was changing as we lived and breathed. We arrived 
at Ground Zero with other members of Rescue 3 just after the second 
tower collapsed. From that moment on, I was involved in the search and 
rescue operation at Ground Zero in a desperate attempt to find any 
survivors, only to realize, in a few days, that would not be the case. 
By about the fourth or fifth day, it became painfully obvious that if 
survivors were not found by this point, it was highly unlikely that 
there would be any. However, that did not stop me, or anyone else 
involved, from continuing our search through every opening or crevice, 
however small, throughout that entire 16-acre area in hopes of finding 
someone still alive somewhere in a void area.
    Throughout much of the first week, there was no resource from which 
to obtain proper breathing respirators that we could operate with. Our 
standard S.C.B.A. (self contained breathing apparatus) that we used was 
too bulky and did not supply enough time on air to allow us to continue 
the task at hand. We had only simple dust masks and medical masks, if 
you could find them, to rely on Rescue Co. #3 lost all eight members 
working that day and my battalion, Special Operations Command, lost 
over 90 lives.
    Nine months later, with recovery operations winding down and the 
task ahead of rebuilding, not only our company but our battalion, I 
decided that I did not want to retire from the F.D.N.Y. but help 
rebuild it. My career with this Fire Department and the people I've 
worked with is something I've cherished and respected.
    In the years after 9/11, I started to notice my breathing becoming 
more labored. I tried to reason with myself that perhaps I wasn't 
working out enough, with all the long hours we needed to work. On 
September 11, 2005, I was at a multiple alarm fire in the Bronx when I 
ran out of air in my S.C.B.A. and could not get out of the building 
right away due to reports of children possibly trapped on the upper 
floors. I went unconscious and was dragged out of the building by other 
firefighters and brought to the hospital. Before returning to work, I 
had to be examined by the medical office and was told that I would not 
be going back to the firehouse.
    I was diagnosed by F.D.N.Y. Chief Medical Officers with having 
asthma with persistent symptoms, airway obstruction and GERD, and 
retired in October 2005. Since then, I have received treatment and have 
had constant monitoring by the World Trade Center Monitoring Program 
and the F.D.N.Y. Medical Office. The doctors and staff have been very 
attentive in providing me with good medical attention and are 
continually regulating my medications and watching out for the best I 
can expect for my future health. It is good to know that the job that I 
cared so much for still cares enough about me to continually monitor my 
health since September 11, 2001. They have also helped me to obtain the 
necessary medications that I now need. As you all know these are very 
expensive medications that were using up a good portion of my 
retirement pay, as it does to many others with the same health 
concerns.
    I can only hope and pray that the government will continue to 
provide the necessary funding for this most valuable medical monitoring 
to be done on all individuals that were involved in the rescue, 
recovery and clean-up at Ground Zero as a result of the events of 
September 11, 2001. Personally, I can only feel that if Federal funding 
is significantly reduced or stopped, that much of the medical attention 
that we are now receiving will be gone. The majority of us involved at 
Ground Zero are worried about our future and therefore the future of 
our families whom we work to support. I urge you to continue to support 
these medical programs with the proper funding and increase it, if 
anything. When, and if, another terrorist attack occurs, it would be 
sad if America's First Responders were to have doubts about how their 
health issues will be dealt with by the very government we will so 
proudly protect from harm. It's one thing to say ``We will never 
forget.''--It's another to honor those words.
    ``UNITED WE STAND''
    I am always available.

                                       Douglas C. Hantusch,
                                   Firefighter, F.D.N.Y. (retired).
                                 ______
                                 
                                            March 18, 2007.

To:  Senator Clinton, Senator Kennedy, Senator Enzi, and Members of the 
Help Committee

From:  Jacqueline Kaht Fernandez, widow of Lt. Cruz A. Fernandez

Subject:  The Health of 9/11 First Responders

    My husband, Lt. Cruz A. Fernandez, was with the FDNY for 24 years. 
He began his career as a fireman in Spanish Harlem and retired while an 
officer at Ladder 111 in Bed-Stuy November 2002. On September 11, 2001, 
he and his men arrived at Ground Zero 5 minutes after the second tower 
fell. My husband was digging from that day until April 2002. He logged 
in about 400 hours at what they called ``The Pit.'' The lives of he and 
his men were saved on 9/11 because they had to leave their rig and walk 
across the Brooklyn Bridge. How ironic that ``Bombero,'' as his men 
called him, would die 5 years later on July 14, 2006.
    People ask if I knew he was sick. How could I? The information and 
stories only began right around his death. Now knowing what I do . . . 
collectively his condition would have raised a red flag. Did he tell me 
he was feeling sick? These men are what the city call ``The Bravest.'' 
They drip testosterone. My husband would not have told me he was sick 
until he was on his deathbed. Unfortunately, he was.
    The autopsy shows Bombero died as a result of his heart. It shows 
the heart was enlarged and also anthrocosis of the lungs. He was on the 
medication Protonix for Acid Reflux. During that Spring his sinuses 
were out of control and he was waking up with crusted, burning eyes. He 
complained he couldn't breath. I have a drawer full of nose spray and 
eye drops. Finally he went to the doctor, and he was put on Allegra D. 
The eczema on his face became out of control. He started to use over 
the counter hydrocortisone cream to calm it down. He developed an 
abscessed tooth and an infection despite the massive doses of 
antibiotics prescribed because of his double hip replacement in July 
2004 and January 2005. Doctors have said all these conditions were a 
result of his auto-immune system shutting down.
    He had been previously diagnosed with sleep apnea. It became scary. 
The time between breaths were lengthening. His snoring was getting 
louder and louder.
    On May 7, 2006, my husband participated in the 3-hour FDNY WTC 
Medical Monitoring Program and was given a clean bill of health. The 
report of his chest x ray dated May 10 shows ``Stable chest, lungs 
clear.'' ``No enlarged heart.'' In June he had a myocardial perfusion 
study with Thallium dye. His doctor, Dr. Michael Chesner, said there 
was no indication of heart problems. He was as shocked as I was at my 
husband's death.
    Bombero was athletic and still kept himself in great shape. He 
walked everyday. He was retired and we lived our life in Ft. 
Lauderdale. The no-stress lifestyle probably lengthened his life.
    I'm tired of the politicians, government, and medical community 
trying to hide what is going on with the First Responders. These men 
and women ran in when everyone else was running out! They served the 
city and people of New York without hesitation. What happens the next 
time there is a national disaster if everyone knows they and their 
families will be abandoned? It's time that EVERYONE takes 
responsibility and steps up to the plate. These heroes are sick and 
dying left and right. This is not a political issue, this is a MORAL 
issue. And down the road, who is to say some of YOU might not get sick?

                                 Jacqueline Kaht Fernandez.
                                 ______
                                 
    I am a Battalion Chief in the FDNY. My name is James Riches and 
still on medical leave from November 24, 2005 awaiting disability 
retirement due to decreased lung capacity. I lost my son firefighter 
Jimmy Riches, 29, of Engine 4 FDNY on 
9/11/01. I arrived at WTC shortly after the second tower had collapsed 
and stayed there until the site closed on June 30, 2002. I was a 
healthy 49-year-old on 9/11/01, didn't smoke, didn't drink alcohol, and 
ran 5 miles every day. I had been feeling okay with minor symptoms--
runny nose, dry cough--but nothing major. On November 24, 2005 I was 
admitted to Victory Memorial Hospital in Brooklyn having trouble 
breathing, with double pneumonia, and it escalated to Adult Respiratory 
Syndrome. My oxygen levels were abysmally low and doctors told my wife 
that I had 5 hours to live. I had flu-like symptoms for the week before 
my admission. I was in a coma for 16 days and placed on a ventilator. I 
was very lucky to survive this ordeal--from being a healthy person one 
day to laying in a coma with a machine breathing for me. I had stroke-
like symptoms after I came out of the coma miraculously. Physical 
rehabilitation, speech therapy and breathing therapy with countless 
medications and I was finally released from the hospital on December 
28, 2005. This was a very scary and horrible episode which I wouldn't 
wish on anyone. My lung capacity is reduced and I am currently taking 
many medications. The mental anguish of not knowing if you will be able 
to catch your next breath is excruciating. I lost my son on 9/11 and my 
health went down that day also. It took 4 years for the effects to rear 
its ugly head. I have been taking numerous medications and will 
forever. Doctor's visits and exams are a weekly event. It all went back 
to 9/11. The FDNY, Dr. Kerry Kelly and Dr. David Prezant have been very 
helpful with my medical care. The U.S. Senate and Federal Government 
can't turn their backs on the 9/11 workers who toiled very hard looking 
for the bodies of our fellow Americans, sons, daughters, brothers, 
sisters, fathers, and mothers. Medications, doctor's visits, 
prescriptions are part of our every day routine now. We still don't 
know how many more will get sick from 9/11.
    Thank you, NEVER FORGET 9/11.

                                Battalion Chief Jim Riches,
                                                      FDNY Batt.11.
                                 ______
                                 
    I worked for the New York City Human Resources Administration at 
180 Water Street, a 5-minute walk East down the hill from the site of 
the World Trade Center.
    All of us were called back to work on 9/17/01, a mere 6 days after 
the attack. We were told that no annual leave requests would be 
honored, and further advised that sick leave requests would be closely 
scrutinized. Since Christie Whitman, head of Federal EPA, got on the 
air and announced that ``the air [in Manhattan] is safe to breathe and 
the water is safe to drink,'' who could protest?
    As soon as I exited from the IRT station on Fulton Street, the air 
hit me like a club. I pressed a tissue over my nose and mouth and kept 
it there until I reached my office. The entire area, free of other 
pedestrians except for National Guard members in olive drab and gas 
masks, was covered with a fine white dust which came up in puffs as I 
walked.
    I tracked the dust into the lobby, up the elevator, and onto my 
floor. My desk was covered with a fine grit, which I spent the morning 
sponging off. The water coming out of the faucets in the building 
smelled strongly of sulfur.
    In short order, all of us began to experience respiratory symptoms. 
At the very least, people had sore throats and eyes. I had to cough 
constantly in order to clear my airways. I was bringing up a thick 
yellow discharge which was also, I am afraid to say, oozing out of my 
tear ducts, my ears, and indeed every other opening in my body. It was 
like the material which accumulates as the result of an infected wound.
    I went to my doctor (a new physician since my former M.D. left the 
practice.) She said, ``Gee, there seems to be some kind of flu going 
around'' and didn't even bother to examine me. I got sent home with 
instructions to ``drink a lot of fluids and take a decongestant.''
    We requested that the building's air filtration system be 
evaluated, and in turn received a rather 9/18/01 brisk memo from my 
agency's maintenance chief telling us the air filters had been checked 
prior to our agency's initial tenancy of the building (a year prior)!
    My staff and I got together and asked management to issue breathing 
protection. All we got (about 11 days after we returned to the area) 
were the kind of paper masks, secured by a rubber band, which hardware 
stores sell 3 for $1 to homeowners who are planning to do heavy 
dusting.
    We also asked for an evaluation of the air quality within the 
building. Someone from city EPA visited, and about a month later issued 
a report indicating the air was ``safe.''
    I was thoroughly shocked to read, this past winter in Juan 
Gonzalez's excellent book, ``Fallout: the Environmental Consequences of 
the World Trade Center Collapse,'' that the air was as caustic as drain 
cleaner, and that the levels of asbestos, benzene, dioxin, PCBs, lead, 
mercury, chromium, and diesel fuel oils in both the air and water were 
dangerous. Gonzalez also related this staggering tidbit: the 
accumulation of debris was so great that the air quality measurement 
devices nearest to our office were so clogged that they could not 
function.
    I took early retirement the following October, still feeling as if 
I were functioning at about 40-percent physical capacity. Colds lasted 
longer and were much more difficult to shake off; flu shots failed to 
work.
    Four and a half years out of the area, I am feeling a bit stronger, 
except for the fact that I heal from respiratory infections with much 
more difficulty. Given what I and my co-workers were exposed to, I 
worry about what MAY happen to my health in the future.
    Provisions are being made for the brave souls who sifted for 
remains at Ground Zero. What is being done for the workers, residents, 
and schoolchildren of Lower Manhattan, innocents who were forced back 
into a toxic cauldron?

                                          Kathryn Nocerino.
                                 ______
                                 
 Prepared Statement of Kenneth George, Former New York City Department 
                       of Transportation Employee
    My name is Kenneth George. I am 43-years-old and married. My wife 
Cynthia and I have three children who range in age from 15 to 22.
    For over 19 years, I worked for the New York City Department of 
Transportation. But on July 29, 2006, I left the Department and my job 
because I could no longer work, not even on light duty. I am sick as a 
result of working on the recovery and cleanup efforts at the World 
Trade Center, following the September 11, 2001 attack.
    I worked at the World Trade Center site from September 12 until the 
end of November, 2001. On 9/11, many employees from the Transportation 
Department, including myself, were assigned to assist with the recovery 
of victims. I went to the World Trade Center site on that day to 
provide identification and be put on a list that would allow me to pass 
through security checkpoints. I returned to the site on September 12 to 
begin my work assignment. Initially, my job was to dig through the pile 
of rubble to look for the remains of victims. We worked 16 hours a day 
for more than a month, doing our best to find the precious remains that 
would give comfort to the loved ones of these poor victims. As you 
might imagine, this work was emotionally difficult at times. Nothing I 
had been trained for at DOT prepared me for this work. Five years later 
I find myself reliving some of those difficult moments.
    In November, the recovery phase ended and we began the cleanup 
operation. At that point, my job was to refuel the equipment being used 
in the cleanup by the city and its contractors.
    I started to experience respiratory problems in late October or 
early November. I was at a work site where a large piece of debris was 
moved and green smoke filled the air around me. I believe it may have 
been burning Freon. The air was so bad it nearly knocked me and the 
other workers out. After that experience, my throat became irritated 
and I developed a cough.
    In early November 2001, I saw a physician who diagnosed me with 
asthma. Since that time I have been diagnosed with other lung and chest 
ailments and with post traumatic stress disorder (PTSD). I had a slight 
heart attack last year, which the doctors believe was due to the 
combination of fumes at the work site and the steroids I take for my 
respiratory problems. I have been hospitalized a few times, including 
an episode following seizures brought on by my medications.
    As you might expect, these illnesses have changed my life. I was 
once strong and healthy. I lifted weights regularly and rode my bike. 
Now, I cannot work. Climbing stairs is not easy and the steroids have 
caused me to gain weight. I can no longer drive because of the drugs I 
take for PTSD. I am often irritable and angry and this has been 
difficult for my family. Their husband and father has changed a lot.
    Currently, I get my care from Nassau University Medical Center 
which is part of the World Trade Center Monitoring Program. But they 
have told me that they may run out of money soon and this worries me. 
My doctors there know how to treat me. Unfortunately, other doctors I 
have seen did not understand my health problems.
    I also worry about my financial security. Currently, my health care 
costs are paid for by the WTC Program. I don't know where I would go 
for my care or to get my prescriptions filled if the Program ran out of 
money. Just the copays on my drugs would be difficult to pay. When I 
left my job, I received a disability pension. The benefits are only 
one-third what they would have been had I retired on a normal pension 
with my years of service. More importantly, my pension is more than 
$3,000 less per month than what I earned before I retired. I have had 
trouble paying my bills and I have been living with the fear that I 
could lose my house because I have not always been able to pay the 
mortgage on time. I have applied for workers' compensation and I am 
awaiting a final determination on my claim for health care benefits and 
weekly payments. I have also applied for Social Security Disability.
    Working at the World Trade Center site has turned my life upside 
down. I worry about my future and that of my family. And I ask the 
Congress not to turn a blind eye towards the troubles of the many 
thousands of us who worked at Ground Zero. We need your help.
                                 ______
                                 
    Dear Senators: I am writing in regards to the Long Term Health 
Impacts from September 11 hearing. I lost my brother at the World Trade 
Center attacks. I still suffer from depression, anxiety, and sleep 
problems due to the post traumatic stress that I experienced directly 
after the attacks. The visions and nightmares of my beloved brother, 
who as part of FDNY bravely rushed in to save others, trapped under 
rubble have receded but have left a chronic legacy. I sought 
professional help on more than one occasion for these problems, and am 
currently in the process of finding another mental health counselor 
because we have moved. I participated in the Red Cross Mental Health 
Program and am a member of the World Trade Center Family Center located 
on Long Island. These organizations have been very helpful to both 
myself and my family.
    I urge you to continue Federal funding for programs dedicated to 
helping those like myself, as they have been a lifeline for me during 
some very dark times.
    Never Forget!
            Thank you,
                                           Lisa Rand Meyer,
                               Sister of Adam Rand, FDNY Squad 288.
                                 ______
                                 
    Greetings, I am the sister of a firefighter who died in the line of 
duty on September 11, 2001. I currently live in a rural community along 
the California-Oregon border. I arrived in New York as soon as I could 
get there (just over a week) and went to the WTC site the next day. I 
volunteered to help dig as I have a background in emergency medicine 
and critical care, but was told that there were enough recovery 
personnel at that time and that they were also not wanting family 
members.
    Nevertheless, I spent a lot of time at the site when I wasn't 
needed with my mom and family. I stayed until the middle of November in 
order to attend my brother's memorial (we found no remains) as well as 
the memorial of his best friend, also a firefighter who died that day. 
By mid-October my respiratory symptoms were becoming consistent and I 
ended up finding a walk-in clinic a week or so later. I was told I 
needed to take antibiotics and did a 3-week course that was pretty 
thorough. (Anthrax was around) Symptoms included: deep bronchial 
congestion that showed signs of infection, headache, sinus pain and 
swelling/congestion, sore throat, low fever and chills . . . flu-like 
symptoms with a twist.
    I was back in New York soon after as our dad died on 3/11/02. 
Again, I spent a lot of time at the site . . . and I had to drive past 
the Fresh Kills landfill to get to my mom's house which is just a few 
miles away. By then I was noticing a consistent need to clear my chest 
and throat. When there was a forest fire near my home in California, I 
had an asthma-like attack and passed out from smoke sensitivity, 
something new for me. I had two chest x rays, a year apart, that show 
``scar tissue'' in my lungs. I had a second asthma-like attack (my 
sister was in the room when it happened, fortunately for me) just last 
February after being in a moldy house . . . again, something new for 
me.
    I now experience a low-grade congestion that an ENT specialist 
helped me treat shortly after the respiratory problems of last year. I 
still have trouble breathing at times and have definitely developed a 
sensitivity to what is in my environment. I suffered from gastric 
reflux closer to 9/11 which has seemed to have resolved after a few 
different treatment approaches.
    My intention in reporting this is to add to the statistics and 
remind folks back East that there are a lot of people in California and 
other places outside NYC/DC. who have the ``WTC cough'' and other 
health impairments of varying degrees. I also want to stay in the loop 
of future discoveries and suggestions for treatment, especially if this 
gets worse.
    Thanks for all you are doing in this very challenging and vital 
effort.

                                            Marie Mitchell.
                                 ______
                                 
  Prepared Statement of Marvin Bethea, 9/11 First Responder, Paramedic
    Good afternoon. I would like to take this time to thank our elected 
officials for giving me the opportunity to testify at this hearing. My 
name is Marvin Bethea, and I was a NYC 911 Paramedic for the private 
hospitals. When I was dispatched by the NYC Fire Department from the 
borough of Queens to respond to the World Trade Center, I did. As I 
crossed the 59th, I was informed by phone that a big jetliner just 
crashed into the second tower. We knew this was no accident, this was a 
terrorist attack.
    Did we say, ``We shouldn't go, this is a terrorist attack?'' 
Absolutely not, because we understood we had a duty to act and a 
responsibility to protect the city, State, and country that we love so 
much. I survived the collapse of both towers. Here we are 5 years later 
and we are fighting for healthcare and financial compensation. Can you 
imagine if it took me 5 years to respond to the World Trade Center what 
would my city, State, and country think of me? I, like so many others, 
did what President Kennedy asked of us when he said ``Ask not what your 
country can do for you, ask what you can do for your country.''
    What did doing for our country get us? We got sick, injured and 
financially ruined. I went from being a happy, hard-working paramedic 
to becoming a disabled paramedic with numerous health problems. The 
last day I worked was January 8, 2004. I went from taking 2 medicines 
before 9/11 to taking 15 medicines. I am a broke man that has been 
given a slow death sentence. I pray to God every day that I don't 
develop any new health problems like cancer. I saw and heard my 
government promise, on a city, State, and Federal level, that we 
wouldn't be forgotten. They forgot. You can't tease us now by 
allocating some funds for treatment that will only last maybe a few 
months. People are starting to get treatment, only to be threatened 
with the fact that it may last only for a few months. That is cruel. 
This is equivalent to a man who hasn't eaten for the past 3 weeks and 
now you give him a steak. You ask him, ``Do you like that steak?'' 
after he had three bites of the steak and he tells you that it's the 
best steak he ever had, and your response is, ``Enjoy it because you 
will not get anymore.'' Like I said before, this is very cruel.
    I am extremely grateful for the $25 million President Bush has 
pledged. Here is the problem with that: Senators Clinton and Schumer's 
9/11 Heroes Health Improvement Act calls for $1.9 billion in funding. 
Giving $25 million is like me asking you, ``Can I borrow $100,000?'' 
and you say, ``See me today and I will take care of you.'' When I see 
you, you give me $10 and act as if you are doing me a favor. Don't turn 
9/11 into another Katrina. What do I mean by that? The government was 
told those levies wouldn't withstand a level 4 or 5 hurricane. How much 
to fix the problem? $14 billion. Their response was, ``Too much 
money.'' Now $90 billion later to fix the damage from Katrina, I would 
say in retrospect $14 billion was a bargain. Just think: $90 billion 
from $14 billion, you are left with $76 billion. Seventy-six billion 
dollars would cover the $1.9 billion that the New York congressional 
delegation is calling for in the 9/11 Heroes Health Improvement Act. 
You could have opened up the 9/11 Victims' Compensation Fund with that 
money and still had additional money left over. I don't want you to 
have to stand and scratch your heads 5 to 10 years from now when the 
residents and workers of Lower Manhattan and Brooklyn can't work 
anymore because the area was not properly cleaned and the people didn't 
receive healthcare treatment. The Bellevue Program needs Federal 
funding yesterday!!! NYC should not be footing this bill by themselves.
    It is imperative that treatment centers like Mt. Sinai Health for 
Heroes Program are continually funded. Mt. Sinai and other programs 
like them offer occupational health doctors. These doctors are 
specially trained and know what to look for, and treat the horrible 
things we have been exposed to. As we know, today most doctors 
specialize in a particular field of medicine. The thought of giving 
heroes and survivors money to see the doctor of their choice is 
absolutely asinine. If you have a toothache do you go to the foot 
doctor? I say not, you go to the dentist. Allowing people to go to 
inappropriate doctors will not help make people better, but only make 
their ailments worse which mean pouring much-needed money down the 
drain and their suffering greater. Haven't we suffered enough? This is 
why it is imperative for people who are sick to see the appropriate 
doctors.
    Financial compensation is another absent component of this 
equation. It is no fault of our own that we can't work anymore. We need 
to open up the 9/11 Victims Compensation Fund like it was. What good is 
treatment if I am sleeping in my car and I have lost my family? If I 
don't have high blood pressure or depression, I will have it now for 
sure. People forget a lot of our brave soldiers enlisted in the 
military after 9/11 because they felt a patriotic need as Americans to 
do something for this country. President Bush could you please explain 
to me how you can spend billions and billions of dollars to send the 
troops over to Iraq to fight a war, then god forbid they get ill or 
injured now you don't know them or don't care about them. The soldiers 
in my opinion are being treated like the survivors of 9/11.
    Today, I say to the President: When you spoke to the Nation on 9/11 
sir, most of the people in this country were 100 percent behind you. 
All parties--Democrats, Republicans, Independents as well as the 
different ethnic groups and races. Why have you abandoned us sir? The 
military has a saying, ``We leave no soldier behind.'' 9/11 was an act 
of war against this Nation. You must not leave anyone affected by 9/11 
or the Iraq War behind.
    Thank you.
                                 ______
                                 
Prepared Statement of Peter Shanley, Retired DSNY Supervisor, Emergency 
                         Response Division, WTC
    On September 11, 2001 it was my regular day off. I was a supervisor 
in the NYC Department of Sanitation. When I saw that the first airplane 
had hit the World Trade Center I tried to call my district in Manhattan 
where I worked, but I couldn't get through. So I just put on my uniform 
and headed into the city to see if I could help out in any way. I 
parked my car at the Sanitation District 2 garage and proceeded on foot 
the rest of the way. By the time I got there, the second plane had 
already hit. People started running as the buildings started to fall. I 
was not ready for what I saw. I stood in amazement as the giant dust 
cloud approached me. I waited a few seconds and then ran into the 
blackness to see if I could help anyone. I choked on the dust as I was 
enveloped by the cloud.
    The following day I went back to my District M12 in Washington 
Heights. At the end of the week I volunteered to return to Ground Zero 
(GZ) and by Sunday I was there. The second week of GZ I started working 
12-hour shifts from 7 p.m. to 7 a.m., 7 days a week. We stayed on that 
schedule for about a month. Then they reduced our days to 6 days a 
week. I remained amidst the rubble instructing my men in their duties 
and guiding the trucks to the pile to get loaded.
    It was during this time that my health started suffering. I 
developed a severe lung infection and my eyes were always sore. I went 
to the doctor and he gave me antibiotics and my first inhaler. I had 
never had allergies in my life before, but the doctor said I had them 
now from breathing in the airborne dust and bacteria. My lungs cleared 
up with treatment, but the cough stayed with me. Around November I 
developed a severe case of insomnia. In addition I was getting quite 
irritable. I took some vacation time, but I wound up going back to 
work. I had a passion for working at GZ and my men and the cause were 
very important to me.
    Around Christmas time the hours were reduced again to 10-hour 
shifts, 5 days a week. My respiratory infection was still bothering me, 
along with an annoying skin rash. The department started reducing 
manpower but didn't bring in replacements for us. All the other 
departments were rotating their manpower, but we stayed with the 
original crew. All of my men were seeing doctors for one reason or 
another. Mostly, we were developing asthma and bronchitis. OSHA hadn't 
started mandating wearing respiratory filters until sometime in 
November. By then it was too late; the damage was already done. I 
stayed at GZ for the remainder of the 9 months of the clean up effort.
    When it was over my men and I went back to our respective 
districts. Many of us started suffering the terrible effects of PTSD. 
My lung problems worsened, in the form of extreme asthma. I was given 
everything from steroids to inhalers, and I had multiple surgeries. I 
even went to a sleep therapy institute, where I found out that I had 
developed permanent sleep apnea. As time goes on, the CPAP machine's 
pressure needs to be increased.
    Today my lung capacity is permanently diminished. The PTSD 
continues and I still suffer with nightmares. The rashes still continue 
and I have developed diverticulitis.
    I give my testimony to you today because I want to bring awareness 
to the health issues of all GZ workers, and I want to emphasize that 
these health concerns are a long-term problem. I also hope that funding 
remains to address our health issues and that medications eventually 
become more affordable.
    Thank you.
                                 ______
                                 
Prepared Statement of Stephen Hess, Former Emergency Medical Technician 
                         for New York City FDNY
    My name is Stephen Hess. I am 48-years-old and married. My wife and 
I have two kids, one of whom lives with us at home. I am also the proud 
grandfather of two.
    I have been an emergency medical technician since 1995, and went to 
work for the Fire Department of New York City (FDNY) in 1997. To 
supplement my income, I worked about four shifts a month for the 
emergency department at a local hospital and worked a few days each 
month driving a cement mixer truck.
    On September 11, 2001 I was part of a Hazardous Materials Unit 
based on Staten Island. I was sent to the World Trade Center site 
immediately that day. My unit arrived before the first tower fell. Like 
many others, I was caught in the cloud of debris that resulted when the 
first tower fell. My colleague and I ran away from the site to avoid 
being crushed. After the first tower fell, I went back to where we had 
been in order to retrieve my ambulance. Not long after the collapse of 
the first tower, the second tower came down and we were surrounded by 
an even thicker cloud of dust and debris. We were on location for 
approximately 4 hours. When the air had cleared enough for us to see, 
we drove our ambulance out to Chelsea Pier where victims had gathered 
to be treated.
    Later, we returned to Staten Island. Our ambulance was so 
contaminated that it could not be cleaned and had to be destroyed. I 
did not return to Ground Zero again, but over the next several months I 
did 10 or more tours of duty at the Staten Island Landfill, the 
destination of the debris from the Twin Towers. My colleagues and I 
were engaged in some recovery work, but we were also posted there in 
the event that workers sorting through the debris were injured. The air 
at the landfill was full of dust from the debris and methane gas from 
the decomposing matter in the landfill.
    A week after 9/11 is when I began to cough. The cough continued for 
several months. In April 2003 my supervisor sent me to an FDNY doctor, 
Dr. Prezant. At that time I was placed on sick leave. When I was 
examined I was told that my pulmonary function had dropped 25 percent, 
in comparison with a test done prior to 9/11. Eventually, I was 
diagnosed with obstructive lung disease.
    In the fall of 2003 I returned to work on light duty. However, I 
was also experiencing frequent pain and swelling in my legs. In 
February 2004 I was diagnosed with connective tissue disease, an auto-
immune disease that is related to the toxins I was exposed to at Ground 
Zero. As a result of this condition I am sensitive to sunlight. I 
become disoriented and experience cramps if I am exposed to too much 
sun.
    Due to the nature of my condition, I was unable to continue on 
light duty. A physician with the Fire Department determined that I 
could no longer work, prompting FDNY to begin termination of my 
service. At that time, in November 2004, I applied for a disability 
pension. A panel of three physicians with the New York City Employees 
Retirement System, which is not connected with FDNY, determined that I 
was not ill and not eligible for a disability pension. At that time I 
also applied for workers' compensation. I was awarded a payment of $285 
per week. After a 2-year delay, I was then awarded the maximum payment 
of approximately $400.
    I have also applied for Social Security Disability, but my 
application has been denied, despite the fact that the workers' 
compensation program has declared me completely disabled.
    Luckily, I did not perish in the 9/11 attack as many of my 
colleagues did. But I am also a victim of that attack. I used to be 
what some call a gym rat, once able to press 250 pounds. Today, I 
cannot carry my 2-year-old grandchild but for a short period of time. I 
can no longer play golf. I live with constant pain in my legs, which 
occasionally flares up to the point that it is almost unbearable. I 
become winded from walking. I can no longer spend much time outdoors 
when the sun is out. I see four physicians on a regular basis; a 
rheumatologist, cardiologist, pulmonologist and Dr. Prezant at FDNY. I 
take seven prescription drugs a day.
    I also have financial worries. I had to take out a home equity loan 
to keep up the payments on my mortgage. That money will run out in 4 
months. My wife and I may now need to tap into her retirement annuity 
in order to stay in our home. We live a modest life. We do not go to 
movies or eat in restaurants, except for an occasional burger. I feel 
very insecure about my future and the future of my family. I am also 
angry that the safety net systems, which are supposed to protect people 
like me, have failed.
    I am one of the many who responded to Ground Zero and became ill 
because of my service. I was a Karate instructor, athlete, businessman 
and father of three. My health has continued to spiral downwards after 
my exposure to the toxic cocktail at Ground Zero. I struggle each day 
now. I am being treated by Dr. Levin at Mt. Sinai and find each and 
every day a challenge. My life was always about helping others, so now 
I find myself in a very uncomfortable position, one in need of help. 
Senator Clinton has been very helpful to me and my family in 
``inspiring'' Social Security to pay benefits that were being delayed 
for extended periods of time. While our health continues to fail we are 
being made to feel like beggars. We need to make sure we can take care 
of our families and ourselves with some level of dignity. I believe 
that there should be a fund in place to allow for us to at least enjoy 
our days for what we did, but more importantly, allow us to take care 
of our families with some pride and confidence in tomorrow. I ask you 
to please not forget the brave citizens who did the right thing without 
thinking of the consequences. Please visit our Web site for more 
detailed information on my family, myself, my service and the 
consequences of my actions.
    God bless you and yours always.
    Remember, doing the right thing is always the right thing!

                                              Vinny Forras.
                                 ______
                                 
    Dear Senator Clinton, Senator Kennedy, Senator Enzi, and members of 
the HELP Committee: THANK YOU FOR HOLDING THIS HEARING!
    Athough my health and finances (or lack thereof) prevent me from 
attending this hearing, I would like to submit testimony, which 
includes documentation of my current medical status and diagnoses from 
the New York City Department of Health and Mental Hygiene. I only 
learned about this hearing on March 19, so please excuse the lateness 
of this submission.
    I am a 36-year-old female recovery worker who, prior to September 
11, 2001, was in excellent physical health, and I'd volunteered on-site 
after numerous natural disasters such as earthquakes, floods, and 
fires. Prior to September 11, 2001, I had no chronic physical 
conditions.
    After September 11, I worked at the World Trade Center site and the 
surrounding area in a variety of different capacities--from search and 
recovery on the Pile, to apply delivery and distribution from as far 
north as Spring Street. All of us were coughing. Our eyes stung from 
the dust, and I developed a skin rash so severe that it required the 
highest dose of cortisone my doctor had ever prescribed. But on the WTC 
site, even for responders searching on low ground, there were never 
enough respirators.
    We were told that the air was safe, simply because the levels of 
asbestos were considered acceptable. Yet, the WTC site was still 
burning, still changing, and still releasing airborne 
particulates.Sec. I have worked numerous other disaster sites enough to 
know that asbestos isn't the only potential health hazard. My brother, 
who has a Ph.D. in chemistry from Harvard University, informed me that 
we should all be wearing respirators.
    Now, since working at the WTC site, I require three different 
prescription medications, for which I have no insurance. Like many of 
my WTC colleagues, I am unemployed, and suffer from PTSD.
    Some of us have already died. Many of us will succumb to conditions 
that take years to manifest, but are a direct consequence of our 
exposure to the World Trade Center site.
    We need on-going health monitoring and treatment. Please hear us.
            Yours very sincerely,
                                  Zxy (``Zee'') Atiywariii.
                                 ______
                                 
    Dear Senator Clinton: I first of all would like to thank you for 
the efforts you are making in seeking funding for the 9/11 health 
effects' monitoring & treatment programs.
    From 9/17/01 until 6/3/02, I volunteered at the WTC, first as a 
``spontaneous volunteer,'' then with the Red Cross (9/24/01-12/1/01), 
and then with the Salvation Army (12/01-6/02). I was there an average 
of 3 days per week during the 9 months.
    During that time, both my sons volunteered with me at one point. My 
oldest son, Wynter Galindez, was with me in November 2001 at the Red 
Cross Respite #1; housed at St. John's University on Murray & West. He 
had just graduated Duke University that May and was in the midst of the 
job searching process when the towers fell. My younger son, Javan 
Galindez, was with me in May 2002 at the Salvation Army tent on Murray 
& West. Javan had just returned from completing his freshman year at 
Binghamton University, and volunteered the last 2 weeks in May of that 
year.
    While I was a ``spontaneous'' volunteer, I worked along West Side 
Highway from Canal Street to Chambers (where the entry to the ``Red 
Zone'' began and only credentialed personnel could enter). Once I 
joined the Red Cross, I was part of the first shift that staffed the 
respite when it opened its' doors on 9/24/01. I generally worked in the 
dining area inside and also manning the boot wash area outside; a place 
where workers entering the building would have to ``de-contaminate'' 
their boots by rinsing them with the water from hoses we had available 
for this purpose. I was part of the last shift, which staffed the 
respite when it closed at midnight on 12/1/01.
    At the Salvation Army tent, the EPA manned the boot washing area, 
which was a more ``professional'' version than the one we had with the 
Red Cross at St. John's. Volunteers were not required to go through the 
decontamination area when reporting for our shifts at the tent, 
something we did have to do at St. John's. We generally entered through 
the back of the tent.
    Part of my volunteer responsibilities at the tent was again in the 
food service area. I would also do ``gator runs'' around the perimeter 
of the pile/pit, bringing snacks, drinks, and supplies to those 
locations where workers could not leave their posts for long periods of 
time. There were also two small tents set up on West and Liberty, and 
on Church and Liberty, where workers could come in for a short break 
and have a snack, warm up, or get some needed supplies. Between these 
two on-site facilities, and the frequent gator runs, workers would not 
have to wait until their dinner breaks before having some nourishment.
    I'd often spend my down time at St. Paul's Chapel. Although I never 
formally signed up for a volunteer shift there, I spent a good portion 
of time there and would often help out as much as needed. Those 
entering St. Paul's were not required to decontaminate their bodies in 
any manner.
    Toward the end of April I started to do a few shifts at the Medical 
Examiner's Office at Bellevue Hospital when they were short on help, in 
addition to my shifts at the tent. The Salvation Army closed their cafe 
at the ME's on 6/3/02.
    My initial bout with sinusitis occurred in the latter part of 
October 2001. Next, I developed the ``ground zero cough.'' I was on 
antibiotics every few months.
    The episodes grew more frequent. Within the first year after ending 
my volunteering, I was chronically suffering with sinusitis, 
bronchitis, and other upper respiratory ailments requiring me to be on 
antibiotics, nasal steroids, and cough medications. As time passed 
other drugs were added, including: pain killers, sleep aids, digestive 
aids, antidepressants and thyroid hormone.
    Aside from the various respiratory ailments, I was diagnosed with a 
repetitive motion injury and LPR/GERD (reflux disease) related to my 
volunteering at the WTC. I was also diagnosed with multinodular 
thyroid, which means I have multiple nodules growing on my thyroid. 
This condition has not yet been linked to exposure at the WTC site.
    Then there is the entire mental health aspect. I began seeking 
counseling in the fall of 2002. I was diagnosed as being clinically 
depressed in the summer of 2003, and put on medication, which I am 
still taking.
    Fortunately, through physical therapy and treatment under a 
rehabilitation physician, my motion injury symptoms have been relieved. 
In addition, as of 10/03, I began a detoxifying Ayurvedic herb program 
being offered free of charge to those involved at the site. I thank God 
that these herbs have significantly mitigated my respiratory ailments. 
The program is called ``Serving Those Who Serve,'' and many of us in 
the ground zero community have been helped by them.
    My son Wynter had allergies before 9/11, so I cannot be sure to 
what degree his exposure at the WTC has compromised his respiratory 
health. He nonetheless seems to have more frequent episodes. However, 
my son Javan never had any problems of this nature, and since then he's 
had chronic respiratory issues such as allergies, bronchitis, and 
numerous other upper airway infections. He developed pneumonia in 1/05, 
missing the first 2 weeks of his last college semester. He had been 
home for the holidays and developed the pneumonia shortly before he was 
to return to college. He started treatment here at home, and then he 
returned to Binghamton as soon as he had gained enough strength to 
minimally function. He had to be followed up by a doctor. Can you tell 
me how a robust, buff 21-year-old can come down with pneumonia when he 
had been healthy up until his involvement at the WTC site?
    Since graduating, he has had a job within the realm of his 
environmental science college major, mostly working outside. Since this 
is not a permanent job with benefits, he has no medical coverage. Of 
course, after his pneumonia, I'm very concerned of his coming down with 
it again. While he was in college, he had medical coverage, so his 
treatment was paid for by insurance. Now he has nothing. I thank God 
that we learned of a program at Bellevue that offers treatment for 
those involved at the WTC who may not be eligible for the Mt. Sinai 
program. His health is now being monitored.
    I'm a freelance simultaneous oral interpreter. I need my voice, 
throat and ears for my livelihood. When I was in the thick of my battle 
with respiratory symptoms, how could I do my job? I could not qualify 
for unemployment because I was self-employed. I literally went through 
my savings and borrowed money to keep myself afloat those first couple 
of years.
    Since 7/03, I've had workers' compensation to cover the 9/11-
related illnesses. I have Healthy NY coverage as my primary insurance, 
for which I self-pay out-of-pocket monthly premiums.
    Senator Clinton, we've never had anything like 9/11 happen in the 
United States, so we have no precedent to go by.
    Consider the lingering mental and emotional effects of the Oklahoma 
City bombing, which I've heard about first-hand from firefighters 
there, whom we met when they came to help their FDNY brothers after 9/
11; all of which I still stay in touch. Many years after that tragedy 
people are continuing to struggle emotionally. Imagine how 
exponentially devastating the event of 9/11 was in comparison. Not only 
do we have the psychological trauma of the event itself, but also the 
toxic exposure, which is increasingly affecting the men and women who 
not only worked and volunteered in the clean-up effort, but those who 
live and have their jobs in that area.
    If you were to ask those of us who served at the site if we had to 
do it over again the majority of us would answer with a resounding: 
Yes! I do not regret it, my sons do not regret it, and my sister Denise 
Villamia does not regret it. She has been battling numerous respiratory 
conditions since then, and she has not been able to get them under 
control. Her conditions are worsening. Most of us who are part of this 
unique ground zero community are people who just wanted to help. We are 
people who tried to do what we could to ease the pain of those who lost 
loved ones and be a source of support and respite for those who were 
searching for their remains. Now many of us need help.
    I appreciate you and the other elected officials urging the 
governing bodies to consider the importance of continuing to fund 
programs that monitor and treat WTC-related illnesses. Since the relief 
effort ended, I personally know three uniformed servicepersons who have 
lost their lives, the latest of which was Cesar Borja. These are people 
that I actually crossed paths or interacted with in the course of my 
volunteering. There are probably many others whom I may not have known 
by name.
    Everyone involved, whether resident, office worker, First 
Responder, uniformed serviceperson, construction personnel or 
volunteer, are suffering in differing degrees. Please, I ask that our 
government give us the support we now need, whether it be financially 
or in whatever other aspect is warranted. Thank you.
            Sincerely,
                                           Rhonda Villamia.
                                 ______
                                 
    To whom it may concern: I received this email and all of the line 
requests you mention below. As a volunteer at ground zero during the 
first weeks after September 11, and as an office worker who returned to 
work in the smog filled downtown area because we were told the air was 
safe, I am a survivor who has been battling serious health issues since 
September 11. All of my doctors, along with the Mount Sinai hospital 9/
11-treatment program doctors, have diagnosed the multiple health 
complications I have with my exposure to toxins on September 11. I have 
been told my chronic symptoms are due to chemical asthma and a low-
functioning immune system. I can send you more details regarding the 
symptoms and diagnosis as per your request and most of my doctors I am 
sure would be willing to confirm the chronic symptoms.
    I have constant painful sores that don't heal on my scalp, face, 
arms, and other areas of my body, which all started the first day after 
I was volunteering at WTC on September 12, 2001. I get chronic fevers, 
and my immune system is very weak. I have chronic bronchitis, 
laryngitis, pneumonia, and infections (bladder/kidney, blood). I have 
trouble breathing and can't do much exertion as I once did. I never 
know how much energy I will have to participate in normal life function 
as I once did.
    I would hope I could be of help to getting the information out 
about how many people are suffering with serious health issues, and 
also I would be grateful for any medical help I could find to get me 
feeling well again and back to my normal life: working and healthy.
    I want to do more than be a survivor, I want my life back, I want 
to live. Any help is greatly appreciated.
            Sincerely,
                                             Rachel Hughes.
                                 ______
                                 
    I am here to discuss an issue that I believe is being ignored. 
While everyone seems to be focusing on only the health needs of 9/11 
recovery workers, I have not heard anyone testify about the financial 
needs of those brave individuals who were part of the rescue, recovery 
and clean up effort at the World Trade Center. While health concerns 
are a very important issue, we need to take a holistic approach to the 
problem at hand. We must consider the physical health, mental health 
and financial concerns. By addressing only one of these concerns we are 
robbing them of their future.
    I am not here to place blame, embarrass anyone, or throw money at 
the problem and call it fixed. I am here to share with you what I have 
seen, the complexity of the situation and how together we can begin to 
create a reasonable and comprehensive plan that addresses these growing 
needs.
    It does not matter what political party the responders are 
affiliated with, their occupation, the color of their skin, or 
religion. The only fact that we should be concerned with is that they 
are all sick. These individuals responded when America needed them 
most. Why are we turning our backs on them now?
    We are talking about individuals who contributed to charities and 
placed money in the poor box at their house of worship. They were not 
the ones to ask for help. They are the individuals everyone else came 
to for help. That is why when they started to feel the effects of the 
toxins they were exposed to, they still continued to work so they could 
feed their families and keep a roof over their heads; to do less would 
be unacceptable. Even when the reality of their situation began to set 
in, they still continued to believe that some day they would eventually 
return to work and become productive again. Due to this belief, they 
continued to spend down their savings to meet their financial 
obligations. Now, they are in dire need. Many of them now have little 
or no income. The mortgage companies started foreclosure proceedings, 
the utilities companies sent disconnect notices, and some have had 
their automobiles repossessed. What do I tell them when they sit down 
across from me? Do I tell them you can receive medical monitoring and 
possibly continued medical treatment but your family will have to go 
hungry tonight and tomorrow you might lose your home? Or will I be able 
to tell them that we will work together to create a recovery plan that 
includes not only health care, but also have a mental health component 
and financial assistance while they wait for workers' compensation, 
and/or social security disability. Remember, to make this plan work we 
need the ability to address the needs of the entire family, not just 
the responder. This is not an easy task as we move farther away from 
September 11, 2001. The issues become even more complex. We cannot 
begin to address the future needs of these responders by only 
addressing their health needs.
    compassionate care for those who are still struggling with the 
                            effects of 9/11
    Many times I have seen individuals return to work against doctor's 
orders because of financial obligations with disastrous effects. When 
given the choice between financial obligations or health concerns, 
everyone I have spoken with would return to work no matter how serious 
their health issues were. While we can understand why they made this 
decision, it can make long-term goals impossible to attain.
    I have also seen families where the responder was bedridden. With 
mounting debt the spouse would return to work or work overtime and the 
children, some as young as 13-years old, would return home from school 
and become responsible for the care of their ailing parent. These 
families deserve better and more importantly these children need to be 
children and not health care providers. This should be our 
responsibility not theirs.
    We need to send a strong message to those still suffering and to 
the rest of the Nation. The message is ``you will not be forgotten, we 
will come to your aid just as they did for us on September 11, 2001.'' 
You must appropriate funding in order to create a reasonable and 
comprehensive plan that addresses the much-needed financial assistance 
so these responders will not become hungry and homeless.
    For those who are not well enough to work, while they are waiting 
for their Social Security Disability Benefits, Workers Compensation and 
possibly other compensation to be approved, we need to provide bridge 
funding so they do not accumulate increasing debt that they will never 
be able to recover from.
    For those who can no longer work at their present job but are able 
to find alternate employment, we need to provide career training, 
continuing education, and job placement specific to their needs. While 
they are preparing for their new careers once again, we need to provide 
bridge funding. Over and over again they explained to me they do not 
want a handout. They just want the opportunity to provide a living for 
their families and once again become tax-paying citizens.
    For those brave individuals who are terminally ill because of what 
they were exposed to while they took part in the rescue, recovery and 
clean-up effort at the World Trade Center, let them die with dignity! 
We owe at least that to them and their families.
    If you should have any questions or need further information please 
contact me at your earliest convenience.
            Sincerely,
                                         Michael J. Arcari,
                                                          Director.
                                 ______
                                 
    Dear Senator Clinton, Senator Kennedy, Senator Enzi, and the 
members of the HELP Committee: My name is Mary Ellen Dobrowolski. In 
September 2001, I was pursuing my career planning and operating 
international incentive group travel, meetings, and events. In fact, on 
September 11 of that year I was home, having just returned from working 
a program in France. I watched the horrific events of the attack unfold 
on TV, the same as so many people did around the globe.
    I am not sure where the idea came from, but I felt that I had no 
choice but to get into Manhattan and help. I was very determined to do 
this. In fact, nothing could stop me. I started by calling and e-
mailing everyone I knew, asking if they knew of anyway I could 
volunteer my time. Through all this, I was put in touch with a group 
called ``Cross Cultural Solutions'', based in New Rochelle, NY. They 
made a connection for me with the Salvation Army. In November 2001 I 
had my first volunteer assignment working for the Salvation Army at the 
Piers on the West Side of Manhattan, distributing financial aid to 
people affected and displaced by the attacks.
    The day before I was to start my first volunteer assignment, I lost 
my job. Business travel, in general, and international travel in 
particular took a big hit. In fact, in New York, I'm not sure those 
areas have ever fully recovered.
    Working at the Piers was life changing. It was emotionally draining 
and overwhelming. Sometimes I would visit some of the pictures on the 
walls of those who were missing. I would ask them for the strength to 
continue. At the same time, this was one of the most rewarding 
experiences I have ever had. After that, I decided I had to do more 
because I could help.
    I had no income coming in. So, I packed up my belongings and put 
them into storage. I stayed first with a friend, and then with family, 
sleeping on their couch so that I could go back to volunteering. There 
weren't any jobs to be had doing what I do.
    I contacted Cross Cultural Solutions again and through them I found 
the warehouse on Spring Street. The warehouse collected donations of 
all kinds of supplies and materials that were sent into the city, but 
the city had no mechanism to collect or distribute. They also solicited 
donations of items that were needed. All of this was for the rescue and 
recovery workers at the site. We also filled and distributed duffel 
bags with gear to the FDNY members who were assigned to work recovery 
at the site. There was a new group of firemen assigned every month. I 
started working at the warehouse in January 2002.
    One day we had a visitor, the wife of someone who wanted to know 
more about the work happening at the warehouse, and who might possibly 
become a donor. She also wanted to go to Ground Zero to see how the 
work at the warehouse supported the workers there. That day, no one at 
the warehouse had a driver's license but me. We had a rented box truck, 
and we had a request for some supplies at the site, from the 10/10 
firehouse on the corner of Greenwich and Liberty Streets, which is 
located right at Ground Zero. It was up to me to drive the supplies and 
take our guest to the site.
    I had never driven a truck before, and I had only been to see the 
site with the rest of the general public, from a distance and from 
behind barricades. Without thinking it through, I looked at a map to 
determine a route to take which would involve as few turns as possible 
so that I wouldn't hit anything with the truck. The route chosen was 
West Side Highway to Vesey Street to Church Street to Liberty Street. 
It looked good on paper. However, without thinking, I drove right along 
one side of the actual site. I can't begin to describe what I saw or 
the feelings that arose.
    We made it to the firehouse without mishap, unless you count the 
bump into the temporary fence erected on Liberty Street, just off 
Church Street. I could not believe what I saw when we arrived there. 
Everything seemed gray, everything was filthy covered in dust. (In 
fact, to this day, in my mind's eye the memories of this place are 
never in color.) And the people I saw working there broke my heart. 
They were so determined to do their job, to do their duty to bring the 
remains of every last victim home. They pressed on no matter the harm 
to themselves--physically or emotionally.
    The experience moved me more than you can imagine. I could not get 
the people, the sights, the sounds, the smell of all that I saw out of 
my head or out of my heart. From that day forward, from January 2002 
until June when the clean-up and recovery was completed and the site 
closed, I spent almost everyday there. I worked with supply requests, 
inventory and distribution for those working at the site, mostly with 
Fireman Tommy Fenech (now retired), who handled supplies at the 10/10 
firehouse. I spent time soliciting food donations, and cooking and 
serving many meals. Sometimes on the weekends, we would put together a 
meal for everyone working on the site that day. It was good for 
camaraderie among the diverse group of people working there. On way too 
many days we stood as honor guard on the ramp from the pit as remains 
were brought out--person by person, piece by piece. And most often, 
every day there, we would be good listeners for the workers who spent 
all the energy they could muster to bring their family member, their 
friends, and co-workers remains home. And we would welcome to the site 
the family and friends of those who perished. There were days I 
continued to put in some time at the Spring Street warehouse as well, 
but most of my time was at the firehouse.
    That's the story of how I came to be at Ground Zero. The thought--
the motivation was to do my duty and to help wherever and however I 
could. There was no thought to what the experience was doing to me 
physically or emotionally. It didn't occur to me that there would be 
any repercussions to me.
    Some of the symptoms started while I was still volunteering. I lost 
the ability to sleep--either to fall asleep or stay asleep. Feelings of 
sadness and depression also started. But all of these seemed natural 
and explainable under the circumstances.
    The serious problems started in July 2002, right after the site 
closed. The sleep problems got worse and worse (and continue to this 
day--5 years later). The depression and feelings of sadness continued 
to grow. I became irritable and emotional. All this crept up on me in 
stages. I don't think I could see the effect it was having on me--until 
the end of that July.
    One day I walked into a Home Depot. The Home Depot has rows and 
rows of metal shelving. It was the same type of shelving used in the 
firehouse that held our supplies. When I walked into the store, at 
first I felt physically ill. I felt lightheaded, I felt nauseous, my 
stomach tightened into a big knot. I started sweating and could not 
catch my breath. And that's when it happened. I felt like I was time 
traveling, for lack of a better description. From moment to moment--
first I knew where I was, then I didn't. My mind went back and forth, 
back and forth. I got very confused. And then I started seeing people 
from the site that I knew, intellectually, were not there. I was a 
mess. I ran out of the store, confused and in tears.
    I could not believe this had happened. But when I went back to the 
Home Depot, it happened again. I was upset and had no idea how to 
handle this. It was time to see a therapist and get help. Thankfully, 
there were places to go in NYC and find help. I called Project Liberty 
and they referred me to a therapist to be evaluated for treatment. I 
ended up at the Jewish Board of Family and Children's Services, where I 
was taken in immediately. I believe originally the program was written 
to cover 8 weeks of counseling. I was in therapy there for 16 months, 
my diagnosis: PTSD. Metal shelving is just one of the many triggers I 
have to find a way to live with.
    Not long after I found out about the programs at Mt. Sinai. They 
offered free checkups and chest x rays for Ground Zero workers and 
volunteers. As part of this program, there is an option to allow the 
results of your examinations to be part of a study which looks at the 
after effects of being at Ground Zero. I joined the program to have the 
medical evaluations and have joined the study as well.
    My experiences at Ground Zero have changed my life forever. Some 
changes are for the better, others not so. In helping to assist after 
one of the worst acts by man, I had the privilege of working beside 
some of the finest human beings imaginable. I learned that I could make 
a difference. These volunteer experiences lead a friend to recommend me 
for a position that is a bit outside my career path. I relocated to 
Washington, DC. a year and a half ago and work in a military support 
position, planning professional development programs, among other 
things. It is very rewarding work.
    Physically, while my health suffers, I am not nearly in as bad 
shape as so many of those whom I met working at Ground Zero. My knees 
are arthritic, the sleep problems have become permanent. An endoscopy 
has indicated that my very painful heartburn is really ulcers.
    Mentally I am not doing as well. After my initial 16 months of 
therapy I was convinced I could go on my own. After all, I am a 
reasonably successful career woman. Six months after my first round of 
therapy ended, I was back in counseling--this time at the Mt. Sinai 
program--which also offers mental health support: This time for both 
individual and group sessions. Now that I have moved to Washington, 
DC., I have been unsuccessful in finding mental health support that 
specializes in PTSD and takes my insurance. Partly because I cannot 
find the same resources here that are available in NYC. Partly because 
one of the worst symptoms of this condition is getting overwhelmed: Too 
overwhelmed to be successful at work and to do all that is necessary to 
properly take care of myself. While I was still in NYC I had an 
appointment to go for a Workman's Compensation Claim, set up by my 
doctors. I missed the appointment because I was too overwhelmed to find 
the papers necessary for the hearing.
    I still walk into triggers. Some of them are subtle, and the 
associated symptoms are a sense of hopelessness or irritability that 
just seems to creep up on me (although I bet the people around me would 
describe it differently.) Some of the triggers are much more potent. I 
accidentally walked into an exhibit at the Women's Memorial at 
Arlington, featuring pictures of women lost in combat in the war on 
terrorism. That upset me to the point where I was all but bedridden for 
3 days. I can't get images of people carrying pictures of their loved 
ones lost that day out of my mind. Those images, or anything that 
reminds me of them are unbearable to me.
    I would do anything to see that we workers and volunteers from 
Ground Zero get the help and support we need to go on with our lives. 
We need help. Those of us who shared this experience have an amazing 
bond between us. Among us, no amount of explaining is necessary to 
describe what this experience has done to us. And to the outside, no 
amount of explanation is possible to recreate the horror.

                                    Mary Ellen Dobrowolski.
                                 ______
                                 
    I don't regret the 9 months I spent as a volunteer to support the 
Rescue and Recovery effort at the World Trade Center site and at the 
New York medical examiners office. New York was my home--the missing 
and injured were my neighbors. I do regret that our current 
Administration violated our trust and refuses to take responsibility 
for the lies they've perpetuated (``I'm glad to reassure the people of 
New York that their air is safe to breathe.'' Christine Todd Whitman, 
September 18, 2001)
    The current Administration has not only failed to protect us as 
Americans and as New Yorkers, they are allowing the September 11 
terrorist attack to continue--people are still dying, people are still 
injured. The death toll from the World Trade Center is still rising.
    We asked what we could do for our country--we did the best we could 
for our country and our city and now it has been demonstrated to us 
over and over that to the leaders of our country and this 
Administration, the sick, injured and dying WTC rescue and recovery 
workers, along with the injured and sick Iraqi and Afghanistan war 
vets, are nothing more than acceptable collateral damage.
            Respectfully submitted,
                                        Lynnette E. Miller,
                                                     WTC Volunteer.
                                 ______
                                 
    I am a postal employee and I was caught in the disaster of 9/11. My 
health has been affected tremendously. I have asthma which I never had 
before. I have a cough, respiratory distress, and sinusitis from 
breathing in the contaminants of 9/11. Senator Hillary Clinton came to 
my rescue when I needed assistance in getting two operations on my 
sinus because they were totally blocked from the contaminants of 9/11. 
I am being treated by the doctors from Mt. Sinai Hospital, they saved 
my life and continue to do so. Every 28 days I have to be injected with 
Xolair in order to function. This medication allows me to breathe, 
without it I will have to go to a hospital every day for treatment of 
asthma. My doctors can verify my illness which is a direct result of 9/
11.

                                          Cynthia Shephard,
                                                      WTC Survivor.
                                 ______
                                 
                                            March 18, 2007.

    Dear Senator Clinton: I was a volunteer at the World Trade Center 
site throughout the duration of the recovery and relief efforts. My 
first time on the site as a volunteer was on October 8, 2001. I 
volunteered at the various respite centers stationed around the 
perimeter of the pit and near the FDNY West Hut Command Center on West 
and Liberty Streets. In May 2002, standing on that sacred bedrock, side 
by side with my fellow volunteers, uniformed officers, construction 
workers and steel workers, we all witnessed the final beam 
ceremoniously being cut down to mark the ``official'' completion of the 
recovery effort at the former World Trade Center site.
    Senator Clinton, in the years that have followed the end of the 
recovery and the urgency of rebuilding and moving forward, the 
agencies, policies and agendas involved in declaring the recovery 
complete, turned out to be wrong after all. The remains of victims have 
been left behind well beyond the 5-year anniversary, and they are only 
now finding their appropriate place of rest.
    It was only a week after the attack of September 11, 2001 on the 
World Trade Center that NYC was told by then acting administrator of 
the Environmental Protection Agency, Christine Whitman, that the 
results of their monitoring of the air and drinking water conditions in 
both NYC and near the Pentagon were encouraging. She reassured the 
general public in or near the areas of the World Trade Center and the 
Pentagon that ``the air is safe to breath and the water safe to 
drink.'' It is now 5 years later. One only has to connect the dots in 
order to see the big picture.
    Senator Clinton, I have worked in the NYC public school system 
since 1989. In all those 11 years prior to September 11, the only 
health problems I encountered were the usual stomach virus or colds I 
would get from working around sick elementary or middle school 
youngsters in an environment where germs easily spread. I was on no 
medications prior to September 11.
    Since May 2002, I have been diagnosed with a number of ailments, 
conditions and disorders that I cannot attribute to anything else but 
my exposure to toxins at the WTC site. These ailments include Vitiligo, 
IBS, GERD, asthma, and Obstructive Sleep Apnea: All of which has never 
been a part of my medical history. There is also, of course, the 
emotional and PTSD factors that chronically affect me. No one can 
explain to anyone who did not spend time at the site, what being there 
did to you emotionally.
    At a time when I feel I should be recovering, instead, I am 
becoming more vulnerable to further illness because of my respiratory 
ailments. I am currently on more medications now, than I have ever 
taken in my entire 47 years of living. As of my last pulmonary function 
test, I was put on steroid-based medication. I am frightened for my 
future. I may have to take a leave from my job and the children I 
serve. A middle school of nearly 2,000 students can be very demanding 
on the mind and the spirit. If my body is not taken care of and 
healthy, how will I be able to continue to guide these young people.
    I am a Social Worker in the NYC public school system, in Queens 
County. On, September 11, we were in our school building when the 
attacks occurred. I could not just sit back and do nothing. I had to do 
something, anything. I went to the site on my own time, and wanted 
nothing in return, except for families to find some kind of peace and 
closure at the end of it all. I would not hesitate in a second to do it 
all over again.
    I have a mission to serve the students I work with in my middle 
school. Because of my health which continues to make it more difficult 
for me to breathe, walk up and down steps, and makes me more easily 
fatigued, I may have to leave this position. Senator Clinton, who is 
looking out for me? Who will help me?
    All I want is for the funding to continue, so that I can continue 
to be monitored and treated. I want to continue to give back to my 
community by being there for my students.
    I cannot be there on March 21 to testify on my own behalf. Senator 
Clinton, I urge you to please speak and testify on my behalf at the 
Senate HELP Committee.
            Respectfully,
                                        Denise E. Villamia.
                                 ______
                                 
    Hello everyone, I am honored to have been asked to give testimony 
today to the experiences I have had with the September 11, 2001 
tragedy.
    My name is Jonathan Sferazo, I am a disabled Union Iron Worker from 
local 361, Brooklyn, New York. We have created the Metropolitan Area's 
Skyline. I responded to the disaster on the morning of 9-12-01, the 
Brooklyn Battery Tunnel was our avenue of approach. We opened up West 
Street, with the removal of collapsed cars and trucks to the South 
Tower, I am typical of others who stayed approximately 29-32 days at 
the site, and my medical and psychological conditions are Reactive 
Airway Disease, Restrictive Airway Disease, Sinusitis, Continual Lung 
Infections, P.T.S.D., Anxiety, Depression, Sleep-apnea, and 
Gastroesophageal Reflex disease . . . none of this you would have 
expected from someone who ran a 5-minute and 30-second time in the mile 
when I was in school. l never had a pulmonological problem before 9/11 
or I would have never been certified by the N.Y.S. Department of 
Environmental Conservation for Wild-Land Search and Rescue. I went to 
Ground Zero because I wanted to help find and save human life.
    If I am to be the voice for the responder, then know that I am 
outraged by the lack of responsibility and loss of obligation this 
Administration has taken toward us--we are clearly being shown that we 
are expendable. George Bush came to the Trade Center site and told us, 
``We Will Never Forget'' . . . Well we feel he forgot.
    We want to know if those of us who are so severely afflicted have 
to lose all we have worked for before we are eligible for Social 
Services or will we ever be given what we were promised?
    We have heard too many times, ``Why weren't you wearing a mask?'' 
Now hear the answer loud and clear--because we were given paper masks 
that clogged up very easily and that was if you could get one, and we 
believed in our Mayor [at that time], members of the CDC, members of 
the EPA and Christy Todd Whitman who represented government telling us 
the air quality was ACCEPTABLE. Also I ask you to put yourself in our 
place, fighter jets flying overhead periodically with their sonic boom, 
helicopters hovering atop the skyscraper's, emergency whistles going-
off every time an engineer saw a building shift . . . then thousands of 
responders would run from the pile toward you, rescue and emergency 
vehicles making use of their sirens so others could hear over the loud 
equipment noises, military and police personnel all around you, smoke 
as thick as pea soup . . . and then you find a body part--do you really 
think you are concentrating on your health? Especially when your 
Government has given the message all is acceptable and OK?
    Americans have reacted to this treatment of then in the last 
election because of the history this Administration has shown. History 
has repeated itself over and over with 9/11, Katrina, Wilma and Rita--
there has been this total lack of commitment by the Administration to 
those they are supposed to represent. America will probably react the 
same in the next presidential election. We demand public-elected 
officials who think inside the box and the box is the United States of 
America and all the citizens inside her boundaries. We are tired of 
empty promise politicians who used the Trade Center disaster to make 
commitments they never kept.
    The Responders are not comfortable with the rebuilding of the Trade 
Center site until 9/11's gaping wound in our society is repaired. How 
do we move forward when the people of this epidemic are still stuck in 
the past? Do you put a $25-million band aide on a wound that requires 
so much more to surgically close-up and heal? The mere pittance that 
this Administration has thrown us is a disgrace, and our President 
continues to prove this to us . . . still to this day, 5 years after 
the disaster he still has not met with a Responder and has avoided it 
even with every letter Congress has sent him requesting one.
    Workers Compensation in New York State is in desperate need of 
repair and our Governor has just signed away permanent partial 
disability--how can he do this when not only are these symptoms latent 
in showing up but also long-term afflictions? We need our medical, 
pharmaceutical, and psychological needs covered with proper monitoring. 
We need financial assistance--based at $400 a week this cannot sustain 
a family that has had much more brought in by the working member, and 
when you have financial difficulty it accentuates the rest of your 
problems; We need to address the Reserve Units and The National Guard 
who were assigned to this disaster--far too many have been coming to us 
for assistance and some type of aide, Those of us whom are disabled due 
to 9/11 need to be compensated with a better system then the Victims 
Compensation Fund, with broader parameters to nip those who are victims 
of all the inadequacies. We need to change the 9/11 disaster to the 9/
11 epidemic so it expresses the real problem. We need a presumption law 
on a State and Federal level to stop the manipulations with legitimate 
cases being filed for Workers Compensation and Social Security and we 
need allocations to fund case managers and social workers to prevent 
fraud.
    I am here today because I care and have been through the system in 
trying to get my much-needed benefits. Marvin Bethea and I co-founded 
the Unsung Heroes Helping Heroes along with several others in 2005 
because we knew the donations were going to run-out and we saw our 
Government doing very little.
            Sincerely,
                                              John Sferazo,
                                            <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e121b101f141116103e110e0a11101217101b50101b0a50">[email&#160;protected]</a>
                                 ______
                                 
                                            March 19, 2007.

    Senator Clinton, Senator Kennedy, Senator Enzi, and members of the 
HELP Committee: I worked during the aftermath of 9/11 as a humanitarian 
aid worker for the American Red Cross for 81 days (September 2001, 
October 2001, January 2002, and February 2002). In December 2001, I 
worked 10 days in Virginia on a hotline handling cases of victims and 
assisting families. I then flew back to Manhattan and was reassigned to 
south of Canal Street. With long working hours and intense exposure to 
unknown chemicals and bad air around the ``pit'' and in semi-destroyed 
apartment buildings and on the streets as an outreach worker many of us 
began to get sick. I never had any health problems before that 
assignment. I am very grateful for receiving assistance from the Ground 
Zero Workers' programs and Workers' Compensation for NYC.
    Medical specialists and medications have little effect on my 
``World Trade Center cough.'' Recently diagnosed with acid reflux 
having 39 episodes in a 24-hour period, RAD, and asthma, I can no 
longer sing in church on Sundays and have an asthma attack if I try to 
go for a fast walk. I suffer from PTSD and have been in therapy for 5 
years and struggle to get my life back. Therapy and medication have 
helped me but I still have nightmares and other symptoms.
    I published a book on my work there and wanted to send the Senator 
a copy. It is a daily log of what the relief workers did and saw.
    If not for individuals like all of you and your caring for the 
workers we wouldn't be able to cope with the circumstances feeling 
forgotten. Called heroes by our communities and by our country, yet we 
live with the EPA's lie about air quality and we--the fact is that we 
received no appropriate protection and now are suffering and request 
that you continue to fight for us.
                                    Jude Patch Guglielmino.
                                 ______
                                 
    My name is Judith Day. I am a 9/11 victim. I was inside the 
building in tower one, 49th floor when the plane crashed into tower 
one. I was working. Since September 11, 2001 I have developed health 
issues. As a result of 9/11, I am left with respiratory problems. I did 
seek treatment from the past. As of 2006, I could not seek treatment 
anymore because my coverage was terminated.
    I have been seeing a psychiatrist and a therapist. Since I have no 
coverage, my therapist does not even care, nobody seems to care. I 
can't even afford to buy a new pair of sneakers. I go to work in rags, 
I have a hole in my sneakers. I used to have a lifestyle before 9/11/
2001.
    Health issues since 9/11/2001: I have a cough that never goes away. 
When I wash my hair I have to take the inhaler, advair, regardless of 
the season. I feel something is stuck in my throat. I have to keep 
clearing my throat to the point where I would get a headache. Every 
morning for the past 6 years, I have to pull mucus from my throat. The 
flashback and nightmares would not go away. I stay away from crowds.
    I have applied for social security disability since 2003 and my 
case was denied. My attorney requested an appeal. In November 2006 the 
Judge denied my case. My attorney requested for a review from the 
appeal council. I am still waiting. While I am going through all these 
problems, I could not pay my bills. I got myself a part-time job in 
September 2006 because I had nowhere to turn. I have been forced to 
work in dusts and the freezer to earn a few dollars, which gets me sick 
due to my condition. Recently, I could not pay my rent. I decided to go 
for a one-shot deal to pay my rent. $5,300 was granted to me. I have to 
pay back this money to the city. This was the only way for me not to be 
out of the apartment.

                                                Judith Day.
                                 ______
                                 
    I worked as a volunteer at the World Trade Center site from 
September 2001 through May 2002 when the site closed. In those 9 
months, the only piece of protective gear I was offered was a hard hat. 
I was never once, in 9 months, offered a respirator.
    As a result of exposure to ``toxic dust,'' I have been diagnosed 
and currently suffer from extrinsic asthma, chronic rhinitis, 
gastroesophageal reflux, prolonged post traumatic stress disorder, 
chronic cough, shortness of breath, fatigue and chronic headaches. (All 
of these medical issues were diagnosed at Mt. Sinai in October 2003)
    As of July 2005 I became too ill to work. Since that time, I have 
been forced to leave New York and live with family in Missouri. I've 
tried to maintain my end of the Workers Comp claim but have just this 
week retained an attorney as the stress of dealing with the Workers 
Comp Board is significantly delaying my recovery. Although I found this 
to be a necessary step in ongoing dealings with the New York Workers 
Comp Board, I am appalled that I've been forced into an adversarial 
relationship with the State of New York in order to receive basic 
medical care. In addition, the fact that I have been receiving $400 a 
week (less than a quarter of my pre-9/11 weekly income) and now must 
share that with an attorney is beyond belief.
    Dealing with the State of New York Workers' Compensation Board has 
been difficult and problematic. Because of delays, miscommunication and 
lack of followup on their end I am currently receiving NO medical 
treatment.
    Since I initiated a claim with the board in October 2003, the 
people administering this fund have consistently complained of being 
overworked. There seems to be a general lack of understanding 
pertaining to this fund--as recently as last week I called them to ask 
what the reimbursement rate is for mileage related to medical visits 
and no one could answer this question. A very simple question--And NO 
ONE could answer. This is a basic example of the responses that I, and 
my doctors, have received in response to inquiries regarding this fund.
    My only desire is to receive the medical care I am entitled to and 
to return to some kind of new normal life where I can work and support 
myself as I am accustomed to doing. Under the current circumstances I 
don't see that happening in the near future.
    These medical issues have significantly changed my life. Before my 
health was affected by the long-term effects from the WTC exposure, I 
lived and worked in Lower Manhattan, ran three miles a day four to five 
times a week, practiced yoga three to four times a week, volunteered 
for a variety of causes, traveled frequently and had an active social 
life.
    Now I'm chronically ill, isolated and forced to fight for basic 
heath care. I just went over 6 months without an inhaler because of 
mistakes made by Workers Comp. We need more treatment options. 
Monitoring is important but IMMEDIATE treatment is essential.
    On the morning of September 11, 2001 I arrived at my office 
unusually early. I was 8 months pregnant and working in Long Island 
City, two trains and a bus ride away from my home in Lower Manhattan. 
During my pregnancy, I often wouldn't arrive to work until around 11 
a.m., but this particular morning, I had reached my office by 8 a.m. I 
saw the first plane hit the Towers through the floor to ceiling bay 
windows of my company's engineering department. The first thing that I 
did, thinking there had been an accident, was contact my children's 
school to encourage them to close early and send the children home. 
Once the second plane hit, I could no longer reach anyone by phone and 
instead waited at my office for as long as I could. At around 4 p.m., 
when it became clear that I was not going to hear from my children to 
confirm their well being, I decided to get home.
    It took me several hours to just about walk home from my office in 
Queens. By the time that I arrived, I was covered in a think layer of 
dust from head to toe, as were my children who had walked home from The 
Village and my father who had thankfully walked to and from Bleeker 
Street to pick them up. We had no power, water or phones but at 
daybreak when the sun shone brightly again, we could see that our home 
was also covered in that same thick white dust, dust that we were soon 
told was safe to remove. I, at 8 months pregnant, got down on my hands 
and knees and pulled up the carpet in my children's room. I cleaned the 
rest of my house as well. I don't recall, but my children may have 
helped. My father certainly did. He vacuumed.
    All three of my children including the 5-year-old born just 1 month 
after 9/11 take daily treatments including Zyrtec, Allegra, Sinulair, 
Asmonex, Albuterol, Rhinocort, Q-Var and Advair for allergy, sinusitis 
and asthma-related symptoms. Additionally, my son was prescribed 
Prevacid for GERD caused by postnasal drip after a visit to the ER. We 
keep steroids, a nebulizer, and associated medications on hand in the 
event that any of the children should reach the red level of their 
``asthma action plans.'' They miss more school than the average healthy 
child of their ages and even the 5-year-old knows how to load the 
nebulizer with treatment and to administer that treatment to herself. 
My son once, not long after 9/11, upon another visit to the ER, was 
diagnosed with a virus called Herpes Angina, which means bumps on the 
inner chest area (down his throat and on his chest). Both of my 
daughters have had strange rashes at various periods and my middle 
daughter has also been treated in the ER for strange viruses that I was 
unable to treat at home.
    Just about every month, so long as I can afford to do so, I pick up 
a month's worth of medications for my children and myself at a cost of 
$360. I am also supposed to take the children to the doctor on a 
monthly basis at a cost of $40 each. That is an additional $120. That's 
$480 per month in copays without my visiting any doctors for my own 
personal healthcare.
    Immediately after 9/11 in addition to increased sensitivity, coughs 
and allergy eyes, I began to develop cysts on various parts of my body, 
one near my genitals, several under and on my eyelids, one on my 
abdomen and one just above my upper lip. The one on my lip was 
reoccurring, became an open sore that returned persistently over a 
period of about 2 years and was subsequently; post three biopsies, 
diagnosed to be a skin cancer that according to my doctor should not 
have developed in skin as dark as mine. Presently, I have what feels 
like a cyst in my mouth. I have not yet visited a physician for a 
prognosis.
    My healthcare costs recently increased beyond those, which I have 
already described due to a change in my company's medical coverage and 
I can barely afford to provide my children with the care that they 
need. As of February 1, 2007, a visit to the ER will cost me a $500.00 
copay as opposed to the $75.00 it cost prior. When and how am I going 
to the doctor for myself?

                                             Mariama James,
                                                     NYC, NY 10038.
                                 ______
                                 
  Prepared Statement of Thomas K. Eppinger, President, Uniformed EMS 
Officers Union, Local 3621 and Marianne Pizzitola, President, FDNY EMS 
   Retirees Association, Pension & Benefit Consultant, Uniformed EMS 
                       Officers Union, Local 3621
    Honorable Chairman Edward Kennedy, Ranking Member Mike Enzi, 
Senator Hillary Clinton, Senator Sherrod Brown, Senator Tom Coburn and 
other members of the Health, Education, Labor, and Pensions Committee. 
On March 21, we had the pleasure of attending the U.S. Senate hearing 
on 9/11 Health-Related problems hosted by all of you for the first 
time. We were joined by two members and 9/11 survivors, Retired EMS 
Lieutenant William Gleason and EMT Stephen Hess.
    These gentlemen and many like them suffer from a myriad of often 
life-threatening health problems, including hyper reactive airway 
disease, asthma, GERD, bronchitis, nodules in their lungs and in sinus 
cavities, skin rashes and growths, pulmonary hypertension, sarcoidosis, 
pulmonary fibrosis and scarring, enlarged heart, hypertension, 
autoimmune diseases such as lupus (or lupus like symptoms) and 
Rheumatoid arthritis, leukemia, and other types of cancers.
    In the years before 9/11, our members typically faced orthopedic 
injuries, and occasionally TB or Hepatitis. Today, members come to us 
with health problems falling within the cluster of illnesses above with 
alarming frequency. The common denominator with each is the same; the 
member responded to the terrorist attacks at the World Trade Center in 
New York.
    Ms Pizzitola, is a retired member of FDNY EMS, and assists Local 
3621, the Uniformed EMS Officers Union as the Pension & Benefit 
Coordinator and founded the FDNY EMS Retirees Association to help our 
mostly disable and retired EMS workers. Together with the Uniformed EMS 
Officers Union, Local 3621, these organizations partnered to ensure 
that our members are aware of the World Trade Center Tracking and 
Treatment Center Programs available in New York and nationwide, as our 
retirees are leaving New York for warmer climates and still need 
medical care. Unfortunately, responders and volunteers from other 
States are not being given the appropriate information as was 
identified at the Senate hearing on March 21, 2007 on 9/11 Health 
Problems.
    In fact, we would like to correct NYC Mayor Bloomberg's answer to 
Senator Sherrod Brown when asked how almost 200 people from Ohio that 
responded after 9/11 could get treatment. Mayor Bloomberg's response 
that volunteers from other States could come to NYC to seek treatment 
if they had health insurance, and his statement that the NYC Department 
of Health Registry was closed since 2003, were accurate, but not the 
best advice.
    In reality, the best course of action any volunteer should be 
advised to take is the following:

    1. Complete a NYS Workers' Compensation Notice of Participation 
form (a WTC 12 form). NYS Workers' Comp forms can be found at 
www.wcb.state.ny.us under ``common forms.''
    2. Have the form notarized and sent by certified mail to the NYS 
Workers' Compensation Board by the deadline of August 14, 2007. Keep a 
copy for their records.
    3. Call the WTC hotline and register for treatment at the toll free 
number 1-888-702-0630.
    4. Visit www.wtcexams.org for more information.
    5. If the volunteer resides outside the NY/NJ area they will be 
referred to a clinic within AOEC, the Association of Occupational and 
Environmental Clinics in their home State, and treatment is free as it 
is NIOSH-grant funded.

    A second inaccuracy concerns the issue of insurance and the amount 
of funding Mayor Bloomberg requested to fund the 9/11 programs.
    The Mayor's Task Force Report mentions the DOHMH WTC Guidelines. 
(See attached). These guidelines are so vague that they serve to limit 
pensions and Workers' Comp cases being awarded and thus city liability, 
rather than provide medical practitioners a framework. Our responders 
and volunteers are receiving diagnoses that fall beyond the listings in 
this document. The limited scope of the guidelines bind medical 
practitioners from identifying and treating 9/11 health-related 
illnesses. The DOHMH guidelines need to be updated every 6 months, or 
at least once a year, to include increasing rates of diagnoses within 
the cluster of illnesses, to provide doctors with a full and accurate 
picture of the evolving framework.
    The guidelines simply mention GERD, depression, anxiety and PTSD, 
upper airway cough syndrome, (formerly termed post nasal drip), Asthma, 
reactive airway disease (RADS), and chronic cough. Yet our members and 
thousands in other treatment centers are being diagnosed with skin 
rashes, tumors on their thyroid glands, nodules in the lungs, pulmonary 
fibrosis, sarcoidosis, sinus tumors, skin growths, growths in the 
stomach or esophagus, autoimmune diseases, sleep apnea, leukemia's and 
cancers and more. Given the amount of toxic chemicals that were in 
Ground Zero that were inhaled or ingested, these people are and will 
continue to develop these illnesses and their doctors should be on the 
look out for more than is described in these ``guidelines.'' One member 
has advised us her doctor mentioned he has 12 patients that were 9/11 
responders now diagnosed with leukemia. Such a reporting should be 
taken into consideration and investigated among other 9/11 workers. 
Adding these illnesses to the guidelines informs medical practitioners 
treating 9/11 workers to be more thorough in physical examinations so 
patients do not face long periods of time undiagnosed or misdiagnosed 
accidentally. Preventative health is simply a sound health practice, 
but for the practitioner to be that thorough in his/her examinations, 
she/he should know what they are looking for, especially when this is 
not routine.
    Senator Coburn asked the Mayor why the Senate should fund the 9/11 
programs if there is a duplication of insurance programs. Let us 
clarify, as the answer he received was not accurate. All NYC workers 
and contractors are covered by NYS Workers' Compensation. Under the 
law, an employer with one or more workers must carry insurance for 
their workers. It is all too common however, that an employer fails to 
adequately cover or report all of their workers and pay the State the 
appropriate premium. In addition, the city of New York often challenges 
injury claims, delays or ignores doctors' request for authorization for 
treatment, delays payment of bills, and most tragically limits how 
often disabled workers can receive symptomatic treatment. In the end 
our 9/11 workers are literally fighting the city of New York for 
medical treatment and their doctors are fighting to get paid. Many 
refuse to see us as the NYC Law Department Workers Compensation 
Division simply does not pay their bills timely, or at all.
    In the Mayors Task Force Report, ``Addressing the Health Impacts of 
9/11 Report and Recommendation of Mayor Michael Bloomberg'' co-chaired 
by Deputy Mayors Linda Gibbs and Ed Skyler, we refer you to page 74-78. 
On page 75, halfway through the first paragraphs it states,

          ``. . . the city is obligated to challenge a high proportion 
        of Workers' Compensation cases as late and/or lacking medical 
        evidence and employees do not get the benefits they seek. Until 
        we have better medical evidence of the health effects of 9/11, 
        or the State changes the Workers' Compensation scheme, to 
        better address later emerging 9/11-related claims, this 
        unfortunate tension will continue.''

    While the law was changed to remedy the late emerging illnesses, 
the ``unfortunate tensions'' still continue.
    In Ms. Pizzitola's case alone, we have three file folders of red 
tape we have had to wade through in an attempt for her to receive 
medically necessary treatment and get her medical providers paid after 
3 years. The Law Department Workers' Compensation Division is limiting 
disabled workers to medical visits only 1-2 times per month based on 
its independent definition of ``symptomatic treatment.'' The NYC Law 
Department Workers' Compensation system, which Mayor Bloomberg 
oversees, has ignored direction by the NYS Workers' Comp Board that 
they are interpreting the State law incorrectly, however, they continue 
to do so and frustrated injured workers must resort to using their 
union health plans to receive treatment. Because the city is 
inadequately covering members under the Workers' Compensation Plan, 
these workers depend on NIOSH-funded WTC Treatment programs for their 
treatment.
    Workers are not supposed to use their private health insurance for 
work-related injuries or illness. Claims should be paid for by the 
State Workers' Compensation System. For uniformed workers like NYC 
Fire, Police and Sanitation workers, and some Board of Education 
pedagogical employees do not receive Workers' Compensation. NYC 
Firefighters upon retirement must use their own health insurance for 
their line of duty injuries and they are subject to copays and caps 
each year that can be expensive. Out-of-pocket medical expenses related 
to 9/11-related illness has become overwhelming and these members as 
well depend on NIOSH-funded WTC programs for their treatment.
    In addition to the problems with health benefits, our members also 
face mounting difficulty on the pension side. The Mayor also oversees 
the Pension system and their own DOHMH WTC guidelines again has caused 
9/11 workers like EMT Stephen Hess who submitted testimony for the 
hearing through AFSCME to be denied his line of duty-related pension 
twice. Following a lawsuit, the Court advised the New York City 
Employees Retirement System (NYCERS) Pension board to review EMT Hess' 
medical evidence again, as it appeared it was not given proper weight 
and he should have been approved (the Court has no jurisdiction to 
grant pensions over the decision of a medical board). Today, that same 
pension board still refuses to see Mr. Hess or reopen his case. Please 
refer to page 75-78 of the Mayors Task Force Report on Addressing the 
Health Impacts of 9/11. On page 76 the second paragraph states that the 
city pension boards are using the New York City Department of Health 
and Mental Hygiene WTC Guidelines as a basis for denying workers their 
9/11 pensions and states,

          ``This tension is an unfortunate by-product of the 
        Presumption bill which, though generous to its beneficiaries, 
        makes categorical determinations that cannot yet (and may not 
        ever) be attributed to the 9/11 attacks.''

    Mr. Hess must use his wife's health insurance because there are no 
doctors in the State of New Jersey where he lives that will accept 
Workers' Compensation from the city of New York due to their poor 
payment history, and no doctors that are approved for his medical 
conditions. This bureaucratic nightmare has tragic implications for the 
health and well-being of Mr. Hess and his entire family. This is 
another reason why our workers depend on grant-funded WTC programs for 
their treatment. These ``unfortunate tensions'' described by City Hall 
are being suffered by real people who depend on these benefits to take 
care of themselves and their families and we must find a way to fund 
these programs so they can take the science from treating and tracking 
our 9/11 health problems and put an end to our members dying fighting 
for their benefits and pensions.
    We are seeing an increasing number of medical professionals 
refusing to take on 9/11 patients. In fact we are finding mental health 
professionals and pulmonologists refusing to take on new 9/11 patients 
because they are inundated with 9/11-related cases and/or having 
difficulties getting paid via Comp. The list of approved physicians in 
these areas of practice and in close proximity to the injured worker is 
also limited. Mr. Hess was terminated by the FDNY under Civil Service 
Law section 71. This means that although he was out sick due to a work-
related illness (9/11), the FDNY fired him because he was out for more 
than 12 months. He has no health insurance or benefits. He has been 
refused his pension twice because the city pension system refuses to 
find him disabled even though the FDNY finds him unfit for duty as a 
result of 9/11. Mr. Hess' only resort is the NIOSH-funded program, and 
ironically he is in the FDNY program, the same organization that fired 
him for the disability that prevented him from working there in the 
first place.
    While the Mayor requested $393 million per year to cover ALL 
workers from ALL States, a more accurate estimate of the funding 
required could be determined by a review of NIOSH grants and Workers' 
Compensation System actual payments over a period of time, including 
both medical and administrative costs. With this average we can more 
accurately estimate both current and future costs to the system.
    Epidemiologists and medical professionals tell us that the FDNY, 
Mt. Sinai and Bellevue Programs are providing the foundation for the 
identification of direct causation in 9/11 health-related illnesses. 
Without this baseline and ongoing tracking, 9/11 illnesses will be 
further obscured, denigrating our ability to understand and treat these 
workers. In fact, if we had access to the statistics and data from the 
FDNY 5-year history alone, it could shed light on the situation and 
help us to more effectively treat 9/11-related illnesses as for the 
first time we heard at this hearing Dr. Kelly testify that the FDNY is 
seeing some ``unusual cancers.''
    And finally, we would like to address Congressman Nadler's 
important question about respiratory protection and when workers 
received masks at Ground Zero. Masks were not given to workers until 
October 2001, and more importantly, replacement filters for those masks 
were not made readily available. As you can imagine, the filters 
quickly became clogged with dust and debris. After working long hours, 
breathing through the clogged filter became impossible--at this point, 
the masks were unless. When you discuss the issue of masks and 
respiratory protection we MUST remember to discuss the availability of 
filters--this one forgotten issue is crucial to understanding the 
severity of our current predicament. It is imperative that we speak of 
emergency preparedness that we ensure that we have masks for responders 
and a sufficient supply of replacement filters to last through the 
emergency.
    In closing, Marianne and I respectfully thank you for the time to 
offer testimony on the health-related experiences of 9/11 workers and 
responders. NIOSH-funded programs like FDNY, Mt. Sinai and Bellevue are 
necessary to effectively serve the thousands of 9/11 workers and 
responders with treatment and tracking. Our emergency responders depend 
on these programs. This worthy mission will provide us a more effective 
means addressing 9/11-related illnesses and establish a framework for 
health care in future disasters if ever required. For this mission to 
be successful there must be both complete accountability and 
transparency so that our 9/11 workers and responders are not left 
fighting alone for the health and pension benefits and care they have 
undoubtedly earned. We also must ensure that these worthy programs are 
funded so that tracking of illnesses from these centers can develop 
preventative medicine programs that can help other 9/11 workers and 
volunteers later.
    The Federal Government needs to establish a special disaster fund 
that if there is a national disaster like that of 9/11 again in this 
country, there is a fund that can be implemented to care for the 
rescuers and volunteers. Americans are resilient, and in times of 
crisis we band together and pull each other through. After 9/11, New 
Yorkers, and those that felt our pain brought this beloved city back to 
its feet. For this valiant effort, we must take care of the people that 
took care of New York.

    [Editor's Note: Due to the high cost of printing, previously 
published materials are not reprinted in the hearing record. Please 
refer to the report, ``Addressing the Health Impact of 9/11,'' by Mayor 
Michael Bloomberg and Co-Chairs Deputy Mayors Edward Skyler and Linda 
Gibbs on the 
Mayor's Web site: http://www.nyc.gov/html/mail/html/mayor.html or 
http:www.nyc.gov/htm/om/pdf/911_health_impacts_report.pdf. The report 
``City Health Information--Clinical Guidelines for Adults Exposed to 
the Workd Trade Center Disaster can be found at http://home2.nyc.gov/
html/doh/downloads/pdf/chi/chi25-7-pdf.]
                    Resident Supplemental Materials
    Prepared Statement of Tania Head, President, World Trade Center 
                           Survivors' Network
    Chairman Kennedy, Senator Enzi, and members of the committee, I 
thank you for this opportunity to testify today regarding the long-term 
health impacts from September 11.
    My name is Tania Head and I am the President of the World Trade 
Center Survivors' Network. We are a nonpartisan, not-for-profit 
501(c)(3), formed in 2003 to serve the needs, and advocate for, the 
survivors of the attacks of September 11, 2001. Our members are World 
Trade Center evacuees, workers from nearby buildings, Lower Manhattan 
residents, witnesses of the attacks, rescue and recovery workers and 
volunteers.
    We were very pleased to learn that the committee is looking into 
the growing problem of non-responders falling victim to 9/11-related 
illnesses because there has been a disparity to date between the 
resources devoted to rescue and recovery workers, as compared with the 
health and financial resources available to other groups.
    This is especially of concern because many of the residents, 
students, and workers who returned to Lower Manhattan after the 
September 11 attacks are also experiencing a number of health ailments. 
Their medical problems have largely been overlooked as officials focus 
increased attention on the responders who were exposed to the hazards 
of the cleanup and recovery effort at Ground Zero.
    The sad fact is that a large number of non-rescue survivors are 
also suffering from respiratory, gastrointestinal and mental health 
problems as a result of the September 11 attacks. However, until 
recently there has not been a single medical monitoring and treatment 
program available for neighborhood residents and other non-rescue 
survivors. It was not until this past January, more than 5 years after 
the fact, that the Bellevue Hospital WTC Healthcare Center was started 
to meet this need. It is clear that this vital program will require 
additional funding to stay open, especially as more time passes and 
further health complications arise as a result of the exposure to 
September 11 trauma and toxic contaminants.
    Additionally, survivors who were in New York on business on 
September 11, and those who have relocated since, have also been 
largely overlooked by the medical community. They have had little 
access to support services dealing with trauma and health issues in 
their new communities, and have continually been turned down for 
financial assistance from service providers in New York.
    Illustrative of these facts, we recently polled over 1,000 of our 
members and found that for the overwhelming majority, almost 75 
percent, their No. 1 concern today is ``Health Issues Affecting 
Survivors.''
    Health issues affecting non-rescue survivors are not limited to 
physical problems alone. A large majority is still suffering from 
various degrees of trauma, and has been diagnosed with Post Traumatic 
Stress Disorder (PTSD). Alarmingly, just when the need for counseling 
and support seem to be growing, many of the programs providing free 
mental health counseling are closing down for lack of funding. This 
includes the invaluable services provided by St. Vincent's World Trade 
Center Health Services.
    To make matters worse, the problems affecting survivors are not 
limited to health ailments. Health problems have compounded other 
problems arising directly as a result of being in the line of fire 
during the attacks of September 11. Many survivors, for example, are 
suffering from unemployment or underemployment. Many lost their jobs on 
September 11 and have been unable to find work due to job 
discrimination. Others are unable to return to their place of 
employment in Manhattan or are too traumatized to return to work at 
all.
    As a result, many survivors' are finding themselves in substantial 
financial difficulties because they are experiencing mental and health 
problems, all of which do not allow them to hold steady jobs while the 
bills keep piling up. Financial problems lead to legal problems and the 
situation only worsens. It's a vicious cycle that's very hard to 
escape, and to date there has not been enough resources or willingness 
to help this situation.
     Prepared Statement of Ann Warner Arlen, Immediate Past Chair, 
        Environment Committee, Community Board #2, Manhattan, NY
    My name is Ann Warner Arlen. I live just south of West Houston 
Street on Sullivan Street, in the South Village, an area west of SoHo 
and east of Sixth Avenue. Before September 11, 2001, the sky plane 
looking south on Sullivan was dominated by the World Trade Center, an 
easy walk south.
    I live in an apartment on a garden that is part of the open core of 
our block. On the morning of September 11 my back was to the garden 
when I heard the roar of the first plane go over, too low, gunning its 
motors, and then the crash. A friend called; we were watching on TV as 
the South Tower was hit.
    In the street a group of us watched the towers burn. When one of 
the towers turned grey and slid down the horizon, people screamed. A 
man appeared at the edge of the group, eyes red, face chalky with dust. 
He tried to speak but made little sound. Finally he said he had been in 
a building where people jumping from the towers fell so close by he 
could identify them. He wanted to tell the families so they could know. 
He came to my place to call his family. On the TV the second tower 
fell.
    The next day the air was filled with the dust. Going to a community 
Board #2 meeting at Bleecker and West Broadway, I had a bandana around 
my nose and mouth, yet was grinding the dust and grit between my teeth. 
The following day the dust was still in the air. The police had Houston 
Street cordoned off. We had to prove we lived there to get onto the 
block. An officer gave me a mask.
    After that the smoke rising from the World Trade Center site during 
the day settled as a pall over our area at night. The central core of 
our block held the smoke in place, and that allowed it to seep into the 
rear-facing apartments. Every morning for 3\1/2\ months I woke to an 
apartment filled with smoke, head aching with sinusitis and chest 
bubbling with bronchitis. These symptoms went away only after the smoke 
abated.
    A combustion scientist friend described the smoke as a combination 
oil fire, crematorium and mass burn incinerator. Altogether, it was an 
assault of airborne particulates and caustic fumes laden with a witches 
brew of unknown toxins. During the day, when the smoke lifted, the 
smell of burning flesh persisted. It was a relief when someone wrote 
about it or mentioned it. Most of the time nobody did.
    In October 2003, I did jury duty in the Supreme Court building on 
Foley Square, in a courtroom facing the WTC site and still smelling of 
WTC smoke. As we were seated, noses and eyes began to run. It was as if 
the jury as one had a cold. My sinusitis and bronchitis returned and 
got steadily worse. After many weeks the bronchitis became acute, and 
my doctor sent me for a chest x ray. The radiologist made a diagnosis 
of obstructive lung disease. My doctor said she would not recommend a 
pulmonary function test because there would be little to be done about 
it anyway. She prescribed for the mucous in my chest. Now when I get a 
cold or sniffle, I often get bronchitis. I take homeopathics and immune 
system strengtheners to avoid colds.
    I was haunted by the cataclysm that destroyed uncounted innocent 
lives close by, and especially by the passengers on Flight 11, passing 
overhead seconds before they crashed into the North Tower.
    But the source of greatest trauma was the venality of our 
leadership and the health agencies: in issuing deceptive reassurances 
about the air quality; in deciding not to follow the better-safe-than-
sorry ``precautionary principle,'' not to warn people to protect 
themselves and their children, to stay out of the area; in deciding not 
to close contaminated schools while they truly were decontaminated 
(instead students at Stuyvesant were compelled to return on pain of 
losing much-prized places); in conducting improper test-and-clean 
programs that resulted in people made ill by returning to contaminated 
buildings.
    And now we face the demoralizing risk that the Bellevue WTC 
Healthcare Center, a most important ``center of excellence,'' the one 
treatment center open to all suffering 9/11 exposure impacts, will be 
forced to adopt a politically-generated, geographically-based 
restriction regarding who it will accept for treatment, rather than to 
be allowed to continue with its admirable symptom-based triage system. 
It is devoutly to be hoped that Bellevue will be allowed to continue 
along its health-based path of integrity, untroubled by the political 
tinkering that is so demoralizing to those who seek to contain and 
reduce the harm done on 9/11 and--most regrettably--subsequently.
      Prepared Statement of Victor Fusco, Esq., Managing Partner, 
                    Fusco Brandenstein & Rada, P.C.
                             some proposals
    If it may please this Honorable Panel: My name is Victor Fusco. I 
am a member of the New York bar who has practiced in the varied areas 
of disability law since 1976. I am a past president of the National 
Organization of Social Security Claimants' Representatives, and past-
president of the New York Social Security Bar Association. I am a 
member of the Workers' Injury Litigation Group and the New York Injured 
Workers' Bar Association. I am presently the pro-bono general counsel 
to the Unsung Heroes Helping Heroes, Inc., a not-for-profit 
organization whose mission is to assist and advocate for the responders 
of the 9/11 attacks, and other national disasters.
    In my more than 30 years of practice, I have become familiar with 
both State and Federal Workers' Compensation plans, Social Security 
Disability, and ERISA plans, all of which deal with disabled workers. I 
am honored and delighted to have an opportunity to share some of my 
observations, and discuss problems and solutions.
    With respect to 9/11 workers, it is no secret that they were 
exposed to a ``toxic brew'' of pollutants, poisons and toxins as they 
worked in the rescue, recovery and clean up efforts, so I will not 
reiterate facts that you have heard many times from the doctors 
treating these individuals. I will stress that many of these workers 
are expected to develop later onset diseases, which have not yet 
manifested themselves. Some of our medical professionals are bracing 
for an epidemic of 9/11-related diseases.
    State Workers' Compensation Programs across the country have been 
decimated in recent years due to the influence of businesses and 
insurance industry in State governments.
    Up until last week, New York has the third lowest Workers' 
Compensation rates in the country, with a maximum payment of $400.00 
per week. Now the maximum, for new cases, has been raised to $500.00 
per week . . . still less than half of some of our neighboring States 
in the Northeast. To make matters worse, especially for 9/11 
responders, under the so called ``reforms,'' New York has adopted a 
most glaring ``anti-worker'' provision found in the laws of many other 
States, that is a cap, or maximum benefit payout on the amount of 
partial disability payments a permanently disabled worker can receive, 
to maximum of 525 weeks of benefits. (However, if you were to only have 
a 50 percent disability, you'd only get 300 weeks of benefits.) In the 
past, New York did place time limits on some types of injuries 
(schedule loss of use), i.e., those that would heal with varying 
degrees of permanency, and then stabilize. Typically these would be 
extremity injuries, arm, leg, wrist, etc., for which ``scheduled loss 
of use'' awards would be made based on a percentage of functional loss. 
However, in progressive, non-stable type conditions: spinal injuries; 
cardiac; pulmonary; brain, and such, a permanently partially disabled 
worker could receive benefits for as long they continued to suffer wage 
loss medically related to the impairment. And, make no mistake, 
virtually all such workers would be considered ``partially disabled,'' 
(and further categorized as mild, moderate or marked) if they weren't 
bedridden.
    In fact, in New York it has always been near impossible for workers 
to be classified as ``totally disabled'' unless they met the statutory 
standard of loss of two arms, two legs, and arm and a leg, both eyes, 
etc. It was never sufficient for a worker to show that they could not 
realistically do any work. They basically had to be bedridden to 
establish medical total disability.
    A small number of workers have been found to have ``total 
industrial disabilities,'' but such cases are also quite rare. New 
York's standard of ``total industrial disability'' has been sparingly 
applied, and then only to workers who were uneducated, functionally 
illiterate, with limited facility in English, and who had performed a 
lifetime of heavy unskilled labor. Most workers will never qualify for 
total disability under this standard. (For example, a typical ``total 
industrial disability'' claim might succeed for a 58-year-old brick 
layer, with 2 years of education in Italy, who does not read or write 
English, and speaks it haltingly with a back injury who can not longer 
be a brick-layer),
    New York's recent ``reform'' does little to better the lot of 
injured workers other than a slight rate increase. In fact, New York 
has done away with permanent benefits in cases of permanent partial 
disabilities, which by any other reasonable standard, including those 
of other States, would be considered ``total disability for work'' 
standards.
    This change in the historic bargain between labor and business 
portends major implications for the health of 9/11 responders. As their 
conditions worsen, their benefits get cut off. Lung conditions such as 
pulmonary fibrosis, for example, don't improve; they become 
progressively more debilitating, then they kill you.
    Workers from across the river can't expect much better treatment, 
as our sister State of New Jersey also has lifetime caps on the amount 
of benefits a workers can receive.
    The workers of 9/11 have been particularly vulnerable to the 
vagaries of the Workers' Compensation system. Although, from the 
outset, medical professionals have cautioned that the workers were 
exposed to a toxic stew, they also have gone on record as admitting 
that it will be years before many impairments, including lung diseases 
and cancers manifest themselves, and it will take years more still for 
the medical professionals to have the statistics to make the necessary 
causative links.
    Initially, 9/11 workers who found themselves taking ill beyond 2 
years of their last work at Ground Zero and related sites, found 
themselves barred from filing compensation cases by New York's 2-year 
statute of limitations.
    The workers, through their advocacy organizations, asked for a 
``presumptions bill.'' The bill listed a number of conditions that 
doctors had anecdotally related to World Trade Center exposure. It was 
proposed that if and when 9/11 workers ever were to come down with any 
of those enumerated conditions, such illness(es) would be presumed 
related to their work at Ground Zero and related sites, and their cases 
would be treated like occupational disease cases, so that the worker 
would have 2 years from the date of diagnosis of a 9/11-related disease 
in which to file a claim. Although the bill received widespread 
legislative support and passed both houses, Governor George Pataki, 
would not sign it and insisted on a watered down bill.
    So, how did New York decide to deal with 9/11 workers? By setting 
up a trap for unwary workers (residing in or out of New York), which 
requires them to ``register'' with the New York NYS Workers' 
Compensation Board on or before August 14, 2007. If they fail to 
register and later get sick, they can not file a claim. Only the filing 
of a registration statement extends the statute of limitations.
    In the meantime, well meaning Federal officials sought to bring in 
funds for much needed medical treatment. Those funds are needed and 
appreciated and more money is needed. But those funds will never 
benefit all the workers affected by 
9/11. Unfortunately workers don't just need medical benefits. Some are 
too disabled to work and because the Workers' Compensation system has 
largely failed them, they find themselves losing their homes, and all 
their assets. In short, they need a legitimate, worker friendly 
Workers' Compensation program.
    And, as poorly as New York's working people have been treated, 
other workers have been left out altogether. The Unsung Heroes Helping 
Heroes, Inc. and other organizations that have formed to help 9/11 
workers remain at a loss as to how to help Federal workers who were 
involved in the 9/11 effort, who also are outside of their statute of 
limitations; not to mention our national guardsmen who qualify for 
neither Federal or State benefits. New York State tells them they are 
military and eligible for ``Federal'' benefits. The Feds tell them New 
York State called you up, so you're New York's responsibility. And what 
about those who were working in the World Trade Center and environs 
when the buildings came down? They don't qualify for Workers' 
Compensation benefits as they are not considered ``rescue, clean-up, or 
recovery workers.'' What are they to do?
    Some workers have approached Federal Legislators with a proposal 
that the State Workers' Compensation systems be supplanted by a Federal 
program. Specifically, they point to the provisions of the Long Shore 
and Harborworkers Act (LHWCA) as a far more preferable compensation 
system. The provisions of the LHWCA have already been imported into the 
Defense Base Act as a means of compensating injured private citizens 
who have worked as ``contractors'' in Iraq. Benefit levels are far 
higher than those available in New York, or New Jersey for that matter. 
Secondly, such an act could be universally applied across the United 
States. The argument is made that it was the United States that was 
attacked, not just New York, and therefore Federal jurisdiction over 
the workers who helped in the recovery is entirely appropriate. This is 
a valid argument, and importation of the LSHA standards could go a long 
way to bettering the lot of 9/11's responders.
    While this scheme has great merit, there are some shortcomings to 
which pragmatic solutions are necessary.
    It is no secret that our Federal Government has been continuously 
applied budget cutting to virtually all of our Federal agencies. (Some 
would call it ``bloodletting.'') Federal agencies that deal with 
working people such as the National Labor Relations Board, the 
Department of Labor, The Occupational Safety & Health Administration 
and the Social Security Administration have never been more backlogged. 
I don't know of a single Federal agency whose administrators are not 
complaining of increased workloads with reduced staffing. The recent 
scandal concerning poor treatment of our injured Iraq war veterans is 
symptomatic of what happens when Federal agencies suffer from budgetary 
malnutrition.
    The LHWCA is administered by the Office of Workers' Compensation 
Programs (OWCP) an agency within the U.S. Department of Labor. The OWCP 
has a small number of claims examiners working in each of the major 
Federal regions. OWCP has a smaller core of Administrative Law Judge's 
who travel the country hearing cases. Unlike the Social Security 
Administration Office of Disability and Review, (formerly Office of 
Hearings and Appeals) it does not have a dedicated corps of ALJ's in 
each locality. Additionally that OWCP is charged with administering a 
second compensation program, the Federal Employees Compensation Act 
(FECA).
    LHWCA is a far more ``user friendly'' benefit scheme than FECA. 
Federal Government employee have tremendous difficulty getting legal 
representation before the Office of Workers' Compensation Programs, 
because there are no attorney fee liens, and the fees that are 
typically approved for lawyers' services are too frequently fixed at 
rates too far below market level, if they are even collectible, to make 
it feasible for attorneys to take on these cases. More lawyers do 
accept LHWCA cases. There are attorney fee liens available, and the 
fees tend to be closer to market rates. It should be noted however that 
claimants in litigated LHWCA cases are required to bear their own 
expenses of litigation.
    From a political and governmental standpoint, States are very 
protective, as they should be, of States' rights and loathe to cede 
authority (and jobs) to the Federal Government. Indeed, there are many 
Federal and State legislators who have protested excessive Federal 
intrusion into State matters. Workers' Compensation has always been a 
State matter, but one which has Federal repercussions, as State 
benefits do impact on Federal programs, in particular Social Security 
Disability.
    From the advocate's point of view, the Federal Government is simply 
not capable of running a more vast compensation program than that which 
it is already handling. The resources aren't there. Certainly the 
Department of Labor does not have the manpower. And, if anyone should 
perhaps think that the Social Security Administration's Administrative 
Law Judge's could take on the function of adjudicating these claims, we 
would point out that there is already a 24-month backlog of hearings in 
Social Security Disability cases, in most regions. The Social Security 
Administration can not take on any more work. It's bursting at the 
seams with the work it does have. In a time of cutting Federal budgets, 
it is unlikely any public official would suggest expanding any Federal 
agency's scope (or budget).
    Given the realities of the Federal budget for operating its 
agencies, couple with the failure of State compensation programs to 
adequately compensate the injured workers of 9/11, we propose that 
Congress devise a ``supplemental 9/11 disability program.''
    The cornerstone of such proposal would be that similar to what is 
done with Federal Highway Funds, the Federal Government attach the 
ability to secure reimbursement to the States' legislation and 
implementation of certain federally created minimum standards.
    We envision the program would provide supplemental funds to any 
State plan, provided certain Federal criteria are met, so that the 
combination of State Workers' Compensation benefits plus additional 
Federal benefits would equal \2/3\ of the claimant's salary at the time 
of onset of disability. For each eligible claimant, the Federal 
Government, through a special fund, would reimburse State plans or 
private insurers 100 percent of the cost of the ``State'' portion of 
the compensation after the first 2 years of payments.
    In order to be eligible for funds, States would, be required to 
amend their Workers' Compensation statutes to provide certain levels of 
Workers' Compensation coverage to qualified workers:

    1. For 9/11 responders (first responders, clean-up, rescue and 
recovery workers) certain qualifying conditions shall be presumed to 
causally related to toxic exposures characteristic of work at Ground 
Zero and related sites.
    ``Qualifying Conditions'' would include at least the following:

    <bullet> Diseases of the Upper Respiratory Tract, such as: 
Rhinitis; Sinusitis; Pharyngitis; Laryngitis; Vocal-chord Disease; 
Upper Airway Hyper-reactivity and Tracheo-bronchitis, or a combination 
of such conditions.
    <bullet> Diseases of the Lower Respiratory Tract, such as: 
Bronchitis; Asthma; Reactive Airway Dysfunction Syndrome (``RADS''); 
Various Forms of Pneumonitis Hypersensitivity (granulomatous or 
eosinophilic).
    <bullet> Psychological Conditions, such as: Post Traumatic Stress 
Disorder, Anxiety, Depression, or any combination of these.
    <bullet> Skin Diseases, such as: Contact Dermatitis; Burns; 
Infections; Irritations whether allergic, idiopathic or non-specific in 
origin, and caused by or aggravated by exposure;
    <bullet> New Onset Diseases, resulting from exposure, which may 
occur in the future, such as: any form of Cancer; Chronic Obstructive 
Pulmonary Disease (COPD), Asbestos-related Diseases (including 
Mesothelioma); Heavy-metal poisoning; Musculo-skeletal disease; Chronic 
Psychological diseases.

    2. The claimant shall have 2 years from knowledge that he or she 
has such a disease and that it is related to 9/11 exposure, in which to 
file a claim.
    3. The claimant must prove that he or she worked (or qualified as 
an eligible volunteer under State law) within the first 7 days, either 
immediately following the 9/11 disaster at a ``qualifying site'' for 8 
hours or more, or for any length of time at a ``qualifying site'' or 
``combination of qualifying sites,'' during the period 9-11-01 to 9-12-
02.
    4. The presumption of causality shall be irrebuttable, except for a 
preponderance of clear and convincing evidence to the contrary. It 
shall not be a defense to the presumption of causality that there are 
no similar cases on record, provided the attending doctor sets forth s 
reasonable medical basis for his/her opinion that claimant's impairment 
is casually connected, either directly or indirectly, to an exposure 
related to the 9/11 rescue, recovery and clean-up efforts.
    5. There shall be no presumption as to the degree of disability 
imposed by any ``qualifying condition.'' The burden of proving degree 
of disability is on the claimant.
    6. The State must adjudicate such claim within 365 days of its 
presentation. If the claim is not resolved and the claimant is not 
working, and has medical proof of a causally related disability, the 
Special Fund may pay interim benefits subject to reimbursement by the 
State plan when the claim is approved, plus interest. In the event the 
State fails to adjudicate such claim within 365 days of its 
presentment, the claimant may petition the U.S. Department of Labor to 
hold an expedited proceeding, before an Administrative Law Judge of the 
U.S. Department of Labor, within 60 days of such request. A claim shall 
not be considered presented until: (1) a claim form has been filed with 
the appropriate State agency, (2) there is medical evidence showing a 
diagnosis of a qualifying condition, and (3) if the claimant has a 
condition other than an enumerated qualifying condition there is 
medical evidence containing an opinion that such condition(s) are 
causally connected to 9/11-related exposure during the prescribed 
timeframes.
    7. Medical treatment shall be funded separately, and not be 
dependent upon the status of a worker's loss of earnings claim, whether 
or not compensability of such claim has been established under any 
State or Federal Workers' Compensation plan or program, or the status 
of a temporary or permanent, total or partial disability claim.
    8. ``Voluntary withdrawal'' from the labor market shall not be a 
defense to payment of benefits.
    9. (1) Reduced earnings and average weekly wage shall be measured 
against the higher of:

    (a) Claimant's earnings at Ground Zero and/or related qualifying 
areas; or
    (b) Claimant's most recent earnings for the 24-month period 
antedating cessation of work due to disability; or
    (c) Claimant's highest 5 years of contiguous earnings in the 
profession or trade in which he or she was employed at Ground Zero and/
or related qualifying areas; or
    (d) Such other wage basis as may fairly depict the claimant's wage 
earning capacity in the view of the trier of fact.
    (e) The determination of average weekly wage should be liberally 
construed in favor of the worker.

    (2) In the absence of actual reduced earnings, where such claimant 
is not actually employed, the State shall determine a ``degree of 
medical disability'' and pay compensation in accord therewith, as 
governed by existing State statutes.
    10. Following the State determination of the claimant's degree of 
disability and the appropriate State rate of compensation, a further 
determination shall be made by the State Agency for additional 
supplemental Federal benefits in an amount not exceeding \2/3\ of 
claimant's average weekly wage. If the claimant is working at reduced 
earnings for conditions attributable to his or her 9/11 service, the 
Federal supplement shall be such amount as is necessary to supplement 
the State benefit so that claimant receives \2/3\ of his or her actual 
reduced earnings based on his or average weekly wage as determined by 
the most favorable method. The standard defenses to reduced earnings 
claims shall be available to the ``state'' except voluntary withdrawal 
from the labor market.
    11. In States that impose a maximum benefit cap (time limited 
benefits), upon the exhaustion of such benefits, notwithstanding a 
finding of permanent partial disability, the Federal plan will pay the 
difference to the claimant upon exhaustion of State benefits. In the 
alternative, the participating States will amend their statutes so that 
there will be no maximum benefit limitation on the State or Federal 
portion of any permanent partial or total disability benefit payable 
for any 9/11 qualifying claim, in which case the Federal Government 
will reimburse, through the State plan, 100 percent of the cost of 
indemnity payments made under its Workers' Compensation plan, after the 
first 2 years, to 9/11 workers.
    12. In the event of a lump-sum ``settlement'' the Federal fund will 
pay such amount as approximates the amount of Federal benefits payable 
commensurate with the ratio of Federal and State weekly benefits paid 
prior to the settlement. Example: State plan paying $400 weekly. 
Federal supplemental benefit of $300 weekly. State insurer offers $ 
100,000.00 Lump Sum (5 years) Federal supplemental lump sum would be an 
additional $75,000. For cases where there are no State benefits 
currently payable, the State contribution shall be presumed to be 
maximum State rate available at the time based upon claimant's average 
weekly wage computed by the most advantageous method.
    13. The Federal Supplement shall be free of State, Federal and 
local income taxes and not subject to offset by the Social Security 
Disability benefits, nor shall it offset by any State or local pension 
plans, private or ERISA disability plans or insurance. The Federal 
supplement shall not have any lien whatsoever on the proceeds of any 
related third party civil action.
    14. There shall be no maximum benefit limitation on the Federal 
portion of any permanent partial or total disability benefits resulting 
from a 9/11 qualifying claim.
    15. In order to encourage vigorous representation of claimants, a 
prescribed schedule of attorneys fees will be promulgated by the 
Federal Government based upon factors similar to those used in Social 
Security Disability determinations, which shall be binding on the State 
and Federal portion of the claim.
    16. The United States shall delegate to State workers' compensation 
boards and commissions the responsibility for carrying out the mandates 
of this legislation, in the first instance, as they have the resources, 
manpower and infrastructure already in place to carry out the purposes 
of this legislation.

    There is ample precedent for State's taking on the administrative 
burden of administering a Federal benefit. The most immediate example 
is in Social Security Disability adjudications, where the 
decisionmaking process at the first adjudicatory level has, since the 
program's inception, been delegated to the States' ``Disability 
Determinations'' agencies. Other examples are block grants. Secondly, 
such grants of authority, do not require Federal agencies to ramp-up 
for new programs. Third, most States, especially New York, already have 
ample State structures to administer the program. Under former Governor 
Pataki, extensive modernization initiatives were made at the NYS 
Workers' Compensation Board. In fact, in some respects the agency 
became so efficient, advocates complain that there is not enough for 
the judges to do. So there is no doubt the States, particularly New 
York, are well equipped to administer such a program. And, better yet, 
timing is right. Current Governor Eliot Spitzer has indicated he will 
institute a program for continuing legal education for New York's 
Workers' Compensation law judges.
    The objective of the legislation we envision is to utilize existing 
State agencies to administer supplemental Federal benefits, which are 
modeled after the benefit structure of the LHWCA. By compliance with 
federally suggested models, States, and the private insurers therein, 
can offset a large part of their risk to a special fund which will be 
created for funding these benefits. That model was originally used in 
connection with Federal Terrorist Insurance Funds following the 9/11 
attacks. Workers who responded to an attack upon our country will be 
placed on an even footing with other workers whose work benefits ``the 
country'' such as Longshoremen or Defense Base Act Workers.
    The fact that many of the workers were paid salaries to perform 
their jobs does not diminish what they did. We pay salaries to our 
soldiers, sailors, police and firefighters, yet no one would ever 
diminish their contributions to our public safety and security. Just as 
police and firefighters are eligible for special pensions in virtually 
every State, and just as our military personnel are entitled to 
veteran's benefits and pensions, these blue collar veterans are also 
deserving of special financial recognition of their sacrifice of their 
physical and mental well being for our benefit.
    ``Special treatment'' over and above what most workers receive when 
injured on the job, is not discriminatory. Rather it simply would help 
make whole those workers, who without regard to their own health and 
safety, put themselves in harm's way, for the benefit of the United 
States, and ruined their health in the process. Just as police and 
firefighters are eligible for special pensions in virtually every 
State, and just as our military personnel are entitled to veteran's 
benefits and pensions, these blue collar veterans are also deserving of 
special financial recognition of their sacrifice of their physical and 
mental well being for our benefit.
                                 ______
                                 
                                            March 19, 2007.

    Dear Senators Clinton, Kennedy, Enzi and members of the HELP 
Committee: Please find below my written testimony for the Senate HELP 
hearing on 9/11 in Washington, DC. I am the president of the WTCRC--
World Trade Center Tenants Coalition, a grass roots umbrella 
organization formed after 9/11 to deal with issues of access, 
landlords, cleanup and downtown information sharing. We reach out via 
our list server, to around 30,000 downtown residents through various 
tenant associations, condo boards and other resident groups. I am a 
parent of three young children.
                                summary
    Elected officials, the Hall family believes that we were exposed to 
a toxic cocktail of contaminants of potential concern, during and after 
9/11. We believe that we were deceived by the EPA and others. We were 
told that it was safe to return downtown before a through clean up 
program had been organized and professionally initiated. The haphazard 
cleanup, that varied building to building, has left us with an 
uncertain future. We initially got sick like many others, things 
improved over the years but underlying issues remain and may in the 
future get worse. As first responders who worked on the pile or close 
by have started to die from illnesses experienced and residents and 
students start to get sick, more needs to be done by Congress. We 
believe that we need fully funded monitoring, research and treatment 
programs run by or at least centralized from, centers of excellence 
such as Bellevue hospital and Mount Sinai. We believe that these have 
the best experience of monitoring and treating for all 9/11 victims.
    To be forced to wait over 5 years for any worthwhile studies to be 
funded is a national disgrace. Pushing this under the carpet is not 
going to make the issues go away. This forces the effected people to 
get poor treatment and possibly suffer a much worse outcome that could 
have been prevented. We feel we are the forgotten people in this 
attack, left to fend for ourselves. We are lab rats exposed to a toxic 
gumbo, but unlike lab rats, we have no monitoring. We turn to you today 
to reverse this travesty and to look to prevent a similar outcome from 
any future attack that may occur.
    We have fought many years for this, please do not let us down.
          post-9/11 illnesses we believed that we experienced
    Before 9/11 we were all very healthy and visited the doctors only 
rarely. After 
9/11, when we returned, we all experienced eye irritation, my wife, 
Helen Hall, got so bad that she was forced to seek specialized help. We 
experienced nose bleeds and general malaise. We got tired and my joints 
ached when walking. We developed a persistent cough that lasted on and 
off for over a year and it appears to return each winter for many 
weeks. We suffered from headaches and sinus problems, the winter was 
miserable and in the summers I suffer badly from allergies. I had 
suffered a little before 9/11 for a couple of weeks in the summer, but 
now it has got much worse and lasts much longer. I suffer from phlegm 
all year around, especially in the mornings.
    My wife developed an issue with her thyroid gland, a non-cancerous 
cyst grew and had to be drained, we learned of others from community 
meetings that had similar strange issues. I found playing sports more 
difficult and was quicker to become exhausted and longer to recover. 
Last summer, I finally was exhausted walking home from work and went to 
see my doctor who performed a spirometry lung test and found that I 
only had 70 percent of typical lung capacity. He explained this was 
probably why I was struggling to keep up with my children when playing 
soccer. He asked me about 9/11 and made sure my records indicated this.
    Most of the above like many others, did not force us to go to our 
physician. You get used to it as normal life and like others with young 
children, they keep you busy and there is little time to stop. We do 
not know what the years health wise have in store for us, I just hope 
that I have not exposed my children to serious health issues down the 
line. At the very minimum I want to know what the contaminants can and 
have caused in people and what the best recommended treatment program 
that should be followed from our centers of excellence. The only way to 
do this is to track a large percentage of the exposed population 
downtown. Not just the first responders, but the residents, students 
and workers who were downtown after 9/11, in concentric circles away 
from WTC. There needs to be fully funded studies, monitoring and 
treatment programs available. These should be available to all, not 
just those with expensive health plans.
  this is my 9/11 story, one of many thousands that lived and worked 
                      downtown in lower manhattan
Introduction
    On September 11, 2001 my family and I lived at 50 Battery Place in 
Battery Park City two blocks south of the World Trade Center site. I 
worked downtown on Wall Street for JPMorgan Chase at 75 Wall St. That 
fateful morning was the first week back to school for many downtown 
children and I had walked my daughter Rhiannon who was just 5, to PS89 
in North Battery Park City and then taken my son Alex, who was 2, to 
TriBeCa Montessori nursery on Harrison and Greenwich. I then proceeded 
to walk south towards the World Trade Center. The first plane flew into 
the north tower as I left my sons nursery building and I saw the damage 
moments later as I walked down Greenwich. At Greenwich and Murray I 
walked across the Westside Highway deciding that the debris flying down 
and the crackling of the fire 80 stories above me was too dangerous to 
proceed any further.
    I walked down to the AMEX building, not wanting to think of a 
terrorist act, but of an accident of a malfunctioning plane or pilot 
who may have had a heart attack. It initially seemed someone, maybe the 
copilot, had tried a last ditch effort to turn the plane away from the 
tower. As I talked to a police officer outside the AMEX building across 
the street from the South tower trying to make my way back down to 
cross safely into Wall St., I heard a roar from the second plane 
watched in horror as it accelerated down West St. and turned towards 
me, full throttle into the south tower. I immediately realized the 
danger I was in and looking backwards watched the buildings windows 
bend and flex from the tremendous force but some how did not explode 
onto West St. but into the Plaza, one of the engines sailing past the 
North tower landing somewhere in TriBeCa. I ran north screaming at 
people to run North with me, I felt that the tower was going to 
collapse at any second, how could any building survive such destructive 
force. I watched people falling helplessly to their deaths, wondering 
how bad it must have been for them to have to have jumped rather than 
await rescue. Police helicopters hovered overhead, why couldn't they 
lower ropes or ladders for those poor souls or land on the roof, there 
must have been survivors up there above the fires. I felt sick to the 
pit of my stomach, how could this happen here, it was surreal and 
reminded me of the film towering inferno.
    I ran to PS89 and asked the Guard what the evacuation point was, he 
did not have a clue, there was no evacuation plan. I begged him to get 
the children north, they were only two blocks away and the tower was 
over 100 stories high. If it fell their way, they could all be killed. 
I ran to my child's PS89 classroom, the teacher, dazed, did not know 
what to do; parents were being called. The West side highway was 
already full of police, fire, and ambulances; there was no way for them 
to get through. I begged her to evacuate the children north to some 
meeting point, then to call the parents to pick them up. I took my 
daughter Rhiannon and ran across the Westside highway to get my son 
Alex. I called my wife and we agreed to meet back at our apartment. 
Things were calming down a little; the buildings had not come down. My 
wife was at the U.N. I wanted her to leave straight away as that could 
be the next target. No one or place was safe now.
    We walked back over the highway where a sergeant said it was fine 
to walk along the esplanade into South Battery Park city. We stupidly 
agreed and proceeded to walk South with my young son in the stroller 
and Rhiannon holding on. We got to the back of the winter Gardens and I 
heard another explosion. I looked up. Had another plane gone into the 
South tower? I saw the top 20 floors fall into the Plaza and then to my 
horror, the ground shook and the building started to pancake. There 
were thousands of us, all the workers from the financial center. There 
was sheer panic as high-heeled shoes were thrown off, handbags and 
brief cases tossed; I headed for the water and safety of the 
Merchantile Exchange building. I screamed at Rhiannon not to let go of 
the stroller as we sprinted a full pace to try to escape flying debris. 
The last thing I wanted to do was to jump in the water with two young 
children, but decided if we were caught in any fire, then it was our 
only option. Others in front of us did jump over the railings, the 
esplanade was packed. We ran around the metal exchange and across the 
parks field, which amazingly was clear. The wind blew strongly south 
and as the plume blocked out the sun, it rolled over our heads. We were 
only lightly exposed compared to those that ran south; our apartment 
building disappeared into the thick rolling dust blanket and day became 
night. We ran with the others to Chelsea Piers, we watched the mast of 
the North tower wobble and collapse, sucked into the center of the 
building. The building pan-caked, the corners opening like the petals 
of a flower, there was no sweet smell. The stripped bare metal 
structure of the first 20 or so floors survived, for a few moments, 
before it too fell across West Street into the AMEX building and Winter 
Gardens.
    We continued to walk north to Midtown, the only hotel that would 
put us up was the Waldorf on Park Avenue and I had to beg the manager 
to give us a room. I paid the high rate just to know my family would be 
safe while I went to work across the street. We had no where else to 
go; our friends were scattered around and we had lost contact. We 
didn't know if they were alive or dead. That week, the WTC's putrid, 
burning, indescribable smell and bitter taste in the mouth flooded the 
hotel. We were told that it was coming up from an underground subway 
tunnel. In the street, if the wind, changed direction, the smell wafted 
into Midtown. I ventured down to Wall Street a week later to try to 
recover and protect servers we had at 75 Wall St. The heat, smell and 
dust was overwhelming. There was no protection as we waited for our 
ID's to be verified, allowing us past the numerous armed checkpoints.
Returning Home for the First Time
    After staying in Midtown working crazy shifts to help JPMC recover 
their infrastructure, on the Sunday I learned that they were allowing 
people into their apartments to get essentials. We had only what I 
stood up in, we left so quickly that Alex didn't have any shoes. My 
wife walked to Bloomingdales to get shirts and pants for us and the 
children to allow us to continue working. Many other stores were closed 
down. On 9/11 it was gloriously sunny with no clouds in the sky, like 
many other residents I opened all of our windows, they only opened 3-4 
inches due to the child safety locks. Our apartment on the second floor 
faced the river away from the WTC. I returned, finally allowed to pass 
with no bills or id linking me to our building, it was only when our 
Superintendent came out that the armed National Guard allowed me 10 
minutes to collect what I could. I rushed upstairs with a run down 
torch, feeling my way in the pitch blackness I found our apartment and 
walked in. The scene was soul destroying. There was grey, sometimes 
fluffy, dust every where around 1 inch at the windows and less toward 
the back of the rooms. Everything was coated. The book case on the 
higher shelves had a bright yellow power coating. The children's 
brightly colored bedspreads were grayed out. I collected what I could 
from cupboards and closed draws and left, the young National Guard guy 
hollering, my time was up.
    We stayed in an apartment in Midtown for 6 weeks and then an 
apartment near the U.N. for another 1 week. In that period I would 
leave some evenings and wander downtown to try to begin the cleanup. I 
took some samples of the dust and collected them in a sealed jar. I was 
a Physics major and knew how to take samples; I took several scrapings 
from the front to the back of each of the rooms and mixed it up in the 
jar. We paid red hat workers to help us cleanup. They didn't even have 
the flimsy masks we had been given from the Red Cross. FEMA visited but 
they said there was little they could do for us, especially as we were 
foreign nationals. I cleaned off the children's plastic toys in the 
bath tub and threw their favorite soft toys down the garbage shoot. We 
were told by the EPA that the air was safe at a meeting on Wall St., in 
a hotel ballroom. Thousands of us were told to cleanup our homes with 
wet rags and mops and HEPA vacuums that none of us had. I went out and 
bought the best HEPA vacuum cleaner and Air Purifier I could get. The 
burning smell was still there when we returned 8 weeks after 9/11, even 
with the air purifier full on, it was intense. We did not dare open the 
windows. The outside of our building had not been cleaned despite our 
begging to the management company to do so. Our HVAC had not been 
cleaned and it probably had sucked down that cloud of debris and 
contaminants on 9/11.
    We formed a tenants association as the building refused to clean 
common areas, citing that an air test (taken when there was no people 
in the building), showed just less than the limit set by EPA <1 
percent. They refused to paint my apartment, the ceilings were pop 
corned and very difficult to clean. I wanted any debris to be sealed 
before my children returned. The red hat workers left piles of dust 
behind furniture and appliances but I cleaned it up the best I could. 
We had just signed our lease agreement for a further year in May 2001, 
which Dematis and RY Management (the management company) refused to 
release us from the lease, explaining that as EPA had said that it was 
safe. Their insurance firm had refused to pay out and thus they were 
holding tenants to their contracts. We were forced to return, unable to 
pay two NYC rents. We went to housing court and put our rents in 
escrow. The judge explained as these were unique circumstances there 
was no precedent and he did not want to set one, he told us to work it 
out with Dematis and RY. They had won, testing of the dust I had 
collected by Criterion labs showed 1 percent asbestos, we decided for 
the children's sake, to leave. We were forced to lose our deposit and 2 
months rent, pay moving costs and moved to 200 Rector Place down the 
street, to an apartment and building that we were told had been cleaned 
top to bottom by outside cleaners. Even though it was closer to the WTC 
we felt committed to stay and help rebuild our neighborhood and after 
all, maybe the contamination was not all that bad! Little did we know 
of the CoPC's (Contaminants of Potential Concern), the Dioxins, heavy 
metals--lead, mercury etc., pulverized concrete dust, insulation--glass 
fibers, Polycyclic hydrocarbon's, we were only aware of asbestos.
    Our apartment overlooked the WTC, we saw the fires burn until well 
after February. The debris was slowly removed from the pit and 
spontaneously erupted from time to time glowing white hot. The trucks 
billowed WTC dust as they drove to north battery park to the hastily 
set up 24-hour barge operation, glowing red hot at night. The streets 
were covered with electricity cables protected with wooden coverings. 
The winter weather washed away WTC dust from the streets, but it 
collected under the wooden coverings. When finally the coverings were 
removed, the dust once again blew around our neighborhood, freshly 
contaminating our homes, carried on clothing shoes and sucked up by the 
HVAC units. This continues to this day as there are still buildings in 
our neighborhood that are heavily contaminated and remained open to the 
elements for a number of years (Deutsche bank, Fitterman hall etc.), 
others were quietly demolished. It was only after Congressman Nadler's 
office forced the release of the multimillion dollar investigation of 
contamination of the Deutsche bank building, did we find out the true 
extent of what was in the debris cloud and how we had been deceived by 
the EPA.
    If we had known then what we know now, we would not have returned, 
certainly not until the contamination had been cleaned up.
            Regards,
                                           The Hall Family,
                    Craig Anthony Hall (38); Helen Mary Hall (39); 
                Rhiannon Ciara Hall (10); Alexander Rhys Hall (7); 
                                        and Ciaran Joseph Hall (3).
                                 ______
                                 
                                            March 18, 2007.

    Dear Senators Clinton, Kennedy, Enzi, and members of the HELP 
Committee: My name is Nina Lavin and presently as well as on September 
11, 2001 I have resided in a building situated seven blocks directly 
north of the World Trade Center. All the windows in my apartment and 
two individual HVAC units directly face the former site. My building 
was built in the early 1990's and therefore can be presumed to have 
been constructed free of asbestos containing materials. I was home on 
September 11 and witnessed the collapse of both towers. I closed the 
windows and the HVAC flu vents before the buildings fell because I was 
aware that I did not want the burning fuel and glass filling the sky 
entering my apartment. Nonetheless, enter my apartment the 9/11 dust 
did. As we know from particulate measurements taken by scientist Thomas 
Cahill (Cahill is a specialist in nano-particulate matter) beginning in 
October 2001, the collapse created particulate matter so ultra fine 
that essentially it behaved like a gaseous vapor, easily seeping 
indoors as does air. A fine, glittery dust settled all over every 
surface inside my apartment. Additionally, in the ensuing months I was 
repeatedly sickened inside the apartment by the noxious fumes of 
burning industrial materials such as office furniture and fuel 
emanating from the pile. I was nauseated and experienced burning in my 
eyes, nose, throat, and developed a painful hacking cough.
    Testing of surface dust in my apartment was first done in late 2001 
by the Department of Health, which found highly elevated levels of 
crystalline silica, commonly found in concrete and glass, and a known 
cause of silicosis, cancer and a respiratory irritant. In July 2002 I 
privately had testing done inside my apartment for asbestos. Due to the 
extremely cost prohibitive nature of such testing, I tested for 
asbestos alone as it has regulatory standards, with the understanding 
that if asbestos was found, it could be fairly assumed that other WTC 
toxins were also present, including ones which could cause respiratory 
and other symptoms. What I found, as stated, was that the ultra-fine 
dust had wafted right through the closed windows and flues in my 
apartment. I used certified industrial hygienist Ed Olmsted, who was 
hired by EPA to test their Region 2 headquarters at 290 Broadway 
(cattycorner across the street from my building) and who headed 
oversight of the air monitoring at the Fresh Kills site in Brooklyn, 
where a lot of 9/11 debris was moved to. Olmsted found highly elevated 
concentrations of asbestos inside my windowsills, inside the two HVAC 
units, and even in dust clumps formed in the front doorway of my 
apartment which opens into an interior hallway of the building. The 
doorway finding is significant because the way the air is engineered to 
flow through my building, it means the debris entered vertically from 
the roof, passed down through the building's 52-story central air 
supply duct and then passed horizontally through to my fifth floor 
hallway, through my door frame, and into my apartment (and presumably 
into other apartments as well.)
    By July 2002 I was diagnosed with chronic bronchitis by a leading 
pulmonologist at NYU Medical Center, a diagnosis corroborated by my 
primary care physician. With a doctor's letter, I was finally moved out 
of my apartment for almost 10 months with funding from FEMA. (I should 
add that even with this letter, it took the intervention of Congressman 
Nadler's office to get FEMA to comply and relocate me.) By the time I 
was moved out I had an uncontrollable racking, painful cough and my 
sinuses and esophagus were chronically inflamed. I also developed acid 
reflux. I had none of these problems prior to September 11.
    In 2002 I had health insurance and saw a pulmonologist, ENT and 
gastroenterologist at NYU Medical Center, all of whom took my exposure 
very seriously and carefully examined me using state-of-the-art medical 
equipment. They were sympathetic but saw individual patients like 
myself only occasionally, and they could only examine my symptoms 
individually in relation to their specialty, without working in 
collaboration--consequently, the inter-relationship of the symptoms I 
was experiencing, a battery of symptoms which have since been linked to 
exposure to the dust, was not fully grasped.
    The opening of the Bellevue WTC Clinic by Dr. Riebman has made a 
world of difference for my treatment. These doctors are seeing enough 
patients with individual variations of WTC symptoms every day that they 
know what to look for and are careful to explore the symptoms as a 
grouping as well as individually, which is important for treatment. 
Finally for the first time, 5 years later, I am receiving the treatment 
I need for sinusitis, esophagitis and acid reflux, and am beginning to 
experience some relief and diminishment of symptoms. It is unknown 
whether my symptoms (and those of others like myself) are here to stay, 
but feel certain that the best shot I have of being cured or at least 
of having these symptoms managed, is to continue being in the care of 
doctors who are experienced at evaluating and treating patients who 
suffer from similar conditions and hopefully they will make advances in 
treatment due to their growing expertise. Also a centralized treatment 
center may prove important in terms of collecting health data, so that 
they can track exposures in a consistent and statistically meaningful 
way.
    It is also important from a financial standpoint that treatment 
continues to be funded. Due to the nature of my employment I am 
currently without health insurance and without the Bellevue WTC Clinic 
would have gone without treatment of any kind.
    Senators and members of the HELP Committee, I implore you to 
implement long-term funding for post 9/11 health care so that all of us 
who need it will have a center of excellence dedicated to the treatment 
and study of WTC-related health effects to turn to in the coming years.
            Sincerely,
                                        Nina Lavin.
                                 ______
                                 
To: Whom It May Concern
From: Charles Littman

Re:  911 Health Issues of Charles, Madeline, Tara and Ryan Littman

    We live in Independence Plaza, located a few blocks from Ground 
Zero.
    Madeline Littman.--In March 2005, my wife, Madeline, was diagnosed 
with lung cancer. It had already spread to her brain. After a noble 
fight, she died in August 2005. The only possible cause of this illness 
it would seem was the contaminated air from 9/11. She was a non-smoker, 
and there was not a proper cleanup in our area. Several other cases of 
lung cancer have been documented in this area.
    Charles Littman.--Since 9/11, I have been on several respiratory 
medications. I have been diagnosed with asthma. A CAT SCAN after 9/11 
showed pleural plaque, whereas a CAT SCAN prior to 9/11 did not show 
anything. I have been under the care of a pulmonary specialist. On 9/
11, I was outside my building witnessing the event. There was neither a 
proper cleanup of the area, nor of our apartments. The mayor encouraged 
everyone to go on as normal, not considering the health effects of 9/
11.
    My children, Tara Littman and Ryan Littman both have experienced 
recurring sinus problems, including sinus infections and have needed 
medical treatment. Again, this is related to 9/11.
    Thank you for making note of this.
                                Charles Littman and family.
                                 ______
                                 
    They always say . . . if you are having this problem, then there 
are several more out there like you. The challenge has always been for 
me that the institutional memory of the events and harm done on 9/11 is 
short lived. So, resulting mental health issues, like severe depression 
and post-traumatic stress disorder (PTSD), are issues that should have 
been solved 5 years ago . . . or so I am told . . . though I have no 
personal evidence that this is true.
    My e-mail is not for me for I get paid well and I have afforded the 
thousands of dollars of antidepressants and counseling due to PTSD. My 
e-mail is for the persons that don't have the means I do. People that 
sit in their house in pain, that have an eroding social life, a damaged 
marriage, lost a job, or have turned to substance abuse as a result of 
their inability to heal with help.
    If you break a leg, you get an x ray and a cast and in a few months 
you may be healed and you can protect your leg from future damage.
    If you are struck with the debilitating pain of a mental health 
issue that doesn't have a ``home'' in the health care system and you 
don't have the means to create your help, then you never get the ``x 
ray'' you never get the ``cast'' and every time you read the news paper 
or listen to the news, society is jumping on your ``broken leg.'' How 
do you think that feels?
    My 2 cents . . . for what they are worth.
                                              Bryan Suarez.
                                 ______
                                 
    Senator Clinton, Senator Kennedy, Senator Enzi, and the members of 
the HELP Committee: My name is Daniel Lenahan. I have worked as a 
resident manager of a condominium, and lived in it, two blocks south of 
the World Trade Center site for the past 19 years. In addition to 
responding to the February 26, 1993 bombing wherein I rendered life 
saving aid to a couple on the south exit ramp, I responded to the 
attack on the North Tower. While my service at that moment was not as 
critical it was helpful in that I was directing traffic at the 
intersection of Albany & West streets directing the vehicles stranded 
by the flood of escaping WTC workers and directing those workers south 
on West Street. It was during that service that I noticed the blown 
away torso that landed at that intersection along with other scattered 
body parts. I also witnessed people falling from the North Tower. It 
was during this time that Flight 175 came in overhead just east of our 
position and impacted the South Tower.
    I immediately turned my thoughts to evacuation since the WTC might 
collapse and could fall in our direction crushing everything in its 
path. It was clear that my residents were in grave danger. I set about 
shutting down all building systems and evacuating the residents to the 
South Ferry Terminal with the instruction to get on the ferry and wait 
it out on Staten Island. During this time, in well known succession, 
the towers collapsed enveloping us.
    While residents were relocated, two members of my staff, Arnaldo 
Velasquez & Gimbel Yee, and I remained in the building until that 
Thursday afternoon when there was word that the Merrill Lynch building 
was on the verge of collapse. I returned that Saturday and stayed on 
without relief during the intervening hegira. The immediate task at 
hand was providing security and access to governmental authorities. 
During this time I was joined by the aforementioned individuals as well 
as David & Apolinar Liranzo, Rigoberto Lopez and Carlos Mercado. Our 
secondary task was to remediate the talcum powder fine dust that was 
everywhere inside the building as well as the facade and walks 
surrounding it. We did this, as instructed by the EPA, without 
protection other than ordinary workman's dust masks. During this work 
Gimbel Yee fractured two ribs.
    In the days and weeks--out to months following, we were constantly 
subjected to the fumes of the smoldering fires that burned deep in the 
heap. I had a constant dry cough, sore throat and occasional asthma-
like symptoms. While I was treated by my doctor at that time only time 
will tell what impact that has on my long-term health. It should be 
noted that the dust was impossible to completely remediate for well 
over 6 months since displaced residents slowly returned to clean out 
their apartments over this period. Each return brought up more dust.
    As you are undoubtedly aware, many of our surrounding buildings 
have, or had been, deemed contaminated by the EPA. While I am aware 
what work was done in my building it is impossible to vouch that all 
work was done competently and comprehensively. Certainly the voids 
behind walls and other spaces that only air can reach were not 
remediated. Given the cornucopia of toxic agents that comprised that 
powdery cloud as well as its force and its density at ground level to 
300 feet--the answer is apparent.
    We were lied to by the government. Arguably, that lie was necessary 
as the lives of Lower Manhattan's residents had to be balanced against 
the overall needs of the Nation, and indeed the world. As home to the 
financial markets, it was almost a no-brainer that the entire western 
world's economies hung in the balance. All that understood, it is 
incumbent on those very economies and governments for which we were 
held as sacrificial lambs, to pay the debt for their continued health 
and existence.
    At a minimum, comprehensive funding for medical research and 
comprehensive lifelong medical & mental health treatment approach 
acknowledgement of that debt.
    It is within your hands whether or not this happens. If it doesn't, 
you will have condemned this country to a cynicism that will hamstring 
us all when future tragedy strikes or a need arises.
    Do the right thing.

            Respectfully,
                                            Daniel Lenahan.
                                 ______
                                 
Hon. Hillary Rodham-Clinton,
Hon. Edward M. Kennedy,
Hon. Michael B. Enzi.

Re: Post 9/11 Health Concerns

    Senators, I would like to point to a potential problem related to 
post-9/11 environmental and health issues that seems to have received 
little attention. I have two sons, one, Conner, who was just over 1-
year old at 9/11 and another, Calvin, who was born 1 month after 9/11.
    When Conner was 18-months old, he was diagnosed autistic and has 
been in special services since. Calvin was also speech delayed and 
required early intervention. I have also noted that there are a number 
of boys in our building of the same age as Conner and Calvin who have 
also exhibited signs of developmental delay or abnormality. I do not 
know if it can be called a ``cluster'' but it seems to be an abnormally 
high concentration.
    Of special concern is that our Lower Manhattan cooperative, Chatham 
Green, which is located only a few blocks from Ground Zero on Park Row, 
was in the midst of a window replacement project when the planes hit. 
Unbelievably, the building continued with the window project as the 
fires continued to burn and the plume hung over our neighborhood for 
many days.
    Given the unknown quantity of heavy metals and other neurotoxic 
substances in the air and given the known neurological effects of heavy 
metals on children, I believe that the Senate should look into this 
aspect of the environmental impact of the fallout from the fires and 
the collapse of the two towers. It is critical that a long-term 
monitoring program be established so that any trends in emergent health 
impacts will be recognized and intervened in.
    Thank you,
                                                Danny Chen.
                                 ______
                                 
    Dear Senator Clinton: I want to thank you for all your hard work on 
behalf of the survivors and first responders of the attack on the World 
Trade Center.
    Back in 2001, I was an executive assistant at Standard & Poor's at 
the Mellon Bank Building at 55 Water Street and I used to commute from 
187th Street via the A train. On 9/11, I was at the corner of Fulton 
and Nassau Streets when the planes hit. After I realized that we were 
under attack, I went to my office but security wouldn't let me in the 
building--figuring that I would have to walk home, I proceeded to walk 
north on Water Street. Since I got to the corner of Fulton and Water 
Streets, the South Tower collapsed and I was covered in dust in 
seconds. We were out of work for 10 days and I was treated for minor 
respiratory problems for a short time. Since the area was deemed 
``safe'' again, we were allowed to go back to work but, as you know, 
the site burned for months. Since 9/11, I have been under treatment for 
PTSD and I have gained 90 pounds. Before 9/11, I would get an 
occasional sinus headache but I would take a Tylenol Sinus and it would 
go away in an hour. Now, I have persistent sinus headaches that last 
for days and I developed a ``morning smoker's cough'' even though I 
have never smoked. I have thick mucus in my sinuses and my throat that 
sometimes impairs my ability to sleep (at the risk of sounding 
disgusting, the mucus is thick and yellow and sticky). My doctor keeps 
telling me that it's allergies but I know my body--I get seasonal 
allergies in the spring but the symptoms are not like the ones that 
I've been experiencing since 
9/11/01--this is different and it's progressive. Lately, I have been 
getting more head colds than I normally do; I've had two in as many 
months and that's unusual for me--I usually get sick two or three times 
a year. The amount of colds I get has increased in the 6 years since 9/
11. Economically, I am ruined. On 9/11, I was making over 60K a year as 
an executive assistant. Between my ex-husband and I, we were doing 
quite well financially.
    As a result of 9/11, my marriage broke up and my income has 
steadily declined because of my PTSD. I have had trouble holding a job 
and I am currently working as a legal assistant in Scranton, PA for $10 
an hour. I marvel at how much my life has changed as a result of that 1 
day in September. Not only does something need to be done to help the 
first responders, the clean-up crew, and the survivors who were in the 
WTC but people like me need to be included as well. I've only got $400 
of prescription reimbursement money left in the Red Cross 9/11 Recovery 
Fund--after that money is exhausted, I don't know how I'm going to 
afford my Lexapro. The copay is $50 and that's quite a bit of money 
when you're raising a child on $10 an hour. Obviously, there are no 
easy answers for this situation. My goal in sharing my story is to 
prevent others from having to endure what we have endured and will 
continue to endure. If sharing my story can save a future life then I 
will share as long as someone is willing to listen.
    If you have any questions or if you need any further information, 
please do not hesitate to contact me.
            Sincerely,
                                         Deborah Geary-Aks.
                                 ______
                                 
    I live in Independence Plaza, an apartment complex located about 
six blocks from Ground Zero. For several months after 9/11 I had a 
severe and persistent cough and an irritated throat. When I'd go to the 
subway station near City Hall, the odor from the fumes made me 
nauseated. On several occasions I almost threw up on my way to work. 
When I'd go to and from work, I wore one of those ineffective paper 
masks long after other people stopped wearing theirs. I had not gotten 
a medical check up because just going about my daily routine left me 
exhausted. What stopped my symptoms from getting worse was the fact 
that in May 2002 I had a family emergency that forced me to leave New 
York for several weeks and allowed my lungs to clear out somewhat.
    No research had been conducted on those of us who lived, worked 
and/or went to school around the area, exposed to indoor and outdoor 
debris from the disaster. There should be longitudinal studies and a 
long-term monitoring program of exposed people, to uncover both the 
short-term and long-term effects of the exposure to the toxic soup of 
chemicals we've been exposed to.
            Sincerely,
                                               Diane Stein.
                                 ______
                                 
                                            March 20, 2007.

    Dear Senators Clinton, Kennedy and Enzi: My son Kevin was a student 
at Stuyvesant High School on 9/11, blocks from the World Trade Center. 
The NYC Department of Education said the air was fine and said new 
filters had been put into the ventilation system, providing the school 
with 39 percent protection just a few days AFTER 9/11.
    As soon as my son, Kevin, returned to Stuyvesant High School, he 
kept clearing his throat, blowing his nose all day long. He had 
nosebleeds and upper respiratory problems. It was especially noticeable 
when he was reading, e-mailing on the computer, or eating his meals.
    For several months, the Parents' Association requested the 
upgrading of the air filtration system with charcoal and HEPA filters 
(ones with the highest efficiency possible) be used in all ventilation 
systems. Stuyvesant's inadequate ventilation system could not block out 
asbestos and other toxic dust from Ground Zero. In fact, it was later 
determined that The Department of Ed promised, but did not clean the 
ventilation system, (until 2 years later and under pressure from a 
group of active parents within the Parents Association, calling 
themselves Concerned Parents) especially the miles of ductwork in the 
school.
    Another danger was the environmental hazards caused by the barge 
operation where the WTC debris was dumped several times daily. Large 
trucks, sometimes idled for hours, emitting toxic diesel fumes and 
soot. This barge was just 50 feet to the North of the school, right 
under the window of the school gym!
    I gave my son an herbal supplement to clear the irritation to his 
throat, lung and nasal passages. This worked for about 3 weeks, the 
cycle began again. He kept clearing his throat, nasal passages, blowing 
his nose and the blood flowed profusely at times from the nosebleeds.
    The eye doctor had said his contact lenses were coated with 
``protein'' deposits and Kevin had to constantly wear a new pair or his 
eyes would burn. He finally had to stop wearing lenses altogether due 
to the irritation.
    When we went on vacation and were away from downtown Manhattan, his 
symptoms improved dramatically. He would blow his nose and clear his 
nose less. As soon as he returned home from school the first day, the 
symptoms would all begin again!

                                             Elizabeth Lee,
           Parent of Freshman at Stuyvesant High School on 9/11/01.
                                 ______
                                 
    Dear Senators: Hello. My name is Esther Regelson and I live three 
blocks south of the World Trade Center site. I was in the dust cloud on 
September 11, and moved back into my apartment 5 months after being 
displaced. Even after moving back, there were many reservoirs of toxic 
dust from 9/11 that permeated my neighborhood and my home. Many of our 
surrounding buildings had been deemed contaminated by the EPA. To this 
day I am not certain of the degree to which my apartment and the rest 
of my building have been cleaned. I worry about the dust in my 
windowsills, behind my heater, and in the air ducts.
    Although I had a pre-existing asthma condition, my asthma worsened 
after 9/11. Subsequent tests at the Bellevue WTC Clinic showed that my 
lung capacity was only 43 percent of normal. During this time I also 
suffered from severe acid reflux. In September 2003 I developed Graves 
disease, a hyperthyroid condition for which I must take a pill every 
day for the rest of my life. I am now on 5 medications for my ailments. 
I am very fortunate to be getting thorough treatment at Bellevue from 
doctors specially trained in recognizing and treating WTC illnesses. 
However, my condition cannot be cured. Unless the Federal Government is 
willing to fund WTC-related health care for residents, I will one day 
cease to get help from Bellevue.
    The events of 9/11 have made me a victim of a crime. Now my health 
is suffering. I ask the government to support those of us who are 
suffering from this tragic event.
                                 ______
                                 
                                            March 20, 2007.

    Dear Representative: I'm Irene Horvath, and I have been living at 
this address for the past 31 years. This area is Zone 2, in line of the 
WTC, towards the East River.
    My health problems at first were breathing difficulties from the 
very beginning and for quite a few months I had this taste that I 
swallowed gasoline that created bronchial irritation and an upset 
stomach. Later, I became chemically sensitive to the most ordinary 
smells, odors, cleaning products, perfumes, etc. Exposure to these 
would cause coughing spells or shortness of breath. That burning jet 
fuel was overwhelming.
    I remember that during the cleanup, late at night, the flatbed 
trucks moved the metal remains of the WTC on Water St. I would be 
sitting on the sofa, and suddenly had difficulty catching my breath. I 
also had skin irritation, itchiness and some lesions. In the winter, I 
would have double/triple bronchitis, something I never had before.
    I continued to investigate my options for cure to all of these 
conditions, and a visit to a lung specialist and the following tests 
revealed that I have pulverized glass on my lungs. From time-to-time I 
have this sensation that I cannot catch my next breath. A more recent 
test indicates the beginning of emphysema in both layers of the lung 
traversing both sides of the lungs. Asbestos, at this stage, is too 
early to test for.
    I have edema in my limbs, and doctors are not sure if its lymph 
edema or some side effect of heavy metal or other never heard of 
particles that are causing this condition that keeps getting worst. A 
full panel of heavy-metal testing is not available to the general 
public, neither is detoxification.
    Just to show you how difficult some issues can be, here is an 
example. I went to Mt. Sinai to deal with breathing problems, and I was 
diagnosed with asthma, and was suggested to go on inhalants. Later, the 
glass infiltrates in my lungs discredited this diagnosis--asthma, I 
don't have.
    The long-lingering general-health hazard in this area have affected 
me physically, emotionally and financially. I make every effort to 
participate in improving my health, and I am most hopeful that some 
attention is given to this long-neglected problem.
    Thank you,
                                             Irene Horvath.
                                 ______
                                 
    Within 3 weeks of being caught in the toxic dust cloud, my husband, 
Rich Regis, succumbed to an autoimmune attack, which started with a 
skin rash and led to kidney failure, shock liver, bowel perforations, 
sepsis and life support by early November. The attack (the media 
labeled it an allergic reaction) ended after doctors opened him up 
twice, vacuumed him out, replaced his blood, dialyzed his kidneys and 
re-sectioned his intestines three times. Five years later they would 
have to replace both of his hips because of the powerful medicines used 
to cool the Henoch-Schoenlein they believe was triggered by the toxic 
cloud.
    His claim was denied despite letters from five doctors on his 
behalf. At the time, our advocate at the Red Cross (the late Peter 
Cann) told me there were at least 600 cases in the same position as my 
husband. The September 11 Victim Compensation Fund simply rejected all 
of them because they were not hospitalized within 72 hours.
    Connecting the dots is never easy. My husband could have been laid 
low by hydro-carbons, the antigens released by burning bodies or 
another poison but the culprit could have just as easily been the 
freshly fractured silica that made up most of the dust cloud.
    The health effects of silica, (which can take form of sand, 
concrete, glass, wall board, rock, asbestos, computer innards) are well 
documented by the government and industry. You can read all about it on 
the Web site of U.S. Silica Co. I have provided the links. http://
www.cdc.gov/niosh/02-129A.html, http://www.cdc.gov/niosh/02-129I.html# 
threesix.
    Health effects include autoimmune disease, renal failure, 
emphysema, asthma, and lung cancer, to name a few. The problem with 
silica is that it is inert. You cannot test for it. It only shows up in 
autopsies, like the glass found in one late responder's lungs.
    My husband is lucky. For now, he is back at work because he was 
properly diagnosed and got the right treatment. Who knows what lies 
ahead? It is time to recognize all the different ways the toxic 9/11 
cloud sickened people so that the entire medical community will be 
better prepared to treat victims of the next catastrophe.

                                  Janet Brandstrader Regis.
                                 ______
                                 
                                            March 16, 2007.

    Senator Hillary Clinton: I am a World Trade Center survivor from 
the 92nd floor of the south tower. I evacuated via the stairwell but 
left the stairwell at the 76th floor when the building was hit. Orange 
beams came out of the walls with the ceiling and debris coming down on 
us. That is when I feel I inhaled the most. I had smoke inhalation, and 
injuries to my right knee, left leg trauma lymphedema requiring 
supportive therapy.
    I have been diagnosed with a World Trade Center-induced bronchial 
asthma and chronic irritative bronchitis. Currently I am on three 
medications regularly, however my pulmonary function tests have become 
significantly worse in the last 2 years for which aggressive 
medications have been given for acute episodes.
    Prior to September 11, I was an avid hiker and distant swimmer 
taking pride in my health. Today I am living with the worries and 
concerns about a change in my pulmonary function test, and an unknown 
future based on what I inhaled.
    My life has changed with the fatigue of a chronic cough, difficulty 
breathing, and the diminished activity due to my chronic asthma/
bronchitis, and difficulty with my leg. This impacts the quality of my 
activities of daily living.
    Five-and-a-half years later, I still require long-term physical and 
mental support. I hope the U.S. Government does the right thing to 
continue monitoring the exposures and treating those effected by 
September 11, 2001.
            Sincerely,
                                       Kathleen A. Stanton.
                                 ______
                                 
    My name is Linda Belfer. I have been a resident of Gateway Plaza in 
Battery Park City, which is directly across the street from Ground 
Zero, for the past 24 years. Some of the windows in my apartment 
overlooked the World Trade Center and I was in the apartment on 9/11/
01.
    I witnessed the destruction of the buildings and was blasted in the 
face with debris as the buildings came down. My apartment was coated 
with inches of WTC dust as the windows were open on a beautiful day. I 
was evacuated from my apartment and did not return to live about 4 
months--although I visited the apartment a number of times in the 
aftermath of 9/11, I didn't return to live until January 2002. Since 
then I have had a number of health problems that I did not suffer 
before 9/11 including a kidney problem that put me in the hospital for 
3 months and innumerable upper respiratory infections (including 
bronchitis, sinuses, colds, shortness of breath) and multiple pulmonary 
emboli (blood clots).
    The Deutsche Bank Building still stands across the street from my 
home and my apartment is always full of dust. I am concerned that the 
dust is still contaminated.
    To date, residents have all but been ignored in any federally 
funded project, except for the WTC HR which does not provide medical 
monitoring or treatment. Our lives are as valuable as any others and we 
were induced to come back to an area that may, in fact, be continuing 
to put our lives in jeopardy.
                                 ______
                                 
                                            March 20, 2007.

    Senator Clinton, Senator Kennedy and Senator Enzi, my name is Linda 
and I am a parent of a former Stuyvesant High School Student (2001-
2005). Stuy HS is three blocks away from the former WTC site. Stuy is 
not a neighborhood school and students of Stuy came from five boroughs, 
some with a 2-hour commute each way. I live in Queens within 1 hour 
from Stuy. My daughter was a freshman at Stuy in September 2001. After 
both towers fell, she and all the students were evacuated in the WTC 
dust cloud.
    The Stuy students stayed 1 month at a HS in Brooklyn (Brooklyn 
Tech) and came back to Stuy when told the school was cleaned and safe 
and the outside air was safe also. The students and parents were also 
told the barge right outside the HS where the WTC debris and 
contaminants were unloaded posed no threat to the students' health.
    Two weeks after my daughter went back to Stuy, she suffered from 
severe asthma, and she was dependent on the bronchial dilator, steroids 
and nose spray to keep her going. She also had frequent headaches and 
bronchitis. Before 9/11, this same child usually had no respiratory 
problems and maybe one cold per year.
    Throughout the first year and a half, I noticed a pattern that her 
asthma was milder on Monday, Tuesday and got more severe as the week 
progressed, and was worst on Friday. She got much better on weekends 
and spring break.
    Some people suggested that her situation was due to stress of 
attending HS. My response is why her asthma didn't surface at Brooklyn 
Tech and happened 2 weeks after she went back to Stuy.
    Some people may say this is all anecdotal. But my daughter was not 
the only one! I looked at the survey sent out by the Parents' 
Association, of the 450 respondents to the survey sent to 3,000 
students, many of them indicated they had new onset of asthma, or their 
childhood asthma which was dormant for a long time had suddenly flared 
up; they had unexplained nose bleeding, headaches, chemical bronchitis, 
sinus problems and coughing.
    I lived through the scary period where my child told me she could 
not breathe. Five years later, rather than needing to be on medication 
24/7, my child's asthma situation is much better. She has an asthma 
attack only a few times a year and headaches twice a month. She walks 
around with her bronchial dilator, and she knows her systems are 
sensitized and she has limitations--things she should avoid exposure 
to.
    As a mother, I want to know what is the long-term effect of my 
child being exposed to the unsafe air while attending Stuy HS, 
especially when she was only 14 in 2001, and how might it affect her 
for the rest of her life?
    What can I do to keep her healthy? What can we do to keep her and 
many others students like her healthy? All those students at Stuy, the 
Borough of Manhattan Community College, and other schools that were 
affected.
    We need a treatment program from doctors with the right expertise 
and we need a long-term monitoring program of kids who were exposed. We 
need to help these kids!
                                                   Linda L.
                                 ______
                                 
    To Whom It May Concern: This letter is intended to briefly recount 
our experience, as residents of the Financial District in Lower 
Manhattan, of the attacks and aftermath of 9/11.
    My wife, Elisa, and I have lived in our home at 20 Beaver Street 
for 27 years. We were at the World Trade Center's North Tower at the 
initial moment of attack on September 11, 2001. I was waiting outside 
with our dogs for Elisa to return from shopping in the mall when the 
loud approach of an aircraft caused me to look skyward, expecting to 
see a plane fly low overhead. Nothing prepared me for the shock of 
seeing the aircraft plunge into the building instead. I couldn't know 
then that this was the beginning of the most terrifying period of our 
lives.
    We stayed, sheltering, in the alcove until the second plane struck 
and it became obvious we couldn't stay there any longer; we had to 
move. We took the most circuitous route possible to get back home, 
taking us east and then south through the crowds, out of fear of the 
towers toppling over. By the time we reached our home both towers had 
fallen and our apartment was filled with the same dust we were covered 
in.
    By some miracle, we still had water and power in our place, and the 
next weeks were spent cleaning our apartment, trying to maintain 
contact with friends in the area, and attempting to learn from the few 
resources available exactly what was going on. As all local radio and 
television transmission had ended with the Tower's collapse, and all 
distribution of newspapers had ended, we had, essentially, been 
isolated from the outside world. What little news filtered in on faint 
radio signals told us that the air was safe to breath, that the debris 
from the towers posed no threat.
    This condition of suspended life continued for weeks and worsened, 
as the fires beneath the Trade Center burned on and on, spewing out a 
toxic, choking cloud the likes of which, we now know, is unprecedented. 
This cloud flowed directly over our neighborhood for it's entire 
duration. During this time, we attempted to carry on our normal lives, 
walking our dogs and so forth, and so we exposed ourselves to the 
toxins constantly.
    As the weeks of burning turned into months, my wife began 
exhibiting what was soon diagnosed as World Trade Center cough, which 
she still has. She also finds it impossible to regulate her body 
temperature, chilling and burning alternately and unpredictably; a 
common symptom of chemical poisoning. Additionally, she has floating 
shooting pains and dizziness. I am rather less affected, but also 
experience shooting pains and dizziness. Neither of us has ever smoked.
    We were among many who were not evacuated (no attempt was made), 
and who did not have an alternate residence to go to. We were here for 
the entire horrible experience and were told there was nothing to worry 
about.
    I am a musician and my wife, an artist, and as such we did not have 
(and do not have) health insurance. Affordable health insurance is 
simply not available. Likewise, the vast majority of those who stayed 
in Lower Manhattan following the attack, are musicians and artists, the 
area's oldest residents, having lived here decades before Battery Park 
City even existed. We are, generally speaking, without access to health 
care.
    Local hospitals have balked at performing any meaningful tests of 
our condition, refusing to test for metals and other toxins. Our 
landlord, like many others, never cleaned our building.
    We respectfully urge that legislation be passed to address the 
health issues of ALL those affected by the events of 9/11, First-
Responders and residents. This is absolutely necessary in light of the 
fact that all relevant information dispensed by the government (at all 
levels) described a ``safe'' environment, which encouraged people to 
stay, immersed in a toxic stew of unprecedented proportions.
            Regards,
                                              Michael Dawe.
                                 ______
                                 
    Dear Senator Clinton, Senator Kennedy, Senator Enzi, and the 
members of the HELP Committee: 9/11 was very devastating. Everyone 
assured us that we were ok. We could live downtown. In fact, where I 
live, four blocks east of the WTC, no one came to inform us that we had 
to get out. That was left to the people living west of Broadway. No one 
told us how to clean our dusty apartments until 2 weeks later. 
Everything was after the fact.
    My son, who was five at the time developed a hacking cough at night 
before going to bed. Two months later we entered the Emergency Room 
where I was informed that he had respiratory distress. I inquired if it 
was asthma but was informed that it was not because he had never been 
diagnosed with asthma. As the months went by, these episodes did not 
stop. I went to a pulmonary specialist who diagnosed him with asthma. 
She stated she could not relate it to 9/11 because there was no 
sufficient proof.
    Proof ! What more proof than to know that your child was not 
asthmatic until those buildings came down? What more proof than to say: 
``I lived down there and no one informed us how to clean; no one 
evacuated the people living in Southbridge Towers; that he developed 
one of these severe asthma attacks walking to school (on the day the 
school returned to their original site), and the site continued to 
burn; that none of my family smokes!'' Proof is what the government 
wants when they know they committed a mistake.
    All I want is help for them in the future. We do not know what is 
going to happen to our children. We already know the fireman and first 
responders are becoming ill. I thank God that although I was there at 
the site the following morning for just a couple of hours, I did not 
get ill. But I worry about the future. Right now all the studies 
conducted are for adults, everyone seems to be abandoning our children. 
I worry that one day we will wake up and we will have another Chernobyl 
Case.
            Sincerely,
                                           Alicia Schwartz.
                                 ______
                                 
                                            March 19, 2007.

    To Whom It May Concern: I am a resident of downtown New York, 
living only several hundred feet (approx. 700) from The World Trade 
Center. I was at home during the attack on 9/11/01 and did not escape 
(along with several other residents) until after the collapse of the 
South Tower. We were caught in the dust clouds for a considerable 
amount of time, our building was saturated with dust and debris inside 
and out, and we were continually exposed to the toxic atmosphere on our 
frequent trips home to retrieve valuables, etc. In my case, I also 
worked only a block away from the ``pile'' and was also consistently 
exposed to smoke and fumes from the fires that burned for months. We 
were finally allowed to resume living in our homes several months later 
and found our building had not been adequately cleaned. In our case 
specifically, our cleanup consisted of just one man, the 
superintendent, shoveling piles of dust and debris. No one involved 
with any cleaning of our building (including the various ``cleaning 
specialists'' privately hired by tenants) had any ability to properly 
and safely clean and decontaminate the toxins proven to exist after 9/
11.
    We remain convinced we are not the only building improperly cleaned 
and that there are still many pockets of toxic dust in the surrounding 
buildings that we continue to be exposed to. I currently suffer from 
the following: chronic headaches, persistent sinusitis, upper 
respiratory irritation/bronchitis, frequent nosebleeds and acid reflux. 
In the recent past, I have also had severe dizzy spells, facial/eye 
twitches, and unexplained rashes. I have NEVER had any of these 
symptoms BEFORE 9/11 and am currently on the waiting list for the 
Bellevue Hospital WTC clinic. There are very few health resources for 
residents and without Federal help we will continue to suffer ill and 
worsening health. I believe the government needs to stand up for its 
citizens and protect them from further harm as victims of a crime.
            Sincerely,
                                              Nancy Keegan.
                                 ______
                                 
    Hello, my name is Richard Pecorella. I lost my fiancee, Karen 
Juday, at the WTC 101st floor Cantor Fitzgerald on 9/11.
    From that day forward I was at Ground Zero approximately 3 weeks 
including October 28, 2001 which was the first large memorial service 
given by the city. I was at the site numerous times as it was still 
burning. The stench was horrendous. I was there on my own the first 2 
days showing missing person pictures to anyone who would look. Then the 
second week of 9/18 Mayor Giuliani was bringing family members by boat 
from the pier on 58th St. to show us the devastation. We walked through 
the ruins while it was still burning all with no masks or protection. 
We were given teddy bears and flowers to lay down. I would walk as 
close as I could get everyday hoping for a miracle. Since then I 
developed a cough. The following year 2002 I came down with severe 
bronchitis. I had several bouts throughout 2002 and 2003. Then in 2005 
I developed a severe case of pneumonia, all the time never connecting 
it to Ground Zero. The end of 2006 one night at 2 a.m. I couldn't catch 
my breath. I was gasping while I called 911 and was taken to the 
hospital. I was treated and given a battery of tests when it was 
determined that I had COPD. I now am on Oxygen 24-hours a day and my 
life has once again changed dramatically. I refuse to give up working 
so I have bought equipment that allows me the freedom to move about, 
however my insurance would not pay for it. I truly believe that my 
exposure to Ground Zero without the proper protection is the reason for 
my illness. I am sorry to say that many, many more people will be 
getting sick down the road. Just the memorial service on October 28, 
2001 there were over 10,000 men, women, and children! We were all put 
at risk that day and we were all lied to! There cannot be a timeframe 
set on what has to be done. This is only the beginning of the tragedy. 
Please get the help that is needed. We have paid enough with the losses 
of lives.
            Angry and afraid for my children,
                                      Richard A. Pecorella,
                           Fiancee/Domestic Partner of Karen Juday,
                  Murdered 911, WTC 101st Floor, Cantor Fitzgerald.
                                 ______
                                 
    Dear Senators: My name is Rosalie Joseph and I live one block west 
of the World Trade Center site. I was in the dust cloud on September 
11, and moved back into my apartment 5 months after being displaced. 
Even after moving back there were many reservoirs of toxic dust from 9/
11 that permeated my neighborhood and my home. To this day I am not 
certain of the degree to which my apartment and the rest of my building 
have been cleaned. I worry about the dust in my windowsills, behind my 
heater, and in the air ducts.
    As residents we have been the forgotten people in this nightmare 
and we need our government to deal with the health issues we may suffer 
after being exposed to 9/11 toxins. We are asking for funding, for 
research, and long-term monitoring and treatment programs where 
required. We want this to be co-coordinated by the current centers of 
excellence that is Bellevue and Mount Sinai hospitals. Since the Mayor 
at the time insisted that buildings in my community re-open as soon as 
possible, even before they were deemed safe, I and many of my neighbors 
and business owners have had health problems we did not have before.
    The events of 9/11 have made me a victim of a crime. Now my health 
is suffering. I ask the government to support those of us who are 
suffering from this tragic event.
            Yours faithfully,
                                            Rosalie Joseph.
                                 ______
                                 
    I live at Independence Plaza North, about 6 blocks north of WTC and 
on Harrison Street, where the barges containing the ruble from WTC were 
loaded. For more than 6 months the trucks hauling the debris from WTC 
came, uncovered up West Street and turned around after dumping their 
cargo to go back to the site. This went on 24-hours a day for months on 
end. The dust spewing from the trucks permeated the air around our 
neighborhood. Not one soul living here escaped breathing this deadly 
airborne cocktail. Indeed many of us would not have returned had not 
the EPA declared the air safe. My family and I fled to our friends in 
Virginia and would have stayed there had we not been assured by Whitman 
that the air was safe to breathe. Despite NYC's efforts to wash the 
streets several times per day, this dust permeated our homes, autos, 
walkways and almost every facet of our lives.
    My mother and father-in-law live in Southbridge Towers on Fulton 
Street in Manhattan. They are or were four or five blocks due west of 
the WTC site. The prevailing winds on 9/11 directed everything straight 
into there development. We begged them to leave with us but as they 
were in their late seventies at the time, they felt that the trip would 
be too tiring for them. Within 18 months of 9/11 my father-in-law was 
on oxygen 24-hours per day, having developed COPD. By 9/11/05 he was 
dead. It is hard to believe that to just be coincidence as he was fine 
just before 
9/11/01. Again, the problem was exacerbated by this government's 
assurances that the air was safe. By the time we were told the truth we 
had already been over exposed and future problems from the WTC site 
eliminated.
    As an observation, I would like to include one more note. In the 2 
days before my wife, children and I fled the city, I made numerous 
trips to my in-laws, stocking them up with radios, a cell phone, a 
portable TV, gallons of bottled water, food, a dry ice cooler and 
batteries. The trip was made by foot across the island on Chambers 
Street to City Hall and then down Beekman Street to Gold Street. On 
this trip for those 2 days I observed police and National Guard Troops 
on every single corner, most of whom had no inhalant protection and no 
eye wear protection. This was during the time that the WTC site was 
still burning profusely and spewing huge amounts of smoke and dust. The 
work glasses that I was wearing were plastic and just from rubbing the 
dust out of the way to see, the lenses were scratched beyond usefulness 
before the 2 days was over. The masks that I wore were worthless after 
one round trip as they became clogged with debris. With the few 
exceptions of the kids who had and used gas masks, every one of those 
young people were exposed to death. Maybe not immediately but if 
asbestos kills, those kids will be dead because of it.
                                           Steven Vorillas.
                                 ______
                                 
    Dear Senator Clinton: I would like to add my name to the many 
people who live and work in Lower Manhattan that now suffer from 
different illnesses since 9/11 and more specifically, from bronchial 
asthma.
    I work at 74 Warren Street at the Church Street School for Music 
and Art, four blocks from Ground Zero. Before 9/11, I did not have 
asthma, nor was it in my family. Now, with every cold, every sinus 
infection, every cold day, I suffer with breathing problems. This is my 
greatest fear: feeling like I can't get enough breath, feeling like I 
am suffocating.
    In addition, my son now suffers from allergies and asthma attacks 
that send him to the doctor's office for treatment with a nebulizer, 
and necessitate that he carry albuterol around in his backpack for 
attacks that catch him off guard.
    It pains me to see that our government is choosing to act as if 
this is not happening, and that Ground Zero workers, volunteers, and 
people that stayed in the area to help restore the neighborhood are 
continuing to suffer without any acknowledgement of their health 
impacts.
    There are many of us who feel helpless and are suffering without 
knowing that there are ears to hear us. I, for one, will let people I 
know who suffer with health effects that they should write to you.
    Thank you for the opportunity to have my voice be heard.

                                              Susan Duncan.
                                 ______
                                 
                Prepared Statement of Thomas S. Goodkind
The Long-Term Health Impacts from September 11: A Review of Treatment, 
                   Diagnosis, and Monitoring Efforts
       introduction--9/11--there was no government guidance for 
                           effected residents
    Thank you to Chairman Kennedy, Ranking Member Enzi, and the 
committee members for this opportunity to participate in today's 
hearings on the Health, Education, Labor, and Pensions Committee's 
meeting on the long-term health impacts from September 11.
    I greatly support your efforts to review the health impacts of 9/
11, especially on those who live in the area. As our government, I ask 
you for guidance and leadership in helping those of us who lived 
through 9/11 and came back to support our neighborhood.
    My family and I have lived blocks from the World Trade Center Site 
since 1989. At the time of the attack, I was at work at 26 Broadway, 
approximately five blocks south of the World Trade Center, my two 
daughters were at PS/IS 89, approximately two blocks north of the 
Center. My wife, after dropping my children off at the school was on 
her way to the subway in the World Trade Center.
    When the buildings collapsed, the cloud of debris surrounded all of 
us. The debris entered our living space through our open windows at 375 
South End Avenue, my work space at 26 Broadway, and my children's 
school at 201 Warren Street. We breathed in the debris as it clung to 
our bodies and clothing as we ran for our lives out of the area that 
day.
    And the ensuing fire, filling our neighborhood with the awful smoke 
from the Site for months, filled our home, my workplace and our lungs 
for many months to come.
    We needed guidance. In Florida, when there is a hurricane, the 
government guides its citizens to shelter. There was no such guidance 
on 9/11 for those thousands of displaced residents. After 9/11, my 
family and I lived wherever we could. In 1 week, we moved five times. 
There was no government guidance as to where we might find shelter, as 
the NYC hotels were all booked. After a month of traveling from place 
to place, the four of us finally settled into a studio apartment a few 
miles from our home due to the good will of a friend who was out of 
town. Our neighborhood was shattered. There is a difficult story for 
every one of my neighbors. Our public schools would not be available 
again until mid-winter--they were being used by our government to 
manage WTC cleanup. We had to find time to bring our children to other 
schools while trying to keep our focus on our jobs.
    We were four of the many thousands of residents displaced on 9/11. 
My question was always: ``Where do we live?'' Without any government 
recognition of the displaced residents, we were on our own. We were not 
asking for money: we were asking for guidance.
    I returned to our home daily to try to collect needed belongings 
for my family to live. Military blocks made this nearly impossible as 
we--displaced residents--were often told that our journey home was not 
allowed because streets nearby were restricted to ``family'' members 
only. These were the families of those who were searching for loved 
ones. With many of our children in strollers, we were turned back to 
walk the many miles home to wherever we were staying. There was no 
public transportation to and from our apartments--and there were no 
cars allowed for miles.
    There was one guideline: we were told how to damp clean our 
apartments. With this assistance, a week after 9/11, I cleaned my 
apartment of 9/11 debris, sweeping the dust into a pile in my apartment 
(my apartment was filled with 1 inch of dust as the windows were open) 
and damp cloth cleaning. We had no electricity, no running water, and 
no phone lines. Then the owners of our apartment building told us that 
I could sign up for a cleaning service, and I did. This required 
keeping my front door unlocked--something I was cautious of, as many of 
my neighbors had had robberies where all of their valuables were 
stolen--even their children's toys--during the first few weeks after 9/
11. I don't know whether or not these cleaning services were conducted 
with any kind of professional guidelines. All debris was left in the 
hallways, which smelled. The entire neighborhood smelled for months--a 
rotten egg type of smell.
    In late November, our family was told by the owners of our rental 
apartment at 375 South End, that we could return, and we did. The air 
was still foul. One family visiting our apartment from Connecticut 
immediately turned back to Connecticut when their son experienced his 
first asthma attack in years when entering our area. Our skies were 
often grey with smoke. My then 5-year-old daughter called me at work to 
tell me that it was snowing. I told her that it wasn't snow, but ashes 
falling, and that she should only play inside. By mid-January, the 
schools reopened, which was about the time our phones came back as 
well. There was a school Web site parents could view which monitored 
testing of the school's air. It appeared to indicate nothing irregular.
    My family and I returned home in late November. I was placed on our 
local Community Board 1 by our Manhattan Borough President in 2003.
                     our current health--march 2006
    Similarly, there appears to be no guidance from our government over 
the continued health of our effected 9/11 residential community.
    I am 53-years old, eat well, exercise, and never experienced any 
feelings of ill health in the years before 9/11 when I lived near the 
World Trade Center.
    Since 9/11, in the summer of 2004, and again in the summer of 2005, 
I contracted double pneumonia. In late September 2005, my heart stopped 
while I was on a subway home from uptown, and I was given a pacemaker. 
And last month, I was informed I have a nodule on my vocal cords that 
will restrict my speech. I am a Grammy nominated singer, and was hoping 
to continue my career upon my retirement. My doctor at Cornell 
University feels that the pneumonia and the vocal cord ailment could be 
9/1l-related, but not definitively, as there have been no 9/11 studies 
he can refer to.
    In 2004, as the anniversary of the attack was approaching, I found 
myself lying in bed with this case of double pneumonia. The diagnosis 
had surprised my doctor because I'd never had serious chest ailments 
before. ``Look,'' I said to my wife as I turned on the television in 
our Battery Park City apartment. ``It's Christie Whitman at the 
Republican Convention!'' Was this a cough-medicine induced 
hallucination or was it indeed the former head of the Environmental 
Protection Agency, who had assured us in the days following 9/11 that 
the smoke-filled air of Lower Manhattan was safe to breathe? We 
wondered whether it was really OK for our young children as they slept 
at night across from the fires that burned for months at Ground Zero. 
Were the thick noxious clouds nothing to worry about? My wife assured 
me that Whitman was not a vision brought on by my reduced lung 
capacity.
    I believe that, if it weren't for 9/11, I would be in good health. 
I am not in good health. I have not been able to walk up a set of 
stairs without feeling winded. I can no longer participate in sports 
with my children.
    My wife constantly complains of acid reflux and has also not been 
well since 
9/11.
    My daughters appear well but at least my younger daughter, still 
surrounded by children living in our area is noticing health problems.
    In October 2005, my younger daughter asked me for an inhaler.
    ``All the other girls have them,'' she commented. Alarmed, I took 
the register book of PS89 4th graders in her class and asked her to 
circle the students in her class of 24 children that used inhalers--
there were 8 of 24 or \1/3\. I asked my daughter, ``prior to 9/11, did 
any children use inhalers?'' She said that only one did. To my 
knowledge, no one is even monitoring our children.
    The ventilation system in our apartments have never been cleaned of 
9/11 debris. Our building was covered in 9/11 debris, and much of it 
obviously wound up in the central ventilation system. Even though our 
apartments might be free of debris, we could be re-contaminated through 
our vents which tend to back up and blow air out into our apartments 
and into our hallways.
    When a visiting doctor from an east side health clinic came to our 
Community Board to discuss 9/11 health effects, she asked if we had 
been experiencing anything. I was shocked when I found that many 
neighbors, my own age, had also had double pneumonia. Many of us on the 
Board appear to have illnesses that could be 9/11-related.
    No one is monitoring.
    When I ask my own doctors, they sometimes comment that they have 
recently seen many patients from downtown living near the World Trade 
Center Site with illnesses.
    No one appears to be collecting this data.
                               conclusion
    Although I've read about a small 9/11 clinic near Midtown, my 
family and I see our own doctors. This is true of nearly everyone I 
know who lives near the World Trade Center Site. It is my understanding 
that this clinic is for those who cannot afford doctors, and 
fortunately, my wife and I both work and can afford to see our own 
doctors. We would not want to take advantage of something set up for 
those in need.
    Most all of the residents living around the World Trade Center Site 
are working and have the ability to pay, and prefer their own doctors.
    We are fortunate, but are in need of your assistance.
    We need you, our leaders to wrap your hands around the 9/11 
community and offer guidance to those of us who are sick due to the 
debris and fire. We need your guidance.
    It could start by simply acknowledging that there were thousands of 
residents who were displaced who came back to rebuild.
    We may be sick, but we are solid citizens, who believe in our 
leaders, and are trying our best to remain in good health.
                                 ______
                                 
                                            March 19, 2007.

Senate Committee on Health, Education, Labor, and Pensions,
Washington, DC.

Re:  The Long-Term Health Impacts from September 11: A Review of 
Treatment, Diagnosis, and Monitoring Efforts Hearing, March 21, 2007.
                                synopsis
    Honorable Senators: I am a witness to the September 11, 2001 
attacks on the World Trade Center in New York City. At the time, I was 
a resident of Minneapolis, MN and had arrived in New York on September 
10 for a business meeting scheduled for the 11th and 12th. I became 
stranded for several days in the city when the airlines were grounded. 
After returning home, I continued to suffer from the mental effects of 
my experience, eventually losing my job and my marriage due in large 
part to the effects of the trauma. Because no experienced professionals 
were available locally, I reached out to New York city-based 
organizations for assistance and found I was ineligible due to 
location. I eventually moved to New York City to obtain assistance. I 
currently am receiving free and low-cost assistance and have recovered 
enough to return to work.
    I am requesting that the Senate Committee consider that thousands 
of people from across the country were visitors to New York City that 
day and became caught up in the September 11 attacks as I was. Many 
others have since moved out of the area for various reasons. However, 
these people, who suffer from the mental and physical effects of that 
day as much as New Yorkers did and still do, have little or no access 
to professionals experienced in treating the symptoms of this specific 
event. I believe only federally funded awareness and treatment programs 
can reach across State and local boundaries to assure that people, 
regardless of geography, have access to the care they need to fully 
recover from the trauma of September 11, 2001.
                             detailed story
    On the morning of the 11th, around 9 a.m., just as my meeting was 
about to begin, someone came into our conference room to tell us a 
plane had flown into the World Trade Center. Although the office I was 
in was in Midtown Manhattan, our conference room had a clear view of 
the north tower, the first tower hit. We watched for about a half hour, 
and not realizing that the other tower had also been hit, resumed our 
meeting.
    My presentation was first on the agenda, and I went through the 
entire set of slides, all the time watching the fire grow larger, the 
helicopters unable because of the flames and smoke to land on the tower 
roof to remove people I knew were trapped at the top of the building, 
knowing also that people were jumping although I was too far to see 
that clearly. By the end of the presentation, the office was in chaos 
as word spread that both towers were hit along with the Pentagon, and 
that one tower had already collapsed. I was watching through the 
conference room window when the second tower finally went down.
    By noon, co-workers who had been in or near the towers or in our 
offices in the World Financial Center across the street from the World 
Trade Center had begun to arrive in our mid-town office. One man told 
of how he ran over dead bodies as the first tower was going down, 
feeling the heat of the fire on the back of his neck, knowing the 
police and firefighters who were urging him to run were almost 
certainly crushed in the falling tower. We were told we could leave for 
the day since we were on a high floor or we could stay if we weren't 
sure about the potential for toxic air or radiation or bombs outside. 
Outside was an endless line of stunned dust-covered workers making 
their way up Broadway, masks on their faces and sometimes bottles of 
water in their hands.
    Our meeting resumed the next day, nominally, at 9 a.m. Most of the 
attendees were from out of town so we spent most of the time 
frantically chasing down rumors of local buses and trains running, 
rides with cousins of friends of friends, trying to get onto the jammed 
Web sites for information about Amtrak and Greyhound, trying to find a 
way out of Manhattan. I was lucky; I rounded up an Amtrak ticket from a 
colleague for the next day. That night I fell asleep in my hotel while 
the smell of burning jet fuel, pulverized concrete, and burning bodies 
permeated the room.
    I arrived back in Minneapolis near midnight on September 14. While 
I was grateful to be home, I immediately felt isolated. While friends, 
neighbors and co-workers were understandably affected, their experience 
was indirect and they appeared to almost be afraid to even talk with 
me. The following Monday, September 17, I was back at my desk in the 
Minneapolis office attempting to work but mostly sitting and staring at 
the computer screen, terrified to even be in an office setting again. 
It was all I could do, day after day, to walk into the office. I 
couldn't concentrate or think clearly. Although we lost one colleague 
in the first tower and our offices in the World Financial Center were 
heavily damaged, my company did not do anything to assist those outside 
the New York City area who were also affected. I spoke to my pastor and 
a therapist who, not having any experience in this type of trauma, 
could do little to help me. They appeared uncomfortable even hearing my 
story.
    I began trying to get information about services being offered in 
New York for people affected by the attacks but most initially focused 
on the families of those who were killed. Gradually, as my mental state 
did not improve, my job performance and marriage began to suffer. A 
year after the attacks, I was put on probation at work for lack of 
productivity. Again, I was lucky because a number of people had 
recommended that I be fired. No one had spoken to me about my situation 
the entire time.
    I kept my job and kept struggling to find support. I got in touch 
with organizations but the answer was always the same: I did not 
qualify for assistance either on the basis of being too far from the 
trade center at the time of the attacks or because I was currently out-
of-state. I e-mailed with counselors from Project Liberty for a while 
which was helpful but eventually they stopped responding. When I asked, 
I was told that they preferred face-to-face contact, and because I 
could not be there in person, they could not help me. By the summer of 
2003, I filed for divorce and lost my job within weeks of each other.
    With most of my ongoing counseling now focused on the immediate 
issues of the divorce and job loss, I began seeing another therapist to 
work on September 11 issues. Unfortunately, she had no experience with 
this sort of trauma either. I even called the VA hospital, figuring 
that September 11 was more in line with combat situations and although 
they were understanding, they could not see me or recommend anyone in 
the area who had the appropriate experience. I continued to call New 
York-based organizations which again turned me down. Several of them 
accused me of purposefully leaving New York after the attacks and 
seemed not to comprehend that thousands of people like me had just 
happened to be visiting the city that day and had gotten caught up in 
it. Several said that they couldn't accommodate me because their 
therapists were uncomfortable with phone or e-mail contact, or because 
they weren't licensed to practice outside of a specific State and 
talking with me would be considered out-of-State.
    I did eventually find peer support through the World Trade Center 
Survivors' Network and Voices of September 11. Both were enormously 
helpful but I was still struggling to focus enough to look for a job, 
let alone interview and land one. In the meantime, I was paying for my 
health insurance out of pocket, as well as the weekly visits with both 
of my therapists.
    Finally in early 2005, it occurred to me that it might be better 
for me in the long run to simply move to New York to get the 
specialized treatment I needed. I made the move in August 2005 and now 
live in New York City. I am now able to get free and low-cost 
treatments through specially funded September 11 programs, which have 
helped enormously. After 2\1/2\ years of unemployment, I am back at 
work, in a job comparable to the one I had on September 11, 2001. Just 
last week, I celebrated my first anniversary with this company.
    In the long run, I was lucky. I had enough savings to weather long-
term unemployment plus the hardship of refinancing the house and paying 
the mortgage and utilities on my own after my husband moved out. 
Without a job or family to consider, I was able to move across the 
country to seek the assistance I needed to recover. Because I had a 
house that had appreciated in value, I was able to finance the move to 
a city with a higher cost-of-living without having a job in place 
because I could live off the proceeds of the sale. Most people are not 
in this position.
    I would urge the Senate committee to consider that New York City 
attracts people from all over the country (and world) on a daily basis 
for business and pleasure. On a day, such as September 11, 2001, 
thousands of non-residents were in the city, indeed, 3 World Trade 
Center, one of the buildings destroyed was a hotel. Yet once these 
people disperse back to their homes, there are little or no services 
available for them locally and no effort that I am aware of to make 
services currently based in the New York City area available across the 
country. Many people, like me, have suffered for years without proper 
medical and mental health treatment, simply because they are left to 
rely on local professionals who do not have the experience or training 
to treat them properly. I would ask that the committee consider that 
funding be extended not only time-wise but across geographies. Now, as 
much of the funding is winding down for programs, there are still 
people all over the country who have not received any treatment at all 
and perhaps are not even aware that symptoms they have could be related 
to their experience on September 11. In my former company alone, there 
were two others from the Minneapolis office who were in New York City 
that day, one of whom escaped from the towers. But I know from first-
hand experience that both of them will encounter the same problems I 
ran into if they decide now or in the future to seek treatment. I am 
aware of others in other States who similarly were visitors in New York 
City on that day, or have since moved to other States.
    I believe only federally funded awareness and treatment programs 
have the ability to reach across the boundaries of local and State 
geography to reach all those affected by the attacks of September 11, 
2001.
    Thank you for your time and attention to this important issue.
            Sincerely,
                                               Lisa Fenger,
                            Member of the Steering Committee of the
                             World Trade Center Survivors' Network.

      (Witness to the September 11, 2001 attacks on the World Trade 
Center)
                                 ______
                                 
    Dear Senator Clinton and other members of the HELP Committee: 
Fortunately for me, at this time I don't have major, documented medical 
illnesses related to WTC contamination. Not yet, anyway. Many others 
haven't been so lucky. Oh, I have serious coughing spells at times, 
severe nasal congestion, etc. (none of which I ever experienced before 
9/11), but so far that's been manageable. It's the future I worry 
about, having been thoroughly inundated by that cloud of toxic dust 
that swept through Lower Manhattan on September 11. That, and having 
lived in the closest residential structure to Ground Zero, has made me 
concerned and apprehensive ever since.
    I worked for an entire year to clean out my apartment of the dust 
and debris that visited us through the broken windows following the 
towers' collapse, trying to make that place habitable again, until EPA 
finally came in to help clean, 1 year to the day after 9/11--and that, 
largely due to the lobbying efforts of myself and many others, through 
the aegis of 9/11 Environmental Action. I personally removed and 
discarded over 2.5 tons of contaminated (and treasured) personal 
property there. This is documented in a small book I wrote about my 
experiences of it all, which includes photographs of what my home 
looked like on September 15, 2001--and what it looked like a year 
later, in September 2002.
    Because I do not have any health insurance (as I cannot afford it, 
being either self-employed or essentially unemployed since then), I 
have not been able to pursue the diagnostics needed to evaluate what my 
risk-factors may be, nor even to get treatment for the symptoms I have 
experienced: the chronic periods of coughing and congestion, sinusitis, 
nasal congestion, obviously reduced lung capacity, etc., and PTSD 
(which I have been clinically diagnosed with). But this is something 
extremely important to consider in regard to future appropriations for 
WTC health clinics in New York City, because these effects for so many 
will just escalate over the years. Of that I have no doubt. To a large 
degree, for myself, I just don't want to know.
    But for reasons of being unable to afford medical care, a great 
number of people will pursue a similar course of denial in their 
medical symptoms too--which will just exacerbate the problems when they 
finally are diagnosed. They (we), the residents downtown, are among the 
most vulnerable population, and if the Federal Government cannot 
provide funding of clinics for first responders, residents, office 
workers, and students exposed, we may get ill and even die from that 
exposure, for lack of adequate medical care, as so many others already 
are/have, even in a relatively short timeframe.
    Yet I can assure you that we will ``not go gentle into that good 
night,'' as more and more of us succumb to WTC-related medical 
conditions, because we are not people who will easily accept being 
ignored by Washington. This attack was not something we asked for. And 
it is not solely the responsibility of New York City to provide medical 
oversight and treatment for this, either. This was an attack upon 
America, not an attack on New York City only, nor even an attack on the 
World Trade Center, or Wall Street, or merely the residents downtown. 
Yet we are all suffering as a result. That needs to be addressed and 
responded to by the Federal Government. Only you have the resources 
available to adequately fund the medical attention that so many of us 
need--and will require, in the future.
    I must say that in regard to proposals floated by the Bush 
administration recently to gut funding for Centers of Excellence for 
treatment, to eliminate or reduce funding for the collaboration of 
sound medical research, collection of data, and intervention--in lieu 
of paying some private physicians to treat the affected population, 
this would be a horrendous mistake, and seems more a mendacious, 
disingenuous attempt at ``sleight-of-hand'' than anything else--to push 
off victims of this debacle onto their own increased co-payments for 
coverage--and should not even be considered.
    At a time when I was incapacitated by coughing fits and illness 
(probably due to the ingestion of potentially deadly spores while 
cleaning up black mold in my apartment in the spring of 2002), I 
contacted the Mount Sinai Hospital group for some treatment 
possibilities, only to learn that I was not eligible for that. Please 
don't leave the recent efforts of the Bellevue Clinic here to wither. 
Funding for such facilities should be increased now, not cut off. They 
are doing an important job, and one that is sorely needed now. The work 
that is ongoing there is critical to address this problem, but has been 
largely, if not exclusively, financed only through the resources of the 
city of New York--and this needs to change to an infusion of funding 
for it on a Federal level. These kinds of community resources can make 
a world of difference to people like myself, and/or those who may find 
themselves in a similar situation before long.
    I hope for the best in my case, and am reluctant to ``project'' 
anything. I do not want to become ill, nor appear before your 
committees some months from now, carting an oxygen canister, just to be 
able to speak to you. I implore you to do the right thing now: Provide 
adequate funding for the people who have already suffered enough from 
this, as well as those who will likely experience these effects in the 
future from that attack on our Nation on September 11. I know from 
personal experience that far too many people are in my situation.
            Sincerely,
                                              Michael Cook.
                                 ______
                                 
                     Mt. Sinai Supplement Materials
Hon. Edward M. Kennedy,
Chairman,
U.S. Senate HELP Committee.
    Dear Senator Kennedy and members of the HELP Committee: Please 
allow me to submit on behalf of the Mount Sinai--World Trade Center 
Medical Monitoring and Treatment Center--the following additional 
information for the record, to be joined with information already 
submitted by Dr. Robin Herbert for your Wednesday, March 21, 2007 
committee hearing in Washington, DC. focusing on the ``Long-Term Health 
Impacts from September 11.''
    The following statistics supplement information provided as to the 
ongoing resource needs of both our federally funded WTC Medical 
Programs and WTC responders.
    The Mount Sinai WTC Program's treatment arm currently documents a 
wait of up to 13 weeks for new patients coming in for their first 
treatment appointments and 15.8 weeks for patients returning for follow 
up visits. While the wait for new patients was recently shortened from 
what it had been owing to recent program staff additions (enabled by 
recent Federal funding, supporting treatment services for just the 
balance of this fiscal year), there remains a considerable wait for 
follow up appointments, which are also critical for patient care. Most 
patients require follow up visits every 45 to 60 days, which places 
great demands on resources.
    Another important issue is that treatment program resources have 
always been carefully planned and allotted, based more on available 
resources than need, given funding uncertainty and the time-limited 
nature of our funding to date. As a result, we have not placed as great 
an emphasis on outreach, making program availability more well known, 
as we would like. It is certainly clear that there is far greater need 
for treatment, based on scientific findings and the number of medical 
monitoring program participants, than all our treatment efforts for 
responders have been able to accommodate to date.
    Finally, there is an approximate 90-day wait for new patients to 
enter the monitoring program for their first medical screening 
examination, as at least 400 new responders enroll each month.
            Sincerely,
                                Jacqueline Moline, MD, MSC,
                   Director and Principal Investigator, Mount Sinai
      WTC Medical Monitoring and Treatment Program Clinical Center.
                                 ______
                                 
     Response to Questions of Senators Kennedy, Enzi, and Clinton 
                         by Robin Herbert, M.D.
                      questions of senator kennedy
    Question 1. The Mt. Sinai Consortium and its clinics collect vital 
information about the number of patients seen, their conditions, 
treatment, and other information. Please provide the committee with the 
aggregated data that you have received.
    Answer 1. The World Trade Center (WTC) Medical Monitoring and 
Treatment Program (MMTP) that this Congress has so strongly supported 
is made up of two principal components:

    1. The WTC Clinical Centers, which are funded to provide 
comprehensive medical monitoring examinations for WTC responders as 
well as treatment for covered WTC conditions; and
    2. The WTC Data and Coordination Center, which is funded to provide 
clinical and logistical coordination of the multi-site program as well 
as to collect, analyze, and report on data from these examinations.

    We and our partners in the Mount Sinai-coordinated New York/New 
Jersey WTC MMTP Clinical Consortium have now provided medical 
examinations for, and collected clinical data on, 20,000 non-FDNY WTC 
responders. These include police officers, construction workers, 
transit and communications workers, EMTs, building cleaners, and 
volunteers. A full set of reports on these examinations for the past 
year is included in the enclosed binder. The reports include:

    1. A table summarizing the total number of initial examinations 
(Visit 1), and first and second follow up examinations (V2 and V3) 
conducted, with a breakdown by year and type of examination and 
location of examination (this includes National Program examination 
numbers).
    2. A table showing the number of newly-registered responders deemed 
eligible for examinations by month for the past 6 months.
    3. A table showing the language monitoring examinations were 
performed in.
    4. Detailed information on visit rates, retention rates and waiting 
times for baseline and monitoring examinations by Clinical Center.

    To maximize the efficiency of this data collection system and to 
enhance our ability to detect emerging patterns of disease in WTC 
responders, the New York/New Jersey WTC MMTP Consortium, which is 
coordinated by Mount Sinai, has recently developed a web-based system 
to capture more extensive data about diagnoses, visit types, services 
provided, and referrals from both the Monitoring and Treatment Program. 
This new system was instituted after the federally funded World Trade 
Center Treatment Programs began in November 2006, and it has been 
phased in by the Clinical Centers over the past few months, as they 
were also phasing in their expanded treatment activities. Based on this 
system, we present in the enclosed binder a series of tables 
summarizing the information we received from the Consortium clinics 
about: (a) diagnoses, (b) visit types and numbers, (c) types of 
medications ordered, and (d) diagnostic and therapeutic procedures 
ordered. While this data has only been collected for a short time, it 
provides a stark snapshot of the health problems WTC responders are 
experiencing as well as the intensity of clinical care needed.

    Question 2. In addition to what you stated in your testimony, do 
you think there are other steps that need to be taken to ensure that 
research into the conditions and treatment of 9/11-related health 
problems continues?
    Answer 2. A major gap, to date, is that there has been neither 
Federal nor other funding to support the analysis of the vast and 
vitally important set of data that is collected by the Mount Sinai WTC 
Consortium and the FDNY program. The Data and Coordination Center at 
Mount Sinai has developed databases for, and entered data on, more than 
20,000 examinations of World Trade Center responders. Similarly, the 
FDNY Bureau of Health Services has collected extensive clinical data on 
over 14,000 New York City firefighters who responded at Ground Zero. 
Yet neither of our two programs has been funded to perform any analyses 
beyond basic descriptive statistics on these extensive data. This lack 
of funding is extremely unfortunate, because the data that are being 
collected in the Medical Monitoring examinations include extremely 
detailed information obtained at the time of examination on exposures 
related to the WTC attack, other occupational exposures, physical 
health (both symptoms and conditions diagnosed), mental health and 
socio-economic information. Additionally, we collect high quality data 
from extensive physical examinations, chest x-rays, blood tests, and 
breathing test (spirometry) results.
    In summary, if we are to conduct research on the conditions being 
experienced by WTC responders, and if we are to identify and evaluate 
the most effective measures that will allow for the treatment and 
prevention of disease in these brave men and women, dedicated Federal 
funding is needed. By analyzing data from the largest post-disaster 
medical monitoring program ever developed, lessons will be learned that 
will benefit both current responders and those who may be called upon 
to respond to attacks and other disasters in the future.
    We are deeply grateful for your interest in these programs. Please 
do not hesitate to ask any additional follow up questions. Thank you.
                       questions of senator enzi
    Question 1a. Did most patients with very severe respiratory 
illnesses get sick by working for a prolonged period of time at Ground 
Zero?
    Answer 1a. The following paragraphs present the summary/abstract of 
our recent paper on the health effects of the WTC disaster. It was 
published in the fully peer-reviewed medical journal, Environmental 
Health Perspectives:

          Approximately 40,000 rescue and recovery workers were exposed 
        to caustic dust and toxic pollutants following the September 
        11, 2001 attacks on the World Trade Center (WTC). These workers 
        included traditional first responders, such as firefighters and 
        police, and a diverse population of construction, utility, and 
        public sector workers.
          To characterize WTC-related health effects, the WTC Worker 
        and Volunteer Medical Screening Program was established. This 
        multi-center clinical program provides free standardized 
        examinations to responders. Examinations include medical, 
        mental health, and exposure assessment questionnaires; physical 
        examinations; spirometry; and chest x-rays.
          Of 9,442 responders examined between July 2002 and April 
        2004, 69 percent reported new or worsened respiratory symptoms 
        while performing WTC work. Symptoms persisted to the time of 
        examination in 59 percent of these workers. Among those who had 
        been asymptomatic before September 11, 61 percent developed 
        respiratory symptoms while performing WTC work. Twenty-eight 
        percent had abnormal spirometry; forced vital capacity (FVC) 
        was low in 21 percent; and obstruction was present in 5 
        percent. Among nonsmokers, 27 percent had abnormal spirometry 
        compared with 13 percent in the general U.S. population. 
        Prevalence of low FVC among nonsmokers was 5-fold greater than 
        in the U.S. population (20 percent vs. 4 percent). Respiratory 
        symptoms and spirom-
        etry abnormalities were significantly associated with early 
        arrival at the site.
          In conclusion, WTC responders had exposure-related increases 
        in respiratory symptoms and pulmonary function test 
        abnormalities that persisted up to 2.5 years after the attacks. 
        Long-term medical monitoring is required to track persistence 
        of these abnormalities and identify late effects, including 
        possible malignancies. Lessons learned should guide future 
        responses to civil disasters.

    A key finding in our study, and in virtually all studies of WTC 
responders, is that time of arrival at the WTC site has a very strong 
and consistent relationship with prevalence of respiratory illness. 
Total duration of exposure, while also related to risk of respiratory 
disease in some studies, has been less strongly related than time of 
arrival.
    Time of arrival at the WTC site has generally been categorized as 
follows:

    <bullet> Those who arrived on 9/11/2001 and were engulfed in the 
dust cloud;
    <bullet> Those who arrived on 9/11/2001 and were not engulfed in 
the dust cloud;
    <bullet> Those who arrived between 9/12/2001 and 9/13/2001;
    <bullet> Those who arrived between 9/14/2001 and 9/30/2001; and
    <bullet> Those who arrived on or after 10/1/2001.

    In our EHP paper, we reported that early arrival at the WTC site 
was significantly associated with an increased reported prevalence of 
both newly incident and worsened respiratory symptoms. We observed the 
highest prevalence among those who arrived on September 11 and were 
exposed to the dust cloud (54 percent lower respiratory and 66 percent 
upper respiratory symptoms). We also found a statistically significant 
relationship between time of arrival at Ground Zero and some lung 
function test abnormalities. It is important to note, however, that 
higher than expected rates of illness were also seen among less highly 
exposed workers, including those who did not begin their WTC-related 
work until on or after October 1, 2001.
    While time of arrival and duration of exposure has been related to 
disease risk on a population basis, we have individual patients who 
have developed severe WTC-related disease after sustaining less intense 
exposure. This is because susceptibility to disease almost always 
varies among individuals, regardless of whether the exposure is to an 
infectious agent or an environmental agent.

    Question 1b. How then did Manhattan residents acquire these 
illnesses? Hasn't prolonged exposure, not brief exposure, to the dust 
been linked to severe cases?
    Answer 1b. Many Manhattan residents, office workers, students, and 
others were engulfed by the plume created by the collapse of the Twin 
Towers and would therefore be considered to be highly exposed. However, 
as mentioned above, the degree of exposure (highly exposed vs. less 
highly exposed) is not the only factor affecting whether or not an 
individual manifests WTC-related health effects. Some people may be 
more likely to experience WTC-related adverse health effects than 
others for a variety of reasons.

    Question 2a. Given that you say many of your patients are 
uninsured, whom is responsible for paying for their care?
    Answer 2a. Until November 2006, funding to provide outpatient 
treatment for responders experiencing WTC-related illness was provided 
by a number of philanthropic organizations, including the American Red 
Cross Liberty Fund September 11th Recovery Program, the Bear Stearns 
Charitable Foundation, the September 11th Fund, the Robin Hood 
Foundation Relief Fund, and many others.
    For responders eligible to participate in the WTC Medical 
Monitoring and Treatment Program, the cost of treatment for certain 
covered conditions is now covered by either the Workers Compensation 
system or the Federal funding which was made available in November 
2006.

    Question 2b. To what extent do physicians within the consortium 
bill private or public insurance or worker's compensation before paying 
for care out of Federal funding?
    Answer 2b. Everyone served by the Medical Monitoring and Treatment 
Program (MMTP) has to have performed either paid work or volunteered 
for WTC recovery work to be eligible for the program. Therefore, 
medical care for any WTC-related condition is supposed to be paid for 
under either Workers Compensation or Line of Duty Injury Programs. In 
the consortium, Workers Compensation/LODI is supposed to be the payor 
of first resort for treatment provided by the WTC Treatment Programs. 
Consortium physicians and social workers assist patients with Workers' 
Compensation claims and physicians bill Workers' Compensation for WTC-
related care whenever possible. However, many patients have experienced 
great difficulty in receiving care paid for through a Workers' 
Compensation claim. Therefore, MMTP funding is used to provide the vast 
majority of diagnostic testing and treatment for responders with WTC-
related conditions.
    The MMTP is now authorized to use Federal funding to cover the cost 
of selected inpatient procedures and hospital visits in addition to 
covered outpatient services and medications. To date, NIOSH has 
approved 20 hospitalizations (not including responders seen in the FDNY 
program). Of these, 9 were for mental health conditions, 1 was for a 
musculoskeletal condition, and 10 were for physical health conditions 
(including asthma, GERD, interstitial lung disease, pulmonary fibrosis, 
throat irritation, and vocal cord lesion). Nine patients had their 
hospitalizations pre-
authorized; 11 patients were admitted on an emergency basis. Costs per 
admission ranged from $4,000 to 28,000. The most expensive procedure to 
date was a biopsy of a mediastinal mass.

    Question 3. Keeping the cohort of affected individuals intact seems 
to make sense. Could you explain then how maintaining a number of 
different monitoring programs for the long-term achieves this goal? Why 
has there been no effort to consolidate the data from the various 
programs so the cohort of recovery crews, firefighters, law enforcement 
officers and others can be analyzed together, as well as separately?
    Answer 3. At the present time, to the best of my knowledge, there 
are only two federally funded clinical/medical monitoring programs for 
WTC responders.

    <bullet> One is coordinated by the Bureau of Health Services of the 
New York Fire Department and serves FDNY employees.
    <bullet> The other, coordinated by the Mount Sinai Medical Center, 
consists of the New York/New Jersey Clinical Consortium, which is 
comprised of Clinical Centers of Excellence located at Mount Sinai, 
Bellevue/NYU, SUNY Stony Brook, Queens College of the City University 
of New York, and University of Medicine and Dentistry of New Jersey 
(UMDNJ) as well as a National Program. Each of the New York/New Jersey 
Consortium clinics is staffed by clinicians with unsurpassed expertise 
in monitoring and treating WTC responders; data from each clinical 
center is provided to the consortium DCC at Mount Sinai. They serve all 
other WTC responders who meet exposure based eligibility criteria.

    The two programs work very closely together. We meet regularly and 
use virtually identical questionnaires and protocols, which were 
developed as a collaborative effort between the 2 programs. The two 
separate but parallel programs are maintained because the FDNY had a 
pre-established comprehensive Bureau of Health Services with pre-
existing records from annual exams and ready access to contact info for 
FDNY-affiliated responders, and because WTC monitoring examinations fit 
well with their annual fitness for duty examinations. The FDNY Data and 
Coordination Center coordinates the FDNY program only.
    In contrast, the New York/New Jersey Clinical Consortium, which is 
coordinated by Mount Sinai, was developed in the months following 
September 11 in response to a growing public health need and therefore 
has data and coordination needs that extend beyond the requirements of 
the FDNY program. The Mount Sinai Data and Coordination Center (DCC) 
must identify and track a very mobile, heterogeneous group of 
responders that includes law enforcement officers, non-FDNY 
firefighters and paramedics, heavy machinery operators, laborers, 
ironworkers and others from the building and construction trades, 
telecommunication workers, transportation workers, sanitation workers 
and volunteers, and others from the public and private sectors. In 
order to accomplish this, the DCC must perform outreach in partnership 
with a large number of unions and other organizations representing 
responders in order to maintain the consortium's cohort. In addition to 
coordinating patient tracking and retention efforts, the DCC 
coordinates the clinical activities of the New York/New Jersey 
Consortium clinics which are located at Mount Sinai, Bellevue/NYU, SUNY 
Stony Brook, Queens College of CUNY, and UMDNJ. Each of these clinics 
is staffed by clinicians with unsurpassed expertise in monitoring and 
treating WTC responders; data from each clinical center is provided to 
the consortium DCC at Mount Sinai. Both the Mount Sinai and FDNY Data 
and Coordination Centers and their clinical partners were selected by a 
competitive peer-reviewed process.
    The leadership of the FDNY and Mount Sinai Data and Coordination 
Centers, and the Directors and other key staff of each of the Clinical 
Centers meet on a monthly basis in order to discuss programmatic issues 
and ensure that responders receive standardized care of the highest 
quality.

    Question 4. To what extent do you know which individuals in your 
program also signed up for the WTC Health Registry, which is the most 
comprehensive database of those potentially affected?
    Answer 4. Due to Federal privacy regulations, the WTC Medical 
Monitoring and Treatment Program (MMTP) cannot ascertain which of our 
examinees also received telephone interviews or follow up mail 
interviews from the WTC Health Registry.
    Respectfully, we would disagree with the characterization of the 
Registry as ``the most comprehensive database.'' The data compiled by 
the two programs (or three, if a distinction between the FDNY MMTP and 
the NY/NJ Consortium MMTP is made) are comprehensive in different ways 
and should be viewed as supplementing each other. A key difference is 
that, while the WTC Health Registry is comprehensive in that it 
includes residents and others in addition to responders, the 
information collected is limited to self-reported data collected via 
telephone interview and a follow up mail survey, which is much less 
comprehensive information on health than that obtained by the MMTP. The 
MMTP, supported by the National Institute for Occupational Safety & 
Health, provides standardized physical and mental health examinations 
and treatment to all workers and volunteers who participated in the WTC 
rescue and recovery effort. The WTC MMTP data is derived from extremely 
comprehensive medical examinations of over 20,000 individuals who will 
be followed over time. Information obtained from periodic medical 
evaluations of the responders who participated in the rescue and 
recovery efforts is comprehensive in the detailed nature of the 
information collected. The data is extremely rich in clinical detail 
because it includes not only data from in-person, extremely detailed 
medical examinations which include a 65-page interviewer-administered 
medical questionnaire and a mental health examination. The data also 
include physical examination findings, pulmonary function test results, 
chest x-rays, and the findings from routine blood and urine analysis. 
The New York/New Jersey MMTP Consortium currently maintains a database 
which contains richly detailed clinical information linked to exposure 
data on over 20,000 workers including a wide array of other uniformed 
and civilian responders.
                      questions of senator clinton
    Question 1. We understand that the Mt. Sinai Consortium routinely 
collects and reports information on the number of patients seen in the 
monitoring and treatment programs along with additional information, 
including diagnoses, referral from monitoring to treatment program, 
type of treatment provided, employment status, occupation, insurance 
status, and workers' compensation claim status. Could you provide the 
committee with the most recent aggregate data for the overall 
Consortium as well as each individual clinic?
    Answer 1. As of April 30, 2007, the Medical Monitoring and 
Treatment Program New York/New Jersey Clinical Consortium has provided 
at least a baseline screening examination to 20,029 participants, and 
an additional 681 participants have been screened through the National 
Program. Of these, an additional 7,936 participants have received a 
first follow up (Visit 2) exam, and 347 have also received their second 
follow up (Visit 3) exam. This information is provided in the enclosed 
binder.
    The patient population is an extremely diverse group of men and 
women, many of whom are still dealing with the aftermath of the 
September 11, 2001 disaster. Indeed, between January 1, 2007 and March 
31, 2007, more than 1,100 new patients were referred for additional 
diagnostic testing and/or treatment for a WTC-related condition. We are 
also continuing to observe high prevalences of WTC-related illnesses 
even now, more than 5\1/2\ years after September 11. Indeed, among the 
roughly 1,200 Monitoring Program Participants examined between January 
and March 2007, there were 988 upper airway conditions, 429 lower 
airway conditions, and 502 mental health conditions either diagnosed by 
WTC clinicians or self-reported by the participants. These findings 
suggest not only that many responders are reporting or being diagnosed 
with multiple conditions, but also that these conditions are persistent 
and may require long-term treatment.
    Additionally, the MMTP has recently begun systematically collecting 
information on each patient's employment status, occupation, and 
insurance status at the time of examination, as well as the referrals 
made to specialists and the types of medications prescribed. Most 
importantly, we have found that, among the patients who were seen in 
the Treatment Program from January through March 2007, roughly 26 
percent lacked any kind of health insurance (please note that the rates 
of uninsurance vary over time and by clinic). These patients are 
dependent on the federally funded MMTP for all diagnostic services and 
treatment for their WTC-related conditions. This information is 
provided in the enclosed binder.

    Question 2. We also understand that each clinic in the Consortium 
also reports information on the monitoring program on a monthly basis 
that includes information on the number of people examined, the type of 
exam (initial, follow up, etc.), and the waiting times for scheduling 
examinations. Could you provide the committee with these monthly 
reports for the past year?
    Answer 2. The provision of comprehensive, compassionate care 
remains the primary goal of the WTC Medical Monitoring and Treatment 
Program, and the clinicians who staff each of the five NY/NJ Consortium 
clinics continue to serve as primary resource for WTC responders both 
in the tri-state area and across the Nation. As mentioned above, the 
MMTP patient population is a very diverse group of individuals. Indeed, 
as of April 30, 2007 12.8 percent of NY/NJ Consortium Medical 
Monitoring Program examinations were conducted in a language other than 
English. In addition, demand for baseline examinations continues 
unabated; in April 2007 alone 431 responders who met the exposure-based 
eligibility criteria were registered to participate in the Monitoring 
Program. Indeed, depending on the clinic and the type and language of 
the examination required (i.e., baseline, first follow up, or second 
follow up), the wait time for an appointment can be as long as 18 
weeks. This information is provided in the enclosed binder.
     Response to Questions of Senators Kennedy, Enzi, and Clinton 
                       by Jim Melius, M.D., DrPh.
                      questions of senator kennedy
    Question 1. After the World Trade Center attack, tens of thousands 
of responders arrived at the site. While some workers had respiratory 
protection from the hazards on the site, many others did not. In 
addition, in the days following the disaster, thousands of workers 
sifted through the rubble without respirators and other needed 
protective gear. It may be that some of the conditions we are now 
seeing could have been avoided, or would be much less grave, if these 
protective steps had been taken. Can you tell us, as an occupational 
health expert, what steps should have been taken, and what steps should 
our Federal disaster agencies take in the future to ensure that this 
doesn't happen again?
    Answer 1. Much of the response to the WTC site after the attack was 
not based on a previously prepared and rehearsed response plan. Given 
the magnitude of the disaster and the immediate concern about rescuing 
possible survivors, the governmental agencies involved at the disaster 
scene did a remarkable job of assembling the necessary equipment and 
personnel for the rescue and recovery operations. The agencies also 
recruited several key private contracting operations to assist them in 
these operations. Although there was precedent for this in the previous 
World Trade Center bombing, the scope and speed of this operation and 
the number of construction and other private sector workers needed was 
many times larger than the previous operations.
    This ad hoc approach proved to be very efficient for the rescue 
operations and for clearing the WTC site to be able to utilize nearby 
buildings, etc. However, the absence of prior planning and the 
employment of large numbers of workers immediately after the disaster 
and in the fast-paced recovery efforts made it very difficult to 
implement a program to provide proper safety and health protection for 
this workforce. As a result there was much confusion about the air 
quality on the site and about the need for respiratory protection for 
this workforce. An appropriate respiratory protection program was only 
gradually implemented and enforced. Other health and safety measures 
(such as site specific training) were also delayed. On the other hand, 
the involved agencies and contractors did a remarkable job in 
preventing serious injuries and fatalities during these operations 
while working under what were potentially very dangerous conditions.
    We must take steps to prevent similar problems occurring in any 
future terrorist incidents. These preparations must include proper 
planning for the type of personnel and equipment that might be needed 
to respond to such an incident including the availability of 
appropriate respiratory protection and other protective equipment for 
those involved. This plan must also include appropriate health and 
safety requirements and a means for enforcing those requirements 
(probably through OSHA). To the extent possible, we must properly 
protect people working in these operations from both short-term and 
long-term health and safety hazards. This program and the oversight of 
health and safety requirements must be integrated into the initial 
response plan and must be implemented immediately.
    Another important part of this health and safety program must be to 
provide proper safety and health training for the potentially large 
workforce that may be needed at these operations. In a given geographic 
area, those likely to be needed immediately at the site should be 
trained ahead of time including in the use of appropriate protective 
equipment (e.g., respirators). For those who may be needed to work at 
the site with less urgency, some training on disaster response should 
be provided. Then there must be in place a mechanism to rapidly provide 
additional training and protective equipment needed for working at a 
specific disaster site before these people are allowed to enter the 
site.

    Question 2. It is clear that close tracking and monitoring the 
condition of 9/11 responders and residents is vital to recognizing 
these conditions and treating them early and effectively. Many 
conditions will require additional research so that we may learn how to 
treat them. How can we ensure that this data continues to be collected? 
Why do you think that continuing and expanding these programs will 
reduce costs down the road?
    Answer 2. We are very fortunate to have enrolled so many of the 
rescue and recovery workers from the WTC disaster in the two medical 
monitoring programs (the New York City Fire Department and the Mount 
Sinai Consortium). Although a significant proportion of the involved 
workforce has not yet participated in these programs, the large number 
that have provide a solid basis for evaluating the health effects and 
the treatment of those health effects in this population. It is 
essential that these medical monitoring programs be continued.
    In order to ensure that these programs be continued, I believe that 
Congress should pass legislation that provides the framework for the 
ongoing funding of the medical monitoring and treatment programs. Such 
legislation should include provisions for periodic medical examinations 
directed at detecting and evaluating conditions associated with the WTC 
exposures; collection of this medical information in a way that allows 
the involved programs to track the health of the participants both as 
individuals and as a larger group; and provisions for treating WTC-
related medical conditions in this population by expert physicians 
experienced in the diagnosis and treatment of this population..
    As I stated in my testimony, I believe that continuing and 
expanding these programs will also help to reduce the eventual costs of 
this problem. Many of the WTC-related health conditions (such as 
respiratory disease and mental health conditions) are responsive to 
medical treatment particularly if that treatment is provided early in 
the course of the illness. Early expert treatment can prevent long-term 
disability among these patients. Failure to provide comprehensive 
monitoring and treatment will only lead to more of these people 
becoming disabled and, therefore, greater long-term costs to our 
society.
                       questions of senator enzi
    Question 1. Given your background in epidemiology and overseeing 
insurance and compensation systems, can you give us a brief overview of 
those systems--both private and public--that are available to cover 
health expenses of 9/11 responders?
    Answer 1. Health Insurance.--As might be expected in a large 
population working for many different employers, there is also a 
diversity of health insurance coverage among this WTC worker 
population. I will try to briefly describe those plans:

    <bullet> New York City Workers.--Workers for the city of New York 
are all covered by a general health insurance plan that offers a 
variety of options for different health care networks operating in the 
New York City area. These different networks offer slightly different 
benefit packages. The city of New York only provides basic health 
coverage for their employees. Pharmaceutical benefits and other 
supplemental coverage plans are provided through the union-managed 
plan. There is considerable variation in these plans among the 
different NYC unions.
    <bullet> Other Government Workers.--Federal and State workers 
employed at the World Trade Center site are covered by their respective 
government health insurance plans which are generally similar to those 
offered by the city of New York.
    <bullet> Construction Workers.--Health insurance for construction 
workers is provided through trust funds that are jointly run by union 
and construction contractor representatives and provide health 
insurance for union members working for multiple construction 
contractors. These funds are administered in a variety of ways. Some 
are self-insured; others buy health insurance from a private insurance 
company; and others are self-insured but hire an insurance company to 
administer their benefits. One important characteristic of these funds 
is their eligibility requirements. Due to the high turnover common 
within the construction industry, members who are out of work for even 
a few months may lose their health insurance eligibility.
    <bullet> Other Private Sector Workers.--Most of the private sector 
employers who worked in conjunction with the WTC recovery operations 
provide general health insurance for their employees through a variety 
of general medical insurance plans.

    Workers' Compensation.--In general, there are five main categories 
of workers' compensation coverage for WTC rescue and recovery workers:

    <bullet> Self-insured Coverage.--Private or public entities in New 
York meeting certain requirements may be self-insured for workers' 
compensation. For example, the city of New York is self-insured. In 
general, self-insured entities then handle the administration of 
workers' compensation benefits for their employees as well as all 
appeals, etc. Oversight is provided by the New York State Workers' 
Compensation Board, and these self-insured employers must follow the 
procedures and requirements of the Board.
    <bullet> Private Workers' Compensation Insurance.--Most 
construction companies and other private sector companies working in 
the WTC rescue and recovery operations carried workers' compensation 
coverage through a private insurance company operating under New York 
State Workers' Compensation Board requirements.
    <bullet> Federal Workers.--Federal workers working on WTC rescue 
and recovery operations would be covered through the Federal Employee 
Compensation Act or FECA and would receive benefits through that 
program.
    <bullet> Disability Retirement.--Fire fighters, police officers, 
and municipal sanitation workers are not covered by New York State 
Workers' Compensation but instead have a line of duty disability 
retirement program that covers them if they are injured or become ill 
on the job. These programs cover their medical costs and wages if they 
become ill due to work-related factors while on duty (not if the 
illness occurs after they retire). They can then become eligible for 
retirement incentives should they be disabled and unable to return to 
work.
    <bullet> Volunteers.--Workers' compensation coverage for people who 
worked as volunteers at the WTC site are eligible for workers' 
compensation through a special New York State Workers' Compensation 
Board program funded by the Federal Government.

    Question 2. In your testimony, you indicated that the New York 
Workers Compensation may not be well-suited to compensate 9/11 victims. 
I have been informed that New York has made a number of changes, some 
due to the infusion of Federal funding, which would make it far easier 
for these victims to utilize. Volunteers have been made eligible, the 
statute of limitations for 9/11 injuries was eliminated and medical and 
lost wage benefits are paid for up to 1 year while a claim is 
adjudicated.
    Why should we not look to this existing system with mechanisms in 
place to evaluate injuries and provide medical care, disability 
benefits and lost wages, to aid 9/11 victims? If further improvements 
need to be made to the system in order to provide adequate aid, hasn't 
New York shown it is willing to make those changes?
    Answer 2. The State of New York has made a number of changes that 
were intended to facilitate workers' compensation for 9/11 workers. 
These include:

    1. Coverage for Volunteers.--Through Federal funding, New York 
State established a compensation program for people who worked as 
volunteers at the WTC site after 9/11. This program appears to be 
operating efficiently for those individuals although establishing that 
a person worked as a volunteer at the site can be difficult due to the 
lack of initial documentation of people present at the site.
    2. Extension of Statute of Limitations.--Last summer, New York 
State passed a law establishing a 1-year time period for WTC workers to 
register with the Workers' Compensation Board in order to document that 
they had worked (or volunteered) at the WTC site. This registration 
extended the statute of limitations and allowed them to later file a 
workers' compensation claim for an illness related to their WTC 
exposures. Several thousand people have already registered with the 
Board. The registration period ends in August. On the other hand, the 
city of New York has appealed this extension of the statute of 
limitations on claims in at least one individual case.
    3. Medical Costs.--Another law passed by the legislature last year 
provided a mechanism for the payment of medical care costs for 
individuals with possible WTC-related conditions while their claim is 
being adjudicated. Ordinarily, the costs for medical diagnosis and 
treatment are not paid until the claim has been established in the 
Compensation system. This change could help to avoid delays in medical 
treatment for WTC workers. However, this optional payment mechanism 
must be initiated by the insurance carrier, and few companies appear to 
be utilizing this mechanism at present.
    4. Workers' Compensation Reform.--New York State recently adopted a 
number of major changes in its workers' compensation system. These 
reforms substantially increase the potential level of compensation by 
indexing it to the average weekly wage and change many other aspects of 
the compensation system. For example, diagnostic testing should be more 
readily available without long delays. This and other changes when 
implemented should help WTC workers applying for workers' compensation. 
However, the changes are not retroactive and thus will not assist 
people who have already filed claims, and the reforms are still in the 
process of being implemented.

    Question 3. What kind of outreach is ongoing through the labor 
unions and other membership organizations to inform response and 
recovery workers of available health programs? To what extent are these 
individuals covered by health insurance or worker's compensation?
    Answer 3. There has been an extensive outreach effort to make 
response and recovery workers aware of the available health programs. 
In addition to the outreach conducted by Mount Sinai and the other 
clinics, most of the labor unions have informed their members of their 
program through union meetings, newsletters, and other direct 
communication with their members. For example, our union (the Laborers' 
Union) urged eligible members to participate in the health programs 
through our quarterly magazine and by sending letters to each 
individual who we know worked at the WTC site. We have also established 
a weekly outreach session at our training school where members can fill 
out the Workers' Compensation registration and obtain information about 
the medical monitoring program. We have also held outreach sessions 
where volunteers from the union call other members to encourage them to 
participate. Other labor unions have conducted similar outreach 
efforts.
    We do not have data on what proportion of our members in the 
monitoring and treatment programs currently are covered by workers' 
compensation or the unions' health insurance programs. We know of very 
few that have received health care or compensation payments from 
Workers' Compensation Insurance. Many of our ill members are using the 
union's health insurance to pay for the care of their WTC-related 
condition. We are also aware of many individuals in our union with WTC-
related medical problems who have lost their health insurance coverage 
because they can no longer work due to health problems.
    I understand that Mount Sinai Hospital and the other clinics are 
now collecting more comprehensive information on the available health 
insurance and workers' compensation coverage for people in the 
monitoring and treatment programs. These data may better address these 
questions.
                      questions of senator clinton
    Question 1. In your testimony, you mention your survey of major 
union groups to evaluate their health insurance and disability 
coverage. While the information is not yet complete, we would 
appreciate a detailed preliminary analysis of this survey, including an 
analysis of the ways in which 9/11-related conditions are or are not 
covered by such plans. In such analysis, please detail the various 
components of care that may be covered, including prescription drug 
coverage, inpatient and outpatient care, and mental health coverage, 
and the ways in which each group provides these benefits.
    Answer 1. The WTC workers are covered by a variety of different 
health insurance programs as described in the answer to Senator Enzi's 
question. The attached table describes two of the health insurance 
plans covering the WTC workers:

    a. The Mason Tenders District Council plan is a typical 
construction trades' plan offered by Aetna USHealthcare. The benefits 
program is administered through a joint labor-management trust fund. 
Members are entitled to this plan only if they have worked at least 400 
hours in the previous 6 months. Other construction trades unions have 
similar plans.
    b. The New York City health care benefits over a variety of 
coverage plans. I used the GHI plan as an example. These plans are 
available to all NYC workers (including the Fire and Police 
Departments). Pharmaceutical coverage is not provided but is offered 
through individual unions. I used the District Council 37 plan which 
covers a large number of city workers not in the Uniformed Services. 
The drug plans are collectively bargained with the city by each union.

    As I mentioned in my testimony, these health insurance plans do not 
provide coverage for work-related illnesses. All claims are 
administratively reviewed, and those found to be due to work-related 
illnesses or injuries are denied.


------------------------------------------------------------------------
                                                        NYC Health Plan
                                     Mason Tenders     (GHI as example)
                                      Health Plan       with DC37 Drug
                                                             Plan
------------------------------------------------------------------------
Annual Deductible...............  None ($200 if out   None ($200 if out
                                   of network).        of network)
Coinsurance.....................  100 percent (80     100 percent (80
                                   percent if out of   percent if out of
                                   network).           network)
Out-of-Pocket Limit.............  N/a ($1500).......  N/A ($500)
Lifetime Maximum................  $1,000,000........  $2,000,000
Office visits, medical care,      100 percent after   100 percent after
 etc..                             $20 copay.          $15 to $20 copay
                                                       (more if out of
                                                       network)
Surgery, inpatient care.........  100 percent (80     100 percent after
                                   percent after       $300 deductible
                                   deductible if out   (more if out of
                                   of network).        network)
Emergency Room..................  100 percent after   100 percent after
                                   $25 copay.          $50 copay
Mental health...................  100 percent after   100 percent after
                                   $20 copay up to     $15 to $20 copay
                                   30 visits per       in network
                                   year (80 percent
                                   if out of
                                   network).
Prescription Drugs..............  100 percent after   $100 percent with
                                   $10 copay generic   $5 to $70 copay
                                   and $30 copay for   depending on drug
                                   brand name drugs.   list and mail
                                                       order
------------------------------------------------------------------------

Questions of Senators Kennedy, Enzi, and Clinton to the Hon. Michael R. 
                               Bloomberg
                      questions of senator kennedy
    Question 1. New York City's report, ``Addressing the Health Impacts 
of 9-11,'' provides an estimate for the treatment and monitoring costs 
for 9/11 related illnesses of $393 million per year. In addition, the 
National Institutes of Occupational Safety and Health estimates costs 
of $257 million per year to continue operating the Mt. Sinai Consortium 
and Fire Department of New York programs. Yet, elsewhere, the city has 
also stated that the funds needed to continue operating the current 
programs will be approximately $150 million a year.

    Question 1a. Please account for the difference between these two 
estimates. In particular, please enumerate what you believe the total 
cost will be to treat and monitor affected populations, not simply the 
costs to the City.

    Question 2. Please explain how you arrived at the ``treatment 
rate'' estimates provided in your report. Were these data drawn from 
the World Trade Center Health Registry Initial Enrollment survey? Do 
they incorporate information from NIOSH, Mt. Sinai Consortium, Bellevue 
Hospital, and FDNY programs for that survey?
                       questions of senator enzi
    Question 1. After reviewing the report you outlined at the hearing, 
it is clear you are asking for a great deal of Federal funding for a 
number of different programs and initiatives. Given these requests, can 
you delineate for us how much you would request for each program and 
describe the overall outer limit of your funding request?

    Question 2. Are you seeking Federal funding to treat any New York 
City resident requesting mental health services based on 9-11? How 
would you prioritize funding to ensure that those most in need receive 
care first? What evidence-based treatment protocols would you follow in 
providing this care?

    Question 3. With your background in financial information 
technology, you certainly understand the benefit of consolidating 
diverse data under a single roof. What is the rationale for maintaining 
5 or 6 different monitoring programs?
    Even if these different programs are maintained, what is the 
rationale for not providing a single point of access for all the 
aggregated data? Without it, we seem to miss a global perspective of 
the health effects that could be illuminating and residents and 
recovery workers have difficulty help and services.

    Question 4. Why should monies for treatment go to the City and the 
Centers for Excellence instead of into funds that can be tapped by the 
victims themselves to pay for care as they need it?

    Question 5. You recommend reopening the 9/11 Victim's Compensation 
Fund to compensate individuals for possible 9/11 related illnesses. How 
would you suggest this direct, lump sum system be used to provide for 
long-term care for those with chronic conditions or to take emerging 
conditions into account?

    Question 6. In your testimony, you indicated that the New York 
Workers Compensation may not be well-suited to compensate 9/11 victims. 
I have been informed that New York has made a number of changes, some 
due to the infusion of Federal funding, which would make it far easier 
for these victims to utilize. Volunteers have been made eligible, the 
statute of limitations for 9/11 injuries was eliminated and medical and 
lost wage benefits are paid for up to one year while a claim is 
adjudicated.
    Why should we not look to this existing system with mechanisms in 
place to evaluate injuries and provide medical care, disability 
benefits and lost wages, to aid 9/11 victims? If further improvements 
need to be made to the system in order to provide adequate aid, hasn't 
New York shown it is willing to make those changes?
                      Questions of Senator Clinton
    Question 1. In ``Addressing the Health Impacts of 9-11,'' the total 
projected annual costs for treatment and monitoring programs is $393 
million per year. However, at the hearing, you noted that the funds 
needed to continue to operate and expand the current World Trade Center 
health-related programs are approximately $150 million per year.
    Could you please outline in greater detail the ways in which you 
arrived at the $150 million estimate? What accounts for the differences 
between these $150 million estimate and the $393 million estimate, and 
how will the differences between these estimates be accounted for by 
other sources of funding?

    Question 2. The Mayor's report cites the National Institute of 
Occupational Safety and Health's estimate of $257 million in total 
annual costs for the treatment and monitoring programs funded by the 
federal government. This estimate covers the currently existing 
programs at the Fire Department of New York (FDNY) and the Mount Sinai 
Consortium, and does not cover the program at Bellevue, which is 
operated by New York City. Your $150 million estimate calls for funding 
to sustain both the FDNY and Mt. Sinai programs, as well as to sustain 
and expand the Bellevue Program. Can you please explain the differences 
between the NIOSH estimate and your $150 million estimate?

    Question 3. In this report, New York City estimates that the 
treatment rate for ``Other City Workers'' and ``Other Workers and 
Volunteers'' is:

    <bullet> 3.50 percent for respiratory disease,
    <bullet> 1.67 percent for mental health conditions that require 
medication, and
    <bullet> 3.33 percent for mental health conditions that do not 
require medication.

    These estimates have been derived from the World Trade Center 
Health Registry Initial Enrollment survey. Please explain when and how 
this survey was conducted, the populations included in the survey, and 
the ways in which treatment estimates were derived from this survey.

    Question 4. The NIOSH estimate of treatment rates, which come from 
the Mt. Sinai and FDNY programs, is:

    <bullet> 30 percent for respiratory diseases,
    <bullet> 10 percent for mental health conditions that require 
medication, and
    <bullet> 15 percent for mental health conditions.

    What accounts for the difference in estimates in treatment rates?

    Question 5. In preparing this report, what lead to the decision to 
use estimates from the World Trade Center Registry, rather than the 
NIOSH treatment rates based on the monitoring and treatment needs in 
existing programs?
      Questions of Senators Enzi and Clinton to Kerry Kelly, M.D.
                       questions of senators enzi
    Question 1. What happens when firefighters who need it don't get 
treatment for Post-Traumatic Stress Disorder and how are these 
responders diagnosed?
    To what extent are firefighters and paramedics NOT receiving mental 
health services?

    Question 2. Given that FDNY responders are the only group with 
baseline medical data and the ones exposed earliest and longest after 
9/11, do you think these responders are the best sentinel population 
for monitoring health effects--even long-term unknown effects?

    Question 3. The FDNY has had a long-standing internal medical 
monitoring and treatment program for firefighters, EMTs, and retirees. 
How did this infrastructure help or hinder your ability to use Federal 
funds efficiently? Without this infrastructure, what obstacles would 
the FDNY have had to overcome to administer the program?
                      questions of senator clinton
    Question 1. We understand that the FDNY routinely collects and 
reports information on the number of patients seen in the monitoring 
and treatment programs along with additional information, including 
diagnoses, referral from monitoring to treatment program, type of 
treatment provided, employment status, occupation, insurance status, 
and workers' compensation claim status. Could you provide the committee 
with the most recent aggregate data for the FDNY program?

    Question 2. We also understand that the FDNY also reports 
information on the monitoring program on a monthly basis that includes 
information on the number of people examined, the type of exam 
(initial, follow-up, etc.), and the waiting times for scheduling 
examinations. Could you provide the committee with these monthly 
reports for the past year?
            Questions of Senator Enzi to Joan Reibman, M.D.
    Question 1. Given that the World Trade Center Health Registry, with 
more than $30 million in Federal funds, has a system in place to 
capture health effects of area residents and workers, why do you think 
an additional monitoring program at your Hospital is necessary to 
capture this information?

    Question 2. You mentioned that any area resident or worker can 
receive treatment at your medical center for World Trade Center-related 
conditions. How is their eligibility for treatment at the hospital 
determined? Can anyone claiming that an illness is related to 9/11 
receive treatment or get screened at Bellevue?

    Question 3. How would Bellevue Hospital Center prioritize Federal 
funding for treatment of residents and non-response workers to ensure 
those most in need receive care with Federal dollars? Would you 
establish more clearly defined eligibility criteria?
          Questions of Senator Enzi to Jeanne Stellman, Ph.D.
    Question 1. With the numerous monitoring and treatment programs for 
9/11 responders, there has been some confusion as to what population is 
at highest risk for having a 9/11-related health condition.
    From an epidemiologic perspective, who would be the most at-risk 
for developing these conditions and what spectrum of conditions should 
we expect to see in this population?

    Question 2. How would you characterize the difference in exposure 
and development of an illness between a responder that worked on the 
pile for a few months after 9/11 and a resident in the vicinity of the 
site for a few hours on 9/11?

    [Editor's Note: Responses to the above questions were not available 
at time of print.]

    [Whereupon, at 12:55 p.m., the hearing was adjourned.]

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
